<html>
<title> - WILDLIFE AND OCEANS IN A CHANGING CLIMATE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                        WILDLIFE AND OCEANS IN 
                          A CHANGING CLIMATE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE
                               AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, April 17, 2007

                               __________

                           Serial No. 110-12

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE

34-670 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Stevan Pearce, New Mexico
Rush D. Holt, New Jersey             Henry E. Brown, Jr., South 
Raul M. Grijalva, Arizona                Carolina
Madeleine Z. Bordallo, Guam          Luis G. Fortuno, Puerto Rico
Jim Costa, California                Cathy McMorris Rodgers, Washington
Dan Boren, Oklahoma                  Bobby Jindal, Louisiana
John P. Sarbanes, Maryland           Louie Gohmert, Texas
George Miller, California            Tom Cole, Oklahoma
Edward J. Markey, Massachusetts      Rob Bishop, Utah
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Dean Heller, Nevada
Patrick J. Kennedy, Rhode Island     Bill Sali, Idaho
Ron Kind, Wisconsin                  Doug Lamborn, Colorado
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

             SUBCOMMITTEE ON FISHERIES, WILDLIFE AND OCEANS

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Wayne T. Gilchrest, Maryland
    Samoa                            Cathy McMorris Rodgers, Washington
Neil Abercrombie, Hawaii             Bobby Jindal, Louisiana
Solomon P. Ortiz, Texas              Tom Cole, Oklahoma
Frank Pallone, Jr., New Jersey       Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Don Young, Alaska, ex officio
Ron Kind, Wisconsin
Lois Capps, California
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, April 17, 2007..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     3
        Prepared statement of....................................     4
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Statement submitted for the record..   158

Statement of Witnesses:
    Caldeira, Ken, Ph.D., Department of Global Ecology, Carnegie 
      Institution of Washington..................................    89
        Prepared statement of....................................    91
    Eakin, C. Mark, Ph.D., Coordinator, Coral Reef Watch, 
      National Environmental Satellite, Data, and Information 
      Service, National Oceanic and Atmospheric Administration, 
      U.S. Department of Commerce................................    79
        Prepared statement of....................................    80
    Everett, John T., Ph.D., Ocean Associates, Inc...............   137
        Prepared statement of....................................   138
        Response to questions submitted for the record...........   148
    Haney, J. Christopher, Ph.D., Chief Scientist, Defenders of 
      Wildlife...................................................    45
        Prepared statement of....................................    47
        Response to questions submitted for the record...........    52
    Kleypas, Joan A., Ph.D., Scientist, Institute for the Study 
      of Society and Environment, National Center for Atmospheric 
      Research...................................................    96
        Prepared statement of....................................    98
        Response to questions submitted for the record...........   102
    Lawler, Joshua J., Ph.D., Assistant Professor, College of 
      Forest Resources, University of Washington.................    13
        Prepared statement of....................................    14
        Response to questions submitted for the record...........    21
    McKibben, William, Author and Scholar in Residence, 
      Middlebury College.........................................     6
        Prepared statement of....................................     8
        Response to questions submitted for the record...........     9
    Medina, Monica, U.S. Deputy Director, International Fund for 
      Animal Welfare.............................................    36
        Prepared statement of....................................    38
    Root, Terry L., Ph.D., Senior Fellow University Faculty, 
      Stanford University........................................    29
        Prepared statement of....................................    30
    Sharp, Dr. Gary D., Ph.D., Scientific Director, Center for 
      Climate/Ocean Resources Study..............................   116
        Prepared statement of....................................   118
        Response to questions submitted for the record...........   131

Additional materials supplied:
    The Nature Conservancy, Statement submitted for the record...   160


     OVERSIGHT HEARING ON WILDLIFE AND OCEANS IN A CHANGING CLIMATE

                              ----------                              


                        Tuesday, April 17, 2007

                     U.S. House of Representatives

             Subcommittee on Fisheries, Wildlife and Oceans

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo, [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Kildee, Kennedy, 
Capps, Gilchrest and Sali.

STATEMENT OF THE HONORABLE MADELEINE Z. BORDALLO, A DELEGATE IN 
               CONGRESS FROM THE REPUBLIC OF GUAM

    Ms. Bordallo. The oversight hearing by the Subcommittee on 
Fisheries, Wildlife and Oceans will now come to order. The 
Subcommittee is meeting today to hear testimony on the effects 
of climate change on wildlife and on our oceans. Under 
Committee Rule 4(g), the Chairman and the Ranking Minority 
Member can make opening statements. If any other Members have 
statements, they can be included in the hearing record under 
unanimous consent.
    This morning's hearing will focus on the effects of climate 
change on wildlife and oceans. Once a phenomenon discussed 
almost exclusively by scientists, climate change has moved 
front and center in the discussion amongst policymakers, 
businesses, and citizens all over the world.
    We are no longer dealing with the question of if climate 
change is occurring; we are now addressing what we can do.
    The warming of the climate system is unequivocal and is now 
evident worldwide, according to a report issued earlier this 
year by the Intergovernmental Panel on Climate Change. We are 
seeing increases in global air and ocean temperatures, 
widespread melting of snow and ice, rising global average sea 
level, and changes in ocean salinity, precipitation, heat 
waves, and the increased intensity of tropical storms.
    On April 6th, a second IPCC report concluded that 
observational evidence from all continents and most oceans 
shows that many natural systems are being affected by regional 
climate changes, particularly temperature increases. Climate 
change will negatively affect our coasts, our wetlands, and 
mangroves through increased erosion and sea level rise. Global 
warming is affecting corals through increases in sea surface 
temperatures and acidification and affecting wildlife through 
the loss of preferred habitat and changes in seasonal migration 
patterns.
    I am personally concerned with the report's specific 
predictions of the detrimental effects of climate change on 
small island communities. While coral reefs are prized for 
their beauty and diversity worldwide, they are invaluable to 
those of us in small island communities who depend on them as a 
valuable resource and as a protection from severe storms such 
as typhoons.
    As we will hear today, scientists are observing and 
predicting detrimental effects of climate change not only on 
our oceans and corals but also on a great number of other 
animals, such as migratory birds, tigers, trout, polar bears, 
and sea turtles.
    The purpose of this hearing is to shed light on the impacts 
of climate change and additional factors which can have global 
warming impacts, including habitat degradation and loss, 
invasive species, disease, pollution, poaching, and 
overfishing. We are looking at what we can do to address the 
effects of climate change on our oceans and wildlife.
    As Peter Ewins, the Executive Director of the British 
Meteorological Office said in a letter to the world's press in 
1999, ``Ignoring climate change will be the most costly of all 
possible choices for us and for our children.''
    As Chairwoman, I now recognize Mr. Brown, the Ranking 
Republican Member, for any statement he may have.
    [The prepared statement of Chairwoman Bordallo follows:]

           Statement of The Honorable Madeleine Z. Bordallo, 
       Chairwoman, Subcommittee on Fisheries, Wildlife and Oceans

    This morning's hearing will focus on the effects of climate change 
on wildlife and oceans. Once a phenomenon discussed almost exclusively 
by scientists, climate change has moved front and center in the 
discussion amongst policymakers, businesses, and citizens all over the 
word. We are no longer dealing with the question of if climate change 
is occurring; we are now addressing what we can do.
    The ``warming of the climate system is unequivocal,'' and is now 
evident worldwide, according to a report issued earlier this year by 
the Intergovernmental Panel on Climate Change. We are seeing increases 
in global air and ocean temperatures, widespread melting of snow and 
ice, rising global average sea level, and changes in ocean salinity, 
precipitation, heat waves and the increased intensity of tropical 
storms.
    On April 6th, a second IPCC report concluded that ``observational 
evidence from all continents and most oceans shows that many natural 
systems are being affected by regional climate changes, particularly 
temperature increases.'' Climate change will negatively affect our 
coasts, wetlands, and mangroves through increased erosion and sea level 
rise. Global warming is affecting corals through increases in sea 
surface temperature and acidification; and affecting wildlife through 
the loss of preferred habitat and changes in seasonal migration 
patterns.
    I am personally concerned with the report's specific predictions 
for the detrimental effects of climate change on small island 
communities. While coral reefs are prized for their beauty and 
diversity worldwide, they are invaluable to those of us from small 
island communities who depend on them as a valuable resource and as 
protection from severe storms such as typhoons. As we will hear today, 
scientists are observing and predicting detrimental effects of climate 
change not only on our oceans and coral, but also on a great number of 
other animals, such as migratory birds, tigers, trout, polar bears, and 
sea turtles.
    The purpose of this hearing is to shed light on the impacts of 
climate change and additional factors which can exacerbate global 
warming impacts, including habitat degradation and loss, invasive 
species, disease, pollution, poaching, and overfishing. We are looking 
at what we can do to address the effects of climate change on our 
oceans and wildlife.
    As Peter Ewins, the Executive Director of the British 
Meteorological Office said in a letter to the world's press in 1999, 
``ignoring climate change will be the most costly of all possible 
choices, for us and our children.''
                                 ______
                                 

       STATEMENT OF THE HONORABLE HENRY E. BROWN, JR., A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you. Madam Chairwoman, I want to 
compliment you for holding this oversight hearing on the impact 
of a change in climate on our wildlife and oceans.
    This is an issue that is generating tremendous debate and 
controversy. There are those people who believe that our 
changing climate is the greatest crisis facing mankind today. 
Conversely, there are others who believe this is a great hoax 
on the American people and a less than subtle way of radically 
changing our way of life.
    I come to this hearing with an open mind, and I intend to 
carefully listen to the testimony of each of our witnesses. I 
am looking for facts and solutions and not unproven theories. I 
also reject the politics of fear and believe it is shameful 
that any citizen would have their life threatened because they 
dare to articulate a different point of view.
    While there is significant evidence that the earth is now 
getting warmer, there is no consensus how long this period may 
last, whether increased temperatures are permanent and what 
long-term impact carbon emissions may have on fish and wildlife 
species.
    What we do know is that radical shifts in temperature 
patterns is not a new phenomenon. Climatologists have been 
studying weather trends for the past 15,000 years. During this 
time, this planet has experienced many warming and cooling 
periods, including the Medieval Warm Period and the Little Ice 
Age.
    In fact, as recently as 30 years ago the scientific 
consensus was that we were entering a new ice age and that a 
drop of only one degree Celsius would result in a world famine. 
The January 31, 1977, cover Time magazine was entitled The Big 
Freeze. The scientists were wrong in 1977, they were wrong 
about last year's summer hurricane season, and they may well be 
wrong about the so-called catastrophic events of the current 
warming trend.
    Having just experienced the coldest Easter Sunday in 
Charleston in over 50 years, a few of my constituents would 
have enjoyed a little global warming. It is also a fact that 
this month in snowed in Dallas, Texas, for the first time in 70 
years. There were record low temperatures in Charlotte, North 
Carolina; Little Rock, Arkansas; and Jacksonville, Florida, and 
the recently completed Masters Golf Tournament in Augusta, 
Georgia, was the coldest ever. Could this be the beginning of a 
new ice age?
    We will hear today from our witnesses that carbon dioxide 
emissions should be reduced by 80 percent by the year 2050. We 
will also hear that in order to stop the ill-effects of global 
climate change we will need to return to preindustrial emission 
levels of carbon dioxide. How realistic are these requests?
    I read in the written testimony that manmade levels of 
carbon dioxide in the atmosphere are three percent of the 
overall total. Am I to understand that we need to reduce this 
amount by 80 percent in order to stop or reverse global climate 
change?
    It is my firm belief that before we as a nation commit to 
spend $100 to $400 billion dollars a year in taxpayer money to 
reduce emissions to Kyoto Treaty levels, we must understand the 
consequences of global warming and the urgency of our actions.
    As the former chairman of the South Carolina Ways and Means 
Committee, I can tell you that a carbon tax could have a 
devastating impact on our economy. It would literally be a 
Federal tax on breathing. As an alterative, we should consider 
tax credits and incentives to reduce carbon emissions.
    Finally, in the next five years China and India will build 
800 new coal-fired power plants. These plants are expected to 
emit 2.5 billion tons of carbon dioxide each year into the 
atmosphere. This is more than five times the amount of 
reductions mandated by the Kyoto Accords. How is the 
international community going to address this amount of 
emissions which is nearly twice what we now produce in the 
United States?
    Nevertheless, it is important to hear how potential climate 
conditions may affect our wildlife within the National Wildlife 
Refuge System and our ocean fishery resources. Since the United 
Nations Intergovernmental Panel on Climate Change has recently 
concluded that over the next century sea levels will rise 
between seven and 23 inches, it is important to examine the 
potential consequences of this development.
    Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
         Member, Subcommittee on Fisheries, Wildlife and Oceans

    Madam Chairwoman, I want to compliment you for holding this 
oversight hearing on the impact of a changing climate on our wildlife 
and oceans.
    This is an issue that is generating tremendous debate and 
controversy. There are those people who believe that our changing 
climate is the greatest crisis facing mankind today. Conversely, there 
are others who believe this is a great hoax on the American people and 
a less than subtle way of radically changing our way of life.
    I come to this hearing with an open mind and I intend to carefully 
listen to the testimony of each of our witnesses. I am looking for 
facts and solutions and not unproven theories. I also reject the 
politics of fear and believe it is shameful that any citizen would have 
their life threatened because they dare to articulate a different point 
of view.
    While there is significant evidence that the earth is now getting 
warmer, there is no consensus how long this period may last, whether 
increased temperatures are permanent and what long term impact carbon 
emissions may have on fish and wildlife species.
    What we do know is that radical shifts in temperature patterns is 
not a new phenomena. Climatologists have been studying weather trends 
for the past 15,000 years. During this time, this planet has 
experienced many warming and cooling periods including the Medieval 
Warm Period and the ``Little Ice Age''. In fact, as recently as 30 
years ago, the scientific consensus was that we were entering a new ice 
age and that a drop of only 1 degree Celsius would result in world 
famine. The January 31, 1977 cover of Time magazine was entitled ``The 
Big Freeze''. The scientists were wrong in 1977, they were wrong about 
last year's summer hurricane season and they may well be wrong about 
the so-called catastrophic effects of the current warming trend.
    Having just experienced the coldest Easter Sunday in Charleston in 
over 50 years, a few of my constituents would have enjoyed a little 
global warming. It is also a fact that this month it snowed in Dallas, 
Texas for the first time in 70 years, there were record low 
temperatures in: Charlotte, North Carolina; Little Rock, Arkansas; and 
Jacksonville, Florida and the recently completed Masters Golf 
Tournament in Augusta, Georgia was the coldest ever. Could this be the 
beginning of a new ``ice age''?
    We will hear today from our witnesses that carbon dioxide emissions 
should be reduced by 80 percent by the year 2050. We will also hear 
that in order to stop the ill-effects of global climate change we will 
need to return to pre-industrial emission levels of carbon dioxide. How 
realistic are these requests?
    I read in the written testimony that man-made levels of carbon 
dioxide in the atmosphere are 3 percent of the overall total. Am I to 
understand that we need to reduce this amount by 80 percent in order to 
stop or reverse global climate change.
    It is my firm belief that before we, as a nation, commit to spend 
$100 to $400 billion dollars a year in taxpayer money to reduce 
emissions to Kyoto Treaty levels, we must understand the consequences 
of global warming and the urgency of our actions.
    As the former Chairman of the South Carolina Ways and Means 
Committee, I can tell you that a carbon tax could have a devastating 
impact on our economy. It would literally be a federal tax on 
breathing. As an alternative, we should consider tax credits and 
incentives to reduce carbon emissions.
    Finally, in the next five years, China and India will build 800 new 
coal-fired power plants. These plants are expected to emit 2.5 billion 
tons of carbon dioxide each year into the atmosphere. This is more than 
5 times the amount of reductions mandated by the Kyoto Accords. How is 
the international community going to address this amount of emissions 
which is nearly twice what we now produce in the United States?
    Nevertheless, it is important to hear how potential climate 
conditions may affect our wildlife within the National Wildlife Refuge 
System and our ocean fishery resources. Since the United Nations 
Intergovernmenal Panel on Climate Change has recently concluded that 
over the next century sea levels will rise between 7 to 23 inches, it 
is important to examine the potential consequences of this development.
    Thank you, Madam Chairwoman.
                                 ______
                                 
    Ms. Bordallo. I want to thank the Ranking Member, Mr. 
Brown.
    I understand from the staff that we are having technical 
problems. We will take a short recess.
    [Recess.]
    Ms. Bordallo. I understand from committee staff that there 
has only been one other technical problem with our recorders, 
and that was 15 years ago, so I guess we are doing very well.
    I would now like to recognize our witnesses. The witnesses 
will testify in two panels. The first panel will address the 
effects of climate change on wildlife, and this panel will 
include Mr. William McKibben, an author and scholar in 
residence in the Department of Environmental Studies at 
Middlebury College; Dr. Joshua Lawler from the College of 
Forest Resources at the University of Washington; Dr. Terry 
Root from the Center for Environmental Science and Policy at 
Stanford University; Monica Medina, who is the Acting Director 
for the International Fund for Animal Welfare in the United 
States; and Dr. Christopher Haney, who is the Chief Scientist 
for the Defenders of Wildlife here in Washington, D.C.
    I want to thank all of the witnesses for being here today, 
and the Chairwoman would now recognize Mr. McKibben to testify 
for five minutes.
    I would note for all witnesses that the timing lights on 
the table will indicate when your time has concluded, and we 
would appreciate your cooperation in complying with the limits 
that have been set as we have many witnesses to hear from 
today. Be assured that your full written statement will be 
submitted for the hearing record.
    And now I would like to introduce Mr. McKibben.

STATEMENT OF WILLIAM McKIBBEN, AUTHOR AND SCHOLAR IN RESIDENCE, 
                       MIDDLEBURY COLLEGE

    Mr. McKibben. Thank you very much. Thank you for the 
opportunity to testify before this committee and for the chance 
to share with you not in my case new science, but some very 
fresh evidence of Americans' passion for taking strong action 
on global warming.
    I am a writer, an environmentalist. My first book, The End 
of Nature, in 1989 was also generally acknowledged as the first 
book for a general audience about global warming. In the years 
since, I have watched with some dismay as Congress has failed 
to respond in a serious way to that challenge and am very glad 
to see from your interest here today that that situation may be 
changing.
    It is because of that failure that I helped to organize 
Stepitup07.org. Last summer, in my home State of Vermont, a few 
of us organized a five-day, 50-mile walk to ask for Federal 
action on climate change. It was a successful venture, drawing 
1,000 walkers by its finish in Burlington. In Vermont, 1,000 
people is a lot of people.
    We were chagrined to read in the newspaper the next day 
that those 1,000 people may have represented one of the largest 
numbers of Americans yet to gather in one place in this country 
to protest climate change. That seemed to some of us a 
situation that needed to change.
    In January of this year, we launched a website, 
Stepitup07.org, asking people to organize rallies in their 
communities on April 14 to demand that Congress pledge to cut 
carbon emissions 80 percent by 2050. By we, I mean myself and 
six students who had graduated from Middlebury College where I 
teach in the preceding six months.
    We had no money and no organization and so there was no 
reason other than our own willingness to work hard to think we 
would be able to organize a significant number of protests. Our 
secret hope was that we might convince people in 100 locations 
around the country to schedule demonstrations that day.
    Instead, three days ago there were rallies in more than 
1,400 communities in every state in the union. This is due to 
the fact that Americans are very eager for real and dramatic 
action on this issue. For many years it had seemed too large 
and daunting an issue for most of us to get our hands around, 
especially since any action in Washington was blocked by 
committee chairs who refused to take the issue seriously.
    Even as we performed the necessary individual steps--
screwing in compact fluorescent lightbulbs say--many of us were 
left thinking that those steps had a token quality and that 
they needed strong Federal action to make them real.
    The geographic and demographic diversity of these protests 
was astonishing. From the day we opened our website, we were 
heartened to see the participation of a wide variety of 
Americans from the founders of the Evangelical Environmental 
Network to sorority chapters to League of Women Voters clubs, 
all of them rallying behind the standard cut carbon 80 percent 
by 2050.
    People participated with great creativity. In Florida they 
organized underwater demonstrations off the endangered coral 
reefs of the Keys, one of the nation's most glorious wildlife 
habitats which cannot survive the anticipated temperature rises 
of this century.
    Others in the Sunshine State rallied in the parking lot of 
the Jacksonville Jaguars football stadium, hoisting a boat with 
a crane 20 feet in the air to show where sea levels might fall 
should the melt of the great ice sheets proceed unabated.
    In lower Manhattan, people in blue shirts thronged into the 
streets of lower Manhattan to form a human sea along the line 
where the tide may someday rise. In Seattle, they hoisted giant 
salmon puppets to the new tideline. In the Rockies, Sierras and 
Cascades, skiers descended down many of the fast-dwindling 
glaciers in formation.
    Everywhere in the country, people used the backdrop of 
their every day lives to try and show what some of the effects 
of climate change would be on their lives. Children and 
pregnant women were at the front of many marches, symbolizing 
the stake that our youngest have in the changes that will play 
out over their lifetimes.
    Elsewhere people paid tribute to the many parts of creation 
put at risk by our carelessness from reef fish to maple trees, 
from those animals that need the snow of winter to those plants 
who will not survive a hotter and more arid world.
    Though this was an entirely citizen organized day of action 
which depended on neither political nor entertainment 
celebrities to draw its crowds, I am happy to say that many of 
your colleagues in both chambers and from both parties attended 
rallies in their local areas.
    I believe that there were demonstrations in almost all your 
districts, and we have distributed some of the first pictures 
to come back in from your districts today to you in your 
packets. It was an impressive sight and one I urge you to see, 
the largest grassroots environmental gathering since Earth Day 
1970, widely covered in the media. There are archived photos of 
all actions at Stepitup07.org.
    Our hope is that just as Earth Day 1970 helped usher in 
bold policy making, this day of action will do so as well. Our 
definition of bold action is cuts of at least 80 percent in 
American carbon emissions. They need to begin right away and be 
sustained for many years, a process that should begin with a 
moratorium on new coal-fired generating stations.
    Young people in particular are impatient to see this 
transition underway, and I would like to as I finish introduce 
my colleagues who made this happen, the eight young people who 
served as core organizers to this national effort and are here 
today: Julia Proctor, Jeremy Osborn, Robbie Adler, John Warnow, 
Jamie Henn, Phil Aroneanu, May Boeve and Will Bates.
    They are outstanding examples of the reasons that we must 
address this problem and also of the reasons that we can. Thank 
you for joining them and me in this task.
    [The prepared statement of Mr. McKibben follows:]

     Statement of Bill McKibben, Author and Scholar in Residence, 
                           Middlebury College

    Thank you very much for the opportunity to testify before this 
committee, and for the chance to share with you some very fresh 
evidence of Americans' passion for taking strong action on global 
warming.
    I am a writer and environmentalist. My first book, The End of 
Nature in 1989, was also generally acknowledged as the first book for a 
general audience about global warming. In the years since, I have 
watched with some dismay as Congress has failed to respond in a serious 
way to that challenge, and am very glad to see from your interest here 
today that that situation may be changing.
    It is because of that failure that I helped to organize 
Stepitup07.org. Last summer, in my home state of Vermont, a few of 
uanized a five-day, 50-mile walk to ask for federal action on climate 
change. It was a successful venture, drawing a thousand walkers by its 
finish in Burlington. (In Vermont, a thousand people is a lot). But we 
were chagrined to read in the newspaper the next day that those 
thousand people may have represented one of the largest numbers of 
Americans yet to gather in one place in this country to protest climate 
change. That seemed to some of us a situation that needed to change.
    On January 10 of this year, we launched a website, stepitup07.org, 
asking people to organize rallies in their communities on April 14 to 
demand that Congress pledge to cut carbon emissions 80% by 2050. By 
``we'' I mean myself and six students who had graduated from Middlebury 
College, where I teach, in the proceeding six months. We had no money 
and no organization, and so there was no reason other than our own 
willingness to work hard to think that we would be able to organize a 
significant number of protests. Our secret hope was that we might 
convince people in a hundred locations around the country to schedule 
demonstrations that day.
    Instead, three days ago, there were rallies in more than 1,350 
communities in every state of the Union. This is not due to our skill 
as organizers--it is due to the fact that Americans are very eager for 
real and dramatic action on this issue. For many years it has seemed 
too large and daunting an issue for most of us to get our hands around, 
especially since any action in Washington was blocked by committee 
chairs who refused to take the issue seriously. Even as we performed 
the necessary individuals steps--screwing in compact fluorescent light 
bulbs, say--many of us were left thinking that those steps had a token 
quality, and that they needed strong federal action to make them real.
    The geographic and demographic diversity of these protests was 
astonishing. From the day we opened our website, we were heartened to 
see the participation of a wide variety of Americans. One of the 
founders of the Evangelical Environmental Network, Calvin DeWitt, wrote 
one of the first blog posts. One of the first evidences of support from 
campus came from the Alpha Phi sorority chapter at the University of 
Texas at Austin, where more than a hundred women posed behind our 
banner: Step It Up Congress, Cut Carbon 80% by 2050. (``We wanted to 
show it wasn't just hippies who cared,'' they wrote). League of Women 
Voters chapters, senior citizens homes, local congregations, bike 
clubs, garden societies, and many, many others participated. And 
participated with great creativity: in Florida, people organized an 
underwater demonstration off the endangered coral reefs of the Keys, 
one of the nation's most glorious wildlife habitats which cannot 
survive the anticipated temperature rises of this century. Others in 
the Sunshine State rallied in the parking lot of the Jacksonville 
Jaguars demonstration, hoisting a boat via crane 20 feet in the air to 
show where sea levels might fall should melt of the great ice sheets 
proceed unabated. In lower Manhattan, people in blue shirts thronged 
into the streets of lower Manhattan to form a human sea along the line 
where the tide may someday rise. In Seattle, they hoisted giant salmon 
puppets to the new tideline, and in the Rockies, Sierras, and Cascades, 
skiers descended down many of the fast-dwindling glaciers in formation. 
Everywhere in the country, people used the backdrop of their everyday 
lives to try and show what some of the effects of climate change would 
be on their lives. Children and pregnant women were the front of many 
marches, symbolizing the stake that our youngest have in the changes 
that will play out over their lifetimes. Elsewhere, people paid tribute 
to the many parts of Creation put at risk by our carelessness, from 
reef fish to maple trees, from those animals that need the snow of 
winter to those plants who won't survive a hotter and more arid world. 
Though this was an entirely citizen-organized day of action, which 
depended on neither political nor entertainment celebrities to draw its 
crowds, I am happy to say that many of your colleagues in both chambers 
and from both parties attended rallies in their local areas. I believe 
that there were demonstrations in almost all your districts, and you 
will receive pictures and descriptions of those gatherings at your 
district offices in the days to come. It was an impressive sight, and 
one I urge you to see--the largest grassroots environmental gathering 
since Earth Day 1970, widely covered in the media. Archived photos of 
all the actions are available at stepitup07.org.
    Our hope is that, just as Earth Day 1970 helped usher in bold 
policy making like the Clean Air and Clean Water Acts, this day of 
action will be one of the catalysts for bold action in this legislative 
session. Our definition of bold action is cuts of at least 80% in 
American carbon emissions by 2050. There is no study that says 81% 
would be too much and 79% too little. Instead, it is a target broadly 
in line with the message the scientific community has been sending with 
increasing urgency: we need to begin deep cuts right away and sustain 
them for many years, transforming the American energy economy in the 
process, a process that should begin with a moratorium on new coal-
fired utilities. That transition will be painful for some interests, 
but beneficial to many more--a green economy is clearly the economy of 
the future, and clinging to the bulwarks of last century's economy 
simply because they are familiar implies a timidity both unbecoming and 
un-American. Young people in particular are impatient to see this 
transition underway. Starting soon is imperative, especially to send a 
strong signal to those anticipating capital investments in coming 
years, a signal that it would be folly to continue calculating carbon 
emissions as a free good with no economic cost. Starting soon is 
imperative, as well, because America needs very badly to re-engage in 
the international negotiations around climate change. Our neglect of 
our international responsibilities in this regard has been a dangerous 
failure.
    As you know, our record on containing our carbon emissions is poor. 
Every year since I wrote The End of Nature in 1989, carbon emissions 
have grown about one percent annually. The administration recently 
predicted that rate would hold at least through 2020. That flies in the 
face of efforts by every other developed nation, and it flies in the 
face of science and chemistry. Had we started twenty years ago to make 
the necessary changes, we could have proceeded gradually. Sadly, your 
predecessors in Congress neglected to do so, meaning that you will have 
to take more uncomfortable steps to address the problem. We are 
confident that changes in both technology and daily habit make the 
goals of our demonstrations achievable--after all, citizens of western 
Europe enjoy similar quality of life on half the per capita energy 
use--but we do not imagine they will be simple. You will be under much 
pressure from special interests to go slowly, and it's possible that 
even minimal progress will be cheered in some quarters. But if our 
rallies, and the many other efforts organized by others in months past 
and to come, have any meaning, it is this: the bar has been raised. 
Americans who know and care about this issue--and their number grows 
daily--want nothing less than action on a scale that actually addresses 
the problem. The phrase ``Step It Up'' that we chose for our actions 
was aimed squarely at you and your colleagues. We hope very much that 
you are listening.
    In closing let me thank the six young people who served as the core 
organizers of this national effort: Jeremy Osborn, Jon Warnow, Jamie 
Henn, Phil Aroneanu, May Boeve, and Will Bates are outstanding examples 
of the reasons we must address this problem, and of the reasons that we 
can. Thank you for joining them and me in this task.
                                 ______
                                 

            Response to questions submitted for the record 
                          by William McKibben

QUESTIONS FROM THE HONORABLE PATRICK KENNEDY
Regardless of whether or not we take actions to control and reduce 
        green house gas emissions, wildlife and wildlife habitat and 
        the ocean environment are going to change and adapt, often 
        unpredictably, to a warming climate. Consequently, we should 
        take steps now to develop strategies to allow for the future 
        conservation of biodiversity and the maintenance of a healthy 
        and resilient environment.
1.   Keeping in mind that any transition to a new ``Green Economy'' 
        will take decades to achieve and that most Members of Congress 
        will want to limit unnecessary disruptions of social and 
        economic systems, can you be more specific on what practical 
        types of adaptive management strategies we should consider to 
        mitigate the negative effects of climate change on our 
        collective wildlife and ocean resources?
    Think North-south corridors: Adirondacks to Algonquin, Yellowstone 
to Yukon, etc.
2.  Should we be doing more to re-evaluate our current policies for 
        land use planning and public acquisition of land for wildlife 
        habitat? Should we be adopting a broader landscape and 
        ecosystem-based approach for protecting wildlife?
    The Nature Conservancy is doing extremely valuable work along these 
lines--landscape-scale planning.
3.  Finally, how might such ideas be applied to the ocean and coastal 
        environment and the wildlife therein?
    The more severe these problems get, the bigger the boundaries of 
our refuges and wildernesses need to be.
QUESTIONS FROM THE HONORABLE HENRY BROWN, MINORITY RANKING MEMBER
 1.  Mr. McKibben, while I understand you have written several books on 
        the environment, do you have any advanced scientific degrees? 
        What is the source of your data?
    All my advanced degrees are honorary. My data comes from many 
sources, reflected in the voluminous footnotes of my books; if you have 
particular questions about particular data, I'd be happy to help you 
track down the sources.
 2.  If in fact you are correct that ``Climate change is the greatest 
        threat civilization now faces'', why are you suggesting we wait 
        45 years to reduce carbon emissions by 80 percent? Why not 
        mandate those cuts in carbon emissions now?
    I think you'd be very wise to do them faster, and am very glad you 
are thinking along those lines. We have perhaps erred on the side of 
being too politically realistic.
 3.  What is the cost and who will pay the price for reducing carbon 
        emissions by 80 percent?
    The cost will depend on how it's done, of course. The transition 
away from fossil fuel should provide the next great technological 
project for America, and hence will yield economic benefits. At the 
same time, fossil fuel has been so extraordinarily cheap that we will 
notice the change. As the Stern report for the UK government pointed 
out last year, however, the cost of not making this change will be 
orders of magnitude higher.
 4.  What is the cost to the United States to comply with the Kyoto 
        Treaty?
    There's been no cost because the United States hasn't ratified the 
treaty. The cost of not doing so has been very high in terms of damage 
to the environment, damage that will be playing out for a long time to 
come.
 5.  Ben and Jerry's Ice Cream is produced in your state. A single 
        gallon of their ice cream requires massive amounts of 
        electricity to make and refrigerate and four gallons of milk 
        produced by cows that generate gallons of manure and methane 
        gas. This does not include the hay they eat, the tractor fuel, 
        chemical fertilizers, herbicides and insecticides and the fuel 
        used by planes, trains and trucks to transport Ben and Jerry's 
        Ice Cream to local supermarkets throughout the country. Isn't 
        Ben and Jerry's a major contributor to green house gas 
        emissions? It has been reported that the typical breakdown of 
        carbon dioxide in the atmosphere is 57 percent from the ocean, 
        19 percent from decaying vegetation, and 19 percent from plant 
        and animal respiration. Do you agree with this breakdown? If 
        not, what is it?
    Though, like Ben and Jerry's ice cream, I come from Vermont, I am 
not privy to their precise accounting system. Your breakdown seems 
reasonable, and underscores the point that every item on the store 
shelf has substantial embedded energy in it; I can't think of any 
reason why Ben and Jerry's would be any more culpable than anyone else, 
and their efforts on a wide range of environmental and social issues 
should be applauded. In my new book, Deep Economy, I advocate trying to 
foster more localized economies for precisely this purpose; if we can 
bring more food processing closer to home we'll be able to stabilize 
the rural communities where I've spent my life and at the same time 
reduce carbon emissions.
 6.  Is the statement by the current issue of Newsweek accurate that 
        ``Coal is the cheapest and dirtiest source of energy around. If 
        we cannot get a handle on the coal problem, nothing else 
        matters''?
    It is.
 7.  What are your thoughts on the ``urban heat island effect'' where 
        heat is trapped in cities during the day and released into the 
        atmosphere at night? Is this a valid theory for global warming?
    All climate models that I know of account for the urban heat island 
effect, which is well known and easily modeled.
 8.  Should the Congress consider enacting a carbon tax? What would be 
        the rate of the tax, who would pay them and what happens to the 
        proceeds collected by the Internal Revenue Service?
    It would be a very straightforward way to address the problem. Many 
who have studied it have concluded that Congress won't enact a tax 
because political leaders fear the very word tax--I'm glad to see this 
attitude may be changing. If you do enact a tax, you should do so in 
such a way that the revenue gained is offset by tax reductions 
elsewhere. For instance, it might well make sense to eliminate the 
payroll tax (a tax, after all, on something we would like to encourage, 
employment) and replace it with a tax on carbon, something we wish to 
avoid. As an alternative, you might wish to consider the excellent 
plans put forward by people like Peter Barnes for a 'skytrust,' that 
would rebate money through a formula not unlike the Alaska Permanent 
Fund.
 9.  By the year 2012, China and India will build 800 new coal-fired 
        power plants that will emit 2.5 billion tons of carbon dioxide 
        into the atmosphere. How should the international community 
        respond to this issue?
    Not by trying to scapegoat China and India. Even in 2012, per 
capita the Chinese will be using a quarter as much energy as Americans, 
and India considerably less than that. And of course they are new to 
the game of burning carbon--recent estimates suggest that it will be 40 
years before their contribution to global warming, even with their very 
large populations, will approach ours. We have no moral leg to stand on 
to demand their participation in any international regime on climate 
controls, but we can work hard--through technology transfer 
especially--to encourage them to shift the trajectory of their 
individual development. That we did not do so six years ago when their 
energy takeoff was beginning will be considered by historians an 
episode of epic folly on our part.
10.  Do you or have you (or your organization) received any funding 
        from the Pew Charitable Trust or the David and Lucille Packard 
        Foundation? If so, please elaborate.
    No
11.  Are you currently a party to any law suit against the Department 
        of the Interior or the Department of Commerce (or any of the 
        agencies within these departments)? If so, please describe.
    No. I've never sued anyone in my life.
QUESTIONS FROM THE HONORABLE WAYNE GILCHREST
 1.  If paleo-records show that corals existed in the past under high 
        atmospheric CO<INF>2</INF> concentrations, why is it a problem 
        now?
 2.  Among the various effects of climate change to wildlife and the 
        oceans, are there issues that are more pressing than the 
        others? Why?
 3.  In the U.S., as plant and animal species migrate north and to 
        higher elevations, what does that mean for the regions they 
        leave behind? For instance, it has been said that some U.S. 
        states that border Canada might actually benefit from the next 
        few decades of climate change, but what will it mean for the 
        states further to the South, and especially those on the coast?
    Any benefit from climate change will be transient at best, and even 
then unlikely. I live in a state that borders Canada--our 'benefit' 
would, I guess, be warmer winters, but most Vermonters cherish the 
winter season. And we will lose, or so the computer models indicate, 
our birch-beech-maple forest with its fall climax of color, and our 
spring syrup season. No wonder Vermonters are so outspoken in their 
demand for federal action on global warming.
 4.  How do shifts in habitat range of plants and animals affect human 
        interests such as agriculture or the spread of invasive species 
        and diseases? How can we adaptively plan for such changes?
 5.  The IPCC reports with 80% certainty that the changes in water 
        temperatures, ice cover, salinity and ocean circulation are 
        impacting the ranges and migration patterns of aquatic 
        organisms. How will this affect management and use of these 
        resources, and how can we prepare for any changes?
 6.  In the Chesapeake Bay, we are losing marshland to rising sea 
        levels. Can you talk about what is happening to coastal wetland 
        areas in other areas of the country and what that is doing to 
        their ecosystems and the local economies that depend upon these 
        natural resources?
 7.  What role do marshlands play in sequestering carbon? Is marsh 
        restoration a viable alternative in carbon sequestration?
 8.  The latest IPCC report warns that ocean acidification poses a 
        threat to coral reefs and shell-forming organisms that form the 
        base of the aquatic food chain. But the report says more study 
        is needed to determine the full scope of the threat. What do we 
        know about the potential impacts to U.S. coastal ecosystems 
        today and how quickly is our understanding of acidification 
        improving? What can Congress do to improve upon this 
        understanding? Do we know enough to act?
 9.  What additional resources or tools will the Fish and Wildlife 
        Service and National Marine Fisheries Service need to 
        adequately prepare and address the impacts of global warming on 
        wildlife over the next decade?
10.  We've heard a lot about the polar bear and the petition to list 
        the species under the Endangered Species Act (ESA). Opponents 
        of listing claim that the effects of global warming are in fact 
        unclear. What evidence is there that global warming is already 
        having a dramatic effect on the species across its range? How 
        will an ESA listing help polar bears?
11.  Dr. Sharp's testimony stated that anthropogenic CO<INF>2</INF> 
        emissions are approximately 3% within the global CO<INF>2</INF> 
        cycle. How does this translate to such large effects on the 
        planet? Please also clarify how this number relates to the 80% 
        carbon emissions cut by 2050 proposed by stepitup07.org.
    The global carbon cycle was well balanced before anthropogenic 
emissions began with the Industrial Revolution. Our additional 
increment has upset that balance--imagine a person who has maintained 
the same weight for decades and then begins eating an additional slice 
of pie every night at dinner. It adds up quickly.
    Recent scientific assessments indicate that an 80% reduction in our 
carbon emissions--if it began rapidly and was coupled with strong 
attempts to help developing countries work in the same direction--might 
be enough not to head off global warming but to limit it below truly 
catastrophic levels. I should stress the need for rapid change. James 
Hansen of NASA, our foremost climatologist, has given us a window of 
one decade (now nine years) to reverse the flows of carbon into the 
atmosphere or else face a situation of almost certain melt of the great 
ice sheets above Greenland and the West Antarctic. Such a melt would 
raise sea levels dramatically, endangering much of human civilization.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. McKibben.
    Would the students please stand that were mentioned?
    [Applause.]
    Ms. Bordallo. Thank you very much.
    Before I introduce the next witness, I would also like to 
recognize the gentleman from Rhode Island, Mr. Kennedy, who has 
joined us.
    Now I recognize Dr. Lawler to testify for five minutes.

    STATEMENT OF JOSHUA J. LAWLER, Ph.D., COLLEGE OF FOREST 
              RESOURCES, UNIVERSITY OF WASHINGTON

    Dr. Lawler. Madam Chairwoman, I would like to thank you and 
the committee for inviting me to speak on this important issue.
    If we could have the first slide? I am going to show some 
images with my testimony.
    [Slide.]
    Dr. Lawler. I am going to present research that my 
colleagues and I have done to look at the potential effect of 
30 different future climate change projections on roughly 3,000 
species of amphibians, mammals and birds in the western 
hemisphere. These are climate projections from the latest IPCC 
Fourth Assessment Report Initiative.
    We chose 30 projections from 10 different general 
circulations models and three different emissions scenarios. 
The emissions scenarios are a higher A2, an intermediate A1B 
scenario, and a lower B1 scenario. The projections I am going 
to show you are for roughly 80 years from today for a 30-year 
period.
    This is what these climate change projections look like. 
These are shifts in species ranges. This is a shift in the 
range of the northern flying squirrel. The light green area you 
see is where the range is predicted to be stable. The dark 
green area is where the range is predicted to expand. The pink 
area is where the range is expected to contract.
    This is one of 30 projections we made for this species. We 
made 30 projections for each of those 3,000 species. There are 
roughly 90,000 maps like this that go into the next image that 
I am going to show you.
    These are images of what I am calling species turnover or 
species change, and it is a percent change in the animals 
across the western hemisphere. The change is measured as 
potential loss in species due to a range contraction plus 
potential gain in species due to a range expansion expressed as 
a percentage of the current species, so it is a percent change. 
They take into account the 30 different climate change 
projections.
    These maps represent 80 percent of the climate change 
projections predict at least this much change. For example, 80 
percent of the climate change projections predict between 20 
and 30 percent change in the animal communities in the wildlife 
across the United States under the lower scenario. Eighty 
percent of the climate change projections result in at least 30 
to 40 percent change in the wildlife at the higher A2 scenario.
    In the higher A2 scenario there are changes in areas such 
as Texas and parts of the southwest that are as large as 50 to 
60 percent. These are large changes, and these maps represent 
in many cases a wholesale change in the wildlife in many areas 
in the western hemisphere for the next 80 years.
    These are conservative estimates for a number of reasons, 
and I will give you three of those reasons. First of all, we 
didn't model all the species in the western hemisphere. We 
couldn't model some. The ones we couldn't model are the ones 
that are likely to be most sensitive to change, so the maps I 
just showed you, if we could model those other species, would 
be a lot redder. The numbers would be a lot higher.
    They are conservative because species interact. If you take 
one species out of a system or you put one species into a 
system, there can be a cascade of ecological events that can be 
much greater than just adding or subtracting a species.
    They are also conservative because we didn't take into 
account the effect of climate change on fire regimes, 
hydrological regimes and other disturbance regimes which will 
further change habitat.
    I have three conclusions. First of all, despite the 
variability in climate change projections, and you know there 
is a great amount of variability in projected future climate. 
Despite that variability, these analyses show a clear effect of 
climate change on wildlife.
    The second conclusion is that even moderate changes in 
climate, even the lower climate change projections, produce 
significant changes for wildlife. Finally, larger changes in 
CO<INF>2</INF> emissions result in larger changes for wildlife.
    These conclusions lead to three recommendations that I 
have. The first of these is that reducing CO<INF>2</INF> 
emissions and greenhouse gas emissions will reduce the effect 
on wildlife.
    The second is that we need to manage these wildlife species 
if we want to preserve these wildlife species. We need to 
manage them and the systems in which they live for change. We 
need to manage them as dynamic changing systems.
    The third recommendation is that because these species are 
going to move and because they are going to move quite a bit, 
we are going to need to coordinate our efforts to manage them 
across Federal agencies and across the lands at large spacial 
scales on which they exist.
    That is all I have.
    [The prepared statement of Dr. Lawler follows:]

          Statement of Joshua J. Lawler, Assistant Professor, 
         College of Forest Resources, University of Washington

Summary
    Recent shifts in species ranges have been linked to recent changes 
in climate. Projected future climatic changes are likely to result in 
even more drastic shifts in species ranges in the coming century. 
Research I have conducted in conjunction with colleagues at three other 
universities and two federal agencies indicates that in many regions of 
the western hemisphere, climate change will likely result in a 
wholesale reorganization of vertebrate communities. We modeled the 
potential effects of 30 different climate-change projections on the 
geographic ranges of 2,954 vertebrate species. We then identified areas 
in which the majority (80%) of the climate projections resulted in 
large predicted changes in animal assemblages. Large portions of both 
North and South America are projected to experience at least 20-30% 
species turnover under even the lower B1 greenhouse-gas emissions 
scenario and at least 30-40% species turnover under the mid-high A2 
scenario. Parts of the Andes, Central America, and the far northern 
boreal forests and tundra are predicted to experience greater than 80% 
species turnover. Thus, our results indicate that in the coming 
century, vertebrate communities in many parts of North and South 
America will likely bear little resemblance to today's fauna.
Background
    Recent shifts in the distribution of plants and animals have been 
clearly linked to recent changes in climate (Parmesan and Yohe 2003, 
Root et al. 2003, Parmesan 2006). Most notably, species have shifted 
their ranges either poleward in latitude or upward in elevation 
(Parmesan 1996, Parmesan et al. 1999, Thomas and Lennon 1999). These 
movements have generally occurred at rates that are consistent with 
rates of recent global warming (Parmesan and Yohe 2003, Root et al. 
2003).
    Climatic changes for the coming century are projected to exceed 
those of the past 100 years. For example, global average temperatures 
have risen approximately 0.7+C in the past century and are projected to 
increase between 1.1 and 6.4+C in the next 100 years (Alley et al. 
2007). Given the projected magnitude of future climatic change, we can 
logically expect even greater shifts in species distributions in the 
coming century.
    Several studies have made projections of potential future shifts in 
the distribution of both plants and animals (e.g., Peterson et al. 
2002, e.g., Thuiller et al. 2005, Araujo et al. 2006). In general, 
these studies have predicted relatively large changes in local plant or 
animal assemblages as a consequence of projected changes in climate. 
For example, Peterson et al. (2002) estimated that changes in some 
assemblages of animals in Mexico will potentially be as high as 40% by 
2055. Thuiller et al. (2005) estimated average changes in plant 
assemblages across Europe will range from 27-63% by 2080.
    Changes in the distribution of species have profound implications 
for the management of fish and wildlife. Areas that currently provide 
habitat for a given species may no longer provide habitat in the 
future. Conversely, areas that are unsuitable today may eventually 
provide habitat as the climate changes. In addition, the loss of a key 
species or the addition of a specific species to a community may have 
profound effects on the other species in the system. Thus, shifts in 
even small numbers of species have the ability to dramatically alter 
ecological systems. For example, the climate-induced spread of the 
mountain pine beetle has increased whitebark pine mortality in parts of 
the Rocky Mountains resulting in the reduced availability of whitebark 
pine seed, a primary winter food source for the grizzly bear (Logan and 
Powell 2001).
Projected climate-induced impacts on animal distributions in the 
        western hemisphere
    Here, I present research that my colleagues and I have done to 
assess the potential effects of climate change on the distribution of 
animals in the western hemisphere. We explored the potential effects of 
30 coupled atmosphere-ocean general circulation model (AOGCM) future-
climate simulations on the distribution of 2,954 species of birds, 
mammals, and amphibians for the period of 2071-2100. We then identified 
areas where animal assemblages are consistently predicted to experience 
changes.
Study approach
    We built individual models for each species in the study based on 
the relationships between observed species ranges and current climate. 
This general modeling approach is often called ``climate envelope'' or 
``species niche modeling'' (Pearson and Dawson 2004). More 
specifically, we used random forest classifiers (Breiman 2001) a 
consensus-based ensemble modeling approach that involved building 100 
individual models for each of the species in the study and then 
averaging the predictions from those models to produce one prediction. 
Random forest classifiers have been shown to outperform other similar 
modeling approaches (Lawler et al. 2006). We used only highly accurate 
models in our analyses. We tested the models on a reserved set of data 
that was not used in the model-building process. We then removed any 
species from the study for which the models were unable to predict at 
least 90% of the presence data points and at least 80% of the absence 
data points correctly. This provided us with a set of models that is 
more accurate than most of those used in previous range-shift studies. 
After building and selecting the models, we then used the 30 future 
climate projections as input into the models to generate 30 potential 
future geographic ranges for each species.
    The 30 climate simulations used in the study consisted of 
projections from 10 AOGCMs (Table 1) run under three different 
greenhouse-gas emissions scenarios (B1, A1B, and A2) representing the 
lower, mid, and mid-high range of the scenarios developed for the IPCC 
Special Report on Emissions Scenarios (SRES) (Nakicenovic et al. 2000). 
All 30 simulations have been produced for the IPCC Fourth Assessment 
Report initiative. For North and South America, these 30 distinct 
climate simulations produced increases in mean annual temperature 
ranging from 1.2 to 5.2+C and changes in mean annual precipitation 
ranging from -122.5 to 131.9 mm for the 30-year time period relative to 
1961-1990. These climate simulations thus represent the uncertainty in 
both future greenhouse-gas emissions and in the simulated response of 
the climate system (Cubasch and Meehl 2001).
    To summarize the projected range shifts across all species and 
climate-change scenarios, we used each of the 30 climate-change 
projections to estimate potential changes in animal assemblages for 
each of 15,323 50x50-km grid cells in the western hemisphere. As 
climate changes, species will differ in their ability to track the 
change and to move into newly created suitable habitat. We calculated 
potential changes on a cell-by-cell basis assuming no dispersal to new 
areas with suitable climatic conditions and conversely, assuming 
unlimited dispersal into new suitable areas. The actual responses of 
species will likely fall between these two extremes. For the assumption 
of no dispersal, we calculated ``species loss'' for a cell as the 
percentage of all modeled species currently occurring in the cell whose 
predicted future range did not include the cell. Under the assumption 
of unlimited dispersal, we calculated ``species gains'' and ``species 
turnover''. Species gains were calculated as the number of species not 
in the cell whose future range did include the cell. Like losses, gains 
were expressed as a percentage of the number of species currently in a 
cell. Species turnover is a composite measure of both potential species 
losses and potential species gains and was calculated as 100*((number 
of species lost from a cell + number of species gained by a cell) / 
current number of species).
    We summarized the 10 predictions of species loss, gain, and 
turnover for each greenhouse-gas emissions scenario by taking the 20th 
percentile (80% of the models predicted at least that much change) of 
the distribution of loss, gain, and turnover values for each grid cell. 
These values were used to identify areas in which 80% or more (at least 
8 out of 10) of the climate projections for each greenhouse-gas 
emissions scenario predicted high species loss, gain, and turnover.
Findings
    Under all three greenhouse-gas emissions scenarios, most of the 
United States is predicted to experience significant changes in animal 
communities. Eighty percent of the analyzed climate-change projections 
predict at least 10-20% species loss over roughly half of the United 
States under the lower B1 emissions scenario and at least 10-20% loss 
over most of the United States under the mid-high A2 scenario (Figure 
1). Under the A2 scenario, eighty percent of the climate projections 
result in at least 20-30% species loss for many areas in the central 
and southwestern United States. In addition, several areas in Central 
and South America are consistently projected to experience large 
losses. Eighty percent of the analyzed climate-change projections 
predict at least 20-30% species loss under the lower B1 emissions 
scenarios, and at least 50-60% loss under the mid-high A2 scenario in 
parts of Vera Cruz, the Yucatan Peninsula, and the Andes Mountains.
    Several areas are predicted to gain substantial numbers of species 
as a result of range shifts and expansions (Figure 2). Percentage wise, 
the largest gains in species are predicted for the northern latitudes 
and the Andes mountains, where even under the lower B1 emissions 
scenario, eighty percent of the climate simulations result in at least 
60-70% species gains. When losses and gains are both taken into 
account, the models predict relatively large changes across much of the 
western hemisphere (Figure 3). Large portions of both North and South 
America are projected to experience at least 20-30% species turnover 
for eighty percent of the climate projections under all three 
greenhouse-gas emissions scenarios and at least 30-40% species turnover 
under the mid-high A2 scenario. Parts of the Andes, Central America, 
and the far northern boreal forests and tundra are predicted to 
experience greater than 80% species turnover, which would mean that the 
vertebrate communities in those regions would bear almost no 
resemblance to today's fauna. Due to latitudinal trends in species 
richness, the largest changes in the absolute number of species are 
predicted for the tropics. For the tropics, the maximum projected 
changes in the numbers of species across scenarios are 352 and 465 
species, for no-dispersal and full-dispersal scenarios, respectively.
    There are several reasons why these analyses provide a conservative 
estimate of the future climate-driven changes in biodiversity. First, 
because the approach we used does not directly model interactions 
between species, it is likely that shifts in the ranges of other 
species and particularly in the distribution of diseases and pathogens 
(Pounds et al. 2006) will further alter ecological communities. Second, 
our models also do not account for land-use change, which could cause 
many species to disappear from a region or prevent them from occupying 
newly created suitable climates. Third, we only include in our analyses 
those species for which we were able to build models that accurately 
predicted current ranges. Although this restriction improved the 
accuracy of our analyses over those in previous studies, it generally 
biased us towards including species with larger, more contiguous 
ranges. Many of the species that were not modeled had small or highly 
fragmented ranges. These species are likely to be more susceptible to 
climate-induced range loss and range contraction due to their 
restrictive habitat requirements. Thus, our estimates of potential 
faunal change would likely be much greater if these species could have 
been modeled. Finally, we have modeled changes in species ranges as 
defined strictly by changes in climate. Climate change is also likely 
to alter habitat by changing sea level (Meehl et al. 2005, Alley et al. 
2007), fire regimes (Westerling et al. 2006), as well as hydrological 
and other disturbance regimes.
Conclusions
    The results of our study indicate that large portions of North and 
South America are likely to experience major climate-induced changes in 
animal assemblages in the coming century. Eighty percent of the 
climate-change scenarios we investigated resulted in species turnover 
rates of at least 20-30% for much of North and South America under even 
the lower B1 greenhouse-gas emission scenario and at least 30-40% under 
the mid-high A2 scenario. These are likely to be conservative estimates 
of change because 1) they do not include many vertebrate species with 
small or fragmented ranges, 2) they do not account for interactions 
between species, and 3) they do not take into account many of the other 
climate-induced factors such as changing disturbance regimes and 
disease frequency and prevalence that will alter species distributions 
and animal communities.
Literature Cited
Alley, R., T. Berntsen, N. L. Bindoff, Z. Chen, A. Chidthaisong, P. 
        Friedlingstein, J. Gregory, G. Hegerl, M. Heimann, B. Hewitson, 
        B. Hoskins, F. Joos, J. Jouzel, V. Kattsov, U. Lohmann, M. 
        Manning, T. Matsuno, M. Molina, N. Nicholls, J. Overpeck, D. 
        Qin, G. Raga, V. Ramaswamy, J. Ren, M. Rusticucci, S. Solomon, 
        R. Somerville, T. F. Stocker, P. Stott, R. J. Stouffer, P. 
        Whetton, R. A. Wood, and D. Wratt. 2007. Climate Change 2007: 
        The Physical Science Basis, Summary for Policymakers. Geneva.
Araujo, M. B., W. Thuiller, and R. G. Pearson. 2006. Climate warming 
        and the decline of amphibians and reptiles in Europe. Journal 
        of Biogeography 33:1712-1728.
Breiman, L. 2001. Random forests. Machine Learning 45:5-32.
Collins, W. D., C. M. Bitz, M. L. Blackmon, G. B. Bonan, C. S. 
        Bretherton, J. A. Carton, P. Chang, S. C. Doney, J. J. Hack, T. 
        B. Henderson, J. T. Kiehl, W. G. Large, D.S. McKenna, B. D. 
        Santer, and R. D. Smith. 2006a. The community climate system 
        model version 3 (CCSM3). Journal of Climate 19:2122-2143.
Collins, W. D., P. J. Rasch, B. A. Boville, J. J. Hack, J. R. McCaa, D. 
        L. Williamson, B. P. Briegleb, C. M. Bitz, S.-J. Lin, and M. 
        Zhang. 2006b. The formulation and atmospheric simulation of the 
        Community Atmosphere Model Version 3 (CAM3). Journal of Climate 
        19:2144-2161.
Cubasch, U., and G. A. Meehl. 2001. Projections of future climate 
        change. Pages 525-582 in J. T. Houghton, Y. Ding, D. J. Griggs, 
        M. Noguer, P. J. van der Linden, X. Dai, K. Maskell, and C. A. 
        Johnson, editors. Climate Change 2001: The Scientific Basis. 
        Cambridge University Press, Cambridge.
Delworth, T. L., A. J. Broccoli, A. Rosati, R. J. Stouffer, V. Balaji, 
        J. A. Beesley, W. F. Cooke, K. W. Dixon, J. Dunne, K. A. Dunne, 
        J. W. Durachta, K. L. Findell, P. Ginoux, A. Gnanadesikan, C. 
        T. Gordon, S. M. Griffies, R. Gudgel, M. J. Harrison, I. M. 
        Held, R. S. Hemler, L. W. Horowitz, S. A. Klein, T. R. Knutson, 
        P. J. Kushner, A. R. Langenhorst, H.-C. Lee, S.-J. Lin, J. Lu, 
        S. L. Malyshev, P. C. D. Milly, V. Ramaswamy, J. Russell, M. D. 
        Schwarzkopf, E. Shevliakova, J. J. Sirutis, M. J. Spelman, W. 
        F. Stern, M. Winton, A. T. Wittenberg, B. Wyman, F. Zeng, and 
        R. Zhang. 2006. GFDL's CM2 global coupled climate models Part 
        1: Formulation and simulation characteristics. Journal of 
        Climate 19:643-674.
Diansky, N. A., and E. M. Volodin. 2002. Simulation of the present-day 
        climate with a coupled atmosphere-ocean general circulation 
        model. Izvestia, Atmospheric and Oceanic Physics 38:732-747.
Deque, M., C. Dreveton, A. Braun, and D. Cariolle. 1994. The ARPEGE/IFS 
        atmosphere model: A contribution to the French community 
        climate modeling. Climate Dynamics 10:249-266.
Flato, G. M. 2005. The Third Generation Coupled Global Climate Model 
        (CGCM3) (and included links to the description of the AGCM3 
        atmospheric model). in.
Galin, V. Y., E. M. Volodin, and S. P. Smyshliaev. 2003. Atmospheric 
        general circulation model of INM RAS with ozone dynamics. 
        Russian Meteorology and Hydrology 5:13-22.
Gordon, C., C. Cooper, C. A. Senior, H. Banks, J. M. Gregory, T. C. 
        Johns, J. F. B. Mitchell, and R. A. Wood. 2000. The simulation 
        of SST, sea ice extents and ocean heat transports in a version 
        of the Hadley Centre coupled model without flux adjustments. 
        Climate Dynamics 16:147-168.
K-1 Developers. 2004. K-1 coupled model (MIROC) description. K-1 
        Technical Report 1. Center for Climate System Research, 
        University of Tokyo, Tokyo, Japan.
Lawler, J. J., D. White, R. P. Neilson, and A. R. Blaustein. 2006. 
        Predicting climate-induced range shifts: model differences and 
        model reliability. Global Change Biology 12:1568-1584.
Logan, J. A., and J. A. Powell. 2001. Ghost forests, global warming, 
        and the mountain pine beetle (Coleoptera: Scolytidae). American 
        Entomologist 47:160-167.
McFarlane, N. A., G. J. Boer, J.-P. Blanchet, and M. Lazare. 1992. The 
        Canadian Climate Centre second-generation general circulation 
        model and its equilibrium climate. Journal of Climate 5:1013-
        1044.
Meehl, G. A., W. M. Washington, W. D. Collins, J. M. Arblaster, A. Hu, 
        L. E. Buja, W. G. Strand, and H. Teng. 2005. How much more 
        global warming and sea level rise? Science 307:1769-1772.
Nakicenovic, N., J. Alcamo, G. Davis, B. d. Vries, J. Fenhann, S. 
        Gaffin, K. Gregory, A. Grubler, T. Y. Jung, T. Kram, E. L. L. 
        Rovere, L. Michaelis, S. Mori, T. Morita, W. Pepper, H. 
        Pitcher, L. Price, K. Riahi, A. Roehrl, H.-H. Rogner, A. 
        Sankovski, M. Schlesinger, P. Shukla, S. Smith, R. Swart, S. v. 
        Rooijen, N. Victor, and Z. Dadi. 2000. Special Report on 
        Emissions Scenarios. A Special Report of Working Group III of 
        the Intergovernmental Panel on Climate Change. Cambridge 
        University Press, Cambridge, UK.
Parmesan, C. 1996. Climate and species' range. Nature 382:765-766.
Parmesan, C. 2006. Ecological and evolutionary responses to recent 
        climate change. Annual Review of Ecology and Systematics 
        37:637-669.
Parmesan, C., N. Ryrholm, C. Stefanescu, J. K. Hill, C. D. Thomas, H. 
        Descimon, B. Huntley, L. Kaila, J. Kullberg, T. Tammaru, W. J. 
        Tennent, J. A. Thomas, and M. Warren. 1999. Poleward shifts in 
        geographical ranges of butterfly species associated with 
        regional warming. Nature 399:579-583.
Parmesan, C., and G. Yohe. 2003. A globally coherent fingerprint of 
        climate change impacts across natural systems. Nature 421:37-
        42.
Pearson, R. G., and T. P. Dawson. 2004. Bioclimate envelope models: 
        what they detect and what they hide--response to Hampe (2004). 
        Global Ecology and Biogeography 13:471-473.
Peterson, A. T., M. A. Ortega-Huerta, J. Bartley, V. Sanchez-Cordero, 
        J. Soberon, R. H. Buddemeier, and D. R. B. Stockwell. 2002. 
        Future projections for Mexican faunas under global climate 
        change scenarios. Nature 416:626-629.
Pope, V. D., M. L. Gallani, P. R. Rowntree, and R. A. Stratton. 2000. 
        The impact of new physical parametrizations in the Hadley 
        Centre climate model--HadAM3. Climate Dynamics 16:123-146.
Pounds, A. J., M. R. Bustamante, L. A. Coloma, J. A. Consuegra, M. P. 
        L. Fogden, P. N. Foster, E. La Marca, K. L. Masters, A. Merino-
        Viteri, R. Puschendorf, S. R. Ron, G. A. Sanchez-Azofeifa, C. 
        J. Still, and B. E. Young. 2006. Widespread amphibian 
        extinctions from epidemic disease driven by global warming. 
        Nature 439:161-167.
Root, T. L., J. T. Price, K. R. Hall, S. H. Schneider, C. Rosenzweig, 
        and J. A. Pounds. 2003. Fingerprints of global warming on wild 
        animals and plants. Nature 421:57-60.
Schmidt, G. A., R. Ruedy, J. E. Hansen, I. Aleinov, N. Bell, M. Bauer, 
        S. Bauer, B. Cairns, V. Canuto, Y. Cheng, A. DelGenio, G. 
        Faluvegi, A. D. Friend, T. M. Hall, Y. Hu, M. Kelley, N. Y. 
        Kiang, D. Koch, A. A. Lacis, J. Lerner, K. K. Lo, R. L. Miller, 
        L. Nazarenko, V. Oinas, J. Perlwitz, D. Rind, A. Romanou, G. L. 
        Russell, M. Sato, D. T. Shindell, P. H. Stone, S. Sun, N. 
        Tausnev, D. Thresher, and M.-S. Yao. 2006. Present day 
        atmospheric simulations using GISS ModelE: Comparison to in-
        situ, satellite and reanalysis data. Journal of Climate 19:153-
        192.
Shibata, K., H. Yoshimura, M. Ohizumi, M. Hosaka, and M. Sugi. 1999. A 
        simulation of troposphere, stratosphere and mesosphere with an 
        MRI/JMA98 GCM. Papers in Meteorology and Geophysics 50:15-53.
Terray, L., S. Valcke, and A. Piacentini. 1998. OASIS 2.2 Guide and 
        Reference Manual. TR/CMGC/98-05, CERFACS, Toulouse, France.
Thomas, C. D., and J. J. Lennon. 1999. Birds extend their ranges 
        northwards. Nature 399:213.
Thuiller, W., S. Lavorel, M. B. Araujo, M. T. Sykes, and I. C. 
        Prentice. 2005. Climate change threats to plant diversity in 
        Europe. Proceedings of the National Academy of Science of the 
        United States of America 102:8245-8250.
Westerling, A. L., H. G. Hidalgo, D. R. Cayan, and T. W. Swetnam. 2006. 
        Warming and earlier spring increase western U.S. forest 
        wildfire activity. Science 313:940-943.
Yukimoto, S., and A. Noda. 2003. Improvements of the Meteorological 
        Research Institute global ocean-atmosphere coupled GCM (MRI-
        GCM2) and its climate sensitivity. CGER's Supercomputing 
        Activity Report. National Institute for Environmental Studies, 
        Ibaraki, 305-0053 Japan.
        [GRAPHIC] [TIFF OMITTED] 34670.001
        
        .eps[GRAPHIC] [TIFF OMITTED] 34670.002
        
        .eps[GRAPHIC] [TIFF OMITTED] 34670.003
        
        .eps[GRAPHIC] [TIFF OMITTED] 34670.004
        
                                 .eps__
                                 

            Response to questions submitted for the record 
                           by Dr. Josh Lawler

QUESTIONS FROM THE HONORABLE MADELEINE BORDALLO, CHAIRWOMAN
Your research predicting that most of the United States will experience 
        serious changes in animal communities is alarming. I was 
        particularly impressed by your prediction that in parts of the 
        Andes Mountains, Central America and the far northern boreal 
        forest and tundra regions future wildlife communities will bear 
        almost no resemblance to wildlife there today?
1.  Is there any scientific evidence indicating that similar kinds of 
        changes in species distribution have occurred within the same 
        time frame predicted by the different scenarios in your 
        research? Has the earth ever experienced something like this 
        before?
    Our models predict changes in wildlife communities over a 100-year 
period. Although the plants and animals of specific locations have 
changed dramatically in the past, these major changes generally have 
occurred over much longer time periods. However, it is impossible to 
know for certain because rapid changes cannot be detected by studying 
the fossil record. Rapid historic changes are known, but these can be 
clearly linked to human activities such hunting, land-use change, or 
the introduction of non-native predators. Examples of these changes 
include the extinction of the Australian and the North American 
megafauna. Regardless of whether similar changes have occurred in the 
past, the fish and wildlife of today will have more trouble responding 
to climate change. Because we have so dramatically altered the 
landscape and native habitats, species will have trouble moving in 
response to climate change and in many cases, there will be little 
undisturbed habitat into which to move.
2.  You note that a shifting climate will alter the spread of diseases 
        and pathogens which will further disrupt ecological 
        communities, and additionally, that human land-use changes will 
        further stress wildlife. Does this argue for the need to 
        develop a more holistic land planning strategy that up front 
        accounts for the needs of wildlife?
    Yes, the ecological changes set in motion by climate change will 
require new ways of approaching conservation and land management. To 
protect wildlife, it will be necessary to make management decisions at 
much larger spatial scales. It will require close cooperation across 
federal lands and federal agencies to organize both management 
strategies and land acquisitions. I have provided some more specific 
recommendations in my responses to Representative Kennedy s comments 
below.
QUESTIONS FROM THE HONORABLE DALE KILDEE
The recent IPCC report concludes that rising sea levels will have 
        negative consequences for wildlife and that essential wildlife 
        habitats in low-lying coastal areas may be at serious risk. 
        Yet, I am concerned about an opposite effect that reduced 
        precipitation and longer droughts brought about by a warming 
        climate might cause the water levels of the Great Lakes to drop 
        dramatically. This would have disastrous effects on the Great 
        Lakes themselves and on the economies and communities that 
        depend on, or lay along, the lakefronts.
1.  Under the various climate change models used to make predictions 
        about future conditions, can you tell me what is projected for 
        the Great Lakes? Will lake levels rise or fall? What can we 
        expect to see in changes to the composition, distribution and 
        abundance of wildlife and aquatic species?
    The Great Lakes are already changing in response to climate change 
and are expected to change more dramatically in the coming century (UCS 
and ESA 2005). The levels of the Great Lakes are predicted to decrease 
in response to evaporation from increasing temperatures and the 
concurrent lack of significant increase in precipitation. Reduced ice 
cover and increased frequency of heavy precipitation events and 
droughts are also predicted. Predicted increases in lake temperatures 
and loss of ice cover will likely result in reduced whitefish 
production in the lakes. In the Great Lakes region as a whole, 
increased water temperatures will mean reductions in lake trout, brook 
trout, walleye, and northern pike populations and potential increases 
in bluegill and smallmouth bass populations. Aquatic communities will 
be further changed as exotic species such as the common carp and native 
species to the south move into the Great Lakes region. Finally, longer 
periods of summer stratification may lead to increased oxygen depletion 
resulting in the formation of deep-water dead zones in some areas.
    Union of Concerned Scientists and Ecological Society of America. 
2005. Confronting Climate change in the Great Lakes Region.
QUESTIONS FROM THE HONORABLE PATRICK KENNEDY
Regardless of whether or not we take actions to control and reduce 
        green house gas emissions, wildlife and wildlife habitat and 
        the ocean environment are going to change and adapt, often 
        unpredictably, to a warming climate. Consequently, we should 
        take steps now to develop strategies to allow for the future 
        conservation of biodiversity and the maintenance of a healthy 
        and resilient environment.
2.  Keeping in mind that any transition to a new Green Economy will 
        take decades to achieve and that most Members of Congress will 
        want to limit unnecessary disruptions of social and economic 
        systems, can you be more specific on what practical types of 
        adaptive management strategies we should consider to mitigate 
        the negative effects of climate change on our collective 
        wildlife and ocean resources?
    There are several strategies that agencies can begin to adopt to 
address climate change. Below I list some of the more general 
strategies and a small sample of some of the more specific strategies 
that can be undertaken in specific ecological systems.
    General strategies:
    1.  Increase connectivity between protected lands (national parks, 
wildlife refuges, national forests, etc.) to allow species to move more 
easily in response to climate change.
    2.  Better coordinate management across protected lands within and 
between agencies.
    3.  Adopt adaptive management practices. The term adaptive 
management has a specific meaning in the ecological literature. The 
concept has been around quite a while and is not necessarily specific 
to addressing climate change. Adaptive management involves conducting 
management experiments and then altering management strategies based on 
the outcome of those experiments. It requires closely monitoring a 
system and potentially changing management approaches several times.
    4.  Monitor species and systems that are likely to be most 
sensitive to climate change. Some of the agencies (e.g., NPS) currently 
have monitoring programs in place, but others do not. These programs 
need to be expanded and they should target specific climate-sensitive 
species or systems.
    5.  Augment the current system of protected lands with additional 
lands that will protect species as systems change and species move. In 
some cases we have a good idea of where these lands will need to be, 
but in other cases, we do not. For example, as sea level rises, many 
estuaries and tidal marshes will be inundated. Entire wildlife refuges 
along the southeastern coast of the U.S. may be lost to rising sea 
levels. One strategy to provide habitat for the species in these 
refuges will be to secure land that is inland and adjacent to these 
refuges.
    6.  Educate land managers about the potential effects of climate 
change and distribute tools and techniques for addressing the changes 
they are likely to see.
    7.  Closely monitor for new invasive species that may move on to 
protected lands in response to climate change. Also, develop strategies 
for removing or containing new invasive species when they arrive.
    Examples of specific management practices:
    1.  Translocations may be necessary to preserve some plant and 
animal species that will lose substantial amounts of habitat as the 
climate changes.
    2.  Stream bank stabilization may be useful in areas that will see 
changes in flow regimes.
    3.  Restoring riparian vegetation for some streams may help reduce 
stream temperatures by shading.
    4.  In some cases, it may be most efficient to stop managing for 
the habitat of a species at the trailing edge of its current range and 
to transfer those management efforts to another area that is more 
likely to still provide suitable habitat or suitable climatic 
conditions in the future.
    5.  Dam removal may be necessary to allow cold-water fish to move 
upstream to cooler waters in response to increasing stream 
temperatures.
2.  Should we be doing more to re-evaluate our current policies for 
        land use planning and public acquisition of land for wildlife 
        habitat? Should we be adopting a broader landscape and 
        ecosystem-based approach for protecting wildlife?
    Yes, land-use planning and land acquisition for wildlife should be 
done with the potential effects of climate change in mind. It may be 
possible to acquire lands that will provide needed habitat for a 
species that is forced to move out of a current protected area. New 
land acquisitions may also be used to help connect current lands to 
allow species to move more successfully from one protected area to 
another as the climate changes.
3.  Finally, how might such ideas be applied to the ocean and coastal 
        environment and the wildlife therein?
    There are several things that can be done to begin to implement 
management strategies aimed at addressing climate change. First, I 
suggest establishing an interagency council that advises all federal 
agencies on climate change issues. The council would disseminate 
information, and coordinate research, monitoring, and land acquisition. 
Second, I suggest establishing a central data repository where federal 
scientists and managers can access the latest climate-change related 
data and studies. Finally, the agencies charged with managing wildlife 
or wildlife habitat will need substantial increases in their budgets to 
1) design and implement adaptive management experiments (see my 
definition of adaptive management above), 2) develop and implement 
extensive, targeted monitoring programs, 3) hire new staff with new 
skills and knowledge, 4) run models to assess the potential impacts of 
climate change (e.g., hydrological models, fire models, vegetation 
models, species distribution models), and 5) conduct regional training 
and planning workshops.
QUESTIONS FROM THE HONORABLE HENRY BROWN, MINORITY RANKING MEMBER
1.  When you reference your research you are mainly referring to 
        modeling various scenarios to project different outcomes on 
        animals, correct? While computer models have become more 
        sophisticated over the years they are not perfect predictors, 
        correct?
    The projected changes in animal distributions I have discussed are 
the results of modeling studies. No model is ever a perfect 
representation of reality, nor do models always produce perfect 
predictions. Nonetheless, models are incredibly useful tools. The 
general type of model used in our study is also used in medical 
research. For example, we rely on such models to predict disease risks.
2.  You make reference to using models that have accurately predicted 
        current ranges. My understanding is that this type of model 
        could lead to more accurate models of projected changes for the 
        future. However, we are still talking about predictions and 
        projections. Do you agree that there could be variables that 
        are not accounted for that could change the projected outcome?
    There is no guarantee that a prediction or projection from a model 
or an expert will come to fruition. This is true for any field, whether 
it be military strategy, economics, medicine, meteorology, or biology. 
Without predictions and projections, however, we would be extremely 
limited in our ability to plan for the future. The models used in our 
study use a comprehensive set of bioclimatic variables. Nonetheless, 
there are certain ecological relationships that are not directly 
modeled in our analyses. If these processes were directly modeled, it 
might change our projections for individual species and potentially our 
overall projections of local species loss and turnover. However, our 
models produce conservative estimates because they don t account for 
many of these other factors. If we were to take some of these other 
ecological factors were taken into account, it is likely that our 
estimates of turnover would be higher.
3.  What do you mean when you say species turnover? Is this code for 
        species extinction or does it refer more to species movement?
    In the context of my analyses, species turnover refers to the 
change in local species composition, not to extinctions. There is more 
uncertainty involved with predicting extinctions and thus I have chosen 
to predict changes due to predicted range contractions and expansions 
instead. Many of the species predicted to be lost from one area are 
predicted to potentially be able to inhabit other, new areas. The 
ability of species to move into these areas will, however, be limited 
by their dispersal abilities and by the types of landscapes they have 
to move through.
4.  A key to models accurately predicting future climate changes or 
        species movement is for the model to accurately predict past 
        changes. Have any of your models accurately produced past 
        range-shifts in species?
    I have not tested my models using historic distribution data, 
largely because these data do not exist for most of the species in 
mystudy. There are several ways to test a model. The best way is to use 
a completely independent data set. These data generally have to be from 
a different location or from a different time period. Unfortunately 
even data from the past are not completely independent as they are 
temporally correlated. Nonetheless, testing a model by predicting past 
distributions is likely to provide a better assessment of model 
accuracy than testing a model using less independent data sources. It 
is important to note, however, that accurately predicting past trends 
does not assure that a model will accurately predict future trends.
5.  In your written testimony you discuss species niche modeling. A 
        recent article in the scientific journal of Bioscience (March 
        2007 Vol. 57 No. 3) states that niche-theory models are 
        difficult to validate. The article references one of your works 
        of species niche modeling, specifically Lawler, et al. 2006, 
        stating that six approaches to modeling the effects of global 
        warming on fauna were compared; however, the models were not 
        independently validated. It goes on to say that the inherent 
        variability of niche modeling can overestimate the probability 
        of extinction. How can we trust your modeling techniques over 
        other model predictions if they were not independently 
        validated?
    Validating predictions of future conditions provides a unique 
challenge. Ideally, bioclimatic models should be tested with completely 
independent datasets. One option is to use data that is from outside 
the study region. When modelling large spatial extents, these 
independent datasets are difficult to obtain. Many species are limited 
to a single continent or a single hemisphere, and those that are more 
widely distributed often occur as invasive or exotic species and hence 
their new ranges are rarely fully realized. An alternative approach is 
to use historic data to test model projections. Historic data are 
likewise only available for a few species in specific locations.
    Our models have been validated with a semi-independent dataset. In 
this study, we used a method of model validation that has been called 
data splitting (Araujo et al. 2005). It is a semi-independent form of 
validation in which a portion of the dataset is reserved before model 
building and set aside for model testing. Due to spatial 
autocorrelation, this approach does not provide truly independent model 
validation. Fortunately, there is evidence that model assessments based 
on semi-independent data-splitting approaches can provide results that 
are similar to those attained using more independent data sources. 
Araujo et al. (2005) found that model assessments using a data-
splitting approach provided more optimistic estimates of model 
performance than did assessments using more independent, historic data 
sets. However, for the best performing niche-modelling approaches, the 
differences in performance based on the two assessments were relatively 
small. Furthermore, for the 116 bird species used in the study 
performed by Araujo et al., there were moderate to strong correlations 
between the accuracy values produced by the more and less independent 
assessments, particularly for the more accurate modelling approaches. 
Thus, the models that performed best when tested with the semi-
independent reserved data set were also generally the models that 
performed best when tested on the more independent historic data set.
    It is true that the uncertainty in niche modeling can lead to over 
estimates of extinctions. It can likewise lead to underestimates of 
extinctions. We, however, did not attempt to estimate extinction rates 
precisely because there are more uncertainties involved with such 
estimates than with the estimates of future local loss and turnover 
that we have produced.
    Araujo, M. B., Pearson, R. G., Thuiller, W. & Erhard, M. Validation 
of species climate impact models under climate change. Global Change 
Biol. 11, 1504-1513 (2005).
6.  How accurate is the Intergovernmental Panel on Climate Change 
        statement that 20 to 30 percent of plant and animal species are 
        at risk of extinction?
    The IPCC (2007) report cited published research from Thomas et al. 
(2004). Although we cannot test these predictions and thus cannot 
provide an estimate of their accuracy, we have already begun to see 
extinctions that can be attributed to recent climate change. For 
example, climate change has caused the extinction of 75 amphibian 
species in Costa Rica (Pounds et al. 2006). Because the predicted 
future changes in climate are far great than the changes we have 
witnessed in the past 100 years, we can expect even more climate-driven 
extinctions in the future.
    Intergovernmental Panel on Climate Change (IPCC). 2007. Climate 
Change 2007: Impacts, Adaptation, and Vulnerability. Cambridge 
University Press, Cambridge, UK.
    Pounds, J.A., M.R. Bustamante, L.A. Coloma, J.A. Consuegra, M.P.L. 
Fogden, P.N. Foster, E. La Marca, K.L. Masters, A. Merino-Viteri, R. 
Puschendorf, S.R. Ron, G.A. Sanchez-Azofeifa, C.J. Still, and B.E. 
Young. 2006. Widespread amphibian extinctions from epidemic disease 
driven by global warming. Nature 439: 161-167.
    Thomas C.D., A. Cameron, R.E. Green, M. Bakkenes, L.J. Beaumont, 
Y.C. Collingham, B.F. Erasmus, M.F. De Siqueira, A. Grainger, L. 
Hannah, L. Hughes, B. Huntley, A.S. Van Jaarsveld, G.F. Midgley, L. 
Miles, M.A. Ortega-Huerta, A.T. Peterson, O.L. Phillips, and S.E. 
Williams. 2004. Extinction risk from climate change. Nature 427: 145-
148.
7.  One could say we are experiencing an extended drought with a number 
        of related impacts; increased insect and disease levels, higher 
        tree mortality, more and larger fires, etc. Perhaps that 
        drought is the result of global warming or perhaps not. Can 
        you, Dr. Lawler, tell the difference?
    It is not possible to tell whether any one weather event is the 
result of climate change. However, it is possible to link trends with 
predicted changes in climate. We are starting to see trends in fire 
size and severity, the variability in precipitation and temperature, 
and extreme temperature events, that are consistent with predicted 
changes in climate.
8.  Also, over the millennium, climate change has affected forests 
        dramatically---tropical forest fossil exist under glaciers 
        today. What is different now from those previous climate 
        changes in regards to plant succession (long before human 
        influence)---were those changes good or bad?---and why are they 
        considered good or bad today?
    The main difference between past climate-driven vegetation shifts 
and those that are likely to result from predicted future climatic 
changes is that the changes in the past have occurred over much longer 
time periods. We are expecting to see dramatic changes in plant and 
animal distributions in the coming century as opposed to changes over 
thousands to millions of years. Another difference is that landscapes 
of today are fragmented by agriculture and development. In the past, 
species could much more freely move across continents in response to 
climate change. Because we have so dramatically altered landscapes and 
native habitats, species will have trouble moving in response to 
climate change and, in many cases, there will be little undisturbed 
habitat into which to move.
    Changes in climate or species distributions are, of course, only 
good or bad from a particular perspective. There will be negative 
economic effects from lost coastal property, increased storm and flood 
damage, drought impacts, insect infestations, and new weeds and other 
crop pests. There may be economic benefits in some areas in which 
agricultural production benefits from increased temperatures or 
increased precipitation. With respect to wildlife, those that value 
biological diversity, ecosystem services (such as clean water, hunting, 
seafood), and wildlife in general, will see the predicted impacts on 
ecological systems as negative.
9.  What has happened to plant species mix in previous warming cycles? 
        And what happens to species mix and plant succession? What do 
        fossil records show?
    Pollen records indicate that warm periods and glacial periods 
caused vegetation to shift latitudinally across vast parts of the 
globe. For North America, see Davis and Shaw (2001).
    Davis, M.B. and R.G. Shaw. 2001. Range shifts and adaptive 
responses to Quaternary climate change. Science 292: 673-679.
10.  Is the statement by the current issue of Newsweek accurate that 
        Coal is the cheapest and dirtiest source of energy around. If 
        we cannot get a handle on the coal problem, nothing else 
        matters?
    This question is outside the realm of my expertise.
11.  How accurate are the computer modeling techniques used to by the 
        Intergovernmental Panel on Climate Change (IPCC) to predict the 
        earth s climate change? What specific climate changes were 
        accurately predicted by the IPCC models or other climate 
        computer models?
    There is a high level of confidence in the projections of the 
general circulation models used in the IPCC reports. These models are 
based on accepted physical principles and the models have been well 
refined over time. The models do a good job of correctly predicting 
past climatic events. For example, they simulated the warming of the 
mid-Holocene and the last glacial maximum. The also correctly capture 
more recent events such as cooling resulting from four major volcanic 
eruptions in the 20th century (Satna Maria, Agung, El Chichon, and 
Pinatubo). For a more comprehensive review please see Randall et al. 
(2007).
    Randall, D.A., R.A. Wood, S. Bony, R. Colman, T. Fichefet, J. Fyfe, 
V. Kattsov, A. Pitman, J. Shukla, J. Srinivasan, R.J. Stouffer, A. 
Sumi, and K.E. Taylor. 2007. Climate Models and Their Evaluation. In 
Intergovernmental Panel on Climate Change (IPCC). 2007a. Climate Change 
2007: The Physical Science Basis. Cambridge University Press, 
Cambridge, UK.
12.  Some scientists believe that changing land use practices have 
        actually increased the carbon absorption of Northern Hemisphere 
        forests. Can additional actions be taken to increase 
        terrestrial carbon sequestration?
    This question is somewhat outside of my realm of expertise, I refer 
you to the IPCC report on mitigation (IPCC 2007).
    Intergovernmental Panel on Climate Change (IPCC). 2007. Climate 
Change 2007: Mitigation. Cambridge University Press, Cambridge, UK.
13.  How promising are the artificial carbon sequestration techniques 
        which would capture carbon dioxide and inject it deep into the 
        ocean or in declining oil fields, saline aquifers, or unminable 
        coal seams?
    This question is outside the realm of my expertise.
14.  Do you or have you (or your organization) received any funding 
        from the Pew Charitable Trust or the David and Lucille Packard 
        Foundation? If so, please elaborate.
    I have not received any funding from either the Pew Charitable 
Trust or the David and Lucille Packard Foundation.
15.  Are you currently a party to any law suit against the Department 
        of the Interior or the Department of Commerce (or any of the 
        agencies within these departments)? If so, please describe.
    I am not currently involved in any lawsuits.
QUESTIONS FROM THE HONORABLE WAYNE GILCHREST
1.  If paleo-records show that corals existed in the past under high 
        atmospheric CO<INF>2</INF> concentrations, why is it a problem 
        now?
    This question is outside my realm of expertise.
2.  Among the various effects of climate change to wildlife and the 
        oceans, are there issues that are more pressing than the 
        others? Why?
    There are definitely some systems and some species that are at 
higher risk of being adversely affected by climate change than are 
others. For example, low-lying coastal areas, particularly coastal 
marshes will be highly susceptible to loss and change driven by rising 
sea levels. High elevation, alpine habitats will be lost as 
temperatures rise and tree lines continue to move upward. 
Precipitation-fed wetlands will be particularly vulnerable to increased 
evaporation driven by increased temperatures. Wetlands and ponds in 
Alaska are already drying and draining due to melting permafrost. The 
fish and wildlife species in these and other highly sensitive habitats 
will often be the first to be affected by climate change. To protect 
these species, it may be necessary to first concentrate our efforts on 
the most sensitive systems, keeping in mind that it will be difficult, 
if not impossible, to address change in some systems.
3.  In the U.S., as plant and animal species migrate north and to 
        higher elevations, what does that mean for the regions they 
        leave behind? For instance, it has been said that some U.S. 
        states that border Canada might actually benefit from the next 
        few decades of climate change, but what will it mean for the 
        states further to the South, and especially those on the coast?
    Some areas will likely see an influx of species as species move in 
response to climate change. High elevations and the high latitudes will 
likely be colonized by new species. These new additions have the 
potential to greatly change the systems into which they move. The 
southern states are particularly vulnerable to invasion by species that 
have not yet been seen in the U.S. that will move north from Central 
and South America. Some of these species will potentially be crop pests 
or weeds. Because we have not had them in the U.S. before, we will not 
have established methods for dealing with them. At the northern border 
with Canada, climate change will likely drive some species over the 
boarder meaning that some of our natural heritage and wildlife 
resources will be lost to the north.
4.  How do shifts in habitat range of plants and animals affect human 
        interests such as agriculture or the spread of invasive species 
        and diseases? How can we adaptively plan for such changes?
    As species move in response to climate change, there will be new 
invasive species, new crop pests and pathogens, and new disease 
introduced both locally and nationally as species move to new states 
and into the U.S. from Central and South America. We have already seen 
shifts in the distributions of some forest pests such as the mountain 
pine beetle (Logan et al. 2001). Continued increases in winter 
temperatures may allow the beetle to spread across northern Canada and 
down into the eastern U.S. If this spread occurs, pine forests in the 
east that have not historically been exposed to this beetle will be 
vulnerable to attack.
    The best way to reduce new invasions is to reduce greenhouse-gas 
emissions. However, given that we are already committed to significant 
future changes in climate, it will be necessary to develop other 
methods for addressing moving pests, pathogens, and diseases. Because 
it is often most feasible to address pests and diseases when they are 
in low abundance, it is necessary to detect invasive species and new 
diseases as early as possible. Early detection will require predictive 
modeling and targeted monitoring. The modeling can be used to determine 
which areas of the country will be most susceptible to which pests and 
diseases and the monitoring can be used to detect when and if those 
organisms arrive in an area. Modeling can also help predict which new 
diseases and pathogens might move into the U.S. from South and Central 
America. We can then begin to adopt and develop eradication or control 
measures for these species before they arrive.
    Logan, J. A., and J. A. Powell. 2001. Ghost forests, global 
warming, and the mountain pine beetle (Coleoptera: Scolytidae). 
American Entomologist 47:160-167.
5.  The IPCC reports with 80% certainty that the changes in water 
        temperatures, ice cover, salinity and ocean circulation are 
        impacting the ranges and migration patterns of aquatic 
        organisms. How will this affect management and use of these 
        resources, and how can we prepare for any changes?
    This question is outside the realm of my expertise.
6.  In the Chesapeake Bay, we are losing marshland to rising sea 
        levels. Can you talk about what is happening to coastal wetland 
        areas in other areas of the country and what that is doing to 
        their ecosystems and the local economies that depend upon these 
        natural resources?
    Along the mid-Atlantic coast, the highest rate of wetland loss is 
indeed in the center of the Chesapeake Bay region of Maryland. The 
Blackwater National Wildlife Refuge has lost 7,907 acres of marsh over 
the past 60 years (approximately 130 acres per year). Models predict 
that in 50 years continued sea-level rise in conjunction with global 
climate change will completely inundate existing marshes (Larsen et 
al., 2004). Substantial loss of wetlands and marshes is also occurring 
along the Gulf Coast. In Louisiana, sea-level rise in conjunction with 
high rates of subsidence, economic growth, and hurricanes has 
contributed to an annual loss of nearly 25,000 acres of wetlands, even 
prior to Hurricane Katrina (Erwin et al., 2004). The southeast coast is 
another region that is particularly susceptible to the loss of wetlands 
and marshes due to sea-level rise.
    The National Wildlife Refuge System is particularly threatened by 
sea-level rise as many of the refuges are on low-lying coastal marshes, 
estuaries, or wetlands. Some of the most vulnerable refuges include the 
Chincoteague National Wildlife Refuge, on the Delmarva Peninsula, the 
Alligator River National Wildlife Refuge on the Albemarle Peninsula of 
North Carolina, and the Merritt Island National Wildlife Refuge in 
Florida. In fact, many of the refuges in New England, the Middle 
Atlantic states, North Carolina, and Florida are coastal and 
susceptible to sea-level rise. For many of these refuges, seal-level 
rise will drastically alter habitat by inundating estuaries and marshes 
and converting forests to marshes. Beach-nesting birds such as the 
Piping Plover, migratory birds using the refuges as stopovers, and 
species using low-lying habitats such as the red wolf and Florida 
panther will likely lose habitat to sea-level rise (Schyler 2006).
    Loss of coastal marshes and wetlands will have substantial impacts 
on fishing and particularly shellfish harvesting economies. These 
wetlands act as nurseries for many marine species, not just those that 
are harvested from the marshes themselves. These impacts will likely 
affect coastal communities in the Mid-Atlantic states, the southeastern 
U.S., and the gulf states the hardest.
    Erwin, R. M., G. M. Sanders, and D. J. Prosser, 2004: Changes in 
lagoonal marsh morphology at selected northeastern Atlantic coast sites 
of significance to migratory waterbirds. Wetlands, 24(4), 891-903.
    Larsen, C., I. Clark, G. Guntenspergen, D. Cahoon, V. Caruso, C. 
Hupp, and T. Yanosky, 2004: The Blackwater NWR Inundation Model. Rising 
Sea Level on a Low-lying Coast: Land Use Planning for Wetlands. U.S. 
Geological Survey, Reston, VA.
    Schlyer, K., 2006: Refuges at Risk, the Threat of Global Warming. 
Defenders of Wildlife, Washington, D.C.
7.  What role do marshlands play in sequestering carbon? Is marsh 
        restoration a viable alternative in carbon sequestration?
    Although this is not my area of expertise, I can provide a quick 
answer. Wetlands contain 10% of the carbon contained in all the plants 
and soil of the world (IPCC 2001), mainly in soil. However, wetlands 
also emit approximately 20% of all methane, a greenhouse gas more 
potent than carbon dioxide, from human and natural sources (IPCC 2007). 
Thus, they also contribute to greenhouse-gas emissions. In some areas 
(temperate and tropical areas) the effect of carbon sequestration is 
predicted to be larger than the effect of methane emissions. Thus, the 
conservation and restoration of marshes can sequester globally 
significant amount of carbon and help attenuate climate change in the 
much of the U.S.
    Intergovernmental Panel on Climate Change (IPCC). 2001. Climate 
Change 2001: The Scientific Basis. Cambridge University Press, 
Cambridge, UK.
    Intergovernmental Panel on Climate Change (IPCC). 2007. Climate 
Change 2007: The Physical Science Basis. Cambridge University Press, 
Cambridge, UK.
8.  The latest IPCC report warns that ocean acidification poses a 
        threat to coral reefs and shell-forming organisms that form the 
        base of the aquatic food chain. But the report says more study 
        is needed to determine the full scope of the threat. What do we 
        know about the potential impacts to U.S. coastal ecosystems 
        today and how quickly is our understanding of acidification 
        improving? What can Congress do to improve upon this 
        understanding? Do we know enough to act?
    This question is outside my realm of expertise.
9.  What additional resources or tools will the Fish and Wildlife 
        Service and National Marine Fisheries Service need to 
        adequately prepare and address the impacts of global warming on 
        wildlife over the next decade?
    Both the FWS and NMFS will need additional resources to address the 
impacts of climate change. I have provided a list of some of the 
general and more specific tools and strategies that will be needed in 
my responses to Representative Kennedy above.
10.  We ve heard a lot about the polar bear and the petition to list 
        the species under the Endangered Species Act (ESA). Opponents 
        of listing claim that the effects of global warming are in fact 
        unclear. What evidence is there that global warming is already 
        having a dramatic effect on the species across its range? How 
        will an ESA listing help polar bears?
    The major threat to the polar bear is the loss of sea-ice habitat 
due to increasing temperatures. Loss of sea ice means that the bears 
spend more time on land and are unable to hunt seals and other high 
quality prey items. There have been clear losses in sea-ice cover and 
these losses can be linked to changes in polar bear distributions, 
reductions in polar bear body condition, reproductive rates, and cub 
survival. The loss of sea ice means that some bears have been stranded 
on flows and are unable to get back to their primary habitat. Others 
have been seen swimming long distances to reach sea ice. More 
information on the listing can be found at: http://alaska.fws.gov/
fisheries/mmm/polarbear/pdf/Polarbear_proposed_rule.pdf
    The listing of the polar will reduce some of the other stresses, 
such as harvest, on polar bear populations. The fact that polar bears 
will be spending more time on land will likely mean there will be more 
interactions with humans. An ESA listing will help protect the bears in 
these cases.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Lawler.
    I now recognize Dr. Terry Root to testify for five minutes.

   STATEMENT OF TERRY ROOT, Ph.D., CENTER FOR ENVIRONMENTAL 
            SCIENCE AND POLICY, STANFORD UNIVERSITY

    Dr. Root. Madam Chairwoman and Members of the Subcommittee, 
I am Terry Root from Stanford University, and I also am a lead 
author in previous IPCC works, the Intergovernmental Panel for 
Climate Change, and the one that was just released on April 6.
    Now, the globe is warming at an escalating rate. Plants and 
animals on all continents are already exhibiting four different 
types of changes. These include, first, species extending their 
range boundaries north in the U.S. and up in elevation; second, 
species shifting the timing of various spring events; the third 
is a lot of different kind of small studies that have been 
done, so it is kind of a catchall group; and fourth is local or 
global extinction.
    Now what I would like to do is go through three of these 
changes in more detail. First is the change in ranges. The 
movement of species forced by rapidly rising temperatures are 
frequently slowed and often blocked by other human-made 
stresses like land use change. This means individuals moving 
north or up in elevation have to navigate around, over or 
across freeways, agricultural area, industries parks and 
cities.
    Additionally, species have been found to move at different 
rates and directions. Such independent shifting will most 
likely result in a tearing apart of communities, natural 
communities, thereby disturbing biotic interactions such as 
predator/prey relationships.
    The second type of change is a change in timing. Species 
are already shifting the timing of various events occurring in 
the spring, such as frogs breeding earlier or the cherry 
blossoms that are blooming here in Washington, D.C.
    Over the last 30 to 40 years, around 115 species that I was 
able to find in the literature, and this is plants and animals 
together; these are from locations around the globe, were found 
to be changing the timing of a spring event earlier by about 
five days per decade, so that is 15 days over the 30 years that 
they have already changed.
    I would like to talk about the last, which is the local and 
global extinctions. This can occur when species cannot move as 
the temperature increases due to either lack of available 
habitat or the inability to access it. These species are called 
functionally extinct because without human assistance the 
probability of extinction is quite high.
    The money, land, personnel and political will are just not 
available right now for such endeavors. Consequently, many 
scientists predict that we are standing at the brink of a mass 
extinction that would be caused by one very careless species.
    Roughly 20 to 30 percent of species assessed thus far are 
likely to be at an increasingly high risk of extinction if the 
global mean temperature exceeds two to three degrees C above 
preindustrial, and that is just 1.3 to 2.3 degrees C above what 
we are right now.
    Given that there are around 1.7 million identified species 
on the globe, somewhere between 340,000 and 570,000 species 
could actually go extinct primarily due to our negligence.
    The need for species to move as temperatures increase could 
cause wildlife managers to face a number of novel challenges 
over the next several decades. An adaptation strategy for 
managers is to reduce and manage other stresses such as habitat 
fragmentation and pollution and the like.
    To date, preservation practices infrequently address rapid 
climate change. Effective adaptive responses are likely to be 
costly to implement, but nonimplementation could easily cost 
more through both dollars and in species.
    Species currently protected on national lands could easily 
move to less protected lands that may not be conducive to 
protecting the species anymore. Reliable forecasting of 
possible responses of species can be invaluable to managers 
because then appropriate management practices may be designed 
proactively.
    Thank you.
    [The prepared statement of Dr. Root follows:]

    Statement of Terry L. Root, Senior Fellow--University Faculty, 
                          Stanford University

    Over the last 100 years, the average global surface temperature has 
warmed approximately 0.7oC (1.4oF) and is projected to rise at an 
increasing rate over the next century. This rate of warming is 
significantly larger than the rate of sustained global warming over the 
6,000 years or so that it took for the globe to warm about 6oC from the 
last ice age to our current warm interglacial period. That temperature 
transition, which occurred about 12,000 to 18,000 years ago, 
represented a warming rate of about 1oC (1.8oF) per thousand years. 
Extrapolating out the more recent warming trend to a comparable 1000 
years, we see that a 7oC/1000 years raise in temperature is some 7 
times faster than in the last 18,000 years. As the planet continues to 
warm, the rate will continue to escalate.
    A primary concern about wild species and their ecosystems is 
currently they are not only having to adapt to warm temperatures, but 
they are also having to cope with the most rapid rate of temperature 
increase in the last 18,000 years. Additionally, in the pre-historic 
past, plants and animals were not under stressed due to other human-
caused problems: pollution, land-use change, invasive species, and 
others. Today the synergistic effects of these stresses combined with 
rapid warming are greatly influencing the resilience (ability to return 
to the same condition after a stress) of many species, communities and 
ecosystems. What is concerning is that very noticeable changes have 
been measured in species over the last 30 to 40 years during which the 
global temperature increased around 0.5oC. Yet, the Summary for Policy 
Makers of Working Group I of the Fourth Assessment Report of the IPCC 
explained that the global temperature could rise as much as 6.4oC and 
even beyond if we stay on the energy path we are currently traveling. 
It is highly likely that all but a few species and ecosystems will be 
able to adapt to that amount of temperature change.
    By 2100 the resilience of many ecosystems is likely to be exceeded 
by an unprecedented combination of change in climate, associated 
disturbances (e.g., wildfire, insects), and other changes happening 
globally, such as land-use change, over exploitation of resources, 
invasive species, pollution (high confidence). Key ecosystem 
properties, (e.g. biodiversity), or regulating services, (e.g. carbon 
sequestration), are very likely to become impaired. When ecosystem 
resilience is exceeded, the response will very likely be characterized 
by threshold-type responses, some irreversible on time-scales relevant 
to human society (e.g., such as disruption of species' ecological 
interactions and major changes in ecosystem structure and disturbance 
regimes--especially wildfire and insects), and the loss of biodiversity 
through extinction being irreversible on any time scale.
    With rapid warming, ecosystems and species are very likely to show 
a wide range of vulnerabilities that depend on imminence of exposure to 
ecosystem-specific, critical thresholds (very high confidence). The 
most vulnerable ecosystems include coral reefs, the sea ice biome and 
other high latitude ecosystems (e.g. boreal forests), mountain 
ecosystems and Mediterranean-climate ecosystems (high confidence). The 
least vulnerable ecosystems include savannas and species-poor deserts, 
but this assessment is especially subject to uncertainty relating to 
the CO<INF>2</INF> fertilization effect and disturbance regimes such as 
fire (low confidence).
    Since the Third Assessment Report we have many more studies 
analyzing the changes in the flora and fauna over longer time series. A 
notable number of wild animals and plants on all continents are already 
exhibiting discernible changes in response to regional climatic 
changes. This is as we expected, because temperature is central to the 
lives of all living organisms. Many plants and animals have and will 
probably continue to adjust in several ways, including: 1) shifts in 
the densities of populations of species either by extending their range 
boundaries both toward the poles (e.g., North in the US) and up in 
elevation, or populations numbers shifting from one portion of their 
range to another (e.g., the center of the abundance pattern moving up 
in elevation), 2), shifting in the timing (i.e., phenology) of various 
events occurring in spring, which is quit common, or autumn, which is 
less common, 3) changes in the genetic, behavioral, morphometrics 
(e.g., body size or egg size), or other biological parameters, and 4) 
local extinction or global extinction, the latter of which is 
irreversible at any time scale.
Changes In Ranges And Shifting Densities
    As the globe warms we find that species in North America are 
extending their ranges north and up in elevation, because habitats in 
these areas have now warmed sufficiently to allow colonization. The 
movements (dispersal) of species forced by rapidly rising temperatures, 
however, are frequently slowed and often blocked by numerous other 
human-made stresses, such as land-use changes, invasive species and 
pollution. Consequently, individuals that are moving north or up in 
elevation have to navigate around, over or across freeways, 
agricultural areas, industrial parks, and cities.
    Species near the poleward side of continents (e. g., South Africa's 
fynbos) will have no habitats into which they can disperse as their 
habitat warms. The same is true for species living near the tops of 
mountains. Additionally, species living in these areas will be further 
stressed by species from farther inland or farther down the mountain 
moving into their habitats. Because of the heat stress and the new 
species with which they must interact, many species currently on 
islands, on the poleward side of continents and near the tops of 
mountains could go extinct unless humans move them to another location 
and make sure they survive there.
    The need for species to track certain temperatures could cause 
wildlife managers to face a number of novel challenges over the next 
several decades. To date, preservation practices are generally ill 
prepared to deal with the challenges of rapid climate change and 
effective adaptation responses are likely to be costly to implement. 
For example, at least some managed species or species of concern will 
need to move as the globe warms. This could easily mean that many 
species currently protected in wildlife refuges or national parks could 
easily need to disperse to new habitats on less protected lands. These 
new habitats occupied by these previously managed species and species 
of concern may not be conducive to protecting species. This is 
certainly a very likely problem that needs some advance thought and 
planning.
    Throughout pre-historic and more recent times, species have been 
found to move independently from other species in their community or 
ecosystem; species move at different rates and directions, depending on 
their unique metabolic, physiological and other requirements. This 
independent movement, will probably become increasingly evident the 
higher the temperature becomes. Such differential movement could result 
in a disruption of the connectedness among many species in current 
communities. This could cause a tearing apart of communities, which 
could disrupt biotic interactions such as predator-prey relationships. 
For example, if the range of a predator shifts and the range of its 
prey does not, a population balance becomes disrupted--a perceived 
benefit if the prey is an endangered species. If, however, the prey is 
a food-crop pest, then humans could certainly see the increase in its 
population as detrimental.
    Disruption of biotic interactions could jeopardize the 
sustainability of ecosystem services on which we rely and could also 
lead to numerous extinctions. Substantial changes in the structure and 
functioning of terrestrial and marine ecosystems are very likely to 
occur with warming of 2 to 3+C above pre-industrial levels and 
associated increased atmospheric CO<INF>2</INF> (high confidence). 
Major biome changes, such as emergence of novel biomes, and changes in 
species' ecological interactions, with predominantly negative 
consequences for goods and services, are very likely by, and virtually 
certain beyond those temperature increases.
    Progressive acidification of oceans due to increasing atmospheric 
carbon dioxide is expected to have negative impacts on marine shell-
forming organisms (e.g., corals) and their dependent species. Indeed, 
by 2100 ocean pH is very likely to be lower than during the last 20 
million years.
Changes in Timing
    Another change that has been already seen occurring in species on 
every continent is shifting in the timing (i.e., phenology) of various 
events primarily occurring in spring but also to some extent in the 
autumn, such as frogs breeding earlier, cherry blossoms blooming 
earlier and leaves turning color later. Over the last 30 years, around 
115 species (plants and animals together) from locations around the 
globe were found to be changing the timing of a spring event earlier by 
around 5 days per decade. Only 6 out of the 115 species (5%) showed a 
later change in timing of their spring events (Fig 1).
[GRAPHIC] [TIFF OMITTED] 34670.005

    .epsRapid phenological changes of species could be problematic. For 
example, farmers may need to respond to warming by changing the timing 
of their planting and even the type of crop grown. Either of these 
changes could allow an insect, which was previously limited by the 
availability of food, the ability to grow in population size. If the 
insect feeds on the nectar from the flowers of the crop, then the 
farmer could benefit from the crops being pollinated. If, however, the 
insect feeds on the tissue of the crop plant, then the larger insect 
population could be a detriment.
Changes in Genetics, Behavior, and Other Traits
    Studies investigating how rapidly warming temperatures are 
affecting genetics, behavior and other species' traits are relatively 
uncommon thus far, but the findings are significant. For example, a 
behavioral change associated with global warming is the foraging habits 
of polar bears. As the globe has warmed, these bears are increasingly 
foraging by necessity in garbage dumps. Bears normally hunt seals, but 
capturing seals requires bears to be standing on sea ice. With global 
warming the ice is thinning and melting earlier in the spring and 
freezing later in the fall. Both the type of food and quantity are no 
longer sufficient to sustain the previous number of bears. Hence, the 
population size of these bears has dropped. Additionally, other animals 
that depend on the polar bear as a keystone species (e.g., arctic fox 
and ivory gull) may also be in significant trouble as the bears catch 
fewer seals, leaving fewer carcasses on the ice for these other 
scavengers.
    Another example is a North American mosquito. When the days become 
a certain length, it goes into dormancy. But what determines the length 
of the day that triggers the dormancy is genetically controlled. With 
global warming the habitats where this mosquito is found are staying 
warmer longer in the fall, which means shorter day are warmer. Now the 
genetic control of the day-length trigger has changed to a shorter day 
length.
Extirpation and Extinction
    The escalating rise in average global temperatures over the past 
century has put numerous species in danger of extinction. 
``Functionally extinct'' species, or species we can anticipate to be 
very highly likely to go extinct, include those that cannot move to a 
different location as the temperature increases due to either lack of 
available habitat or the inability to access it. Without human 
assistance the probability of extinction is quite high. For example, 
pikas are currently living in the Rocky Mountains where the ambient 
temperature is quite close to the maximum this small mammal can endure. 
Moving up in elevation to cooler regions is not possible because the 
stony habitat needed by pikas is generally not available higher up on 
mountains. Another example is a subspecies of a checkerspot butterfly 
in Baja California. It will probably go extinct in the near future 
because it too has a low tolerance to hot temperatures, but cannot 
shift in to cooler regions because Tijuana and San Diego are blocking 
its way.
    Money, land, personnel, or political will are not available for 
such endeavors to occur, and also absent is the long-term commitment to 
translocate even half of the functionally extinct species we know of 
today. Consequently, many scientists predict that we are standing at 
the brink of a mass extinction that would be caused by one very 
careless species.
    Roughly 20-30% (varying among regional biotas from 1% to 80%) of 
species assessed so far (in an unbiased sample) are likely to be at 
increasingly high risk of extinction if global mean temperatures exceed 
2-3+C above pre-industrial temperatures (1.3-2.3o C above current) 
(medium confidence). For example, with warming of 2.8+C above pre-
industrial, sea ice declines according to some projections causing 
polar bears to face a high risk of extinction in the wild, which could 
increase the risk extinction of species relying on polar bears (e.g., 
Ross gull eating seal-kill leftovers). Other ice-dependent species, not 
only in the Arctic but also in the Antarctic, are facing similar 
situations. Given that there are around 1.7 million identified species 
on the globe, somewhere between 340,000 and 570,000 species could go 
extinct primarily due to our negligence. Extinctions are virtually 
certain to reduce societal options for adaptation responses.
Future Projection for Wild Plants and Animals
    A primary adaptation strategy to climate change and even current 
climate variability available to managers is to reduce and manage other 
stresses on species and ecosystems, such as habitat fragmentation and 
destruction, overexploitation, eutrophication, desertification and 
acidification. Significant disturbances to wild habitats, including 
extractive use and fragmentation, are very likely to impair species' 
adaptation.
    Given our observations of what has happened to species under 
different external pressures, whether they are natural or human caused, 
we are able to predict what might happen to species under a variety of 
changes. Indeed, predicting the ecological consequences of species 
based on pressures that actually happened may validate these forecasts. 
Reliable forecasting of responses of species can be invaluable to 
managers and policy makers, because it could help prevent negative 
surprises in one of two main ways. The first is by indicating which 
change is most likely to occur, thereby indicating what management 
practice(s) are needed to help avert negative surprises. The second is 
for those changes that cannot be managed effectively be well 
understood, making us better prepared for the incipient changes.
The Cause of the Rapid Warming
    Species can be used to help understand what may be causing the 
climate to change so dramatically. Many studies have been done showing 
that several species are shifting the timing of various spring events. 
These trends have been associated with the trend in observed 
temperatures around the location where the species were studied. These 
two trends can be correlated with each other to quantify the strength 
of the relationship.
    To determine if humans are having a measurable influence in the 
increasing temperatures, models need to be used. For the same locations 
and the same time periods that the species data were collected, 
temperatures were modeled (using HADGM3) in three different ways. 
First, only natural factors that cause the climate to change (e.g., 
sunspots, volcanic eruptions) are included in the model. Second only 
human factors that influence the climate are included (e.g., greenhouse 
gases, particulates). Finally, the model is run with both of these 
types of factors combined. These three different types of modeled 
temperatures are determined for all the species recorded at various 
locations around the northern hemisphere (southern hemisphere studies 
of species trends are rare) for the same years of each of the 
particular studies.
    The trends for each species at each location are compared 
separately to the trends of the observed temperatures, the trends of 
modeled temperatures with only natural forcings, the trends of modeled 
temperatures with only human forcings, and the trends of modeled 
temperatures with the combined forcings. With each comparison a 
correlation coefficient may be calculated. There are 145 correlation 
coefficients derived for the species data compared to each of the three 
modeled temperatures. Only 86 correlation coefficients were calculated 
for the observed temperatures and species trends (observed temperature 
data were only available for 86 species). The number of similar 
correlation coefficients is counted and the counts plotted.
    Figure 2 shows the plots of these sums. The purpose is to compare 
the associations of the different modeled data with that of the 
observed data. Consequently, the plot or histogram of the observed data 
is plotted in all three panels. The top panel shows the comparison 
between the observed histogram and the natural-forced histogram. The 
agreement is not very good. The next panel shows the comparison between 
the observed histogram and the human-forced histogram. The agreement is 
better. The bottom panel shows the comparison between the observed 
histogram and the combined histogram. The agreement is quite good and 
statistical analyses show that the last agreement is statistically 
significant. Certainly a study such as this one needs to be done using 
more than one model, but certainly these results suggest that species 
are changing in response to regional temperature changes, and the 
regional temperature changes are being measurably influenced by human 
forcings (e.g., greenhouse gases). This indicates that humans, directly 
through emission of greenhouse gases into the atmosphere, are causing 
significant ecological consequences that could be detrimental in the 
future, not only to other species but also to us.
    Figure 2. Plotted are the frequencies of the correlation 
coefficients between the timing of changes in traits (e.g., earlier 
egg-laying) of 145 species and modeled (HADCM3) spring temperatures for 
the grid-boxes in which each species was examined. At each location, 
all of which are in the Northern Hemisphere, the changing species' 
trait is compared with modeled temperatures driven by: (a) Natural 
forcings (maroon bars), (b) anthropogenic (i.e., human) forcings 
(orange bars), and (c) combined natural and anthropogenic forcings 
(yellow bars). In addition, on each panel the frequencies of the 
correlation coefficients between the actual temperatures recorded 
during each study and changes in the traits of 83 species, the only 
ones of the 145 with reported local-temperature trends, are shown (blue 
bars). On average the number of years species were examined is about 28 
with average starting and endings years of 1960 to 1998. Note that the 
correspondence: a) between the natural and actual plots is weaker 
(K=60.16; p>0.05) than b) between the anthropogenic and actual 
(K=35.15; p>0.05), which in turn is weaker than c) the agreement 
between combined and actual (K=3.65; p<0.01). Taken together, these 
plots show that a measurable portion of the warming regional 
temperatures to which species are reacting can be attributed to humans, 
therefore showing joint attribution (After Root et al. 2005).
[GRAPHIC] [TIFF OMITTED] 34670.006

                                 .eps__
                                 
    Ms. Bordallo. Thank you very much, Dr. Root.
    I now recognize Ms. Medina to testify for five minutes.

      STATEMENT OF MONICA MEDINA, ACTING DIRECTOR OF THE 
  INTERNATIONAL FUND FOR ANIMAL WELFARE, UNITED STATES OFFICE

    Ms. Medina. Good morning, Madam Chairwoman and Members of 
the Subcommittee. I am Monica Medina of the International Fund 
for Animal Welfare or IFAW. IFAW is a nonprofit organization 
with offices in 16 countries around the world. We work to 
improve the welfare of wild and domestic animals throughout the 
world.
    Thank you for the opportunity testify before you this 
morning with this distinguished panel on this most important 
subject, the impact the changing climate is having on marine 
mammals in Alaska.
    In fact, this hearing is quite timely. This morning a group 
of over 20 environmental and animal welfare groups is 
announcing the formation of a coalition to end commercial 
whaling and announcing new poll results that show overwhelming 
public support for whale conservation.
    The testimony I give today is derived from a report that 
IFAW will soon publish entitled On Thin Ice: The Precarious 
State of Arctic Marine Mammals in the U.S. Due to Global 
Warming. The report is based on a 2006 white paper written by 
Stacey Marz of The Ocean Foundation in which she undertook a 
comprehensive survey of all the recent scientific literature on 
the subject. Stacey and I then collaborated to create the 
report from her original white paper. The report has been 
jointly funded by The Ocean Foundation, the Wallace Global Fund 
and IFAW.
    The Alaskan North Pacific and Arctic Oceans, their seas, 
bays, fjords and ice pack, are home to a dazzling array of 
marine mammals. This region contains some of the most pristine 
habitat and largest assemblages of ice dependent marine mammals 
in the world.
    These animals--ice seals, polar bears, walruses and bowhead 
whales--are uniquely adapted to exist in one of the most 
extreme environments on the earth, the frozen Arctic, yet 
despite the fact that their habitat is remote and relatively 
pristine, these marine mammals are facing very serious threats 
from global warming, the sources of which originate far from 
the Arctic.
    For animals adapted to a frozen world, the loss of sea ice 
will be catastrophic. Every ice dependent marine mammal species 
in the United States is either already showing adverse impacts 
from climate change or is projected to be affected in the near 
future.
    Here are just a few examples: Polar bears are drowning when 
the melting ice recedes, leaving vast stretches of open water 
for them to navigate. Reduced food availability has resulted in 
decreased body condition and starvation of polar bears and even 
cannibalism off the north coast of Alaska and Canada.
    Ring seals cannot make layers between sparse snow to 
protect their newborn pups from cold and predators. Ribbon 
seals, which lack the wariness of seals that live farther into 
the polar bear territory, are likely to be heavily preyed upon 
if they move north with the receding ice.
    Ice seals and walruses, which haul out on ice flows to 
rest, give birth and raise their pups, are forced farther north 
and into deeper waters because the area that freezes each year 
is shrinking. Mother walruses are abandoning their dependent 
young in deep, ice free waters where foraging is impossible and 
haul outs are nonexistent.
    The bowhead whale's prey-rich waters may change in 
productivity as open water increases and other species move 
into their habitat competing for food and space.
    Ice habitat is so integral to the existence of Arctic 
marine mammals that the rapid loss of sea ice and the 
cumulative effects of other climate impacts appear to set the 
stage for drastic reductions in populations and ultimately the 
extinction of these species. Current mitigation measures are 
few and at best can only address the symptoms of climate 
change.
    Worse than what we know is that there is much, much more 
that we do not yet understand about the profound changes 
occurring in the Arctic. Evidence linking decline in Arctic 
marine mammals to climate change is limited by inadequate 
historical population estimates. For example, we simply do not 
know what bear populations might have been 50 years ago.
    Moreover, increased understanding of the ecology of 
individual species is needed as a basis for determining what 
else should be examined or done to conserve these species, as 
my co-panelist so eloquently just explained.
    In short, there is much more study of the Arctic region and 
marine mammals that live there urgently needed to better 
comprehend the effects of the decreased extent of the ice, as 
well as the more subtle changes in the distribution of ice and 
snow that affect the ecology of individual species.
    Global warming also creates winners and losers among humans 
in areas that have historically been off limits to most human 
uses. The loss of ice opens up areas of the Bering, Chukchi and 
Beaufort Seas and the Arctic Ocean for transportation and for 
the new development of oil and gas deposits, fishing grounds 
and shipping routes, which will degrade this pristine 
environment and further jeopardize the animals that live there.
    In my view, the Federal government must aggressively employ 
all of its authorities under law and via international 
agreements and engage the relevant management authorities to 
create systemic protections for ice dependent marine mammals. 
Specifically, the government must use the Marine Mammal 
Protection Act and the Endangered Species Act to begin to take 
actions that will conserve these animals and their habitat.
    Immediate actions are needed, and I urge Congress to act 
now to increase funding for research and stock assessments of 
ice dependent marine mammals and to close the loophole in the 
Marine Mammal Protection Act that permits the importation of 
polar bears--trophies--hunted in Canada. Taking these steps 
will set the stage for providing relief to ice dependent marine 
mammals in the U.S.
    It is also clear that Congress must take a leadership role 
in establishing mechanisms to reduce greenhouse gas emissions. 
Absent such action, we can expect mass extinction of these 
amazing animals within this century. Such a tragic loss of 
species and biodiversity will have far reaching and irrevocable 
effects throughout the entire vast Arctic ecosystem, including 
the subsistence and cultural uses of these animals by Alaska 
Native peoples.
    I want to close by thanking my son, my 10-year-old son, 
Daniel, for inspiring me to do this work to save the polar 
bears. It is a grave concern to him.
    Thank you very much for the opportunity to testify. I would 
be pleased to answer any questions you may have at the end of 
the panel's opening statements.
    [The prepared statement of Ms. Medina follows:]

           Statement of Monica Medina, U.S. Deputy Director, 
            The International Fund for Animal Welfare (IFAW)

    Good morning. I am Monica Medina, the Acting Director of the U.S. 
office of the International Fund for Animal Welfare (IFAW). IFAW is a 
non-profit organization with offices in fifteen countries around the 
world. We work to improve the welfare of wild and domestic animals 
throughout the world by reducing the commercial exploitation of 
animals, protecting wildlife habitats, and assisting animals in 
distress. Thank you for the opportunity to testify before you today on 
the devastating impacts that the changing climate is having on marine 
mammals in Alaska.
    The testimony I give today is based on a report that IFAW will 
publish soon entitled ``On Thin Ice: The Precarious State of Arctic 
Marine Mammals in the U.S. Due to Global Warming.'' The report is based 
on a 2006 white paper written by Stacey Marz of The Ocean Foundation. 
Her research was originally funded by the Alaska Oceans Program of the 
Alaska Conservation Foundation and the George H. and Jane A. Mifflin 
Memorial Fund. IFAW agreed to assist in the editing of the white paper 
into a condensed report for public release. Stacey and I collaborated 
to create the report from the original white paper. Its publication is 
jointly funded by The Ocean Foundation, the Wallace Global Fund and 
IFAW. I want to acknowledge all their contributions to assembling the 
information I will provide the subcommittee.
    The purpose of the report is to survey what is currently known 
about the impacts of global warming on ice-dependent marine mammal 
species in the U.S., including four species of ice seals (Erignathus 
barbatus - bearded, Phoca fasciata - ribbon, Pusa hispida - ringed and 
Phoca largha - spotted seals), two stocks of polar bears (Ursus 
maritimus - the Southern Beaufort Sea stock, Chukchi/Bering Seas 
stock), Pacific walruses (Odobenus rosmarus), and western Arctic 
bowhead whales (Balaena mysticetus)also known as the Bering/Chukchi/
Beaufort Seas stock). The report also provides an overview of each of 
these marine mammal species, its habitat, and the relevant federal 
statutes, agreements and management entities that govern it. Finally, 
the report explains the serious threat global warming poses to these 
animals, and the sobering impacts that they are already experiencing as 
observed by biologists and Alaska Native subsistence hunters.
    Most importantly, the report addresses these issues and provides 
tangible recommendations that policy makers can immediately do to help 
improve the prospects for long term survival of these animals in the 
Arctic. The government must aggressively employ all of its legal 
authorities, international agreements and management bodies to create 
systemic protections for ice dependent marine mammals. Specifically, 
the government must avail itself of all the tools it has at its 
disposal under the Marine Mammal Protection Act and the Endangered 
Species Act, and through these various management bodies, to begin to 
take actions that will conserve these animals and their habitat.
    Immediate actions are needed--we cannot wait until a comprehensive 
legal and regulatory structure to reduce greenhouse gas emissions is 
enacted by Congress. Congress can act in the short run to increase 
funding for research and stock assessments of ice dependent marine 
mammals, and to close the loophole in the Marine Mammal Protection Act 
that permits the importation of polar bear trophies hunted in Canada. 
Taking these steps will set the stage for providing relief to ice 
dependent marine mammals in the United States. However, it is also 
clear that in the long run, unless greenhouse gas emissions are 
radically reduced, we can expect mass extinction of these amazing 
animals within this century. Such a tragic loss of species and 
biodiversity will have far reaching effects on the entire vast Arctic 
ecosystem, and the subsistence and cultural uses of these animals by 
Alaska Native peoples.
Background
    In Alaska, ice seals, walruses, polar bears and bowhead whales rely 
on sea-ice as habitat in the Bering, Chukchi and Beaufort Seas. Much of 
these seas are covered by sea-ice for three quarters of the year from 
roughly October until June. Sea-ice has a large seasonal cycle, 
reaching a maximum extent in March and a minimum in September. There 
are three major forms of sea-ice in the Arctic: (1) shorefast or 
landfast ice that is attached to the shore and relatively immobile, 
extending to variable distances offshore; (2) stamukhi ice that 
consists of thick ridges that become grounded during the winter and 
attach to the ocean bottom; and (3) pack ice that includes first-year 
and multiyear ice and moves under the influence of winds and currents. 
Leads and open water areas form within the pack ice zone.
    Each ice-dependant marine mammal species is precisely adapted to 
this harsh environment. Each species prefers different types of ice and 
uses it in different ways that are suited to its biological 
characteristics. These animals rely on this ice environment as a 
platform for resting and foraging, breeding, traveling, protection, 
pupping, nursing and mating. They largely follow the movement of the 
ice in their migration patterns.
    There are several serious issues of general concern that affect all 
ice-dependent marine mammals. The issues range from simply not having 
adequate background information about the different species' 
populations to the sobering projection that their ice habitat is 
disappearing due to climate change and will be gone within this 
century. Related to climate change and the loss of sea-ice, there are 
additional concerns about what emerging human uses will be made 
possible by more open water in the northern seas and Arctic Ocean. 
These uses include increased oil and gas activities, the development of 
new commercial fisheries, new and emerging shipping routes, and 
increased disturbance and pollution in the ecosystem due to the newly 
possible human activities. There is also concern about bioaccumulation 
of contaminants in Arctic marine mammals.
    There is a surprising shortage of background information about 
almost all ice-dependent marine mammals. This can be attributed to the 
difficulty of studying animals in a very remote and extreme 
environment, and the expense of both physically accessing the animals 
and using the appropriate technology to survey them. With the exception 
of bowhead whales and the Southern Beaufort Sea polar bears, there are 
no reliable abundance estimates for any of the four ice seal species, 
the Pacific walrus or the Chukchi/Bering Seas polar bear stock. Also, 
there is no information about population trends for these animals and 
no potential biological removal rate. As such, it is virtually 
impossible to discern the overall health of these marine mammal 
species, and how much loss of individual animals the stocks can 
sustain.
    Considering the threats ice dependent species currently face and 
are likely to face in the future, it is troubling to have so little 
background information. It is critical that research is undertaken as 
soon as possible to collect reliable background abundance information, 
to monitor population trends, to identify sustainable take levels and 
to evaluate if and how human-caused and natural events are affecting 
the populations. In addition, as human activities increase in the 
Arctic it will become more important to monitor those activities for 
possible impacts on ice dependent marine mammals, their prey and their 
habitat, in order to detect harmful changes as early as possible. 
Moreover, research is needed to understand the cumulative effects of 
all issues of concern--climate change, oil and gas activities, and 
contaminants--on these animals to inform management actions and to 
mitigate against adverse impacts within our control. The current level 
of financial support for research limits informed decision-making about 
the status of Arctic marine mammals, now and in the future. Adequate 
funding is critical to support efforts by management agencies, their 
research collaborators and academic institutions to comprehensively 
survey and study the ice dependent marine mammals.
    With that background, I will now discuss what is known about the 
impacts of global warming on each of the four marine mammal species in 
Alaska. In addition, I will make recommendations about actions the 
government can take in the near term to begin to mitigate and address 
the issues they face due to the loss of polar ice habitat.
Ice Seals
    Ice seals spend the majority of time on the ice, and use ice as a 
platform from which to feed, to birth their pups and to rest. They 
migrate northward with the ice during the warmer months. Their reliance 
on sea-ice means that they will be severely impacted as the sea-ice 
diminishes due to climate change. Each of the four seal species found 
in arctic Alaska will be affected by the loss of sea-ice in different 
ways based on their specific habitat preferences and their unique 
biological characteristics.
    For example, ribbon and spotted seals that currently live at the 
southern edge of the polar bears' range could expand their range 
northward. This could greatly affect ribbon seal populations if their 
habitat shifts north into polar bear territory as the ice shrinks, 
because polar bears may prey heavily upon ribbon seals which do not 
have the wariness of seals that currently live near polar bears. 
Moreover, the absence of ice in southern pupping areas or the 
relocation of pupping to more northern areas could affect seal 
reproduction. In addition, crowding in birthing areas because of a 
reduction in the quality of the ice may also increase the risks of 
disease transmission.
    Ringed seals prefer stable, shore-fast ice for construction of 
birth lairs. Adequate snow drift accumulation is necessary to protect 
pups in lairs with thick roofs. Access to birth lairs for 
thermoregulation is considered critical to the survival of nursing pups 
when air temperatures fall below freezing. For the past six years, 
ringed seals have abandoned lairs increasingly early as spring 
temperature and snow melts have advanced. The transition from lair use 
to basking on the surface was especially early and abrupt in 2002, and 
by mid-May all the seals had abandoned their lairs. Many pups in their 
natal coats were resting on the ice in the open instead of in lairs as 
is usual in mid-May. The early snow melts that researchers have 
observed are consistent with a general pattern observed in the Beaufort 
Sea. Premature lair abandonment by ringed seals, associated with early 
snow melts, likely will increase juvenile mortality rates due to 
exposure to freeze-thaw conditions and predation. When lack of snow 
cover forced birthing to occur in the open, nearly 100% of the pups 
died from predation.
    In addition, increased rain on snow during the late winter damages 
or eliminates snow lairs, which increases pup exposure to hypothermia 
and predation. Researchers believe that if early season rain becomes 
regular and widespread in the future, ringed seal pup mortality will 
increase especially in the more southerly parts of their range. 
Consequently those local populations may be significantly reduced.
    Researchers have reported that an early spring breakup negatively 
impacted the growth, condition and probably the survival of un-weaned 
ringed seal pups. Early breakup likely interrupted lactation in mother 
seals which negatively affected the condition and growth of pups. 
Earlier ice breakups are predicted to happen more frequently and result 
in decreased ringed seal productivity and abundance. Moreover, in 
addition to loss of habitat, the seals may also have to contend with 
the related loss of their major food sources. Arctic cod is one of the 
ringed seals' primary prey species. It is strongly associated with sea-
ice throughout its range and uses the underside of the ice to escape 
from predators. It is likely that a decrease in seasonal ice cover 
could have adverse effects on Arctic cod and consequently affect its 
availability to ringed seals as food.
Recommendations for Ice Seal Conservation
    Federal funding for the study of ice seals must be increased so 
that further research can be undertaken. It has been decades since 
there has been any comprehensive study on population numbers and 
distribution of ice seals. Without this critical information, it is 
impossible to know how rapidly the seal populations are declining, much 
less to make intelligent management decisions regarding subsistence 
hunts. At the very least, the government should conduct assessments of 
these stocks to determine whether they are depleted and develop 
conservation plans as required under the Marine Mammal Protection Act. 
Further, in order to ensure that these seal species do not reach the 
brink of extinction without us even knowing it, we recommend that the 
government consider whether to propose listing these seal species under 
the Endangered Species Act. The challenges faced by these seal species 
are not appreciably different than those faced by polar bears, which 
the government recently proposed for listing.
Polar Bears
    Polar bears are the largest of all land predators, with males 
weighing up to 1,700 pounds and standing 2-3.5 meters tall. They are a 
potentially threatened species living in the circumpolar north in 
Alaska, Canada, Russia, Greenland and Norway. In Alaska there are two 
populations: (1)the Southern Beaufort Sea population, which occurs 
along the North Slope of Alaska and ranges into western Canada; and (2) 
the Chukchi/Bering seas population, which occurs off western Alaska 
with its range extending to Wrangel Island and eastern Siberia. This is 
a shared stock with Russia. Only the Southern Beaufort Sea population 
can be reliably estimated with certainty. The Polar Bear Specialist 
Group of IUCN, the pre-eminent international scientific body for 
research and management relating to polar bears, estimated the 
population at 1,800 bears. The Chukchi Bering Sea population is 
estimated at 2,000, but that number is unreliable due to widespread 
poaching in Russia.
    Polar bears are superbly adapted for Arctic survival, with physical 
characteristics that make them especially suited to live in the 
extremely cold ice environment. The polar bears' water-repellant white 
coat helps it blend into the snow and ice and they have dense under 
fur. Their bodies are entirely fur covered except for their nose, and 
they have a thick layer of insulating fat (up to 4.5 inches thick) that 
keeps their body temperature and metabolic rate stable at -34 degrees 
F. Their claws are suited to walking on ice and grasping prey along 
with ``suction cups'' on the underside of their feet for increased ice 
traction. Also, their enormous, oar-like feet make them expert swimmers 
and spread their weight on the ice. Polar bear are specialized for a 
carnivorous diet because they have an acute sense of smell for finding 
seals in snow caves.
    Polar bears have received much media attention in recent years due 
to their high profile connection to their shrinking sea-ice habitat. In 
June 2005, 40 members of the IUCN Polar Bear Specialist Group/Species 
Survival Commission of the World Conservation Union concluded that 
polar bears should be classified as a ``vulnerable'' species based on a 
likely 30% decline in their worldwide population over the next 35 to 50 
years caused principally by climatic warming and its consequent 
negative affects.
    In Alaska, there is evidence of decreased body condition, death 
from drowning, cannibalism and starvation. In three of the past four 
years, there have been record low ice packs in Alaska's Beaufort Sea 
region, pushing more and more polar bears onto land for protracted 
periods, with bears congregating around whale carcass sites, village 
dumps and other settled areas where they may increasingly come into 
conflict with people. Observed and predicted changes in sea-ice cover 
and the timing of freeze-up and break-up have profound effects on polar 
bears. The Polar Bear Specialist Group of IUCN reports the following 
expected effects from climate change:
    <bullet>  Changes that alter the period of ice coverage could 
affect polar bear distribution and impact their condition:
      <all>  With ice pack shrinkage, bears may spend greater amounts 
of time on land
      <all>  Bears will likely more extensively use terrestrial areas, 
ultimately affecting their physical condition from relying on fat 
stores for energy
      <all>  Bears with decreased physical condition could effect 
production and survival
      <all>  Bears using deteriorating pack ice may experience 
increased exertion associated with movements and swimming
    <bullet>  Climate changes on prey species will have a negative 
effect on polar bears:
      <all>  decreased snow or increased seasonal rain patterns could 
effect ringed seal pupping by not having adequate snow for construction 
of birth lairs or increased rain fall can collapse birth lairs and 
reduce seal productivity
      <all>  increased snow can result in reduced success in entering 
ringed seal birth lairs
      <all>  prey reductions could effect polar bear condition and 
ultimately cub production and survival
    <bullet>  Denning could be impacted by unusual warm spells:
      <all>  access to high quality denning areas may be limited or 
restricted
      <all>  use of less desirable denning habitat could have impacts 
on reproduction and survival
      <all>  rain or warming could directly cause snow dens to collapse 
or be opened to ambient conditions
      <all>  loss of thermal insulative properties in opened dens could 
effect cub survival
    The best information on the effect of global warming on polar bears 
comes from the western coast of Hudson Bay in the Canadian province of 
Manitoba. Sea-ice has been breaking up there three weeks earlier than 
it did decades ago. Bears must spend an extra month on shore fasting, 
waiting for ice to re-form in the fall. As a result, the western Hudson 
Bay population has plunged 22% from 1,194 in 1987 to 934 in 2004. 
Canadian scientists have observed that today's polar bears are smaller 
in stature, weigh less, and have fewer cubs. Scientists estimate that 
for every week of delay in freeze-up, polar bears lose at least 22 
pounds of critical fat reserves. Pregnant females are losing so much 
weight that they fail to produce enough milk for their cubs, which then 
suffer increased mortality. Once females fail to attain a minimum 
weight they will not give birth at all, and scientists can already 
document a 15% drop in birth rates. As polar bears are spending more 
time on land, there has been an increase in people killing curious and 
aggressive bears in self defense.
    In addition, polar bears are expending more energy because of 
reduced ice thickness and extent. Arctic sea-ice circulation is 
clockwise and polar bears tend to walk against this movement to 
maintain a position near preferred habitat within large geographical 
home ranges. Ice thickness is diminishing and there is increased 
transport of multi-year ice from the polar region. This increased rate 
and extent of ice movements requires polar bears to work harder to 
maintain their position near preferred habitat. As sea-ice moves more 
quickly or becomes more fragmented, polar bears will likely use more 
energy to maintain contact with consolidated ice. During summer periods 
the remaining ice in much of the central Arctic is now positioned away 
from more productive continental shelf waters and over much deeper, 
less productive waters in the Beaufort and Chukchi Seas. As the open 
water enlarges, bears will spend more time and energy swimming in 
transit. In 2004, scientists documented for the first time four polar 
bear drownings in open water off Alaska and extrapolate that 27 bears 
may have drowned during that event after trying to swim between shore 
and distant ice.
    Researchers suggest that as habitat patch sizes decrease, available 
food resources will also decline, resulting in reduced polar bear 
residency time and increased movement in search of food. As discussed 
earlier, the polar bear's primary prey--ringed seals are projected to 
decline from reduced sea ice habitat, and decreased snowfall that 
prevents adequate birth lairs to protect ringed seal pups from freezing 
air. Polar bears cannot offset energy losses from decreased seal 
consumption by using terrestrial habitat because food such as berries, 
snow geese and caribou do not represent significant energy sources and 
nutritional stress will result. The consequences of increased energetic 
costs to polar bears are reduced weight and condition and corresponding 
reduction in survival and recruitment rates.
    Declines in fat reserves during critical times in the polar bear 
life cycle are likely to lead to an array of impacts. These include: 
delay in the age of first reproduction, fewer females with adequate fat 
reserves to complete successful denning, decline in litter sizes with 
more single cub litters and fewer cubs overall, lower cub body weights 
and lower survival rates. When mother bears and their cubs leave the 
den, their body masses are correlated; heavier females produce heavier 
cubs and lighter females produce lighter cubs. Researchers are seeing 
decreased body condition of southern Beaufort Sea polar bears. Cub 
survival rates declined significantly when comparing rates from 1967 to 
1989 and 1990 to 2006. The lower cub survival rate coincided with 
warming temperatures and altered atmospheric circulation starting in 
the winter of 1989-1990 that caused an abrupt change in sea-ice 
conditions in the Arctic basin. In addition, broken and fragmented ice 
conditions may cause cubs to be in the water longer, increasing the 
chance of hypothermia or death because they cannot survive more than 10 
minutes in icy water. In the Western Hudson Bay, declines in cub 
survival and physical size were seen for several years before a 
statistically significant decline in the population size was confirmed. 
Polar bear experts believe that if the trends in sea-ice loss continue, 
the southern Beaufort Sea population will significantly decline within 
the next 45 years.
    Polar bears in the Southern Beaufort Sea may be turning to 
cannibalism because longer seasons without ice keep them from getting 
to their prey--ringed seals. From January to April 2004, in the region 
north of Alaska and western Canada, researchers found three instances 
of polar bears preying on each other, including the first-ever reported 
killing of a female in a den shortly after it gave birth. Adult males 
are believed to have actively stalked or hunted the bears before 
attacking and eating them.
Recommendations for Polar Bear Conservation
    The effort underway by the government to list the polar bear as a 
threatened species under the Endangered Species Act is an important 
first step in polar bear conservation. This process, which can be quite 
lengthy, should be undertaken as quickly as possible. The government 
should not allow the process to be bogged down by opponents of the 
listing. In the meantime, the government should take other steps to 
conserve polar bears out of an abundance of caution. For example, the 
Congress should close the loophole in the Marine Mammal Protection Act 
that permits Americans to hunt polar bears in Canada and return home 
with their bear trophies. Each year approximately 200 bears are killed 
by American hunters. It is illegal to hunt these bears in the U.S. The 
Marine Mammal Protection Act should be amended to prohibit these 
trophies from entering our borders.
Pacific Walrus
    Walruses are the largest pinnipeds in the Arctic and sub-Arctic 
seas, with a geographic range that completely encircles the polar 
basin. The Pacific walrus, which accounts for 80 percent of the world's 
walrus population, is one of two geographically isolated subspecies of 
walrus. The Pacific walrus is found in the North Pacific Ocean's Bering 
Sea and in Arctic waters from the East Siberian Sea to the western 
Beaufort Sea, as well as in the Laptev Sea.
    They are most commonly found in relatively shallow water areas, 
close to ice or land. Walruses spend about half their time in the water 
and half their time on beaches or ice floes where they gather in large 
herds. They forage from ice above the continental shelf for bottom-
dwelling invertebrates. The mouth of the walrus is uniquely adapted to 
allow them to eat buried clams and invertebrates. The walrus squirts 
high-power jets of water out of their mouths like a water drill to 
unearth clams mired in the mud at the bottom. Scientists believe that 
they then use strong suction to remove the fleshy parts of the prey 
away from the shell and then discard the shell. This intensive tilling 
of the sea bottom releases nutrients into the water column, provides 
food for scavengers such as starfish, and increases the patchiness of 
the bottom, which likely plays an important community structuring 
function for benthic and pelagic animals.
    Walruses may already be feeling the impacts of climate change in 
Alaska. They use ice as a platform for resting and from which to 
forage. They can only dive to depths of approximately 90 meters; when 
the ice recedes north of the continental shelf, they are unable to dive 
as deep as their bottom dwelling prey is found. In addition, walrus 
calves, which have been observed swimming in open water alone, are 
believed to have been abandoned by their mothers who were searching for 
food in ice-free waters, leaving no place for the dependent calves to 
rest.
    Pacific walruses are showing the effects of global warming 
associated with the changing distribution and extent of pack ice in the 
Bering and Chukchi Seas. Currently, there are no data upon which to 
make reliable predictions of the net impacts that changing climate 
conditions would have on the status and trend of the Pacific walrus 
population. However, disturbing observations have been made in recent 
years about climate change impacts on walruses.
    As described earlier in this section, the process walruses use to 
eat involves bioturbation, which is the disturbance of sediment layers 
by biological activity. Bioturbation releases an extraordinary amount 
of nutrients, including nitrogen, into the water, which is a massive 
effect compared to natural release in the absence of walrus feeding. 
Researchers believe that walruses return to the same drifting ice floes 
from which they left to forage in the water. The loss of sea-ice due to 
climate change will result in diminished extent and configuration of 
ice platforms from which walruses will feed and bioturbate the benthic 
environment.
    As noted above, walruses are distributed only over continental 
shelves because they feed on benthic invertebrates and cannot 
effectively feed at depths beyond 90-100 meters. After breeding on the 
winter ice in the Bering Sea, the males retreat to coastal areas while 
the females and young (up to age three) retreat with the ice into the 
Chukchi Sea. There they feed intensively in between periods of resting 
and nursing their young on the ice.
    In 1998, the sea-ice in the Chukchi and Beaufort Seas retreated 
unusually far to the north and by September it covered 25% less of the 
Arctic Ocean than during the minimum for the previous 35 years. Vessel-
based researchers surveying walruses found that substantial portions of 
the ice edge had receded north of the continental shelf where the water 
was too deep for walruses to feed. Continued warming and reduction in 
ice over the continental shelf in summer and fall will likely reduce 
the amount of forage available to lactating walruses. The result may be 
a reduced survival of nursing calves if female walruses respond by 
concentrating on ice or shorelines near feeding areas. This will result 
in a corresponding increase in their risk of predation by polar bears. 
There have also been reports of mother walruses following the 
retreating ice and abandoning their calves in open water because the 
calves cannot keep up, which creates yet another possible method of 
mortality.
    Moreover, the calves have been reportedly abandoned on the ice as 
well. In April 2006, the Aquatic Mammals journal stated that walrus 
calves had apparently been stranded far offshore by melting sea-ice in 
the Arctic Ocean. During a summer 2004 cruise in the Canada Basin to 
investigate the impact of global warming on the oceanic ecosystem over 
the continental shelf of Alaska, researchers aboard the U.S. Coast 
Guard icebreaker Healy found nine lone walrus calves swimming far from 
shore. The area was 53 to 134 miles from shore in water that was over 
3000 meters deep. Ice was virtually absent throughout the area where 
the scientists saw the lone calves. Scientists had never before 
documented calves offshore without their mothers and had seen mothers 
and calves together only in water less than 100 meters deep and 20 
miles from shore. The calves, which swam around the ship, barked 
continuously and seemed distressed and according to the researchers. 
These calves likely drowned or starved.
    The sightings of lone calves coincided with evidence of rapidly 
melting seasonal ice in the shallow continental shelf region where 
walruses feed on clams and crabs. Researchers measured an unusually 
warm mass of water moving onto parts of the continental shelf north of 
Alaska from the Bering Sea that caused seasonal sea-ice to rapidly 
melt. Sea temperatures there were more than six degrees warmer than 
those observed at the same time and location two years earlier. In 
areas where sea-ice remained, the sea floor was too deep, about 2836.5 
meters, for adult walrus to feed. This development is significant 
because walruses use sea ice as a resting platform, especially for pups 
when their mothers dive for food. The calves, which are dependent on 
mothers' milk for up to two years, cannot forage for themselves. 
Researchers believe that the mothers had to swim farther and farther 
from shore to find ice for the calves to rest on and eventually had to 
abandon them in waters too deep for the mothers to reach food.
Recommendations for Walrus Conservation
    The same course of action is recommended for walruses as for ice 
seals. Federal funding for the study of walruses must be increased so 
that further research can be undertaken. It has been decades since 
there has been any comprehensive study on population numbers and 
distribution of walruses in Alaska. Without this critical information, 
it is impossible to know how rapidly the walrus populations are 
declining, much less to make intelligent management decisions regarding 
subsistence hunts. At the very least, the government should conduct 
stock assessments of these stocks determine whether they are depleted, 
and develop conservation plans as required under the Marine Mammal 
Protection Act. Further, in order to ensure that this species of walrus 
does not reach the brink of extinction without us even knowing it, we 
recommend that the government consider whether to propose listing the 
Pacific walrus under the Endangered Species Act. The challenges faced 
by this walrus species is not appreciably different than those faced by 
polar bears, which the government recently proposed for listing.
Bowhead Whales
    Bowhead whales are the only baleen whales that spend their entire 
lives in waters near sea-ice and do not migrate to temperate or 
tropical waters to calve. Bowheads are well adapted for living in 
Arctic and sub-Arctic waters. They have the thickest blubber of any 
marine mammal, up to .61 meters thick, which is used for insulation, 
food storage, and padding.
    Bowhead whales are the most important subsistence animal for most 
northwestern and northern Alaska coastal Eskimos. The International 
Whaling Commission (IWC) manages the subsistence harvest, and has 
granted the Alaska Eskimo Whaling Commission a harvest quota. For 2002-
2007, subsistence hunters received a block quota of 280 bowhead strikes 
allowed, of which 67 whales (plus up to 15 unharvested in the previous 
year) could be taken annually. This quota allows the Chukotka Natives 
in Russia to take 5 whales. The next five-year quota is up for renewal 
in May of 2007 at the annual
    As a result of heavy exploitation by commercial whalers, the 
western Arctic bowhead whale stock is currently listed as endangered 
under the Endangered Species Act and depleted under the Marine Mammal 
Protection Act. This stock of bowhead whales is the most studied of 
bowhead whales in the world and because of their importance to Alaska 
Natives for subsistence, the International Whaling Commission's 
regulation of bowheads, and the sub-sea location of oil and gas 
reserves below bowhead habitat. Research has included obtaining 
reliable population estimates and trends, information about the whale's 
overall health, migration and stock structure.
    The impacts of global warming on bowhead whales are not clearly 
understood yet, but it is believed that the abundance of their food may 
decline as more open water occurs. Also, some are concerned that gray 
whales may be moving into bowhead whale habitat and may compete with 
bowheads for space.
    Climate change and the associated changes in the distribution and 
extent of pack ice in the Bering, Beaufort and Chukchi Seas is a large 
concern for bowhead whales. Bowhead whales are likely sensitive to 
changes in Arctic weather, sea-surface temperatures, or ice extent and 
the associated effect of prey availability. There is insufficient data 
to make reliable predictions of the net impacts that changing climate 
conditions would have on bowhead whales. However, the IWC has listed 
bowhead whales in the Eastern Arctic and Okhotsk Sea as vulnerable due 
to a combination of climate change and other factors.
    The bowhead whale's foraging efficiency is intricately linked to 
the Arctic ecosystem by changes in ice cover, in spring ice break-up, 
in algal blooms, and in the abundance of its prey species. Bowheads, 
which spend their entire lives in Arctic waters, may be strongly 
affected by changes in the distribution or abundance of their prey in 
these areas. If plankton species are affected by climate change, this 
could lead to cascading effects through the food chain. In addition, 
global warming and possible shifts in wind patterns could also affect 
the distribution of polynyas in the polar ice cap. Dark polynyas often 
contain significant blooms of phytoplankton. Cetacean species such as 
bowhead whales that rely on ice edges for phytoplankton foraging might 
be adversely affected by any decline in these habitat areas.
    Researchers and subsistence hunters are concerned that bowhead 
whales may also be impacted by gray whales migrating further northward 
beyond their historical range, seeking colder waters. Large pods of 
gray whales typically travel to the Bering Sea's northern waters each 
spring from Baja, California, feasting on amphipods, tiny shrimp-like 
creatures that live in the muck at the bottom of the shallow sea. The 
gray whales feed voraciously all spring and summer in preparation for a 
three- to five-month fast during their 12,000-mile journey back to 
Baja. They make the return trip in the fall, having the longest total 
migration of any marine mammal.
    However, now the gray whales are heading north into the Chukchi 
Sea, above the Arctic Circle, where the colder waters support 
amphipods. Some gray whales are foregoing their full fall migration, 
going no further south than Kodiak. It is unknown exactly what effect 
more gray whales in the northern seas year-round will have on bowhead 
whales. Both bowhead and gray whale populations are increasing at 
approximately 3% per year. Gray whales have a broader diet than 
bowheads, breed faster and generally seem more capable of colonizing 
new areas than bowhead whales. As the gray whales shift northward, they 
are moving closer to the territory of the bowhead whale, which feeds 
offshore on krill. Some Alaskan Natives bowhead hunters are concerned 
that the more aggressive gray whale may interfere with the quieter 
bowhead, competing for space.
    It has also been predicted that reductions in Arctic sea-ice will 
lead to an increase in ice-free days annually. Several potential 
concerns arise from this. The presence of sea-ice also affects the 
timing, nature and possible locations of human activities such as 
shipping, research, barging, whale hunting, oil and gas activities 
(seismic surveys and drilling), commercial fishing, military activities 
and other activities to introduce noise and pollution into the marine 
environment. Seasonal changes in ice extent and human activity may 
restrict whale movements such that patterns of gene flow are altered. 
Further, bowhead whale migrations and selection of wintering and 
summering grounds may shift in a warmer Arctic.
Recommendations for Bowhead Whale Conservation
    The federal government must continue to be a forceful advocate for 
whale conservation at the IWC. It must make clear that the limited 
scope of the subsistence hunt for bowheads stands in sharp contrast to 
the commercial hunts conducted by other nations under the guise of 
scientific research. Moreover, the Alaska Eskimo Whaling Commission 
should continue to collaborate with scientists to ensure there is 
adequate data collection and documentation of changes regarding the 
range and population densities of bowhead and gray whales in the Arctic 
in order to ensure that we have as much information as possible about 
the impacts of global warming on the whales. The fact that there are 
annual subsistence hunts provides an opportunity to collect data in a 
consistent and timely manner about the impacts of global warming on 
bowhead whales, on other whales, and on the Arctic ecosystem in 
general.
Conclusion
    The information compiled in the report makes a powerful and 
persuasive case that the time is now to take action. The very existence 
of polar bears, walruses, ice seals, and bowhead whales for future 
generations to enjoy is at stake. Immediate actions are urgently 
needed. We cannot wait until a comprehensive legal and regulatory 
structure to reduce greenhouse gas emissions is enacted by Congress and 
our greenhouse gas emissions decrease, and the warming trend eventually 
slows. By then it will be much too late.
                                 ______
                                 
    Ms. Bordallo. Thank you. Thank you, Ms. Medina.
    Finally, the Chair would like to recognize Dr. Haney to 
testify for five minutes.

           STATEMENT OF J. CHRISTOPHER HANEY, Ph.D., 
             CHIEF SCIENTIST, DEFENDERS OF WILDLIFE

    Dr. Haney. Madam Chairwoman and Members of the 
Subcommittee, I am J. Christopher Haney, Chief Scientist for 
Defenders of Wildlife. Thank you for the invitation this 
morning to speak with you about the impacts of climate change 
on America's fish and wildlife.
    My organization was founded in 1947. It is a national 
nonprofit organization representing more than 500,000 members 
and supporters dedicated to protecting and restoring native 
animals and plants in their natural communities. We stand at a 
crucial moment when we must act, and act now, if we desire to 
protect the nation's natural heritage.
    Conclusions reached about the changed climate that we see 
are compelling--they are so compelling--because the observed 
impacts have been consistent across species and across diverse 
geographic regions. The results are based literally on hundreds 
of plants and animals, thousands or articles dealing with 
climate change.
    In my written testimony I describe 10 categories, major 
categories, of climate change impacts that currently threaten 
our national fish and wildlife resources. These categories 
include such examples as sea and land ice meltdowns; heightened 
risk from invasive species, including nonnative diseases like 
West Nile virus; ocean acidification, more intense storms and 
rising sea levels.
    I also provide several examples of species or habitats from 
the districts or states that you represent that are vulnerable 
to climate change impacts. Though emphasizing fish and wildlife 
resources, both terrestrial and marine, nevertheless you can 
see obvious connections with human welfare as well.
    Instead of repeating those technical details here this 
morning, let me relate to you a brief firsthand account of how 
climate change has altered the places and species that I study.
    Exactly 20 years ago today, my Fish and Wildlife colleagues 
in a small, cramped office in Anchorage, Alaska, were busy 
preparing for a very large, major expedition that we were 
putting together for the remote St. Lawrence Island in the 
Bering Straits region of northern Alaska.
    Because this island is entirely owned and administered by 
two native corporations, we were there as their guests. Despite 
the Service having stewardship or management authority over 
those resources, we had to go through certain protocols and 
procedures in order to work on their lands.
    When we settled all of the organizing and eventually got 
out to the island, we finally arrived at a very remote campsite 
about 30 miles southwest of Gambell on the far southwest coast 
of the island toward late May. Our guide, a Yu'pik Eskimo by 
the name of Mr. Lane Iyacatan, showed us how and where to set 
up our camp.
    The trick was to find sites that were flat enough to put up 
tents and weather ports, but also high enough to avoid the 
spring snow melt, the floods that were going to come later on 
in the season.
    Now, mind you as a southerner at Memorial Day weekend the 
place looked more like midwinter than any place I had ever 
seen, and it was an eye-opening experience to see snow melt on 
into June and July.
    A slight man of immense strength and very gracious nature, 
Mr. Iyacatan was very, very sparing with his words. For 
whatever reason, he and I seemed to hit it off, and we chose to 
team up to do some of the more strenuous activities in this 
remote camp. One of those was building bridges out of driftwood 
that would link the parts of our camp as the river started to 
rise later in the spring.
    Whenever Mr. Iyacatan would finally get around to take a 
break, and that wasn't very often it seemed to me, he would 
take a slow look around at the usually gray sky, the gray 
Bering Sea nearby and the mountains that ringed our camp. His 
typical remark was, ``Kind of cold today.'' That was 1987. Mr. 
Iyacatan would use this phrase rather less often these days.
    When I return to Alaska now, I cannot help but notice the 
later falls, the milder weather, the disappearing glaciers. 
Entire villages are being moved away from crumbling shorelines 
that are no longer protected by the ice pack. Animals and 
plants certainly, but most of all the local inhabitants, know 
that climate change is here now. These kinds of experiences are 
also what convince skeptical scientists of the reality of 
climate change.
    Let me finish by stressing that our national strategy for 
coping with impacts of climate change must consist of two key 
approaches. We must take immediate steps now to reduce the 
causes, mitigation. We also must treat this bottleneck that we 
are going to experience over the next decades or century on the 
effects. We also need to use adaptation.
    We stand ready to work with this Subcommittee and the rest 
of the Congress. Thank you for this opportunity.
    [The prepared statement of Dr. Haney follows:]

        Statement of Dr. J. Christopher Haney, Chief Scientist, 
                         Defenders of Wildlife

    Madam Chairwoman and members of the subcommittee, I am J. 
Christopher Haney, Chief Scientist for Defenders of Wildlife. Thank you 
for this opportunity to speak with you today about impacts of climate 
change from global warming on America's fish and wildlife.
    My organization was founded in 1947 and is a national non-profit 
organization with more than 500,000 members and supporters dedicated to 
the protection and restoration of all wild animals and plants in their 
natural communities. I come before you today to express our profound 
concern that we stand at a crucial moment in our history when we must 
act, and act now, if we desire to protect this natural heritage--the 
nation's diverse fish and wildlife resources.
    As you know, the U.N. sponsored Intergovernmental Panel on Climate 
Change (IPCC) recently released two out of an eventual four volume 
report that summarizes findings from much larger technical reports 
(IPCC 2007 Climate Change Fourth Assessment Report (WGI Science) 
Summary for Policy-Makers (SPM) and (WGII Impacts, Adaptation, and 
Vulnerability) SPM). The IPCC report makes clear that global warming is 
occurring, that it is exacerbated by human activity, and that it will 
have a devastating impact on fish and wildlife. The IPCC report is 
particularly important for two reasons.
    First, the underlying technical report reflects a synthesis of the 
existing scientific and technical literature compiled by the world's 
top experts. It represents the collective understanding of literally 
thousands of scientists from around the world, and includes hundreds of 
top university researchers and government scientists from the U.S. 
Therefore, these Assessment Reports summarize the current science and 
portray our state of knowledge about climate change and global warming. 
Impacts of climate change in North America were included in this 
report.
    Second, the report is based on actual observation. In my testimony 
today, I wish to share with you first-hand personal observations, and 
will emphasize ten (10) separate categories of impacts from climate 
change that we at Defenders see affecting fish and wildlife resources 
across the country. These categories not only serve to further 
reinforce findings of the Intergovernmental scientific report, they 
will enable you to see direct connections to human welfare as well.
GLOBAL WARMING'S IMPACT ON WILDLIFE
    Recent studies clearly demonstrate that species and biological 
communities are responding to changing climate due to global warming. 
The strength of these conclusions--that impacts of climate change are 
consistent across diverse species and geographic regions--is based on 
the robust nature of the meta-analyses <SUP>1</SUP> which examined 
hundreds of species and thousands of articles on climate change. A 2003 
study by Parmesan and Yohe <SUP>2</SUP> examined more than 1,700 
species. More than half showed measurable changes in distribution and/
or timing of their life cycles coherent with global warming. An 
analysis by Root et al. (2003) <SUP>3</SUP> of 143 studies ``reveal a 
consistent temperature-related shift, or ``fingerprint''--more than 80% 
of the species that show changes are shifting in the direction expected 
on the basis of known physiological constraints.'' Plants and animal 
populations are clearly feeling the effects of global warming.
---------------------------------------------------------------------------
    \1\ Meta-analysis is a statistical method using multiple studies 
that examine similar factors and use similar methods. Conclusions 
reached through a meta-analysis are reinforced by the consistencies 
observed across multiple sources.
    \2\ Parmesan, C., and G. Yohe. 2003. A globally coherent 
fingerprint of climate change impacts across natural systems. Nature 
421: 37-42.
    \3\ Root, T. L. et al. 2004. Fingerprints of global warming on wild 
animals and plants. Nature 421: 57-60.
---------------------------------------------------------------------------
    Simply put, there is no real scientific debate: global warming from 
our activities <SUP>4</SUP> has altered biological and physical 
systems. Due to the timescales associated with climate processes and 
feedbacks, the effects will continue for decades or centuries. Thus, 
even if the human-induced emissions of greenhouse gases--the causes of 
the observed accelerated global warming--are stabilized in the very 
near future, our nation's wildlife will continue to feel those effects 
for some time to come.
---------------------------------------------------------------------------
    \4\ Intergovernmental Panel on Climate Change (WG-I) concluded that 
evidence of global warming is unequivocal, and that dramatic changes to 
the planet's climate are, with a 90 percent certainty, the result of 
human-generated emissions of greenhouse gases.
---------------------------------------------------------------------------
MAJOR CATEGORIES OF CLIMATE CHANGE IMPACTS
    (1) Sea and land ice meltdowns. According to the IPCC, average 
Arctic temperatures increased at almost twice the global average rate 
in the past 100 years. Satellite data since 1978 show that annual 
average Arctic sea ice extent has shrunk by 2.7% per decade. 
Temperatures at the top of the permafrost layer have generally 
increased since the 1980s in the Arctic (by up to 3+C). The maximum 
area covered by seasonally frozen ground has decreased by about 7% in 
the northern hemisphere since 1900, with a decrease in spring of up to 
15%.
    These changes in the Arctic environment have reduced the integrity 
of the region's unique terrestrial and marine ecosystems. Sea pack ice 
is disappearing, thinning, and moving further offshore from land, all 
of which tip the scales against wildlife that rely on this key habitat. 
Spectacled eiders (Somateria fischeri), a sea duck already listed as 
threatened under the Endangered Species Act, use large ice-free areas 
(termed polynyas) for foraging during the winter, and rest and sleep on 
adjacent ice edges strategically located over sea floor grounds rich in 
prey. Without such sea-ice roosting areas, spectacled eiders won't be 
able to easily reach their food sources. Rapidly changing ice 
conditions have forced ringed seals (Phoca hispida) to move and give 
birth to their pups in different locations--even under ice--making 
finding and catching seals a bigger challenge for the polar bears 
(Ursus maritimus) that depend on them for survival. With expectations 
that the Arctic Ocean will be largely devoid of summer sea pack ice 
later in this century, species such as polar bears, ivory gulls 
(Pagophila eburnea), walruses (Odobenus rosmarus), and the several 
species of ice-dwelling seals will find their habitat literally melted 
away.
    Polar bears are especially dependent on sea ice as platforms for 
hunting the marine mammals that provide their nutritional needs. 
Because the necessary ice bridges linking land and sea have now been 
severed across wide areas, adult and young polar bears have starved and 
drowned. Some polar bears have resorted to cannibalism, leading 
scientists to remark that they are witnessing stressors unprecedented 
in decades of observation. The U.S. Fish and Wildlife Service has 
proposed listing the polar bear as threatened under the Endangered 
Species Act, a proposal which Defenders of Wildlife strongly supports.
    On land, prospects are no better. Disappearance of permafrost has 
led to draining of Arctic wetlands, aquatic habitats used extensively 
by the breeding waterfowl that winter in the lower 48 states and 
support a multi-billion dollar sport hunting economy. Declining winter 
snow packs threaten terrestrial species such as the wolverine (Gulo 
gulo), a large relative of the weasel that relies upon snow drifts for 
maternal denning.
    One key place where changes are especially visible is the Arctic 
National Wildlife Refuge in Alaska. The Arctic Refuge is the most 
important on-shore denning habitat for polar bears in the United 
States. As offshore sea-ice denning areas melt away, the Arctic Refuge 
becomes one of the last places for these polar bears to winter with 
their newborn cubs. The refuge's famed Porcupine caribou herd is also 
being affected by global warming. Caribou (Rangifer tarandus) are 
departing their wintering grounds a month earlier and are still having 
trouble making it to the coastal plain of the Arctic Refuge in time for 
the earlier arrival of spring, when the most nutritious forage is 
available for their calves. Thus, the significance of the Arctic Refuge 
to wildlife is reinforced by the added threats from global warming.
    (2) Habitat shifts. As the planet warms, the habitats required by 
particular species shift as well, typically northward in the northern 
hemisphere, upslope, and inland. Northern and elevational boundaries 
have moved, on average, 6.1 km northward and 6.1 meters upward each 
decade.
    For some species already on the edge, these shifts could spell 
ultimate extinction. For instance, the Cheat Mountain salamander 
(Plethodon nettingi) is found nowhere else but West Virginia. Its 
entire range is just 935 square miles, spread across the high mountains 
of the east central part of the state from Backbone Mountain, Tucker 
County in the north to Thorny Flat, Pocahontas County in the south. The 
Cheat Mountain salamander is generally found above 2,600-3,500 feet. 
With one of the most restricted ranges of any salamander in the United 
States, and already listed since 1989 by the U.S. Fish and Wildlife 
Service as threatened throughout its range, this amphibian is extremely 
vulnerable. If global warming pushes it further up the mountains in 
search of a cooler environment, eventually it will find no place left 
to go.
    (3) Heightened risks from invasive species, including disease. 
Rapidly changing environments increase the risk of invasive native and 
invasive non-native species, both of which can pose threats to other 
parts of natural systems they share. For example, the longer growing 
seasons from global warming have been implicated as facilitating 
unusually large and long outbreaks of spruce bark beetles (Dendroctonus 
rufipennis). In the past 25 years beetle outbreaks have resulted in the 
loss of an estimated two billion board feet of timber on the Kenai 
Peninsula and elsewhere in Alaska. Longer summers enable the beetles to 
complete one or more generations of their life cycle within a season, 
leading to exploding populations of this forest insect. In Guam, native 
wildlife is greatly threatened already from accidental introduction of 
the non-native brown tree snake (Boiga irregularis). Climate change 
will open new frontiers for such invasive species, and make 
conservation all the more challenging.
    We know from studies of human health that rises in temperatures and 
increases in flooding are often associated also with a rise in certain 
infections and movement or spread of pathogens and disease vectors. 
Wildlife and fish are also susceptible to increases in disease risk. 
Such risk will become even more important as wild populations decline--
a loss in numbers will increase demographic risks of extinction--as 
well as the impact of an increase in population density as animals move 
into the last remaining wild lands due to large-scale land conversions. 
This increased population density as well as increase risk of 
contacting an infected species or vector will magnify as new infections 
and disease vectors themselves spread into more regions with climate 
change.
    (4) Rising sea levels. Projections of sea level rise from global 
warming range from 7 to 23 inches over the next century, according to 
the latest IPCC report. Accelerated melting of Antarctica or Greenland 
glaciers could raise sea levels by several meters <SUP>5</SUP>. Any 
rise will have negative consequences for some wildlife. Some islands 
used by the endangered Hawaiian monk seal (Monachus schauinslandi) 
could be completely underwater by century's end, overcrowding the 
remaining islands used for breeding and rearing of young and increasing 
the predation of seals by sharks. Other coastal species like the 
endangered Florida Key deer (Odocoileus virginianus clavium) depend 
entirely upon low-level barrier islands, and are especially vulnerable 
to sea level rise.
---------------------------------------------------------------------------
    \5\ IPCC figures for the range in sea level rise are conservative. 
Ice cap and glacier melt, however, where the disintegration of ice 
shelves and lubrication of glaciers by meltwater speed up the flow of 
ice into the oceans, are more difficult to model.
---------------------------------------------------------------------------
    Essential habitats along low-lying coastlines are also at serious 
risk. Approximately 160 national wildlife refuges occur in coastal 
areas, including several refuges in New Jersey, Maryland, and 
Louisiana. Many of these refuges, like Maryland's Blackwater National 
Wildlife Refuge, protect coastal marshes that are only a foot or two 
above the current sea level. Even the lowest estimated rise in sea 
level over the next century will have profound effects on coastal 
wetlands, which are one of the most biologically productive ecosystems 
on earth. Coastal marshes also happen to be tremendous carbon sinks, 
and their loss will reduce their ability to absorb carbon and 
potentially release even more carbon dioxide into the atmosphere as the 
inundated marsh plants decompose.
    (5) Longer droughts. Extended drought resulting from global warming 
poses an additional kind of threat to species that rely on already 
scarce water in arid environments such as the American southwest. For 
example, even in the best of times, survival can be precarious for 
desert bighorn sheep (Ovis canadensis spp.). Inhabiting steep, rocky 
terrain in the driest areas of the American southwest, they live in 
small groups isolated by miles of blazingly hot terrain. In 
southeastern California, rainfall has declined by as much as 20%, 
leading to drying of springs and disappearance of important food plants 
<SUP>6</SUP>. More than a third of the sheep populations that once 
lived in California's mountains have disappeared in the last century.
---------------------------------------------------------------------------
    \6\ Epps, C. W., D. R. McCullough, J. D. Wehausen, V. C. Bleich, 
and J. L. Rechel. 2004. Effects of climate change on population 
persistence of desert-dwelling mountain sheep in California. 
Conservation Biology 18: 102-113.
---------------------------------------------------------------------------
    Less-arid regions face dramatic changes as well. As Defenders 
highlighted in our 2006 report, Refuges at Risk: The Threat of Global 
Warming, the prairie pothole region of the country is the nation's duck 
factory; its thousands of small lakes and ponds provide ideal habitat 
for breeding waterfowl. Over 50 national wildlife refuges, such as 
Medicine Lake refuge in eastern Montana, and Devils Lake Wetland 
Management District in North Dakota, have been established in this 
region to protect breeding bird habitat. Climate scientists predict 
that warmer climates in the northern prairie wetlands region will 
increase the frequency and severity of droughts--so much so that the 
number of breeding ducks in this region could be cut in half.
    (6) Excess carbon dioxide. Often described as rainforests of the 
ocean, coral reefs support a dazzling array of creatures. But die-offs 
of corals, as much as 98% in some locations during the last 25 years, 
landed two coral species on the endangered species list. Staghorn 
(Acropora cervicornis) and elkhorn coral (Acropora palmata) form 
massive thickets, provide cover for numerous reef fish, and are 
essential for the health of entire reef ecosystems. However, warming 
ocean temperatures are stripping corals of the algae they need to 
survive, while carbon dioxide emissions are also turning the naturally 
alkaline oceans more acidic. Reefs subsequently turn into rubble 
because of lowering concentrations of carbonate ions, a key building 
block for calcium carbonate required by the corals. Threats from global 
warming to coral reefs have the potential to harm some of our most 
spectacular national wildlife refuges, including the Northwest Hawaiian 
Islands, Guam, Palmyra Atoll, Midway Atoll, and Kingman Reef in the 
south Pacific.
    Guam's coral reefs are home to thousands of species of animals and 
plants, including hundreds of kinds of fishes and shellfishes. Fishes 
and other animals and plants taken from coral reefs are an 
indispensable part of the island's traditional diet. Tourists are 
attracted to the reef's abundant marine life and clear waters. Given 
other threats such as invasive starfish, pollution, silting, and other 
hazards, ocean acidification and other climate-change impacts only 
serve to increase the vulnerabilities of these key fishery habitats.
    (7) Greater extremes in precipitation and/or flooding patterns. In 
natural systems, extremes can be just as important as the averages, and 
sometimes more so. The plains cottonwood (Populus sargentii) is the 
great tree of the American prairies; no other plant approaches the 
stature of this tree on the grasslands that sweep five hundred miles 
westward from the ninety-eighth meridian to the foot of the Rockies. 
This key tree species acts to provide wildlife habitat, shade, and 
streamside stabilization in the region. But the plains cottonwood is a 
flood-sensitive species that depends upon just the proper amount of 
precipitation (intermediate flooding). Not only is drought a severe 
stress on this trees, spring runoffs that are too powerful scour out 
the river bottoms used by the tree, washing away the sand bars and 
banks and any young trees.
    The streamside salamander (Ambystoma barbouri) of Tennessee, 
Kentucky, Ohio, Indiana, and West Virginia is another example of a 
species that requires the optimal amount of precipitation, with too 
much rain just as stressful as too little. The salamander is most 
successful in first- and second-order streams that are seasonally 
ephemeral, that have natural barriers (cascades, waterfalls) that block 
upstream movement of predatory fishes, and that also have large flat 
rocks for laying their eggs. Increased flooding causes high mortality 
in this species, an amphibian with a total population size of only 
about 10,000.
    (8) Disruptions to migration patterns. Some species are able to 
modify their behavioral patterns in response to environmental patterns, 
others are not. Climate change is expected to severely disrupt the 
timing and patterns of seasonal cycles and breeding migrations. 
Budding, flowering, pollination, seeding, and generation times of 
plants will change. Origins, routes, and destinations of migrating 
animals will be different. If climate change creates conditions that 
exceed the biotic limits of these species, adaptation itself is at 
risk. For example, behavioral responses can be successful only if the 
animals are sufficiently mobile, their movements are not blocked, and 
they actually have an alternate place to live. For some species, this 
option is unlikely or even impossible.
    Notably, we have very little information upon which to predict how 
climate-linked changes will disrupt the biotic interactions and inter-
dependencies that have evolved at the community or ecosystem levels. 
The entire fabric of these systems is in jeopardy when species move, 
are extirpated from one site, invade others, or go extinct. We can 
expect surprises from these cascade or synergistic effects. Some of 
these surprises will detrimental to the interests of humans as well as 
wildlife.
    (9) Direct effects of higher temperatures. Warming of the planet 
from greenhouse gases within the atmosphere is the ultimate trigger for 
all climate changes that we observe. However, regional expressions of 
elevated temperatures on the planet's surface from climate change can 
also directly impact fish and wildlife. For example, cutthroat trout 
(Oncorhynchus clarki) and certain other anadromous fishes have well-
established climate sensitivities, and are susceptible to increases in 
the average temperatures of freshwater systems. Increasing ocean 
temperatures can cause gender imbalance in future generations of 
loggerhead sea turtles (Caretta caretta) because of their temperature-
sensitive development. Studies also indicate that earlier nesting times 
of the sea turtle are directly linked to increases in sea surface 
temperature.
    (10) More intense storms. Humans are by no means the only species 
to lose homes to the storms that are projected to be more virulent and 
to occur with greater frequency due to climate changes from global 
warming. Several imperiled species illustrate this particular 
vulnerability. Isolated populations of the threatened red-cockaded 
woodpecker (Picoides borealis), such as those found in parts of 
Florida, Louisiana, and other Gulf states, are susceptible to having 
their key habitats wiped out by more intense and frequent hurricanes. 
The West Indian manatee (Trichechus manatus), currently listed as 
federally endangered and proposed for downlisting to threatened status, 
experiences lower survival probability during years with more intense 
storms. Even our concerted action to shelter species for eventual 
recovery in the wild is put at risk. Recently, all or nearly all of the 
endangered whooping cranes (Grus americana) being held in a Florida 
captive propagation facility prior to release into the wild were killed 
by intense tornados. And it would be the ultimate tragedy if the 
recently rediscovered ivory-billed woodpecker (Campephilus principalis) 
loses habitat as a result of global warming.
A NATIONAL STRATEGY TO REDUCE GREENHOUSE GAS EMISSIONS AND HELP 
        WILDLIFE THROUGH THE BOTTLENECK OF GLOBAL WARMING IMPACTS IS 
        NEEDED
    For many species, global warming is the greatest threat to their 
survival because changes in seasonal and weather patterns are altering 
their ability to respond environmentally or behaviorally. Species that 
are very specialized, rare, or those with very limited ranges, are less 
able to adapt to change and thereby more vulnerable to extinction. 
Others have been brought to the brink due to non-climatic stressors 
that already reduced their numbers, distribution and range, thereby 
making them less resilient to climatic change and more vulnerable to 
extinction.
    Moreover, every species has a ``tipping point''--a set of 
conditions which, if exceeded, will push it towards extinction. Some 
rare species may already have reached this point whereas others may 
soon follow without our efforts to intervene and save them. Wildlife 
managers must now explore new approaches and innovative strategies to 
manage the broader landscape as well as wildlife populations if we are 
to help species survive and adapt to these changes. Because impacts of 
climate change from global warming are already here and will continue, 
fish and wildlife need our intervention to navigate through this 
bottleneck in order to survive and reap the eventual benefits of the 
steps we take today to reduce greenhouse gas emissions.
    A national strategy for combating the impacts of global warming on 
wildlife must consist of two key approaches. First, we must take 
immediate steps to reduce greenhouse gas emissions, to address the root 
cause behind climate change. Second, we must also craft responses now 
to help wildlife navigate through a looming bottleneck of complex 
effects caused by global warming. These two approaches are usually 
referred to as mitigation and adaptation. Both approaches are 
absolutely essential for our nation to frame its policy response as we 
build a comprehensive strategy to protect fish, wildlife, and other 
natural resources.
CONCLUSION
    Impacts of climate change from global warming represent a truly 
global threat to our efforts to conserve and recover fish, wildlife, 
and other natural resources for future generations of American 
citizens. As scientists and resource managers, we recognize the need to 
meet this challenge in a thoughtful, comprehensive manner. Where we 
have opportunities to reduce causes of climate change, we must support 
mitigation measures to reduce the levels of greenhouse gas emissions. 
At the same time, we must take adaptive steps to assist wildlife in 
navigating effects of climate change so that they can survive decades 
to a century of impacts still to come. The time to use both mitigation 
and adaptation is now, immediately. By addressing the needs of fish, 
wildlife, and entire natural systems, we also help ourselves. We and 
the generations that follow can continue to benefit from the remarkable 
diversity of economic, cultural, spiritual, and social goods and 
services provided by all terrestrial, freshwater, and marine 
ecosystems.
    On behalf of Defenders of Wildlife, I want to thank you for the 
opportunity to share our observations and perspectives on this critical 
issue, and submit this testimony for the record at this hearing. It is 
no exaggeration to say that all work on behalf of conserving wildlife 
and its habitat, in North America and around the globe, is at risk now 
from global warming. We stand ready to work with this subcommittee and 
the rest of the Congress to develop solutions that will reduce 
greenhouse gas emissions and enable wildlife to survive until the 
benefits of emission reductions are fully realized.
                                 ______
                                 

           Response to questions submitted for the record by 
                        Dr. J. Christopher Haney

QUESTIONS FROM THE HONORABLE MADELEINE BORDALLO, CHAIRWOMAN
Dr. Haney, in your view, what should the U.S. Fish and Wildlife Service 
        be doing to prepare for global warming on national wildlife 
        refuges and in its endangered species and migratory bird 
        programs?
Refuges
    First, the U.S. Fish and Wildlife Service (FWS) should consider the 
present and future impacts of global warming when developing objectives 
and management actions in the Comprehensive Conservation Planning (CCP) 
process.
    Second, the FWS Division of Conservation Planning and Policy could 
coordinate efforts to assemble available knowledge on climate change in 
order to assist refuges around the country in obtaining current 
information and designing strategies to mitigate the worst of the 
anticipated effects. Also, the FWS should convene a panel of experts to 
assist refuges in developing adaptation strategies for coastal marshes 
and other habitats, including the prairie pothole region.
    Third, in recognition that global warming will undoubtedly have a 
dramatic effect on many wildlife species and ecosystems, the FWS should 
take action now to minimize all non-climatic related stressors on 
refuge lands and wildlife. This would include mitigating for or 
reducing the harmful effects of fragmentation and roads on wildlife, 
among other things (boats, pollution, other incompatible uses of 
refuges, e.g.).
    Fourth, global warming should be incorporated into all refuge 
environmental education and interpretation programs. Visitors should 
learn of how global warming and climate change are affecting the 
refuge's wildlife and ecosystems.
    Finally, the expected effects of global warming and climate change 
should be incorporated into infrastructure design and planning, such as 
elevating buildings and other structural reinforcements near the coast.
Endangered Species
    The FWS should incorporate global warming into recovery plans.
Migratory Birds
    The FWS should carefully monitor migratory bird populations and 
design monitoring strategies that can detect changes caused by global 
warming. Waterfowl hunting levels should be adjusted accordingly.
    The FWS should inform the Migratory Bird Commission of its 
monitoring and research on changes in migratory bird populations, 
habitats, and behavior and recommend changes in land acquisition 
strategies to conserve migratory birds carried out by the Commission.
Dr. Haney, what additional resources or tools will the Fish and 
        Wildlife Service and National Marine Fisheries Service need to 
        adequately prepare and address the impacts of global warming on 
        wildlife over the next decade?
    The following are some of the resources, tools, or approaches that 
the Fish and Wildlife Service and/or National Marine Fisheries Service 
(NMFS) could benefit from to better address climate change:
    1)  Fund permanently a new science center that focuses on wildlife 
and global warming to advise land and fisheries managers of adaptation 
strategies for dealing with the anticipated effects of climate change, 
that coordinates fish and wildlife monitoring strategies, and that 
researches effects of global warming on fish and wildlife.
    2)  The Departments of Interior, Commerce, and Agriculture should 
develop a national strategy for conserving wildlife in the face of 
global warming. Wildlife crosses jurisdictional and political 
boundaries and national level coordination is required to adequately 
conserve wildlife and assist wildlife in adapting to climate change.
    3)  Develop spatially-explicit maps of expected plant community 
changes (USFWS) or shifts in bathymetry, currents, and other marine 
attributes (NMFS). Such maps would be valuable as resource managers 
seek to anticipate and then minimize ecosystem changes.
Dr. Haney, you note that climate change is likely to disrupt wildlife 
        migration patterns and that species which are sufficiently 
        mobile, not constrained, and have alternate habitat available 
        should be able to adapt their migratory behaviors to a changing 
        environment. To your knowledge, has there been any research to 
        identify how many wildlife species are not likely to meet these 
        criteria?
    Indeed, and given adequate opportunity and facilitation, some (but 
not necessarily all or even most) mobile species might be able to adapt 
to certain climate changes.
    I am not aware of any research which has explicitly investigated 
which, how many, or what proportion of sedentary, non-mobile species 
are unlikely to be able to adapt. Until very recently at least, the 
most comprehensive forecast for impacts of climate changes on global 
biodiversity was made in 2004 (Thomas C.D. et al. 2004. Extinction risk 
from climate change. Nature 427: 145-148).
    Analyzing distributions of 1103 species of animals and plants from 
various parts of the world, these authors showed that 15-37% are likely 
to go extinct based on the best projections of future climate change. 
Certainly many (but not necessarily all) of those species identified as 
vulnerable to extinction would be in the sedentary or less mobile 
category mentioned in your question.
QUESTIONS FROM THE HONORABLE DALE KILDEE
Dr. Haney, you noted in your testimony that climate change is likely to 
        heighten risks from invasive species, including disease. 
        Regrettably, the Great Lakes are all too familiar with invasive 
        species. But if I understand correctly your testimony and the 
        testimonies of other witnesses, the northern boreal forest 
        areas surrounding the Great Lakes may be equally at risk.
1.  How might we improve our present methods to screen and control for 
        invasive species in the Great Lakes Region to temper the 
        effects of a changing climate?
    The over-arching objective for invasive species policy is to close 
off the pathways for entry while also maintaining active international 
and interstate trade.
    One comprehensive means for doing so has been Executive Order 13112 
(1999: 64 Federal Register 6183-6186). This Order also helped form the 
National Invasive Species Council (NISC) with representatives from the 
Departments of Interior, Agriculture, Commerce, State, Transportation, 
Defense, Homeland Security, Treasury, Health and Human Services, EPA, 
NASA, and others. The Order also established an Invasive Species 
Advisory Committee consisting of various stakeholders from states, 
tribes, universities, industries, and non-governmental organizations. 
The NISC created a National Invasive Species Management Plan which 
reviews approaches and authorities for preventing introduction and 
spread of invasives, minimizes risk of introductions via identified 
pathways, and identifies research needs and recommends measures for 
minimizing risks of introductions.
    Major pathways identified for screening and controlling include: 1) 
Transportation-related pathways such as air, aquatic, and land 
transport vessels (airplane land gears, hull fouling, ballast water 
containers, packaging materials, solid wood packing material, tourism, 
travel, and shipping); 2) Living industry pathways such as foods, pet 
and aquarium trades, bait industry, livestock and other animals, and 
trade in whole plants, seeds, and plant parts; and 3) Miscellaneous 
pathways including connected waterways, minimally processed plant and 
animal products (hides, trophies, feathers, logs, firewood, mulch, and 
straw), and ecosystem disturbances (rights of way, clearing, and 
damming). Any and all of these pathways can and should be tightened to 
prevent exacerbating the effects of climate change via greater risks 
from invasive species.
2.  If both the surrounding uplands and the Great Lakes themselves are 
        going to be threatened, should we be moving to a more 
        comprehensive, holistic landscape planning approach to address 
        invasive species? Might a new pilot program focused 
        specifically on landscape approaches be helpful in testing and 
        evaluating new methods?
    Yes, a more comprehensive planning approach is much needed. One 
means of doing so would be to link Great Lakes upland and coastal 
planning for invasive species through a pilot program targeting one or 
more of the major pathways mentioned above, especially the ecosystem 
disturbances under ``Miscellaneous,'' several of which must pass 
through the upland/lake boundary.
    With respect to unintentional aquatic introductions into the Great 
Lakes the most critical improvement that now is actively being 
considered is an outright ban on ocean-going ships from going into the 
Great Lakes. After decades of ineffective responses to the well-known 
invasions caused by ballast water discharges and associated 
introductions from ocean-going ships it is time to put a stop to this 
traffic, which carries a relatively small amount of cargo at terrible 
environmental and economic cost to the Great Lakes region.
    With respect to intentional aquatic introductions--that is human 
release of unwanted pet fish, live bait, aquaculture species and so on 
into Great Lakes connected watersheds--we must engage in pre-import 
risk screening for all intentionally imported non-native aquatic plants 
and animals brought into the United States. The current National 
Aquatic Invasive Species Act (NAISA) Senate bill, S.725, is a start--
but it is not nearly strong enough. The provisions in S.725 need to be 
dramatically strengthened to require more comprehensive pre-import risk 
screening that is not limited to only ``novel, not already in trade'' 
species as in the NAISA bill. The NAISA bill would only screen a few 
species per year and give a green light to about a thousand other 
species.
    As far as invasive plants and plant pests, both aquatic and 
terrestrial (e.g., including boreal forest pests), the Administration 
should support, strengthen, and finalize the current USDA Plant 
Protection and Quarantine proposal to dramatically strengthen our 
national pre-import screening of intentionally imported plants, known 
as the Quarantine 37 rule revision.
    Finally, our USDA (now Homeland Security) and U.S. Fish and 
Wildlife port inspection offices are woefully understaffed and under-
resourced. We need more and better trained inspectors to identify and 
block potential harmful invaders at our ports of entry.
QUESTIONS FROM THE HONORABLE PATRICK KENNEDY
Regardless of whether or not we take actions to control and reduce 
        green house gas emissions, wildlife and wildlife habitat and 
        the ocean environment are going to change and adapt, often 
        unpredictably, to a warming climate. Consequently, we should 
        take steps now to develop strategies to allow for the future 
        conservation of biodiversity and the maintenance of a healthy 
        and resilient environment.
1.  Keeping in mind that any transition to a new ``Green Economy'' will 
        take decades to achieve and that most Members of Congress will 
        want to limit unnecessary disruptions of social and economic 
        systems, can you be more specific on what practical types of 
        adaptive management strategies we should consider to mitigate 
        the negative effects of climate change on our collective 
        wildlife and ocean resources?
    Adaptive management strategies necessary for mitigating climate 
change must be drawn from existing, commonly-recognized conservation 
tools as well as new approaches that are not yet fully developed, this 
latter category encouraged through appropriate research and development 
supported by federal legislation.
    For instance, adaptation strategies already available to us include 
reducing existing, non climate change-related threats to vulnerable 
species. Examples include reducing mortality, habitat protection (via 
economic incentives, conservation easements, land-use regulation), and 
restoration where appropriate.
    Examples of new adaptation strategies that are not yet ready for 
implementation, although they could be essential in our toolkit for 
climate change adaptation include: 1) assisted migration, 
translocation, and/or captive propagation, 2) accelerated immunization 
for wildlife diseases (e.g., West Nile virus), or 3) genetic 
modifications and engineering methods for climate change adaptations.
    Finally, public policies that encourage adaptations that jointly 
benefit humans and wildlife need to be identified and then implemented. 
One example of this would be when and where possible to facilitate 
coastal land uses that enable inward migration of both protected areas 
and regions of human settlement away from risk-prone zones.
2.  Should we be doing more to re-evaluate our current policies for 
        land use planning and public acquisition of land for wildlife 
        habitat? Should we be adopting a broader landscape and 
        ecosystem-based approach for protecting wildlife?
    Of course we should be doing a great deal more. It makes no sense 
for each land management unit (e.g. park, forest, refuge) to develop 
wildlife adaptation strategies on their own. Greater assistance should 
be given to all the agencies and agencies should coordinate their 
management across jurisdictional boundaries. That is why Defenders 
believes a national strategy for assisting wildlife adapt to global 
warming is essential.
    All land and natural resource agencies should consider the present 
and future impacts of global warming when developing objectives and 
actions when they craft management plans. Although these planning 
processes vary in strength, public input, and duration across agencies, 
each agency could and we believe should be given more incentives from 
Congress to target their planning for climate change.
    Second, agencies should coordinate efforts to assemble available 
knowledge on climate change in order to assist their various operations 
around the country in obtaining current information and designing 
strategies to mitigate the worst of the anticipated effects. Also, 
agencies should convene a panel of experts to assist them in developing 
credible adaptation strategies for coastal marshes, the prairie pothole 
region, and other vulnerable habitats and systems.
    Third, because global warming will undoubtedly have a dramatic 
effect on many wildlife species and ecosystems, the natural resource 
agencies should take corrective action now to minimize all non-climatic 
related stressors on fish, wildlife, and habitat under their 
jurisdictions. This would include mitigating for or reducing harmful 
effects of fragmentation and roads on wildlife, or disturbances from 
among other things boats, pollution, other incompatible uses of 
conservation land, and so on.
    Fourth, climate change should be incorporated into all agency 
environmental education and interpretation programs. Visitors should 
learn of how global warming and climate change affect the nation's 
wildlife and ecosystems.
    Finally, the expected effects of global warming and climate change 
should be incorporated into infrastructure design and planning, such as 
elevating and reinforcing buildings near the coast.
3.  Finally, how might such ideas be applied to the ocean and coastal 
        environment and the wildlife therein?
    As mentioned above, far more attention needs to be directed at 
reducing risks (and thus costs to society) in the coastal zone. For 
public facilities, this could include better building codes for the 
extreme winds and waves expected from more intense storms (roughly 
analogous to earthquake coded-buildings in California). Certainly, 
public policy should not encourage (or at least reward) development 
that is sited in known risk zones. Some market-based solutions, such as 
much higher insurance premiums, might be appropriate.
    One general idea that I have often heard from natural resource 
professionals is to re-orient the pattern of coastal land use so as to 
facilitate a gradual movement of everything (refuges, protected areas, 
human infrastructure) inland as sea level rises and risks from intense 
coastal storms increase. In this scenario, incentives for orienting 
land uses perpendicular to the coast would be favored over those that 
blocked such adjustments and adaptations.
QUESTIONS FROM THE HONORABLE HENRY BROWN, MINORITY RANKING MEMBER
1.  Dr. Haney, in your testimony you state: ``In Guam, native wildlife 
        is greatly threatened from accidental introduction of the non-
        native brown tree snake''. Are you suggesting that global 
        warming is somehow responsible for brown tree snake 
        infestation?
    No, rather examples like accidental introduction of the brown tree 
snake can be expected to be more prevalent and more likely with climate 
change. As a recent report from our Military Advisory Board concluded, 
climate change acts as a ``threat multiplier for instability...'' For 
invasive, non-native species such as the brown tree snake, parts of our 
country once inhospitable to this species will become suitable for 
successful colonization as the climate warms. And the greater movements 
of people (including climate change refugees) and goods will act as 
vectoring forces to move more of these unwanted species around to 
places where they can be introduced.
2.  You also tell us that Defenders of Wildlife is ``dedicated to the 
        protection and restoration of all wild plants and animals''. 
        Does that include brown tree snakes? (If it doesn't, what other 
        species are not covered by this pronouncement) How much money 
        has your organization donated in Guam to eliminate this 
        terrible invasive species which has wiped out most native bird 
        and lizard species?
    As my testimony stated, Defenders is dedicated to protection and 
restoration of all wild plants and animals in their native habitats. 
Clearly, brown tree snakes are not native to Guam. I do not know the 
total budget our organization has devoted to addressing threats from 
invasive, non-native species over the past 5 or more years, but it is 
considerable. Much of our international program's efforts are devoted 
to limiting the risk of invasive species through monitoring of 
unregulated wildlife trade. Additional staffers from science, field 
conservation, and lands conservation also work to limit risks and 
threats from non-native species.
3.  Dr. Haney, on Page 4 of your testimony, you correctly noted that 
        the latest IPCC report finds that sea levels would rise ``From 
        7 to 23 inches over the next century''. Hasn't former Vice 
        President Gore predicted 20 foot rises in sea levels? Who is 
        correct, the IPCC report or former Vice President Gore?
    Both or either may be correct. IPCC figures for the range in sea 
level rise are conservative. That is, they reflect a rise without any 
large-scale melting of ice caps and glaciers. However, ice cap and 
glacier melt, i.e., the disintegration of ice shelves and lubrication 
of glaciers by melt water, speed up the flow of ice into the oceans. 
But these are more difficult to model precisely due to more uncertainty 
in the parameters. Any accelerated melting of Antarctica or Greenland 
glaciers could raise sea levels by several meters, a figure in line 
with the predictions attributed to Gore.
4.  You state that: ``For many species, global warming is the greatest 
        threat to their survival''. Wouldn't that statement also be 
        true if we were talking about a new ``ice age''?
    No. During the earth's ice ages, there were always warm zone 
refuges where plants and animals survived. But when the entire planet 
warms, there are no or many fewer (and much smaller) comparable cold 
zone refugia where species adapted to these conditions can survive. 
Also, the rate of warming currently experienced is notably greater than 
the more gradual temperature changes experienced in the earth's 
geological history. Moreover, past episodes of climate change on Earth 
occurred without the additional pressures on species from extensive 
human modifications. Therefore, species today have far less time and 
fewer places to make the sort of adjustments that they otherwise might 
be able to make.
5.  Do you agree with the statement that: ``Coal is the cheapest and 
        dirtiest source of energy around and...if we cannot get a 
        handle on the coal problem, nothing else matters''? Does your 
        organization support a moratorium on coal-fired utilities?
    Our organization does not specialize in nor have as its mission 
developing or promoting a national energy policy, the technology of 
energy, or the costs/benefits (economic, environmental, or otherwise) 
of various energy alternatives. As far as I know, Defenders does not 
currently support a moratorium on any particular energy source.
    Furthermore, we stress that the nation cannot mitigate its way out 
of climate change impacts. By this I mean that while our treating the 
causes of climate change is essential (e.g., through cutting back on 
emissions), we still have to deal with the effects of climate change. 
In other words, we must use adaptation in concert with mitigation for a 
national strategy to work. Our fish, wildlife, and ocean resources 
cannot wait, either, for the mitigation to work; they need our help 
with adaptation now.
6.  Does your organization support reducing carbon emissions by 80 
        percent by 2050? How would you accomplish that goal?
    See above. Our organization does not specialize in nor have as its 
mission crafting a national energy policy, the technology of energy, or 
the costs/benefits (economic, environmental, or otherwise) of various 
energy sources. Given our specific mission to protect native plants and 
animals in their native habitats, our organization is emphasizing 
adaptation as an essential complement to mitigation in order to solve 
the problems of climate change.
7.  In response to a question during the hearing, you talked about the 
        economic impact of hunting for migratory birds. Does Defenders 
        of Wildlife support or oppose hunting?
    Because we focus our efforts on imperiled species, the issue of 
hunting rarely intersects with our activities and projects. Defenders 
of Wildlife does not perceive hunting to be a conservation threat (at 
least as practiced in the United States). We also recognize the immense 
contributions that sport hunting and fishing make to land and water 
conservation in the nation, thereby reinforcing the success of our 
mission. Several of our staff and/or their families hunt, of course, 
including the Chief Scientist.
8.  Do you or have you (or your organization) received any funding from 
        the Pew Charitable Trust or the David and Lucille Packard 
        Foundation? If so, please elaborate.
    We have a grant from the Packard Foundation for policy analysis 
related to the Endangered Species Act. As far as I know, we do not have 
(nor have we had recently) any support from the Pew Charitable Trusts.
9.  Are you currently a party to any law suit against the Department of 
        the Interior or the Department of Commerce (or any of the 
        agencies within these departments)? If so, please describe.
    The following is a list of cases on which we are a party against 
the Department of Interior or Commerce:
    <bullet>  Defenders of Wildlife v. Gutierrez, No 05-2191 (right 
whale)
    <bullet>  Butte Environmental Council v. Kempthorne, No 05-629 
(vernal pools)
    <bullet>  Stevens County v. DOI, No 06-156 (Little Pend Oreille - 
grazing)
    <bullet>  Defenders of Wildlife v. Kempthorne, No 06-180 (Fl black 
bear)
    <bullet>  American Bird Conservancy v. Kempthorne, No 06-02631 (red 
knot emergency listing)
    <bullet>  Cary v. Hall, No 05-4363 (African antelope)
    <bullet>  Communities fora Greater Northwest v. DOI, No 1:06-01842 
(grizzly intervention)
    <bullet>  State of Wyoming v. DOI, No 06-0245J (Wyoming wolf 
intervention)
    <bullet>  Defenders of Wildlife v. Kempthorne, No 04-1230 (lynx)
    <bullet>  Conservation Northwest v. Kempthorne, No 04-1331 
(Cascades grizzly)
    <bullet>  Defenders of Wildlife v. Kempthorne, No 05-99 (wolverine)
    <bullet>  Tucson Herpetological Society v. Kempthorne, No 04-75 
(flat-tailed horned lizard)
    <bullet>  The Wilderness Society v. Kempthorne, No 98-2395 
(National Petroleum Reserve - Alaska)
QUESTIONS FROM THE HONORABLE WAYNE GILCHREST
1.  If paleo-records show that corals existed in the past under high 
        atmospheric CO<INF>2</INF> concentrations, why is it a problem 
        now?
    A specific and arguably unique concern for this particular epoch of 
climate change is the speed with which it is occurring. Some-to-many 
species that might be able to adjust otherwise over very long durations 
of change simply cannot adapt fast enough in this recent climate change 
era.
    In the case of relatively slow-growing corals, the sheer number of 
stressors from climate change may exceed their ability to adapt. For 
example, corals are subject to all of the following: 1) increasing sea 
levels with which their growth must meet in order to stay within the 
relatively shallow depths required by these marine species, 2) 
increased pollution from human coastal communities that were not 
present in previous climate change eras, and 3) increased ocean 
acidification which compromises their calcium dependency.
2.  Among the various effects of climate change to wildlife and the 
        oceans, are there issues that are more pressing than the 
        others? Why?
    It is my professional judgment that low-lying coastal zones are 
among the most vulnerable sites to extreme impacts from climate change. 
(These impacts include long-term sea-level rise, but also more 
frequent, intense storms, beach erosion, increased salinity, disrupted 
navigation). My reasoning on the importance of this issue stems from 
the sheer number of climate change impacts, their severity, and the 
importance to natural resources (including many of the nation's 
commercial enterprises such as seafood and tourism) in these regions.
3.  In the U.S., as plant and animal species migrate north and to 
        higher elevations, what does that mean for the regions they 
        leave behind? For instance, it has been said that some U.S. 
        states that border Canada might actually benefit from the next 
        few decades of climate change, but what will it mean for the 
        states further to the South, and especially those on the coast?
    My professional judgment is that some species will be able to move 
northward, and some subset of these will be able to thrive. Other 
species will not be able to move northward because the conditions apart 
from climate are not suitable for them. Two examples will illustrate. 
In Alaska, the east-to-west orientation of the Beaufort Sea will 
eventually block any and all terrestrial species from further northward 
movement. In the northern U.S. and Canada, the current agricultural 
bread baskets cannot survive moving north over the Canadian Shield 
because the soils there are unsuitable for farming.
    To be sure, there will be both winners and losers under climate 
change. However, I not aware of any analyses which indicate that on a 
net basis, the ``winnings'' from climate change impacts will compensate 
for the ``losses,'' even on a planetary scale (never mind for 
particular regions, like the U.S.). Some regions will experience 
disproportionately high impacts or losses. Just today (May 11, 2007), 
news accounts are reporting research that projects the eastern United 
States, including the South, will experience much higher summer 
temperatures than previously anticipated.
4.  How do shifts in habitat range of plants and animals affect human 
        interests such as agriculture or the spread of invasive species 
        and diseases? How can we adaptively plan for such changes?
    See answer to question #4, above.
5.  The IPCC reports with 80% certainty that the changes in water 
        temperatures, ice cover, salinity and ocean circulation are 
        impacting the ranges and migration patterns of aquatic 
        organisms. How will this affect management and use of these 
        resources, and how can we prepare for any changes?
    Because to some extent each species will react differently to 
climate change, the overarching preparation for climate change by the 
United States must embrace two goals: 1) mitigation of the causes 
behind climate change (emissions of greenhouse gases), and 2) 
adaptations to the effects of climate change.
6.  In the Chesapeake Bay, we are losing marshland to rising sea 
        levels. Can you talk about what is happening to coastal wetland 
        areas in other areas of the country and what that is doing to 
        their ecosystems and the local economies that depend upon these 
        natural resources?
    My specialty or area of expertise is primarily terrestrial 
wildlife. I would defer to other witnesses, especially on the second 
panel, who may possess greater familiarity with the regional 
differences in the response of coastal wetland areas to climate changes 
and/or the economic consequences of those responses.
7.  What role do marshlands play in sequestering carbon? Is marsh 
        restoration a viable alternative in carbon sequestration?
    My specialty or area of expertise is primarily terrestrial 
wildlife. I would defer to other witnesses, especially on the second 
panel, who may have greater familiarity with biogeochemistry generally, 
and with marsh ecosystems specifically, for determining whether 
restoration was an effective alternative in carbon sequestration.
    Current research indicates that carbon sequestration may not be 
appropriate everywhere, and indeed in some cases may make the problem 
of global warming worse. For example, carbon budget estimates for the 
Arctic indicate that increased woody vegetation (trees, shrubs) growing 
in high-latitude areas that are now covered by tundra will actually 
accelerate warming (G. Bala et al. 2007. Combined climate and carbon-
cycle effects of large-scale deforestation. Proceeds of the National 
Academy of Science 104(16): 6550-6555. This is because darker 
vegetation absorbs more heat, increasing surface temperatures, melting 
permafrost, causing less and shorter duration of snow cover, etc., 
thereby creating a negative feedback loop.
8.  The latest IPCC report warns that ocean acidification poses a 
        threat to coral reefs and shell-forming organisms that form the 
        base of the aquatic food chain. But the report says more study 
        is needed to determine the full scope of the threat. What do we 
        know about the potential impacts to U.S. coastal ecosystems 
        today and how quickly is our understanding of acidification 
        improving? What can Congress do to improve upon this 
        understanding? Do we know enough to act?
    An arguably unique concern for this particular epoch of climate 
change is the speed with which the changes are occurring. Some-to-many 
species that might be able to adjust otherwise over very long durations 
of change simply cannot adapt fast enough in this era.
    In the case of relatively slow-growing corals, the sheer number of 
stressors from climate change may exceed their ability to adapt. For 
example, corals are subject to all of the following: 1) increasing sea 
levels with which their growth must meet in order to stay within the 
relatively shallow depths used by these marine species, 2) increased 
pollution from human coastal communities that were not present in 
previous climate change eras, and 3) increased ocean acidification 
which compromises their calcium dependency.
    One means to help corals better adapt to climate change impacts 
would be to reduce the levels of coastal pollution and nutrient loading 
that may be contributing to bleaching and other stressors.
9.  What additional resources or tools will the Fish and Wildlife 
        Service and National Marine Fisheries Service need to 
        adequately prepare and address the impacts of global warming on 
        wildlife over the next decade?
    The following are some of the resources, tools, or approaches that 
the Fish and Wildlife Service and/or National Marine Fisheries Service 
could benefit from when addressing climate change:
        1)  Fund permanently a panel of experts to advise refuge and 
        fisheries managers of adaptation strategies for dealing with 
        the anticipated effects of climate change. Such panels would 
        increase the scientific capacity of the FWS and NMFS with 
        regard to climate change science.
        2)  Establish an interagency planning and coordinating 
        mechanism, a National Council on Global Warming and Wildlife 
        (or Marine Systems). Modeled after the National Interagency 
        Fire Center and the National Invasive Species Council, the 
        National Council on Global Warming and Wildlife (or Marine 
        Systems) would develop a national strategy for addressing the 
        impact of global warming on fisheries, wildlife, and 
        ecosystems, with the express purpose of helping natural 
        resources navigate the bottleneck of global warming impacts 
        over the next century. This strategy should examine management 
        issues common to geographic areas and threat type (e.g. sea 
        level rise, increased hurricane frequency and intensity). 
        Individual agencies and land management units could then 
        coordinate their management activities with these national and 
        regional goals and strategies. State strategies, particularly 
        those set forth in state wildlife action plans, should address 
        global warming impacts on wildlife and also be coordinated with 
        the national strategy.
        3)  Develop spatially-explicit maps of expected plant community 
        changes (USFWS) or shifts in bathymetry, currents, or other 
        marine attributes (NMFS). Such maps would be valuable as 
        resource managers seek to anticipate and then minimize 
        ecosystem changes.
10.  We've heard a lot about the polar bear and the petition to list 
        the species under the Endangered Species Act (ESA). Opponents 
        of listing claim that the effects of global warming are in fact 
        unclear. What evidence is there that global warming is already 
        having a dramatic effect on the species across its range? How 
        will an ESA listing help polar bears?
    There is no credible doubt that global warming and climate change 
have greatly decreased the extent of Arctic Ocean pack ice, the primary 
and essential habitat of polar bears. Indeed, since my testimony was 
delivered last month, the projections of pack ice loss have actually 
worsened, with estimates now that summer pack ice in the Arctic Ocean 
will disappear decades earlier than once forecast.
    ESA listing will assist polar bears by giving the U.S. Fish and 
Wildlife Service more discretion over reducing other threats to polar 
bears, ones that are still within our control to influence and that 
will have immediate benefits while we await the results of our longer-
term reductions in emissions.
11.  To date, climate legislation has largely focused on reducing 
        greenhouse gas emissions to reduce the threat of global 
        warming. In your testimony you state that even if emissions 
        reductions are achieved, there will be a period of at least 100 
        years where the effects of global warming will continue to be 
        felt, and our national response should include adaptation 
        strategies as well as emissions reductions. Can you explain how 
        the earth will continue to warm even if we reduce our 
        emissions?
    Yes, all natural systems, including the Earth's atmosphere, 
experience a variety of time lags related to inertia in function.
    With respect to greenhouse gases, some increased warming will 
continue because there is a lag between the atmospheric warming per se 
and the effects expressed in wildlife and ecosystems. For example, we 
currently are experiencing some effects from climate change from the 
emissions into the atmosphere that started long ago in the Industrial 
Revolution.
    Another component to the lag times is that other, non-human 
emissions of greenhouse gasses will continue even as we halt or even 
reverse our own contributions. For example, much carbon is stored in 
Arctic permafrost and other locations which, although currently 
``locked-up'', will be released into the atmosphere as the climate 
warms. These thresholds, tipping points, and negative feedback loops 
are a major source of continued warming even if man-made sources are 
controlled.
12.  Your testimony portrays a dire picture for the future of wildlife 
        in this country. What can be done to prevent species 
        extinctions as the planet warms? What percent of the world's 
        species are at risk?
    Because to some extent each species will react differently to 
climate change, the overarching preparation for climate change by the 
United States must embrace two goals: 1) mitigation of the causes 
behind climate change (emissions of greenhouse gases), and 2) 
adaptation to the effects of climate change.
    Until very recently at least, the most comprehensive forecast for 
impacts of climate changes on global biodiversity was made in 2004 
(Thomas C.D. et al. 2004. Extinction risk from climate change. Nature 
427: 145-148). This study Analyzed distributions of 1103 species of 
animals and plants from various parts of the world, and found that 15-
37% of species are likely to go extinct based on the best projections 
of future climate change.
13.  In your view, what should the Fish and Wildlife Service be doing 
        to prepare for global warming on national wildlife refuges and 
        in its endangered species and migratory bird programs?
Refuges
    First, the U.S. Fish and Wildlife Service (FWS) should consider the 
present and future impacts of global warming when developing objectives 
and management actions in the Comprehensive Conservation Planning (CCP) 
process.
    Second, the FWS Division of Conservation Planning and Policy could 
coordinate efforts to assemble available knowledge on climate change in 
order to assist refuges around the country in obtaining current 
information and designing strategies to mitigate the worst of the 
anticipated effects. Also, the FWS should convene a panel of experts to 
assist refuges in developing adaptation strategies for coastal marshes 
and other habitats, including the prairie pothole region.
    Third, in recognition that global warming will undoubtedly have a 
dramatic effect on many wildlife species and ecosystems, the FWS should 
take action now to minimize all non-climatic related stressors on 
refuge lands and wildlife. This would include mitigating for or 
reducing the harmful effects of fragmentation and roads on wildlife, 
among other things (boats, pollution, other incompatible uses of 
refuges, e.g.).
    Fourth, global warming should be incorporated into all refuge 
environmental education and interpretation programs. Visitors should 
learn of how global warming and climate change are affecting the 
refuge's wildlife and ecosystems.
    Finally, the expected effects of global warming and climate change 
should be incorporated into infrastructure design and planning, such as 
elevating buildings and other structural reinforcements near the coast.
Endangered Species
    The FWS should incorporate global warming into recovery plans.
Migratory Birds
    The FWS should carefully monitor migratory bird populations and 
design monitoring strategies that can detect changes caused by global 
warming. Waterfowl hunting levels should be adjusted accordingly.
    The FWS should inform the Migratory Bird Commission of its 
monitoring and research on changes in migratory bird populations, 
habitats, and behavior and recommend changes in land acquisition 
strategies to conserve migratory birds carried out by the Commission.
14.  The melting of arctic sea ice is well known, but I was interested 
        to read in your testimony that wetlands in the arctic are also 
        being impacted--literally drying up. Can you explain this 
        process and what are the impacts on migratory bird populations? 
        What portion of U.S. birds relies on wetlands in the arctic?
    The process of drying in Arctic wetlands occurs via two principal 
drivers. First, as the permafrost melts, the hard ``pan'' that 
underlies shallow wetlands in this region disappears, so the water 
simply drains away. Second, because much of the Arctic is essentially a 
desert with respect to annual precipitation, the marshy, boggy terrain 
was sustained historically because rates of evaporation did not exceed 
rates of precipitation. Now, however, the higher temperatures and 
reduced albedo (lower reflective properties in Arctic are due to ice/
snow loss), this balance is disrupted, and more water is lost to the 
atmosphere.
    Some migratory bird species in the U.S. (e.g., Spectacled and 
Steller's eiders) are entirely dependent on Arctic wetlands. For 
another set of species, most of the population breeds in the Arctic 
(e.g., the increasingly threatened Red Knot). Finally, for yet other 
species, a large proportion breeds in the Arctic (e.g., Northern 
Pintail).
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Haney.
    Consistent with Committee Rule 3[c], the Chairwoman will 
now recognize Members for any questions they may wish to ask 
the witnesses, alternating between Majority and Minority and 
allowing five minutes each for each Member. Should Members need 
more time, we will have a second round of questions.
    Before I recognize the first Member of the committee or the 
Ranking Member, I wish to ask a couple of questions myself. The 
first question is to Mr. McKibben. I want to thank you and all 
the witnesses for your excellent testimonies this morning.
    In the report on your latest efforts, Mr. McKibben, to 
organize peaceful protests for action to address climate 
change, you note that people across the country are concerned, 
informed and energized, but are there specific action items 
other than the goal to reduce carbon emissions that they are 
calling for? Does protection of wildlife and wildlife habitat 
resonate as a priority?
    Second, oftentimes critics of climate change label people 
concerned about the issue as alarmist or naive about the 
economic and social costs of addressing the challenge. In your 
estimation, Mr. McKibben, are the people who recently 
demonstrated around the country uninformed about the tradeoffs, 
or are these people aware of the scope and the complexity of 
the problem?
    Mr. McKibben. Those are very good questions. First in 
response to the question of whether or not people take wildlife 
and habitat seriously as a part of this phenomenon, I think the 
answer is very clearly yes.
    Around the country, among other things, as we have looked 
at these photographs one of the things we have noticed and 
everybody who took part in these demonstrations, one of the 
things they did was upload that day to our website a photograph 
and so there are now 1,400 or something of these pictures 
rotating through in a slide show on that website. You have many 
of those pictures from your districts in front of you today.
    One of the things we noticed was that there were an awful 
lot of people in polar bear costumes at various places around 
the country. Another thing we noticed, and I hope you will get 
the chance to go on the website and click the video that shows 
maybe the single most beautiful of all these demonstrations, a 
group of scuba divers underwater off the Florida Keys with that 
same banner, 80 percent by 2050.
    In response to the question of particular mechanisms that 
people are hoping to--the most important thing we think at the 
moment is for Congress to finally set real and long-term 
targets with a detailed agenda to get going quickly on them.
    The reason for that is that having done that will send the 
necessary signal into our economic community, enough of a 
signal that carbon will no longer be a free good in the 
atmosphere, that the series of investment decisions and things 
that follow for the next 40 years will begin to have a kind of 
virtuous effect. Certain things will begin to happen.
    Now, we know what some of the things are that cannot happen 
if we are ever to meet that goal, and chief among them and one 
of the things that people brought up at a number of these 
protests was the need not to put on-line these 150 coal-fired 
power plants in one stage or another of being on the books in 
this country. I think that that was a very clear consensus.
    As to whether people are either naive or alarmist in these 
demonstrations, I think the answer is clearly no. In fact, what 
has been very nice is to see the kind of naivete begin to 
disappear, the idea that somehow the rules or the laws of 
physics and chemistry might not apply to the United States or 
that we might be able to avoid dealing with the molecular 
structure of carbon dioxide; that that naivete is finally 
beginning to disappear.
    Far from being alarmist, I think people are exceedingly 
realistic. They know that this will be a difficult job in order 
to wean our economy away from fossil fuels. They are also, 
however, confident, and I think confident in a very American 
way, that it is possible to put ourselves to this task and 
accomplish a good deal.
    One of the things that we heard over and over again was a 
kind of expression of dismay at the almost un-American timidity 
of those who say that it is impossible to deal with this 
problem or that we have to go exceedingly slowly or that it 
will put us out of business or whatever it is.
    We have a problem. People understand that we have a 
problem, that that problem derives from basic laws of physics 
and chemistry and that we better roll up our sleeves and get to 
work solving it.
    Ms. Bordallo. Thank you. Thank you very much, Mr. McKibben.
    I think the Chair now would like to go ahead and recognize 
the Ranking Member if he has questions for the witnesses.
    Mr. Brown. Thank you, Madam Chairman.
    To continue that same dialogue, Mr. McKibben, I know we 
talked about what Congress can do to get us through this 
problem. We are talking about cutting I guess the emissions by 
80 percent by 2050 or somewhere thereabouts.
    What can we do as individuals? I mean, it is easy for 
Congress to mandate. Should we mandate that everybody has one 
car and it takes 40 miles to the gallon or maybe it is all 
electric, or you can only drive with four people in the car? 
Maybe we all should go to mass transit.
    I mean, it is limited what the Federal government can do 
and so we have to be careful of what we ask the Federal 
government to mandate on our quality of life.
    We mention about coal powered, and we recognize there is 
some abuse, but we recognize too that industry has been doing a 
lot, putting scrubbers in and converting some of the byproducts 
into other materials and so I know industry is working 
collectively to try to do something. I don't know about 
mandating them, how that might work, if we could develop tax 
credits or some other incentives to get us through that.
    Tell me what we as individuals could do? In fact, as I have 
heard the testimony from Dr. Lawler about the forestry, I was 
hoping he would bring in some injection of some kind of a 
reinforcement of what we can do proactively as citizens. Maybe 
we could plant more trees or do something else to help with the 
climate change rather than trying to address the issue through 
a second person.
    Anyway, I am anxious to hear either one of your comments on 
that.
    Mr. McKibben. Let me speak first. I think that the question 
about intrusive Federal mandates is a good one, and I think 
that it is one of the reasons why Congress would be well 
advised to try to set an overarching architecture for what is 
going to happen over the next 50 years so that then to some 
degree anyway the market could do the work.
    If you set a cap on carbon and begin to rachet it down, 
that signal will spread throughout the economy, and we will 
begin to get some of these changes that we need.
    The example that you give of scrubbers on coal-fired power 
plants is a very good example. That sort of thing is what 
happened 20 years ago for sulfur and nitrogen compounds and is 
one of the reason we have begun to see those declines.
    Nothing like that has been done as it regards carbon 
dioxide, the global warming gas, and as a result those 
emissions in our economy continue to increase one percent a 
year, year after year after year, despite the scientific wisdom 
that we have come across.
    Now, there are important mandates that need to be made that 
only Congress can make that will begin to accomplish some of 
these goals. You mentioned some of them. Clearly we need an 
increase in automobile mileage standards. The average car 
coming off the assembly line today gets poorer gasoline mileage 
than the car that Henry Ford was pulling off his assembly line 
in the 1920s and the 1930s.
    That is pretty shocking, and it is not a good sign at all. 
We have the technology to easily produce cars that get much 
better than the 40 mile per gallon figure that you estimate, 
and we should get to work on it.
    If we begin to make large-scale, targeted plans for the 
future then some of these changes will begin to make themselves 
and lessen some of the need for directed mandates, but that is 
not to underestimate the degree of work that it is going to 
take in order to accomplish this transition.
    Mr. Brown. Let me interject. I know my time has just about 
slipped away.
    On the second panel we have Dr. Sharp, and he is going to 
testify in his written statement that manmade levels of carbon 
dioxide are only three percent of the global carbon cycle.
    Do you agree with that number? If so, are you suggesting 
reducing the manmade carbon dioxide by 80 percent? How are we 
going to handle nature's influence?
    Mr. McKibben. I do agree with that number, and I am 
suggesting that.
    As I think the rest of the panel will indicate, the natural 
world was fairly well balanced for carbon before the injection 
of anthropogenic CO<INF>2</INF> in the wake of the industrial 
resolution. It is that added increment that is now piling up in 
the atmosphere and causing these changes.
    Since we are unlikely to be able to legislate away 
volcanos, it probably makes more sense to legislate those 
things that we can control, our own actions.
    Mr. Brown. I know my time has expired, but I know the 
influence that we are going to have from the emerging nations 
like China and India with all of their unregulated power plants 
or whatever.
    There is going to be an influence, and somehow or another 
we have to get a national policy directed and be careful of how 
we address just the United States.
    Thank you, Madam Chair.
    Ms. Bordallo. Thank you. Thank you.
    The Chair now would like to recognize Mr. Kildee, the 
gentleman from Michigan.
    Mr. Kildee. Thank you, Madam Chairman.
    Ms. Medina, I shared dinner and conversation with the 
Russian Ambassador last night, and he and your 10-year-old son 
would agree on the polar bear should they get a conversation.
    The Russians recognize that the polar bears are moving 
further south because of the climactic changes taking place 
now. In their own history, that is something new also. It was 
very interesting. Out of the mouths of young people has 
perfected wisdom.
    Dr. Haney, a question directly to you, but anyone may 
answer this. The Great Lakes, when I live in Michigan, have 
already been affected by invasive species brought about by 
human activity. We have the zebra mussel, which is very costly 
to us; the emerald ash borer, which is devastating our ash 
trees.
    What effects might we expect with climactic changes? What 
effects will it have on invasive species in the Great Lakes, 
the introduction of invasive species? If you want to go beyond 
that on the lake levels and forest health and agricultural 
health?
    Dr. Haney. Well, there could be several. One of the 
expectations of global change generally is that there will be 
more movement and transport of peoples. We have already seen 
that through other kinds of globalization.
    So there is a high likelihood that more nonnative species 
are simply going to get moved around from one place to another, 
giving them the opportunity to establish. That is because we 
are more active all around the planet.
    Another potential impact on the Great Lakes is that the 
changing temperature of the water will make the Great Lakes 
more acceptable or suitable or vulnerable to species that 
aren't native to that freshwater ecosystem, so whereas 50 years 
ago they might not have been able to thrive there they can 
today.
    Another potential impact, although I realize this is more 
longer term and somewhat speculative, is that as the planet's 
freshwater resources get redistributed the Great Lakes are 
going to look very appealing as a place essentially to mine 
fresh water.
    Any of those things can act to--and if increased ships come 
in from other places to take out the freshwater, they are going 
to bring in their ballasts or on the hulls of the ships new 
species that might have the potential to establish themselves.
    Mr. Kildee. The two largest bodies of freshwater in the 
world would be our Great Lakes and Lake Baikal in Russia. There 
was always a temptation to draw from those freshwater bodies I 
know.
    I think you had a response also?
    Dr. Root. I actually was at the University of Michigan for 
14 years, and I did a bit of studying on how global warming was 
going to affect the state. The lake levels are indeed going to 
drop, and that is going to hurt the fish nurseries that occur 
around the edges.
    The other thing it is going to do is it is going to 
increase the pollution content of the lakes because the 
pollution is not going to be going out, the heavy metals and 
the like. Right now you can eat whitefish what, once a week 
from the Lakes. You probably will not be able to eat any from 
the Lakes after there has been quite a drop in the lake levels.
    I just wanted to also agree with Chris in saying that the 
increase in population in Michigan is something that they are 
really quite concerned about because people are going to be 
moving up to Michigan because of the water.
    Thank you.
    Mr. Kildee. Dr. Lawler, you had some response also?
    Dr. Lawler. Yes. I was going to give you potentially one or 
two examples of invasive species changing with climate change.
    One is the mountain pine beetle in the western United 
States, which can devastate large stands of pine. It has moved 
up into pines that it didn't used to work on, it didn't used to 
affect, white bark pine at high elevations.
    In so doing, it has had sort of a cascade of ecological 
effects. By knocking out those pines, by killing off those 
pines, it devastates one of the winter food sources for grizzly 
bears and so it can have an effect on the pine trees. It can 
have an additional effect on grizzly bears.
    That is sheerly due to warming, so as the temperatures warm 
the beetle has been able to move up slope. It has been able to 
move into trees it hasn't been in before. It is also moving 
northward into Canada, and there is fear that it will connect 
to pine populations that go across northern Canada, and it may 
even make its way into the eastern U.S., so invasive species 
will move as well as our basic wildlife species.
    Mr. Kildee. So we are already seeing that?
    Dr. Lawler. We are already seeing changes in invasive 
species.
    Mr. Kildee. I thank you very much.
    Thank you, Madam Chairman.
    Ms. Bordallo. Thank you. Thank you, Mr. Kildee.
    The Chair now recognizes Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Madam Chairman. Welcome to all 
the witnesses this morning.
    I was going to say something to my colleague from South 
Carolina, and maybe even you can give us some recommendations 
on novices reading good information about the scientific data 
collected over decades dealing with this issue unbiased from 
any industry or political source. I think that it is vital for 
us to act boldly and not be dysfunctional with an issue that is 
so potentially catastrophic.
    The comment I wanted to make was that I learned recently an 
interesting little tidbit. Sometimes these little tidbits give 
us insight. We put more CO<INF>2</INF> into the atmosphere from 
burning fossil fuel in any one given year than it took nature a 
million years to lock up that same amount of CO<INF>2</INF>. I 
tested that tidbit any one of a number of times, and it has 
always proven to be accurate.
    My colleague, Roscoe Bartlett from western Maryland, made 
an interesting statement/insight into this issue, a clearer 
image so we could look at it. He said if you had a scale with 
1,000 pounds on each side--this is in reference to we are 
contributing three percent of the CO<INF>2</INF>. If you have a 
scale with 1,000 pounds on each side and it is balanced, you 
add one pound to one side, which is extraordinarily tiny, and 
it goes off balance. To some extent, that is what we are doing.
    The other thing, we are talking about environmental 
concerns here, and there are many environmental concerns, but 
it is also an economic issue. As long as we are not energy 
independent, our economy will be virtually sluggish in the 
international global marketplace.
    New, innovative, bold technology will rise the U.S., not 
only becoming a green nation, not only leading the world in 
this issue, but we will have the innovative technology that the 
world will want.
    The last thing is national security. We get our fuel source 
from very, very unfriendly, unstable areas of the world, so if 
we look at the issue of climate change it is environmental, it 
is economic, and it is national security.
    We have a Climate Stewardship Act that I will not go into 
much detail today, but it does push for that reduction by 2050 
to 70 or 80 percent below 1990 levels, and if you look at that 
a little bit further you will see that the scientific data is 
clear that we do not want to go beyond that threshold of 450 or 
500 ppm of CO<INF>2</INF> because then we are not sure what the 
climate change is going to be, the catastrophic events that 
will occur after that, not to mention what is happening right 
now with the piling up of CO<INF>2</INF>.
    The question I have, and I have three questions if I could 
get into them. Maybe we will have a second round. I apologize 
for my soap box. If we look at the Canadian and the U.S. 
border, what do we see as changes there? The Chinese-Russian 
border? What do we see as changes there? Coastal areas like 
Maryland, the Chesapeake Bay, and the coast area of South 
Carolina, for example? Southern regions like Brazil, Central 
America?
    Can you give a quick response as to wildlife in those 
regions? I know you need about a three hour timeframe. I have 
probably a minute and a half left.
    Dr. Lawler. I can give you just some stories that relate at 
least to my research.
    Some of the biggest changes in wildlife will likely be in 
the tropical regions, particularly in terms of sheer numbers of 
species. That is where the most species are. The changes even 
with my model, some of the most drastic changes show 300 to 600 
species changing position in certain areas. That is from a 
reduced set of species, not all the species that are there.
    So the biggest changes will likely occur in the tropics for 
the reasons that, one, there are more species, and, two, that 
is where some of the biggest climate change is expected to be 
seen, the tropics and the high latitudes.
    In terms of borders, some interesting things will happen. 
Species will move across borders. Sometimes diseases will move 
across borders. Invasive species, as we were talking about, 
will move across borders. Also species that we care about and 
national treasures may also move across borders and no longer 
be ours, so to speak, so those are changes that we will see in 
terms of wildlife at borders.
    The disease might be the most disturbing to me I think, 
seeing new diseases come from countries to the south and 
diseases moving into countries to the north.
    Mr. Gilchrest. Dr. Root?
    Dr. Root. I have no time left.
    Mr. Gilchrest. Sorry.
    Dr. Root. May I answer, Madam Chairwoman?
    Ms. Bordallo. Yes.
    Dr. Root. Thank you. Thank you.
    One of the main things that I think is going to be going on 
with species is that they are shifting their ranges. They are 
going north in North America. We have already seen that. I have 
seen it in Michigan. The work that I did in Michigan was 
looking at the Upper Peninsula, and there was a very strong 
shifting that is going on.
    Actually that is wrong. Some of these species are shifting 
up. Others are not. That actually is the concern because you 
are going to have this tearing apart of the biotic interactions 
that we have right now, kind of the balancing of nature. When 
you tear apart these predator/ prey relationships, what is 
going to happen? The prey is going to go up in abundance.
    Now, what happens if that is a bug that eats our 
agricultural crops? We will be concerned. What if it is a bug 
that pollinates our agricultural crops? That will be wonderful. 
So what we need to do is figure out how each of these species 
is going to be moving because they are going to be moving 
differentially.
    Mr. Gilchrest. Thank you, Madam Chairwoman.
    Ms. Bordallo. Thank you. We could have a second round, Mr. 
Gilchrest, if you would like to ask further questions.
    The Chair now recognizes the gentleman from Rhode Island, 
Mr. Kennedy.
    Mr. Kennedy. Thank you, Madam Chair.
    I want to associate myself with the remarks of the 
gentleman from Maryland on his work. He has been outstanding on 
issues of ocean protection, and it has been a pleasure working 
with him to try to put protection of our nation's oceans and 
the world's oceans on more of a priority.
    In that regard, we have tried to focus on looking at all of 
our oceans policy as it is affected by each of our agencies, 
and it seems to me when we are talking about this is that we 
have to look at a global kind of agency to start to bring 
together this global strategy of how we are going to look at 
this. If it is going to affect every nation, every nations' 
policy is going to be impacting this.
    What are you all proposing in terms of how the United 
States can lead in the way of setting up more as the United 
Nations effective at all through their efforts as the World 
Bank? World Bank is obviously a great tool for when it is 
lending. It lends to these developing nations on certain 
criteria. It can have an enormous impact if those criteria 
include following the dictates of certain developmental 
criteria and so forth and so on.
    I mean, we have to think a lot bigger than our little 
corner of the earth, because of course this is not us. This is 
the whole world. What are we doing? What can we do to propose 
something that establishes something bigger?
    We have the World Bank, but it is really controlled. We 
have a managing control of it. I mean, it is really great. We 
have other institutions that we have great influence on. I 
mean, these are the kinds of things we need to have strong 
recommendations from groups like yours in order to make a 
profound impact. I mean, that is what we need from all of you.
    In terms of getting a sense of what the real budgets are 
going to need to be in place in order to manage these changes, 
we are going to need more specifics. I mean, it is not enough 
just to say we are going to need more in the budgets for 
managing fish and wildlife.
    I mean, we are going to need to know what instructs us in 
terms of what the order of magnitude is going to be in terms of 
managing the Bureau of Fish and Wildlife and how is that going 
to instruct what our budget is going to be.
    You know, give us some more tangible things to go on here 
because we need to come up with specifics. It is not good 
enough right here for us to talk about it because we all get 
it. I mean, I appreciate the fact that you don't think that we 
are doing enough, but, quite frankly, we are reacting to the 
American public.
    When you are saying you have trouble getting 1,000 people 
together for a march and it has taken this long for you to get 
it and you are the first person to come up with a book in 1987, 
frankly that points to the problem. The American people haven't 
been.
    We are just a reflection of the American people, and the 
fact that they haven't been screaming about this has been 
tragically the reason why their democracy hasn't worked for 
them is because they haven't demanded more from their 
representative government.
    Until you give us some specifics in terms of what you need 
us to do, we are going to be floundering out here in terms of 
just talking about it. I don't think that is going to do us a 
lot of good.
    Mr. McKibben. Let me respond to the larger question and 
then I think to the more detailed budget questions.
    You should know that Americans now are screaming for just 
this kind of action.
    Mr. Kennedy. I understand that.
    Mr. McKibben. It will be interesting to see what kind of 
response that gets. Your question----
    Mr. Kennedy. Let me just say this. This is not to me 
calling on me for global change. I don't get that many calls. I 
can honestly tell you, I do not get that many people calling my 
office on environmental----
    Mr. McKibben. We will do our best to make sure that you get 
more.
    Mr. Kennedy. I have a 100 percent voting record on the 
environment, so it is not as if----
    Mr. McKibben. That may be why they don't call you. This 
question goes directly to something that Mr. Brown asked too, 
which was a very wise question, which is how we get the entire 
world involved in this situation.
    Of all the reasons that it is important for this Congress 
to take dramatic steps to begin reducing American carbon 
emissions, perhaps the most important is that it will give us 
some credibility again in the international negotiations that 
need to go on quickly in order to produce a worldwide response.
    The United States and China in particular have served as 
each other's enablers for the last six years in making sure 
that no action takes place. Since we are the historical giant 
in contributing carbon emissions to the world, it will be once 
you all do something about this that you will be able then 
perhaps--perhaps--to engage China and India and the rest of the 
developing world, but that waits on credible action in this 
country, and that is something that people increasingly 
understand.
    Mr. Kennedy. No question. We have to have our own 
credibility. We have to walk the walk before we talk the talk. 
I understand that, but it would be helpful to begin to 
understand that we need to get some specific recommendations.
    This hearing is about trying to decide what our 
authorization should be in terms of a bill and what projected 
budgets we need for the Bureau of Fish and Wildlife, for 
example, so we need specifics.
    Ms. Bordallo. Ms. Medina?
    Ms. Medina. If I could jump in?
    Ms. Bordallo. Yes.
    Ms. Medina. I am sorry to keep extending this time, but I 
think this is an excellent question, Congressman Kennedy.
    I want to say first in reaction to your question about 
whether the public is behind you on this, I guess I as a 
citizen and as a member of a group that activates citizens that 
sometimes leaders have to lead and that this is a difficult 
problem that is complex.
    We, the public, I think are looking to you as our 
representatives to lead and to take the steps that we may not 
as one individual in the public be able to take in terms of 
policies.
    I think what you are seeing, though, is that the public 
cares more about this and is doing things like buying those 
lightbulbs and hybrid cars and using their consumer power to 
change their behavior, and hopefully with more education and 
more leadership from our leaders in Congress people will be 
able to do more.
    That also means turning that leadership outward toward the 
rest of the world. I just attended a symposium in New York last 
week at the U.N. on whale conservation. There is a little known 
body called the International Whaling Commission that governs 
all commercial whaling, and it actually has a moratorium right 
now in effect on commercial whaling, which has been totally 
undermined by certain whaling nations who whale in the guise of 
science.
    I believe there are international institutions out there, 
and there are a number of them dealing with Arctic species, 
that cut across international borders and require international 
cooperation now, and what you as our leaders can do is 
reenergize those bodies to get to work and to do the hard work 
of figuring out how to take actions right away to conserve 
these species.
    You don't have to invent anything new. There are lots of 
good ideas out there. I have heard one that I particularly like 
from the Progressive Policy Institute that calls for an E-8, an 
environmental group of eight large nations that might be able 
to come together and bring some of the most powerful nations 
and some small nations too into a more limited or small debate 
to begin to address some of these issues.
    I believe, Congressman Kennedy, there are lots of great 
ideas out there and that it is difficult to sort through them 
all, but that with political will and leadership by the 
Congress we can get it done.
    Ms. Bordallo. Thank you. Thank you very much, Ms. Medina.
    The Chair would now like to recognize the gentlelady from 
California, Ms. Capps.
    Mrs. Capps. Thank you. I congratulate you, Madam Chair, on 
putting together such an excellent panel, and I thank our 
witnesses for really doing a fabulous job today.
    With just five minutes, I want to divide the time in two 
and ask more specific questions to Dr. Haney about Hawaiian 
monk seals and to Dr. Root about migratory birds.
    So if I could start, Dr. Haney, last year President Bush 
designated the northwest Hawaiian Islands as the largest 
national marine monument in the world. These islands are the 
chief breeding and resting places for rare Hawaiian monk seals.
    Less than 50 years ago, a group of low lying islets called 
the French Frigate Shoals covered about 110 acres. Today only 
about 38 acres are left. What should we expect to happen to 
these Hawaiian monk seals if these beaches continue to 
disappear under rising seas? Perhaps you want to include other 
wildlife as well.
    Dr. Haney. Well, that is an excellent question, 
Congresswoman, and it illustrates very well some of the 
unintended consequences that can happen when we think that a 
species might just be able to move to a new site and be fine.
    The Hawaiian monk seal has been gravely threatened for some 
time. It has had a very small population for the better part of 
the last century, and the fear, the specific concern, about the 
Hawaiian monk seal is that as these low lying islets, coral 
atolls and beaches, as they become inundated the seals may move 
to larger islands.
    But in so doing they subject themselves to potential 
predation by sharks, so they have really moved out of their 
comfort zone, the place where their prey, their resting sites, 
their haul out sites is all toward their welfare and into a 
kind of a new scenario.
    That illustrates the dilemma of managing as a nation for 
climate change. It is important to keep in mind that we need to 
think in two tracks. We need to treat the emissions.
    That is something that we have to work on globally, but 
when it comes to mitigating the effects now that is something 
that we have in our control as a nation to do, and it is what 
Congressman Kennedy referred to as what sort of tools do 
agencies need.
    Mrs. Capps. Right. Thank you so much. I know we could go on 
about this, but you highlight something which we need to focus 
on, and I hope we can in the Subcommittee, which is adaptation 
strategies. That is a whole other topic, I know.
    I want to also touch on migratory birds. Dr. Root, Dr. 
Haney noted in his statement that wetlands in the Arctic are 
literally drying up and that this could have a significant 
impact on migratory birds.
    What portion of U.S. birds relies on wetlands in the Arctic 
for part of their life cycles, and do you agree that the loss 
or change of Arctic habitat will have or maybe already does 
have an overall negative impact on migratory birds?
    Dr. Haney. For some species the entire world population is 
in the Arctic, and for some of them the entire population is 
essentially in Alaska. A spectacle lighter would be an example, 
some of the other sea ducks.
    You know, other waterfowl species use lots of states. They 
use the Canadian prairies, the U.S. prairies and Alaska, and 
what is interesting is that, for example, northern pintails, 
when the prairie states are dried up they just keep going 
because historically they have always been able to find 
wetlands more reliably further north because essentially even 
though the Arctic is a desert, the evaporation is so low that 
the wetlands in the permafrost keep the water from draining 
away.
    Mrs. Capps. Right.
    Dr. Haney. It maintains a nice balance. Now we have 
disrupted that. The permafrost is melting. Those wetlands are 
draining. The heat has gone up, so the water is disappearing 
into the----
    Mrs. Capps. Is this already happening?
    Dr. Haney. It is already happening. In fact, there was a 
really interesting study--I don't even know if it is out in 
print yet; it was in press the last time I looked--documenting 
a 30 to 40 percent reduction in Arctic wetlands.
    So depending on which kind of migratory bird we are talking 
about, the entire population may be dependent upon it or 80 
percent or 30 percent, but to some extent these are the key 
nursery areas for a billion dollar sport hunting industry that 
is very important in this country.
    The birds that we see in the wintertime, many of them come 
from the far north.
    Mrs. Capps. Thank you.
    Do you want to add?
    Dr. Root. Because I didn't really know the percentages that 
you asked me for, but I did do a study of the prairie pothole 
region, which is around Minnesota and into Canada, and 50 
percent of our wild waterfowl actually breeds in that area.
    I have done a study that shows that if we go up to and 
above three degrees C from preindustrial that that is going to 
drop to probably about 12 percent because it is not going to 
have the water and the light to be able to have the nest there. 
As Dr. Haney was saying, they fly up. They continue to go, 
continue to go. They are not going to be able to find anything.
    The other migratory birds that are not going all the way up 
that are actually stopping in Michigan and things like that, 
they also are having quite an effect already. We have seen a 
lot of them already moving north, and that is a concern in the 
northeast because there are three different species of warblers 
that feed on spruce budworm caterpillars, and they have already 
shifted up.
    We are already seeing stresses on trees because the 
caterpillars are going up in abundance, so there really is this 
connection between predator and prey. It is really quite 
important.
    Thank you.
    Mrs. Capps. Thank you very much.
    Ms. Bordallo. I would like to thank the gentlelady from 
California and remind the Members here that we will go to a 
second round of questions. However, we do have a second panel 
to hear from so it is up to you if you wish to ask further 
questions.
    I have one for Dr. Root. Regardless of whether or not we 
take actions to control and reduce the greenhouse gas 
emissions, the consistent theme running through all of your 
statements this morning is that wildlife and wildlife habitat 
are going to change due to the warming climate.
    Can we be more specific on what practical types of adaptive 
management strategies we should consider to mitigate the 
negative effects of climate change on wildlife? Should we be 
doing more to evaluate our current policies for land 
acquisition? Should we be adopting broader landscape approaches 
such as developing migratory corridors to allow wildlife to 
access suitable habitat?
    Even if it is remotely possible that all the current global 
climate change models are wrong, would it not make more sense 
to implement these concepts now to enhance our conservation of 
wildlife and preserve other valuable ecosystem functions? Dr. 
Root?
    Dr. Root. Thank you. I would actually like to add one 
comment to Congressman Gilchrest's list that you gave as far as 
economic issues, national security issues. I actually also 
think that this is an ethical issue, and I think that we as one 
species do not have the right to cause the extinction of other 
species.
    So getting to your question, it is exactly right. How can 
we do something to help these species? Something that 
California has come up with is a nonsolid border preservation 
so that as things are moving the area that is actually being 
preserved goes with the species.
    Now, where we have done that is along the coast because we 
don't know where the coastline is going to be, so we don't want 
to have a set definition. What is happening is it is going back 
and forth.
    That is easier because it is on the coastline, but I do 
believe that what we need to be doing is something very crazy, 
something like that, because we don't have land around to say 
OK, we are going to save this, and we are going to save this, 
and we are going to save this.
    If we could have a preserved area that goes north to south 
that would be great instead of doing it east to west, but we 
don't have the land so if we can somehow hook onto the species 
instead of the land and help the species going as they are 
moving, I think that may be one way.
    I actually think that that could work in other countries, 
too. It is not easy, but I think it could work.
    Ms. Bordallo. Thank you. Thank you very much, Dr. Root.
    Mr. Brown, do you have follow-up?
    Mr. Brown. Thank you, Madam Chairman. This has been a very 
interesting discussion, and I certainly appreciate the panel 
being here.
    I think we need to define exactly how we are going to be 
able to reduce this two percent or get down to 80 percent in 45 
years. I know the population of the world today is about what, 
6.5 million?
    Dr. Root. Billion.
    Mr. Brown. Billion, right. 6.5 billion. In four to five 
years, what do you think the population of the planet will be 
then?
    Dr. Root. Eight billion.
    Mr. Brown. Eight billion?
    Dr. Root. The more I think about it, nine billion.
    Mr. Brown. Nine billion. That is going to be a major I 
guess task that we are going to have to deal with is how are we 
going to be able to fit in three billion more people in that 
period of time at the same time as we try to control I guess 
the output from industry or the output from man. I mean, we 
create a lot of I guess carbon dioxide ourselves as we breathe, 
so that has to be some influence.
    Let me see if I can get some kind of resolve from you all 
as to how you might resolve this. Would you all be in favor of 
saying that we would put a moratorium on no new coal-fired 
utility generating stations? Would you all agree that would be 
a good thing?
    Dr. Root. As far as no new? Yes, I would agree to that, but 
I don't think that what we can do is tear down the ones that 
may already be built.
    Mr. Brown. OK. So you would be willing to just keep the 
status quo, but don't permit any new ones.
    What would you all suggest then would be the next alternate 
substitute for those coal-fired plants? We are going to have 
three billion more people, so demand for energy is going to 
continue to be a situation we have to deal with.
    Dr. Root. Sure. I think what we need to be doing is putting 
more money into researching how you do solar and wind. That 
would be quite a strong thing to do.
    If we could take the subsidies off of the coal and actually 
put that money into research to try and figure out how we can 
increase the wind and the solar, I think it would make a big 
difference.
    Mr. Brown. Let me go back to my original question. Could I 
get each one of you all to respond to that coal problem that we 
have?
    I really do feel we have to find some workable solution. I 
don't think we can just mass produce two percent reduction a 
year for 40 years or whatever that number is going to come. 
Just say yes or no if you would.
    Mr. McKibben. I thought you wanted some ideas.
    Mr. Brown. No. First I want to know if you all are going to 
support doing a moratorium on any new coal plants.
    Mr. McKibben. Yes.
    Mr. Brown. OK. Dr. Lawler?
    Dr. Lawler. Yes, I would support it.
    Mr. Brown. OK. Dr. Root?
    Dr. Root. Yes.
    Mr. Brown. OK.
    Ms. Medina. As an individual, yes, but my organization 
isn't involved in deciding----
    Mr. Brown. I understand. I understand.
    Ms. Medina. As an individual, yes.
    Mr. Brown. As Members of Congress, we have to find a 
solution. We all know the problem, and we just have to find 
solutions. I am just trying to get some kind of support from 
you all exactly what it is you might have to come up with a 
workable solution to this increase.
    Yes, sir?
    Dr. Haney. Well, the most honest answer, Congressman, is I 
don't know, and I would not be able to answer it yes or no. It 
would depend upon are we talking about the world? Are we 
talking about this country?
    I mean, for me to say yes and then have the rest of the 
world go in a different direction, I would be wasting all of 
our time.
    Mr. Brown. That is Congress' problem too. We have about 
five percent of the population I guess of the world living in 
the United States. I believe that is correct about.
    I mean, I know we are a big user, an industrial nation and 
a big user of carbon dioxide, but we have to find some kind of 
a worldwide solution.
    Let me ask you another question. As an alternative, would 
you all recommend that we go to nuclear power or we go to 
natural gas? I know that my good friend from Maryland already 
suggested that we are getting a lot of our energy from sources 
that are not friendly to our country, and I am just trying to 
find a resolve on that too.
    What would be your alternative? I know you mentioned the 
sun, solar and wind.
    Mr. McKibben. By far the cheapest alternative and the one 
that makes the most sense is chromatic conservation. That is 
where the savings are cheapest.
    The average western European, who enjoys a lifestyle 
equivalent to ours, uses half as much energy per capita, which 
begins to give you some sense of the possibilities for 
conservation. When that conservation regime begins to kick in 
then many of the renewable technologies now coming on line 
begin to make a lot more sense for closing that gap.
    As for population, it is a very important point that you 
make, but, just to sort of let you breathe a little easier, of 
that three billion people that are joining the planet in the 
next 50 years or so, most of them are coming in countries whose 
carbon dioxide emissions are now small and will remain so.
    Take, for instance, Tanzania, much of Africa. There was a 
recent study showing that the average American used more fossil 
fuel between the stroke of midnight on New Year's Eve and 
dinner on January 2 than the average Tanzanian family would use 
in the course of a year.
    The four percent of us produce 25 percent of the world's 
carbon dioxide.
    Mr. Brown. Not to interrupt you, but I don't believe we 
want to go to Tanzania and live in those little thatched huts 
and get your wives to take the water bucket down to the hole 
and get water. We will never go back to that in the United 
States.
    Mr. McKibben. I think we would be better off following the 
European standard of carbon consumption.
    Mr. Brown. OK.
    Mr. McKibben. That might be a very good target for 
Americans.
    Mr. Brown. I got you. OK.
    Ms. Bordallo. Thank you. Thank you very much.
    The Chair now recognizes Mr. Kildee.
    Mr. Kildee. I would just like to thank the panel. You have 
been very, very effective not just now, but through the years.
    I have always believed that all is needed for evil to 
prevail is that good men do nothing or not enough, and we have 
a responsibility. We have more than a political responsibility. 
We have a moral responsibility to recognize the reality.
    To my mind, those who question global warming are living in 
an unreal world. It is there, and we actually sponsor it. We 
have a moral obligation. I thank you for motivating me more to 
make sure that evil does not prevail.
    Thank you very much. Thank you, Madam Chairman.
    Ms. Bordallo. Thank you. Thank you, Mr. Kildee.
    The Chair now recognizes Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Madam Chairman.
    Just very quickly, if I can help my colleague from South 
Carolina, we have a bill, the Climate Stewardship Act, that has 
been referred to the Energy and Commerce Committee with another 
referral to this committee, and at some point in the future I 
would really appreciate a hearing on that, Madam Chairman.
    It is an approach in the same way that we got lead out of 
gasoline. We got CFCs out of the atmosphere worldwide. To use 
that same concept of cap and trade by setting a goal and 
letting the industry deal with the marketing, the ingenuity, 
the technology worked, so we have a bill dealing with cap and 
trade for CO<INF>2</INF> to make it a commodity that can be 
traded like any stock can be traded.
    We feel, talking to numerous industries in this country, 
including Ford Motor Company, Dupont, power companies, oil 
industries, that by 2050 we can through technology, innovation, 
letting the private market, the collective ingenuity of 
individuals deal with this issue, we can reduce CO<INF>2</INF> 
input we feel 70 or 80 percent by 2050.
    I actually think once this thing gets going--the same way 
with CFCs and the whole acid rain issue was dealt this way and 
lead in gasoline--we could probably achieve that goal actually 
a lot sooner, but there are ways.
    I read a book a number of years ago called Human Options by 
Norman Cousins, and a phrase in there that was extraordinary is 
knowledge is the solvent for danger. That is it. Knowledge, 
information. We want our kids to learn in school. We want them 
to be good in science. We want them to do their homework. We 
want them to read. Well, Congress is no different.
    The question I have after my soap box again, and I 
apologize. I actually like this. I will have to meet all the 
kids in Chestertown, and I did live in Vermont, East Fairfield, 
for three years in the 1970s. It was a blissful, wintery period 
of time. It was a cold snap on the planet. It was great.
    Do we have an indication of what climate change will do to 
salmon? Will do to coral reefs? Will do to eels? In my region 
or neck of the woods in the Chesapeake Bay there is a pretty 
good industry that catches eels. They are out there in the 
Sargasso Sea. They swim up all those little tributaries and 
inlets.
    Do you have a quick snapshot of eels, coral reefs, salmon 
and how reforestation and restoration of wetlands can sort of 
buffer the increasing warming?
    Dr. Haney. I will take a short answer at that. The 
philosophy behind adaptation is that while we are getting it 
right on emissions and waiting for those solutions to kick in, 
wildlife and fisheries resources need our help to get through 
this bottleneck of the next decades to centuries.
    For the example of anadromous fishes like salmon, one 
solution would be we know temperatures are going to go up, so 
let us keep the stream temperatures as cold as we can. That 
might mean in a real practical way extending the forest buffers 
along the sides so that they are never, ever opened up. They 
are shaded everywhere all of the time.
    That is the kind of solution that again I want to stress. 
We have to get the emissions right. There is no question. That 
is not going to be enough. Fish that we use, salmon and fly 
fishing is a huge industry in this country and elsewhere for 
that matter. In order for those cold water fisheries to survive 
we are going to need to keep stream temperatures as cool as we 
can.
    We can even allow wolves in some places that we didn't 
before because the wolves keep the elk away from the streams, 
and the willows and the alders come back and the temperatures 
go down.
    Dr. Root. May I follow up?
    Mr. Gilchrest. Yes. Thank you.
    Dr. Root. OK. As far as the coral reefs go, up to two 
degrees increase from preindustrial, and again we are at about 
.7 right now, most of the reefs in the world will be bleaching, 
and if we go up three degrees then they will start to die, and 
by four degrees we will not have coral reefs that we know 
anymore.
    Mr. Gilchrest. Thank you.
    Dr. Root. Actually, that does not take into account the 
acidification of the oceans, which I assume you will talk about 
in the second panel.
    Ms. Bordallo. Thank you. Thank you, Mr. Gilchrest.
    The Chair now recognizes Mr. Kennedy.
    Mr. Kennedy. Thank you.
    I would love it if you all can show us and do some modeling 
afterwards on how this directly impacts us in myriads of ways 
economically.
    I mean, the point I was making earlier about how we are not 
politically astute to this is I think a real tragedy in all of 
this because, for example, with the oceans we just got this 
oceans report back, and it calls on by every expert us doubling 
the oceans budget, but OMB gave us half of the budget, OK?
    For us, our whole agricultural budget depends on us 
properly being able to determine what the weather forecasting 
is going to be, and the forecasting is going to be impacted by 
global warming and also be able to detect how the oceans' 
currents are going to go.
    If we are able to do that, we are able to better determine 
what our agricultural forecasting should be and so forth. It 
also impacts insurance policies because it depends on how much 
you are going to ensure certain areas and so forth.
    The point I am making is that we haven't done as good a job 
as we need to in terms of when you mention the migratory birds, 
it is a billion dollar industry for hunters, OK? We need to 
start bringing this home. We cannot look like we are out there 
in the ``tree hugger'' mentality. We have to bring this home to 
people and how it impacts them in real concrete ways in their 
pocketbook.
    This does in really powerful economic ways that are going 
to impact them directly, and what I think we need to do is get 
these models that you are talking about and break them out and 
do the modeling and talk about how many species do we lose 
every day in the rain forests, OK?
    Where do we get our pharmaceuticals? How do we find out the 
cures to some of these diseases that we have in the world? We 
get them from a lot of plant life and a lot of these species, 
the plant life and so forth. Do people understand this?
    We need to maybe start to connect the dots so they start to 
see oh, my God. If we are losing all these species we might be 
losing the cures to certain diseases in the future that may 
impact my family. I mean, this is what we need to start to do I 
think.
    Dr. Root?
    Dr. Root. Let me answer that very quickly. It actually is 
in answer to your previous question too.
    There has been a lot of disinformation that has been going 
out to all of America, and the scientists, we have been sitting 
here saying this is not right. Here are the facts. This is not 
right. Here are the facts.
    The disinformation has been very well funded. We have been 
doing what we can, but I think now everybody is saying hey, it 
really is happening, and now they are listening to us more. I 
truly believe that that is the case.
    As far as the economic models, I think we do need to do a 
lot more, but we have to remember when people start saying oh, 
this is an economic issue, there are going to be losers. That 
is for sure. They are the ones who are going to scream and 
yell.
    But there are going to be winners, and those winners don't 
even know who they are yet because they are not coalesced 
behind a business. They are not together. We need to understand 
that.
    If you look at the economics of this issue, we will be 500 
percent richer than we are today by 2100 in January if we don't 
do anything to stop global warmer. If we do, we will be 500 
percent richer in November instead of in January. That is not 
that much of an issue to change. That is a fairly low insurance 
policy, I think.
    Mr. Kennedy. In terms of showing new businesses that can be 
created from environmental businesses obviously, but also like 
when you are talking about the infestation of these predatory 
bugs and so forth and how they can ruin crops and so forth, 
people need to understand these connections so that their eyes 
open up to what happens when you break down the natural 
ecosystems that are a result of global warming.
    I mean, this is what we need to be doing so people get a 
better understanding of this, I think.
    Ms. Medina. I just want to add, Congressman Kennedy, that I 
agree with all that you have both said, and I think there are 
some simple indicators out there that are making the public 
more aware.
    I for one paid more than $3 for a gallon of gas today at 
the pump, and that is a simple economic indicator of the 
problem that we are facing right now and the consequences of 
our actions in the past.
    I also want to say that we at IFAW are very concerned with 
animals, and we have a wealth of membership, as does Dr. 
Haney's organization, of people who care about animals. Putting 
the face of these charismatic animals on this problem and this 
crisis does help I think to make people more aware of the fact 
that what they do and the choices they make every day have 
dramatic and very devastating impacts on our environment.
    So I am all for more complicated analyses, more study. I 
think I said in my testimony I think study and more facts will 
also help to shape the public's opinion. We don't know a lot 
right now. There is more that we don't know than what we do 
know, but there are some simple facts that I think are starting 
to register with the public, and you can just start with the 
price of gas.
    Ms. Bordallo. Thank you very much.
    Mr. Kennedy. The price of gas is what is funding stopping 
this environmental movement. It is what is funding the stopping 
of the environmental movement. That is what is funding it, your 
$3 price of gas.
    Ms. Bordallo. Thank you, Mr. Kennedy.
    I want to thank all the Members for their questions, and I 
thank the witnesses very much for their excellent testimony and 
informative answers.
    The Chairwoman now recognizes our second panel of witnesses 
who will be testifying on the effect of climate change on the 
oceans.
    The Chair would also like to recognize the gentleman from 
Idaho, Mr. Sali, who will take the place of the Ranking Member 
on the committee.
    Would the second panel of witnesses please be seated? I 
would like at this time to introduce them. Dr. Mark Eakin, the 
Coordinator of the Coral Reef Watch Program in the National 
Oceanic and Atmospheric Administration; Dr. Ken Caldeira from 
the Department of Global Ecology at the Carnegie Institute of 
Washington; Dr. Joanie Kleypas from the Institute for the Study 
of Society and Environment at the National Center for 
Atmospheric Research in Colorado; Mr. Gary Sharp; and Dr. John 
Everett of Ocean Associates, Inc.
    I would now like to recognize Dr. Eakin to testify for five 
minutes. Again, I remind the witnesses that the timing lights 
on the table will indicate when your time is concluded. We 
would appreciate your cooperation in complying with the limits 
that have been set.
    Be assured that your full written statement will be 
submitted for the hearing record.
    And now Dr. Eakin?

STATEMENT OF C. MARK EAKIN, Ph.D., COORDINATOR, NOAA CORAL REEF 
     WATCH, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Eakin. Hafa adai, Madam Chairwoman. Good morning to 
you.
    Ms. Bordallo. Thank you.
    Dr. Eakin. Good morning, Ranking Member Sali and Members of 
the committee. Thank you for inviting me to discuss the effects 
of climate change on coral reefs, an important resource for 
many coastal and island communities.
    As you probably know, the earth's oceans have already 
warmed about one degree Fahrenheit during the 20th century and 
are very likely to warm faster in the 21st century. This 
warming has already influenced many natural systems, including 
coral reefs, even those reefs in remote, pristine environments.
    Coral reefs are valuable to island and coastal communities. 
Globally they provide ecosystem services valued at hundreds of 
billions of dollars each year, so damage to reefs can be very 
costly. By 2050, the declining Caribbean coral reefs could 
reduce benefits from fisheries, tourism, shoreline protection 
by $350 to $870 million a year.
    While healthy coral reefs significantly reduced the wave 
damage in parts of Sri Lanka during the 2004 tsunami, other 
communities where reefs have been mined for building materials 
suffered much greater damage and loss of life.
    Of course, these valuable resources are threatened by human 
stress, including rising temperatures. Coral bleaching occurs 
when high temperatures cause corals to expel the algae that 
live in their tissues. When stress is prolonged or intense, 
corals die.
    In the last 25 years since the first report of large-scale 
bleaching, ocean warming has accelerated the bleaching, and 
bleaching events have become more frequently and severe. This 
includes 1998 when 16 percent of the world's reefs bleached and 
died.
    [Slide.]
    Dr. Eakin. NOAA monitors sea surface temperatures that 
cause coral bleaching. As an example, a map of our satellite 
data for the Caribbean seen on the screen shows the stress 
caused by high ocean temperatures.
    The black regions have no stress. As the stress increases, 
the map changes to blue for mild stress, to green for stress 
that causes bleaching, to orange, red and beyond for widespread 
bleaching and coral death. The graph below shows the average 
stress for the Caribbean during each of those years in the 21-
year record.
    As we go through this record, you can see the effects of 
rising temperatures. The stress becomes more intense and 
widespread, ending here with a record setting bleaching event 
in 2005. Unfortunately, the 2005 bleaching event that you see 
on the screen left 90 percent of the corals bleached and almost 
50 percent dead in the Virgin Islands National Park. That is 
half of their corals dead, gone. Imagine losing half of the 
redwoods in just a few months.
    The only way to eliminate the threat of coral bleaching is 
to reduce ocean temperatures by reducing atmospheric greenhouse 
gases. This lies outside the mandate of NOAA and is far beyond 
the reach of local reef managers. However, we can act to 
protect coral reefs under a changing climate.
    NOAA and its international partners released a report last 
year entitled the Reef Manager's Guide to Coral Bleaching. This 
guide identifies three actions that managers can take to help 
reefs survive and recover from mass bleaching events.
    First is to monitor the reefs to better understand the 
consequences of bleaching. Second is to reduce local stress to 
help corals survive during severe bleaching, and third is to 
develop management strategies that support reef survival, 
recovery and resilience in warmer oceans.
    A key message of the Reef Manager's Guide is that multiple 
sources of stress act together to threaten coral reefs, and 
managers play an important role by taking all actions practical 
to control local threats to reefs.
    To summarize, sea surface temperatures are rising, 
increasing the frequency and intensity of coral bleaching and 
mortality. It is very likely that this will continue through 
the 21st century.
    Second, coral bleaching threatens resources that are 
important to our nation and to islands and coastal communities 
throughout the world. This disrupts ecosystems, ecosystem 
services and the people who depend upon them.
    Finally, we must protect coral reefs from local stressors 
and manage our resources, our marine resources, with rising 
temperatures in mind.
    Thank you, Madam Chairman. I would be pleased to answer any 
questions at the end.
    [The prepared statement of Dr. Eakin follows:]

   Statement of C. Mark Eakin, Ph.D., Coordinator, Coral Reef Watch, 
   National Environmental Satellite, Data, And Information Service, 
  National Oceanic and Atmospheric Administration, U.S. Department of 
                                Commerce

Introduction
    Good morning Madam Chairwoman and Members of the Committee. My name 
is Mark Eakin, and I am the Coordinator of the Coral Reef Watch program 
within the National Environmental Satellite, Data, and Information 
Service of the National Oceanic and Atmospheric Administration (NOAA), 
in the Department of Commerce. This program is a component of the NOAA 
Coral Reef Conservation Program (CRCP), for which I also serve as the 
climate lead. The CRCP coordinates NOAA's many coral reef activities 
across its various offices. Thank you for inviting me to discuss the 
effects of climate change on coral reefs, an important resource to many 
coastal and island communities. Among NOAA's diverse missions, our 
tasks include understanding and predicting changes in the Earth's 
environment and acting as the nation's principal steward of coastal and 
marine resources critical to our nation's economic, social and 
environmental needs.
    I will focus my remarks on how climate change is impacting coral 
reef ecosystems and local communities. NOAA's work on climate change 
and marine ecosystems relevant to this hearing includes observations of 
the physical environment and biota, research to understand the changes 
in the environment and the broader ecosystem, and incorporating 
projected effects of climate change into NOAA's conservation and 
management of living marine resources and ecosystems. Climate change is 
one of a complex set of factors that influence marine ecosystems, 
including natural climate cycles, overfishing, atmospheric pollution, 
pesticide and fertilizer use, land use changes, inadequate storm water 
management, and discharge of untreated sewage. NOAA is committed to an 
ecosystem approach to resource management that addresses the many 
simultaneous pressures affecting ecosystems.
    Changing climate is potentially one of the most significant long-
term influences on the structure and function of marine ecosystems and 
must therefore be accounted for in NOAA's management and stewardship 
goals to ensure healthy and productive ocean environments. Changes and 
variations in climate may directly or indirectly affect marine 
ecosystems. This includes changes and variations of sea-surface 
temperature, ocean heat content, sea level, sea ice extent, freshwater 
inflow and salinity, oceanic circulation and currents, pH, and carbon 
inventories.
    Analyses of NOAA data show that the Earth's oceans have warmed 
almost 1 degree Fahrenheit over the 20th century average (Figure 1). 
These data, along with findings from the recent Intergovernmental Panel 
on Climate Change (IPCC) assessments of 2001 and 2007 show that not 
only have the atmosphere and oceans warmed, they will continue to do so 
during the 21st century, at least in part due to increased greenhouse 
gases in the atmosphere. The 2007 IPCC Working Group II report stated: 
``Observational evidence from all continents and most oceans shows that 
many natural systems are being affected by regional climate changes, 
particularly temperature increases.''
NOAA's Roles in Climate and Ecosystem Sciences
    Within the climate science community, NOAA is a recognized leader 
both nationally and internationally. Our scientists actively 
participate in many important national and international climate 
working groups and assessment activities. One of NOAA's mission goals 
is to understand climate variability and change to enhance society's 
ability to plan and respond. NOAA is the only federal agency that 
provides operational climate forecasts and information services 
(nationally and internationally). NOAA is the leader in implementing 
the Global Ocean Observing System (NOAA contributes 51 percent of the 
world-wide observations to GOOS, not including satellite observations). 
NOAA also provides scientific leadership for the IPCC Working Group I 
and the interagency Climate Change Science Program. To better serve the 
nation, NOAA created a Climate Program Office to provide enhanced 
services and information for better management of climate sensitive 
sectors, such as energy, agriculture, water, and living marine 
resources, through observations, analyses and predictions, and 
sustained user interaction. Services include assessments and 
predictions of climate change and variability on timescales ranging 
from weeks to decades.
    Within the ecosystem community, NOAA's ecosystem researchers have 
been at the forefront of establishing links between ocean variability 
and impacts on marine ecosystems. NOAA has funded some research 
programs specifically dedicated to evaluating impacts of changes in the 
physical environment on marine resources, as well as many observing 
programs established to aid in the management of fisheries, protected 
species, marine sanctuaries, corals and other specific agency mandates.
    These data, primarily collected in support of NOAA's ecosystem 
stewardship authorities, provide a wealth of information for 
interpreting climate impacts when combined with NOAA's climate, 
oceanographic and weather information. Results of these analyses have 
been widely disseminated and NOAA's contributions to the emerging 
science of ecosystem impacts of climate change have been significant. 
However, a greater understanding of the full range of climate induced 
effects on ecosystems will require us to increase our observation of 
ecosystems in relation to variable climate forcing and focus our 
research on the mechanisms through which ecosystems are affected. In 
this way we can develop quantitative assessments and projections of 
climate's ecological impacts, including impacts on the resources on 
which human communities rely.
Current and Projected Impacts of Climate Change on Coral Reef 
        Ecosystems
    Coral reef ecosystems are among the most diverse and biologically 
complex ecosystems on Earth and provide resources and services worth 
billions of dollars each year to the United States economy and 
economies worldwide. Coral reefs have been estimated to house several 
million different species. They house more than one third of all 
described marine species--more species per unit area than any other 
marine environment--including about 4,000 known species of fish and 800 
species of hard coral. Approximately half of all federally-managed fish 
species depend on coral reefs and related habitats for a portion of 
their life cycles. NOAA's National Marine Fisheries Service estimates 
the annual commercial value of U.S. fisheries from coral reefs is over 
$100 million per year. Local economies also receive billions of dollars 
from visitors to reefs through diving tours, recreational fishing 
trips, hotels, restaurants, and other businesses based near reef 
ecosystems. In the Florida Keys, for example, coral reefs attract more 
than $1.2 billion annually from tourism. In addition, coral reef 
structures buffer shorelines against waves, storms and floods, helping 
to prevent loss of life, property damage and erosion.
    Coral reefs are under stress from many different sources, including 
increased sea-surface temperatures, pollution, overfishing, destructive 
fishing practices, coastal uses, invasive species, and extreme events 
(e.g. hurricanes and coastal flooding). Climate change, in particular, 
increases in global air and ocean temperatures, threatens coral reef 
ecosystems through increased occurrence and severity of coral bleaching 
and disease events, sea level rise, and storm activity. Increased 
absorption of atmospheric carbon dioxide into the oceans also leads to 
ocean acidification that may reduce calcification rates in reef-
building organisms, as declining seawater pH reduces the availability 
of carbonate ions. Reduction in calcification rates directly affects 
the growth of individual corals and the reef's ability to maintain 
itself against forces that cause reef erosion, potentially compounding 
the ``drowning'' of reefs caused by sea level rise.
Ocean Acidification
    The oceans are the largest natural long-term reservoir for carbon 
dioxide, absorbing approximately one-third of the carbon dioxide added 
to the atmosphere by human activities each year. Over the past 200 
years the oceans have absorbed 525 billion tons of carbon dioxide from 
the atmosphere, or nearly half of the fossil fuel carbon emissions over 
this period. Because the rate of emissions has increased faster than 
oceanic uptake and mixing, the percentage of anthropogenic 
CO<INF>2</INF> in the oceans requires time to catch up with atmospheric 
increases and terrestrial uptake. Ultimately, oceanic and geologic 
processes acting over very long time-scales will redistribute much of 
the anthropogenic CO<INF>2</INF> into the deeper ocean waters. Over 
tens of millennia, the global oceans are expected to absorb 
approximately 90 percent of the carbon dioxide emitted to the 
atmosphere (Archer et al., 1998; Kleypas et al., 2006).
    For over 20 years, NOAA has participated in decadal surveys of the 
world oceans, documenting the ocean's response to increasing amounts of 
carbon dioxide being emitted to the atmosphere by human activities. 
These surveys confirm that oceans are absorbing increasing amounts of 
carbon dioxide. Estimates of future atmospheric carbon dioxide 
concentrations, based on the IPCC emission scenarios and general 
circulation models, indicate that by the middle of this century 
atmospheric carbon dioxide levels could reach more than 500 parts per 
million (ppm), and near the end of the century they could be over 800 
ppm. This increase in atmospheric CO<INF>2</INF> to 800 ppm would 
result in a surface water pH decrease of approximately 0.4 pH units as 
the ocean becomes more acidic, and the carbonate ion concentration 
would decrease almost 50 percent by the end of the century. To put this 
in historical perspective, this surface ocean pH decrease would result 
in a pH that is lower than it has been for more than 20 million years 
(Feely et al., 2004).
    Recent studies indicate that such changes in water chemistry would 
have effects on marine life, such as corals and plankton (Orr et al., 
2005). The carbonate chemistry of seawater has a direct impact on the 
dissolution rates of calcifying organisms (coral reefs and marine 
plankton). As the pH of the oceans decreases and becomes more acidic, 
some species of marine algae and plankton will have a reduced ability 
to produce protective calcium carbonate shells. This makes it more 
difficult for organisms that utilize calcium carbonate in their 
skeletons (e.g. corals, Langdon et al., 2000) or shells to build and 
maintain their structures. Decreased calcification may also compromise 
the fitness or success of these organisms and could shift the 
competitive advantage towards organisms not dependent on calcium 
carbonate. Carbonate structures are likely to be weaker and more 
susceptible to dissolution and erosion. In fact, a recent study showed 
that the projected increase in acidity is sufficient to dissolve the 
calcium carbonate skeletons of some coral species (Fine and Tchernov, 
2007, using CO<INF>2</INF> projection from Caldeira & Wickett, 2003). 
Ongoing NOAA research is showing that decreasing pH may also have 
deleterious effects on commercially important fish and shellfish 
larvae.
Coral Bleaching Events
    As global temperatures have risen over the past 30 years, there has 
been a corresponding increase in the frequency of extremely high sea-
surface temperatures and coral bleaching events in many tropical 
regions (Brown, 1997; Hoegh-Guldberg, 1999). Coral bleaching is a 
response of corals to unusual levels of stress primarily thought to be 
associated with high light and unusually high sea-surface temperatures. 
Bleaching occurs when a coral expels the symbiotic algae that live in 
its tissues and give the coral its coloration. Loss of the symbiotic 
algae leaves the coral tissue pale to clear and, in extreme cases, 
causes a bleached appearance. Corals often recover from mild bleaching. 
However, if the stress is prolonged and/or intense, the corals may 
weaken, causing them to be more susceptible to disease and other 
stressors, or die from direct thermal stress.
    Coral bleaching has occurred in both small, localized events and at 
larger scales. Although many stressors can cause bleaching, large-
scale, mass bleaching events have exclusively been linked to unusually 
high sea-surface temperatures (Glynn & D'Croz 1990; Brown, 1997; Hoegh-
Guldberg, 1999). There is still much that we do not know about the 
effects of bleaching-associated mass coral mortality on the functioning 
of coral reef ecosystems and associated ecosystem services, such as 
fisheries, coastal protection, recreation, and tourism industries.
    Through satellite and in situ monitoring of sea-surface 
temperatures, NOAA tracks the sea-surface temperature conditions that 
could lead to coral bleaching. NOAA provides access to all of its data 
and products, including sea-surface temperature anomalies, bleaching 
HotSpot anomalies, Degree Heating Weeks, and Tropical Ocean Coral 
Bleaching Indices. This work builds on, and complements, NOAA's efforts 
to monitor temperatures on coral reefs in both the Atlantic and Pacific 
Oceans, using instruments deployed throughout U.S. coral reefs. These 
systems are designed to provide local managers and scientists with the 
information they need to make informed decisions. When the data show 
that conditions are conducive to bleaching, NOAA provides watches, 
warnings, and alerts via e-mail to users throughout the globe through 
NOAA's Coral Reef Watch program and Integrated Coral Observing Network. 
Coral bleaching alerts allow managers and scientists to deploy 
monitoring efforts that can document the severity and impacts of the 
bleaching to improve our understanding of the causes and consequences 
of coral bleaching. The alerts also allow managers to take actions to 
reduce local stress, such as water quality and recreational abuse, that 
further threaten corals already under stress from bleaching.
    Large scale or mass bleaching events were first documented in the 
eastern Pacific in the early 1980's in association with warming during 
the El Nino Southern Oscillation (Glynn, 1984). In 1997-98, coral 
bleaching became a global problem when a strong El Nino (period of 
warmer than average water temperature in the central tropical Pacific), 
followed by a La Nina (which warmed some western Pacific regions) 
caused unprecedented coral bleaching and mortality worldwide 
(Wilkinson, 2000; Wilkinson, 2002). In 1998, reefs in parts of the 
southern Indian Ocean and East Asia lost more than 80 percent of their 
corals. Parts of Palau lost up to 50 percent of their hard corals and 
75 percent of their soft corals.
    Coral bleaching events are not only tied to the El Nino/La Nina 
phenomena. In 2005, a year lacking El Nino or La Nina climate patterns, 
record high sea-surface temperatures were recorded in the tropical 
North Atlantic, Caribbean, and Gulf of Mexico. NOAA climate records 
show that in 2005, the eastern Caribbean experienced the warmest 
September water temperatures in over 100 years (Figure 2; Smith and 
Reynolds, 2004). Satellite records showed that the thermal stress 
experienced by corals in the Caribbean region 2005 was the largest and 
most intense event on record (Figure 3), with an average stress for the 
Caribbean region almost twice any level previously observed (Figure 4; 
Eakin et al., in prep.). NOAA's ability to assess the extent and 
severity of this event was the result of investments in the development 
and operational implementation of satellite remote-sensing products. 
NOAA's ability to provide synoptic views of the global oceans in near-
real-time and the ability to monitor reef areas have become a key tool 
for coral reef managers and scientists.
    While the thermal stress in the Caribbean has increased over the 
last 20 years, 2005 was unusually high. As a result of NOAA satellite 
and in situ monitoring, NOAA alerted managers and scientists to this 
event as it developed. The unusually high sea-surface temperatures gave 
rise to the most intense coral bleaching event ever observed in the 
Caribbean. In 2005, many reefs, including those in the U.S. Virgin 
Islands, suffered bleaching of over 90 percent of their corals. In situ 
monitoring of reefs at the Virgin Islands National Park (NPS and USGS 
data) indicated a loss of 50 percent of the corals due to bleaching and 
disease outbreaks related to the prolonged high temperatures.
    To respond to and assess the massive coral bleaching event in the 
Caribbean region in 2005, an interagency effort led by NOAA and the 
Department of Interior (DOI) was convened under the U.S. Coral Reef 
Task Force. This effort engaged many government and non-government 
partners from across the region, including local partners in Florida, 
Puerto Rico, the U.S. Virgin Islands, and Caribbean island nations, to 
assess the impacts of the 2005 mass bleaching event and make 
recommendations on how to prepare for and address future events. NOAA, 
DOI's National Park Service (NPS) and U.S. Geological Survey (USGS), 
and the National Aeronautics and Space Administration (NASA) employed 
detailed monitoring and new instrumentation to investigate the response 
of reefs and individual colonies to this record-breaking coral 
bleaching event. NPS and USGS research has been especially vital in 
identifying the effects that the unusually warm waters have on both 
bleaching and disease outbreaks (Miller et al, 2006). Some of this 
research will hopefully answer the question of why some corals survived 
while others perished. NOAA, NPS, and USGS, along with many partner 
agencies are analyzing the effect of this bleaching event on already 
vulnerable elkhorn and staghorn coral species. These two species were 
listed as ``threatened'' under the Endangered Species Act in May of 
2006. It is clear that mass bleaching is a serious concern to the 
communities that depend upon these resources.
    Even if greenhouse gases are kept at year 2000 levels, the 2007 
IPCC Working Group I report concluded that global temperatures are 
expected to warm at almost 0.2 degrees Fahrenheit per decade. Based on 
current emissions, the anticipated increase in ocean temperatures over 
the coming decades is expected to increase the incidence of coral 
bleaching events (Donner et al., 2005). The 2007 IPCC Working Group II 
report concluded: ``Corals are vulnerable to thermal stress and have 
low adaptive capacity. Increases in sea surface temperature of about 1 
to 3+C are projected to result in more frequent coral bleaching events 
and widespread mortality, unless there is thermal adaptation or 
acclimatization by corals.'' This means that marine resource management 
needs to plan for frequent and severe coral bleaching events in the 
future (Marshall and Schuttenberg, 2006).
The Value of Coral Reefs to Island and Coastal Communities
    In its recent report In the Front Line: Shoreline Protection and 
Other Ecosystem Services from Mangroves and Coral Reefs, the United 
Nations Environment Programme (UNEP) estimated the value of coral reefs 
to be between $100,000-600,000 per square kilometer. This makes coral 
reefs among the most valuable resources of island and coastal 
communities. As part of their evaluation, they considered the loss to 
local economies if the ecosystem services of coral reefs were lost. 
UNEP predicted that ``over a 20-year period, blast fishing, overfishing 
and sedimentation in Indonesia and the Philippines could lead to a net 
economic loss of $2.6 billion and $2.5 billion respectively.'' Further, 
in an extensive economic evaluation, the World Resources Institute 
estimated that coral reef degradation continuing through 2050 could 
reduce benefits from fisheries, dive tourism and shore protection by a 
predicted total of $350 million to $870 million in the Caribbean (Burke 
and Maidens, 2004).
    Coral reef ecosystems also provide non-economic value to island and 
coastal communities, which are harder to quantify. Field teams 
evaluating the 2004 Indian Ocean tsunami suggested that the presence of 
healthy coral reefs significantly reduced wave damage to some 
communities in Sri Lanka (Fernando and McCulley, 2005). Modeling at 
NOAA's Geophysical Fluid Dynamics Laboratory and Princeton University 
also suggests that healthy reefs can provide protection and reduce 
damage from tsunamis (Kunkel et al., 2006).
    Unfortunately, the value of ecosystem services provided by coral 
reefs has been poorly quantified for many locations. Accordingly, the 
cost of climate change effects to coastal communities is poorly known. 
NOAA's Coral Reef Conservation Program intends to begin research to 
quantify the effects that climate change may have on socioeconomic 
systems in the Florida Keys, similar to a study conducted for 
Australia's Great Barrier Reef (Hoegh-Guldberg, and Hoegh-Guldberg, 
2004). Even without strict monetary valuations, island and coastal 
communities have recognized the tremendous economic and cultural values 
that reefs provide. Because coral reefs are such valuable resources, 
during the 16th U.S. Coral Reef Task Force Meeting in November 2006, 
Governor Togiola Tulafono of American Samoa gave a statement in which 
he recognized the threat and implored the U.S. Coral Reef Task Force to 
address climate change and its impacts on coral reefs to a greater 
extent than it has in the past. In his statement, Governor Tulafono 
said: ``As a small island our way of life, a primary source of our food 
and a growing percentage of our economy depends heavily on a healthy 
coral reef. Under the present circumstances I can implement all the 
best management practices and still a single climate change event could 
devastate the majority of coral in the Territory...As the available 
data and scientific consensus become more persuasive and compelling on 
the present trends and projected impacts of global climate change, 
especially to the small islands dependent upon coral reefs and related 
resources, a set of proactive and responsive policies need to be 
developed along with realistic implementation strategies.'' This 
request was further echoed by delegations from other Pacific Island 
territories and the Freely Associated States at the 17th U.S. Coral 
Reef Task Force meeting in March 2007.
What Can Be Done?
    As a steward of marine resources for the benefit of the nation, 
NOAA is working to improve its products to alert users of bleaching 
events through satellite and in situ observations, forecasts, and 
warning systems. NOAA is also working with local and regional managers 
to quantify the effect that increasing ocean temperatures have on coral 
reefs and ecosystem services, and to determine ways in which local 
managers can mitigate the impact of climate change on coral reefs.
    The only practical way that we know of to eliminate the threat of 
coral bleaching is to stop or reverse the rise in ocean temperatures 
that has occurred over the last century. Such a reversal will very 
likely require reductions in greenhouse gas emissions, however, the 
policies to accomplish such a reduction fall outside the mandate of 
NOAA and beyond the reach of local managers in coastal and island 
communities. Recent work indicates that corals in the 21st century will 
have to adapt to temperature increases of at least 0.4 degrees 
Fahrenheit per decade to survive the increasing frequency and intensity 
of bleaching that we have seen. Unfortunately, ongoing studies have not 
found that corals have an ability to make physiological or evolutionary 
changes at that rate. Small latitudinal expansion of coral 
distributions is possible and may be occurring in one case (Precht & 
Aronson 2006). However, corals in higher latitudes are likely to 
encounter lower pH waters where skeletal growth may be depressed 
(Guinotte et al., 2003). This leads us to the question of what local 
managers can do to protect valuable coral reef resources in light of 
rising ocean temperatures and ocean acidification.
    Indeed, what can be done for coral reefs in response to a changing 
climate? The U.S. Coral Reef Task Force posed this question when 
climate change was identified as one of the seven threats to reefs in 
The National Plan to Conserve Coral Reefs. As world leaders in coral 
reef management, NOAA and Australia's Great Barrier Reef Marine Park 
Authority, the Environmental Protection Agency, and the IUCN (The World 
Conservation Union), convened an expert workshop in 2003 to address 
what can be done. In 2006, we released A Reef Manager's Guide to Coral 
Bleaching.
    The Reef Manager's Guide includes contributions from over 50 
experts in coral bleaching and coral reef management from 30 
organizations. The guide identifies three key actions reef managers can 
take to help reefs survive and recover from mass bleaching events:
    (1)  Increase observations of reef condition before, during and 
after bleaching to increase information and understanding of impacts 
and areas that may be especially resistant to bleaching.
    (2)  Reduce stressors (e.g., pollution, human use) on reefs during 
severe bleaching events to help corals survive the event.
    (3)  Design and implement reef management strategies to support 
reef recovery and resilience, including reducing land-based pollution 
and protecting coral areas that may resist bleaching and serve as 
sources of coral larvae for ``reseeding'' reefs.
    The Reef Manager's Guide provides information on the causes and 
consequences of coral bleaching, and management strategies to help 
local and regional reef managers reduce this threat to coral reef 
ecosystems.
    The Reef Manager's Guide reviews management actions that can help 
restore and maintain coral reef ecosystems. This review draws on a 
growing body of research on ways to support the ability of coral reef 
ecosystems to survive and recover from bleaching events. It also 
includes specific guidance and case studies on how to prepare bleaching 
response plans, assess impacts from bleaching, engage the public, 
manage activities that may affect reefs during bleaching events, 
identify resilient reef areas, and incorporate information regarding 
reef resilience into marine protected area design.
    A key message from NOAA and its partners in the Reef Manager's 
Guide is the important role that resource managers play by taking all 
practical actions to control local threats to reefs. The 2007 IPCC 
Working Group II report addressed this issue stating that ``Non-climate 
stresses can increase vulnerability to climate change by reducing 
resilience and can also reduce adaptive capacity because of resource 
deployment to competing needs.'' There are multiple sources of stress 
to coral reefs and reducing other stresses can help corals survive the 
stress of bleaching. Research has shown that improved local management, 
which reduces key threats such as overfishing, provides reefs with the 
greatest chance of surviving and recovering from climate change 
(Wooldridge et al., 2005; Hughes et al., 2007). In its recently 
released Coral Reef Ecosystem Research Plan, NOAA describes the need to 
further (1) improve our understanding of the relationships between the 
severity of bleaching events and mortality, including what makes coral 
reefs resilient; (2) assess the extent and impact of bleaching on coral 
reefs during bleaching events; and (3) developing models to predict the 
long-term impacts to coral reef ecosystems from climate change. The 
plan can be viewed at http://coris.noaa.gov/activities/coral_research_
plan/.
Conclusion
    To summarize, sea-surface temperatures have risen, increasing the 
frequency and intensity of coral bleaching, disease, and mortality. As 
humans continue to add CO<INF>2</INF> to the atmosphere, it is very 
likely that this will bring further increases in sea-surface 
temperatures and bleaching. Increased atmospheric CO<INF>2</INF> 
threatens coral reefs that are important resources to our nation and to 
island and coastal communities throughout the world, doing harm to 
ecosystems, ecosystem services, and the people that depend on them. To 
protect coral reefs against rising temperatures and ocean 
acidification, we must take all practical actions to protect coral 
reefs from local stressors and manage marine resources, including 
planning marine protected areas, with rising temperatures in mind. NOAA 
looks forward to working with this Committee to ensure we have the 
tools and resources available to conserve, manage, and protect our 
coral reefs.
    Madam Chairman, I thank you for inviting me to help inform the 
Committee on this topic. I would be pleased to answer any questions.
LITERATURE CITED
Archer, D.E.; Kheshgi, H.; and Maier-Reimer, E. (1998) Dynamics of 
        fossil fuel CO<INF>2</INF> neutralization by marine CaCO3. 
        Global Biogeochemical Cycles, 12:259-276.
Brown, B.E. (1997) Coral bleaching: causes and consequences. Coral 
        Reefs, 16(5):S129-S138.
Burke, L and Maidens, J. (2004) Reefs at Risk in the Caribbean. World 
        Resources Institute, Washington, DC, 80pp.
Caldeira, K. and Wickett, M. E. (2003) Anthropogenic carbon and ocean 
        pH. Nature 425(6956), 365-365.
Donner, S.D.; Skirving, W.J.; Little, C.M.; Oppenheimer, M.; and Hoegh-
        Guldberg, O. (2005) Global adaptation of coral bleaching and 
        required rates of adaptation under climate change. Global 
        Change Biology, 11:2251-2265.
Eakin, M. et al. (2007) Caribbean Corals in Hot Water: Record-Setting 
        Thermal Stress, Coral Bleaching and Mortality in 2005. Intended 
        for Nature, in prep.
Feely, R.A.; Sabine, C.L.; Lee, K.; Berrelson, W.; Kleypas, J.; and 
        Millero, F.J. (2004) Impact of anthropogenic CO<INF>2</INF> on 
        the CaCO3 system in the oceans. Science, 305(5682):362-366.
Fernando, H.J.S. and McCulley, J.L. (2005) Coral Poaching Worsens 
        Tsunami Destruction in Sri Lanka. EOS, 86:301-304.
Fine, M. and Tchernov, D. (2007) Scleractinian Coral Species Survive 
        and Recover from Decalcification. Science, 315: 1811.
Glynn, P. W. and D'Croz, L. (1990) Experimental evidence for high 
        temperature stress as the cause of El Nino- coincident coral 
        mortality. Coral Reefs, 8: 181-191.
Guinotte, J. M.; Buddemeier, R. W.; and Kleypas, J. A. (2003) Future 
        coral reef habitat marginality: temporal and spatial effects of 
        climate change in the Pacific basin. Coral Reefs, 22(4): 551-
        558.
Hoegh-Guldberg, H. and Hoegh-Guldberg, O. (2004) The Implications of 
        Climate Changes for Australia's Great Barrier Reef. WWF 
        Australia, 345pp.
Hoegh-Guldberg, O. (1999) Climate change, coral bleaching and the 
        future of the world's coral reefs. Marine and Freshwater 
        Research, 50:839-866.
Hughes, T.P.; Rodrigues, M.J.; Bellwood, D.R.; Ceccarelli, D.; Hoegh-
        Guldberg, O.; McCook, L.; Moltschaniwskyj, N.; Pratchett, M.S.; 
        Stenech, R.S.; and Willis, B. (2007) Phase Shifts, Herbivory, 
        and the Resilience of Coral Reefs to Climate Change. Current 
        Biology, 17:360-365.
Kleypas, J.A.; Feely, R.A.; Fabry, V.J.; Langdon, C.; Sabine, C.L.; and 
        Robbins, L.L. (2006) Impacts of ocean acidification on coral 
        reefs and other marine calcifiers: A guide for future research. 
        Report of a Workshop Sponsored by NSF, NOAA, USGS. 85 pages.
Kunkel, C.M.; Hallberg, R.W.; and Oppenheimer, M. (2006) Coral Reefs 
        Reduce Tsunami Impact in Model Simulation. Geophysical Research 
        Letters, 33:L23612.
Langdon, C.; Takahashi, T.; Sweeney, C.; Chipman, D.; and Goddard, J. 
        (2000) Effect of calcium carbonate saturation state on the 
        calcification rate of an experimental coral reef. Global 
        Biogeochemical Cycles 14(2): 639-654.
Marshall, P. and Schuttenberg, H. (2006) A Reef Manager's Guide to 
        Coral Bleaching. Great Barrier Reef Marine Park Authority, 
        Townsville, Australia, 163pp.
Miller, J.; Waara, R,; Muller, E.; and Rogers, C (2006) Coral bleaching 
        and disease combine to cause extensive mortality on reefs in 
        the U.S. Virgin Islands. Coral Reefs 25: 418.
Orr, J.C.; Fabry, V.J.; Aumont, O.; Bopp, L.; Doney, S.C.; Feely, R.A.; 
        Gnanadesikan, A.; Fruber, N.; Ishida, A.; Joos, F.; Key, R.M.; 
        Lindsay, K.; Maier-Reimer, E.; Matear, R.; Monfray, P.; 
        Mouchet, A.; Najjar, R.G.; Plattner, G.K.; Rodgers, K.B.; 
        Sabine, C.L.; Sarmiento, J.L.; Schlitzer, R.; Slater, R.D.; 
        Totterdel, I.J.; Weirig, M.F.; Yamanaka, Y.; and Yool, A. 
        (2005) Anthropogenic ocean acidification over the twenty-first 
        century and its impact on calcifying organisms. Nature, 
        437:681-868.
Precht, W. F. and Aronson, R.B. (2006) Rapid range expansion of reef 
        corals in response to climatic warming. Geological Society of 
        America Abstracts with Programs, 38: 535.
Wilkinson, C.R. (Ed.) (2000) Status of Coral Reefs of the World: 2000. 
        Australian Institute of Marine Science, Townsville, Australia, 
        376 pp.
Wilkinson, C.R. (Ed.) (2002) Status of Coral Reefs of the World: 2002. 
        Australian Institute of Marine Science, Townsville, Australia, 
        388 pp.
Wooldridge, S.; Done, T.; Berkelmans, R.; Jones, R.; and Marshall, P. 
        (2005) Precursors for resilience in coral communities in a 
        warming climate: a belief network approach. Marine Ecology 
        Progress Series. 222:209-216.
        [GRAPHIC] [TIFF OMITTED] 34670.007
        
        .eps[GRAPHIC] [TIFF OMITTED] 34670.008
        
        .eps[GRAPHIC] [TIFF OMITTED] 34670.009
        

  Figure 3: Map of 2005 maximum thermal stress (NOAA Coral Reef Watch
 Degree Heating Week values, or DHW) showing the maximum thermal stress
 across the Caribbean during 2005. Source: Eakin, C. M. et al., 2007,
 Caribbean Corals in Hot Water: Record-Setting Thermal Stress, Coral
 Bleaching and Mortality in 2005, intended for Nature, in preparation.
 

 [GRAPHIC] [TIFF OMITTED] 34670.010
 
                                 .eps__
                                 
    Ms. Bordallo. Thank you. Thank you, Dr. Eakin.
    Dr. Caldeira, you are recognized to testify for five 
minutes.

  STATEMENT OF DR. KEN CALDEIRA, Ph.D., DEPARTMENT OF GLOBAL 
          ECOLOGY, CARNEGIE INSTITUTION OF WASHINGTON

    Dr. Caldeira. Hi. I am pleased and very thankful that you 
invited me to testify on the topic of how climate change and 
acidification are affecting our oceans.
    I work at the Carnegie Institution and am also a professor 
at Stanford University where I study climate change and ocean 
chemistry. I worked for 12 years at a Department of Energy 
laboratory where I studied effects of carbon dioxide emissions 
in the marine environment. These effects are disturbing.
    [Slide.]
    Dr. Caldeira. We have all heard about climate change, but 
we might not be aware of how carbon dioxide is affecting the 
world's oceans. There is evidence for at least four major kinds 
of effects--rising sea level, heating of the ocean, decreasing 
ocean productivity and, of greatest concern to me, ocean 
acidification.
    Sea level is rising. Increasingly, this is harming our 
coastal ecosystems and coastal and island communities. 
Threatened ecosystems include wetlands, corals and mangroves. 
These ecosystems can provide many important services, including 
acting as hatcheries for fisheries, protecting coasts against 
storm damage and in many cases helping to support tourism.
    The ocean is heating up. This is affecting many ecosystems 
with many species shifting their ranges. It is throwing off the 
timing and distribution of different species that rely on each 
other for food. For example, breeding seabirds may not be able 
to find food because their food no longer lives where they 
normally feed.
    Ocean heating is threatening coral ecosystems with 
extinction. With no change in how we produce energy, it is just 
a matter of time before other ecosystems are threatened as 
well.
    Climate change is making much of our oceans less 
productive. Most life in the ocean lives near the surface where 
there is both food to eat and life to support growth. Life in 
the oceans is fed by nutrients like fertilizers coming up from 
the deeper, nutrient-rich waters below.
    The climate change is heating the upper ocean, making it 
warmer. This warm water floats on top of cold water. This warm 
water caps the colder water below, reducing the amount of deep 
ocean fertilizer supplied to the ecosystems of the upper ocean.
    The result is likely to be a less productive ocean in many 
areas with lower fish yields. There is evidence from satellite 
data that this reduction in productivity is already occurring 
in the tropics and mid latitudes.
    Of all the things I have mentioned so far, the one that 
concerns me the most is ocean acidification. When we burn coal, 
oil or gas, we release carbon dioxide into the atmosphere. 
Eventually nearly all of this carbon dioxide will go into the 
ocean. The oceans are already absorbing one-third of the 
CO<INF>2</INF> we emit. That is 40 pounds of carbon dioxide 
going into the ocean for each American each day.
    The problem is that when this carbon dioxide reacts with 
seawater it becomes carbonic acid, acidifying our oceans. In 
high enough concentrations, carbonic acid can corrode the 
shells and skeletons of many marine organisms.
    Coral systems are perhaps the best study and may be the 
first to be threatened by ocean acidification. My colleague, 
Dr. Kleypas, will speak more to this.
    We heard about this three percent CO<INF>2</INF>. This is 
going away from here, but we breathe in and out, and if each 
time we breathe in we breathe in three percent more than we 
breathe out, very soon we will be in big trouble.
    The important thing is how fast are volcanos and other 
geologic sources adding CO<INF>2</INF> to our atmosphere and 
oceans, and our current emissions exceed this natural supply of 
CO<INF>2</INF> to the oceans and atmosphere by a factor of 50. 
In other words, if we cut 98 percent of our emissions, we would 
be doubling this natural geologic source of CO<INF>2</INF> to 
our atmosphere.
    If current trends in carbon dioxide emissions continue, 
within decades we will produce chemical conditions in the ocean 
that have not been seen for at least 50 million years and 
probably not since the time when dinosaurs became extinct. At 
that time, organisms like corals that made shells and skeletons 
out of calcium carbonate disappeared from the fossil record. It 
took hundreds of thousands to millions of years for life in the 
oceans to fully recover.
    The carbon dioxide that we are using to light the 
lightbulbs in this room will be acidifying the oceans all over 
the world within a year. This is bad news for the oceans.
    The good news is that we can develop energy systems that do 
not emit carbon dioxide into the atmosphere, and as soon as we 
stop emitting carbon dioxide the chemistry of the surface ocean 
will start improving. It is important that we act now.
    Thank you again for inviting me to testify, and I look 
forward to answering any further questions you might have.
    [The prepared statement of Dr. Caldeira follows:]

    Statement of Ken Caldeira, Carnegie Institution of Washington, 
  Department of Global Ecology, and Stanford University Department of 
      Geological and Environmental Sciences, Stanford, California

INTRODUCTION
    Climate change and acidification are both affecting our oceans. 
These are two different phenomena but both are primarily caused by 
carbon dioxide emissions to the atmosphere associated with the burning 
of coal, oil, and gas.
    Carbon dioxide and other greenhouse gases cause the atmosphere to 
trap heat that would otherwise escape to space. The result in the 
atmosphere is changes in temperature, winds, precipitation, and 
evaporation. These changes in the atmosphere affect the oceans, causing 
changes in sea-level and ocean circulation, ultimately impacting 
coastal communities, fisheries, and natural ecosystems.
    Nearly all of the carbon dioxide we emit to the atmosphere is 
ultimately absorbed by the oceans. Today, each American emits about 120 
pounds of carbon dioxide into the atmosphere each day, and already 
about 1/3 of this is being absorbed by the ocean. Unfortunately, when 
carbon dioxide reacts with seawater it becomes carbonic acid. Carbonic 
acid, in high enough concentrations, is corrosive to the shells and 
skeletons of many marine organisms. Over the next decades, continued 
carbon dioxide emissions have the potential to create chemical 
conditions in the ocean that have not occurred since the dinosaurs 
became extinct. Such chemical conditions could cause the extinction of 
corals and threaten other marine ecosystems.
    The solution of these problems lies in developing and deploying 
energy technologies that allow for economic growth and development 
without emitting greenhouse gases to the atmosphere. However, there are 
at least three other areas in which action is warranted:
    (1) Climate change and acidification both act as additional 
stresses on marine ecosystems. Other stresses include over-fishing, 
coastal pollution, and introduced species. Efforts to reduce other 
stresses on marine ecosystems can help make marine ecosystems more 
resilient to the stresses posed by climate change and ocean 
acidification.
    (2) Sea-level rise will be flooding coastal ecosystems and 
wetlands. These areas often act as hatcheries for commercially 
important fish. With sea-level rise, in the absence of coastal 
development, these coastal ecosystems would tend to shift towards what 
are now inland areas. However, if these areas are carelessly developed, 
such adaptive migration of these valuable ecosystems will be 
impossible. Management of our coastal environment and its development 
should take into account both future sea level rise and the welfare of 
coastal ecosystems, beaches, and wetlands.
    (3) While the physics of climate change is reasonably well 
understood and the chemistry of ocean acidification is very well 
understood, we are just beginning to learn about the consequences of 
climate change and ocean acidification for marine ecosystems. 
Especially in the case of ocean acidification, a focused research 
effort could help us to understand the magnitude of the threat to 
marine ecosystems generally and economically important resources 
specifically.
CLIMATE CHANGE
    By this time, the fact that greenhouse gases such as carbon dioxide 
cause climate change is well established. The basic physics of the 
greenhouse effect has now been understood for over 150 years. There are 
still uncertainties in the exact amount of warming that might result 
from an increase in greenhouse gases and even greater uncertainty in 
regional predictions of temperature and precipitation changes. 
Nevertheless, the sign of the change is clear: The Earth is getting 
hotter.
    As the Earth heats, winds will change and areas of precipitation 
and evaporation will shift. All of these factors will affect ocean 
circulation.
Sea-level Rise
    The simplest prediction is sea-level rise that results from the 
heating of the ocean. As the seawater warms, it expands. This thermal 
expansion of seawater is expected to increase sea level by about one 
foot during this century, if current trends in greenhouse gas emissions 
continue. Adding to this sea-level rise from thermal expansion is the 
sea-level rise from the melting of ice sheets. The amount of sea-level 
rise from the melting of ice sheets is far less certain, and could be 
anywhere from nearly zero to a couple of feet this century.
    A sea-level rise of one or more feet this century means that 
coastal zones can expect floods that are one or more feet deeper than 
floods previously experienced. Beach erosion will increase. Much of the 
damage from sea-level rise is expected to occur during extreme 
conditions such as storm floods, and not during normal conditions.
    A two-foot rise in sea level would eliminate about 10,000 square 
miles of land in the United States, an area equivalent to the size of 
Massachusetts and Delaware (EPA, 1989).
    The natural response of coastal ecosystems (and beaches) to sea 
level rise that has occurred at the end of the last ice age was for 
these ecosystems (and beaches) to move inland as land was lost to the 
sea. However, today, there is significant human development along the 
coasts. This human development can act as a barrier to the shoreward 
migration of coastal ecosystems. As a result, coral ecosystems, 
mangroves, wetlands, beaches, and other coastal environments can be 
threatened by sea-level rise.
    Coastal ecosystems often act as hatcheries for commercially 
important fish stocks. Coastal systems such as coral reefs and beaches 
have high tourism value.
    It is important that future coastal development consider the 
potential for future sea-level rise and the protection of coastal 
ecosystems.
Ocean Heating
    The heating of the ocean contributes to sea-level rise, but it has 
other effects on the marine ecosystems. Perhaps the clearest case 
relates to coral reefs, where the bleaching of coral reefs has been 
closely related to changes in sea surface temperatures.
    However, the warming of the oceans has more subtle effects on 
marine ecosystems. There has been extensive documentation of fish 
stocks moving poleward in response to warming of the North Atlantic 
ocean. There is no expectation that entire ecosystems are capable of 
migrating as a single unit. So, for example, fish species may migrate 
northward, but seabirds that feed on those fish have no way of knowing 
that the fish have migrated. Thus, the seabirds may seek food 
unsuccessfully in their traditional feeding grounds. Recent seabird 
deaths in northern California and Oregon have been associated with 
shifts in winds and resulting changes in ocean circulation and 
availability of food (Barth et al., 2007).
    Clearly, polar ecosystems cannot move further poleward to maintain 
the temperatures these ecosystems need. Thus, polar marine ecosystems 
are particularly threatened.
    Oxygen dissolves more easily in cold water than in warm water. 
Thus, fish can suffocate in warm water. Very active fish, like tuna, 
have a very high oxygen demand. This is a primary reason why adult tuna 
prefer to live in cold water environments where oxygen is plentiful. 
Warming of the ocean can be expected to increase the oxygen stress on 
marine ecosystems (Portner and Knust, 2007).
Stratification and Marine Productivity
    Most life in the ocean lives near the surface where there is both 
light and food. The base of the food chain are typically tiny 
photosynthetic organisms that rely on nutrients (essentially 
fertilizer) mixed up from below.
    Warm water floats on top of cold water. As the surface ocean heats, 
the contrast in temperature between the surface water and deeper water 
increases. This inhibits mixing between the surface ocean and deeper 
ocean waters.
    Deeper ocean waters are enriched in nutrients. When mixing of this 
nutrient-rich water up to the surface is inhibited, less nutrients are 
supplied to the productive surface layers of the ocean. With a 
diminished nutrient supply, there will be less growth of the plants and 
algae that form the base of the food chain (Behrenfeld et al., 2006), 
and marine ecosystems can be expected to become less productive, 
impacting fisheries.
    A relationship between increased sea-surface temperature and 
decreased biological productivity in the ocean has been confirmed for 
the tropics and mid-latitudes based on satellite observations of sea 
surface temperature and chlorophyll concentrations.
OCEAN ACIDIFICATION
    Today, nearly 30 billion tons of carbon dioxide are released to the 
atmosphere from the burning of fossil fuels (and from secondary sources 
such as cement manufacture). About 10 billion tons of carbon dioxide 
are going into the ocean each year. The average American emit about 
five times as much carbon dioxide as the average person on this 
planet--the average American emits about 120 pounds of CO<INF>2</INF> 
each day, with about 40 pounds of this CO<INF>2</INF> going into the 
oceans each day for each American. It is unreasonable to expect that so 
much CO<INF>2</INF> could go into the ocean without having negative 
consequences for marine biota.
EPA Water Quality Standards
    The U.S. Environmental Protection Agency (1976) Quality Criteria 
for Water state: ``For open ocean waters where the depth is 
substantially greater than the euphotic zone, the pH should not be 
changed more than 0.2 units outside the range of naturally occurring 
variation--'' Atmospheric CO<INF>2</INF> concentrations would need to 
be stabilized at <500 ppm for the ocean pH decrease to remain within 
the 0.2 limit set forth by the U.S. Environmental Protection Agency 
(1976).
A Personal History
    The first paper quantifying the greenhouse effect was called ``On 
the Influence of Carbonic Acid in the Air upon the Temperature of the 
Ground'' (Arhenius, 1896). Back then, the tern ``carbonic acid'' was 
used to refer to carbon dioxide, because carbon dioxide forms carbonic 
acid when it dissolves in water.
    I began studying this issue when I worked for at a Department of 
Energy laboratory (Lawrence Livermore National Laboratory). I was also 
scientific co-director of the DOE Center for Research on Ocean Carbon 
Sequestration. We were researching the feasibility of slowing climate 
change by intentionally placing carbon in the ocean.
    As part of this research effort, DOE funded investigation of the 
effect of carbon dioxide on marine organisms, including both primary 
research and synthesis of work funded by other organizations. It soon 
became apparent that CO<INF>2</INF> could threaten marine organisms not 
only at the high concentrations that might be relevant for an 
intentional ocean storage project but also at the lower concentrations 
expected to result from the oceanic uptake of carbon dioxide from the 
atmosphere.
    I wrote the study that introduced the term ``ocean acidification'' 
(Caldeira and Wickett, 2003). When we first submitted this study for 
publication in Nature magazine, we compared the oceanic effects of 
releasing carbon dioxide into the deep ocean with the effects of 
releasing carbon dioxide into the atmosphere. The editors of Nature 
magazine felt that the effects of releasing carbon dioxide into the 
atmosphere were so alarming that it was unnecessary to show the effects 
of deep sea injection. Thus, the study as published focused on the 
effects of atmospheric release. In that study, we concluded that future 
carbon dioxide releases could produce chemical conditions in the oceans 
that have not been seen in the past 300 million years, with the 
exception of rare brief catastrophic events in Earth history.
Ocean Acidity, Biota, and the Geologic Record
    Many marine organisms, including corals and clams, make their 
shells or skeletons out of calcium carbonate. The upper ocean is super-
saturated with respect to calcium carbonate minerals, which means there 
is a chemical force helping these organisms to form and maintain their 
shells and skeletons. These organisms use both calcium and carbonate to 
form calcium carbonate. The ocean acidity produced by carbonic acid 
(carbon dioxide) attacks carbonate, removing one of the essential 
building blocks needs by corals and clams and many other marine 
organisms to build their shells and skeletons.
    It is very easy to predict the future chemistry of the upper ocean. 
The chemistry is very well understood. You can take a bucket of 
seawater and put it under a bell jar with a different atmospheric 
CO<INF>2</INF> concentration, and then measure the chemistry of the 
water--and the measured chemistry will agree very closely with what 
would be predicted by calculations. This chemistry has been well 
understood for decades. (This chemistry is very similar to the 
chemistry of blood. In fact, the science of seawater chemistry was 
based on approaches developed to understand blood chemistry.)
    If you take a bucket of seawater from the Southern Ocean or Arctic 
Ocean and place it under a bell jar with CO<INF>2</INF> concentrations 
expected later this century under ``business-as-usual'' scenarios, you 
will find that this water is able to dissolve the shells of some marine 
organism (see Figure). If you do the same thing with seawater from the 
tropics, you will find that you create the kind of chemistry in which 
no coral is found living in the real ocean today--it would be so 
difficult for the corals to produce their skeletons that they would be 
unlikely to compete successfully with sea grasses, algae, and other 
organisms seeking that ecological space.
    The United States has funded project to drill into the ocean floor 
over the past few decades. From these drill holes cores are withdrawn. 
From the sediments in these cores we have gained an understanding of 
the changes in deep ocean chemistry over the past 50 million years. It 
is now clear that even if atmospheric CO<INF>2</INF> is stabilized at 
450 ppm, the deep ocean will be more corrosive to carbonate minerals 
than at any time over the past 50 million years (Caldeira and Wickett, 
2005; Tripati et al. 2005).
    My PhD dissertation work was on what occurred to ocean chemistry 
when the dinosaurs became extinct some 65 million years ago. At that 
time, nearly every marine organism that made a shell or skeleton out of 
calcium carbonate disappeared from the geologic record. It took 
hundreds of thousands to millions of years for marine biology to 
recover. For example, some few coral individuals survived but it took 2 
million years for them to repopulate the coasts of the tropical and 
subtropical oceans.
    In the next decades, if CO<INF>2</INF> emissions are unabated, we 
may make the oceans more corrosive to carbonate minerals than at any 
time since the extinction of the dinosaurs. I personally believe that 
this will cause the extinction of corals, even though this cannot be 
proved conclusively.
Knowns, and Known and Unknown Unknowns
    We know that our carbon dioxide emissions, if unabated, will 
produce chemical conditions in the oceans that have not been 
experienced for many millions of years. There is good reason to believe 
that this could ``put the nail in the coffin'' of the remaining coral 
reefs throughout the world. However, much is unknown.
    Most experiments on the biological response of marine organisms to 
increased CO<INF>2</INF> have been conducted on relatively few 
organisms over relatively short periods in laboratory environments. 
Most of these experiments have focused on corals and other organisms 
with calcium carbonate shells or skeletons.
    Nobody has yet looked at how ocean acidification might affect fish 
eggs or fish larvae. Nobody knows how ocean acidification impacts on 
the plankton that form the base of the food chain might affect the 
organisms at the top of the food chain.
AN EXAMPLE: CLIMATE CHANGE PLUS OCEAN ACIDIFICATION
    It was mentioned above that seawater chemistry is very similar to 
blood chemistry. When we use our muscles, the CO<INF>2</INF> 
concentration in our blood increases, and our blood becomes more 
acidic, and this causes the hemoglobin in our blood to bind to the 
CO<INF>2</INF>. When this CO<INF>2</INF>-carrying-hemoglobin reaches 
our lungs, contact with the atmosphere in our lungs causes our blood to 
become less acidic, and this causes the hemoglobin in our blood to give 
up the CO<INF>2</INF> and bind instead to oxygen. In this way, the 
chemistry of our blood regulates oxygen transport and CO<INF>2</INF> 
removal.
    Similar processes go on in organisms like fish and squid (Portner 
et al., 2005). But, as mentioned above, heating of the ocean will 
decrease the oxygen content of water. In addition, there will be much 
more carbon dioxide dissolved in the seawater. Thus, the ocean water 
will look a lot more like oxygen-depleted CO<INF>2</INF>-rich blood in 
a muscle. It is expected that in this environment the hemoglobin (or 
its relative in other species) may not give up as much of its 
CO<INF>2</INF> or bind to as much oxygen. Thus, this can contribute to 
oxygen stress in marine organisms.
    It is not known how important this type of effect might be, or at 
what atmospheric CO<INF>2</INF> levels this might to impact ecosystems, 
including economically valuable species. But this shows that climate 
change and ocean acidification have the potential to act 
synergistically to damage marine ecosystems.
OBSERVATIONS
    The clearest way to reduce the risks climate change and 
acidification pose for our oceans is to reduce carbon dioxide 
emissions.
    Climate change and ocean acidification will stress ocean 
ecosystems. Reduction of other stresses on marine systems (e.g., 
overfishing, loss of wetlands) will make marine systems more resilient 
to climate change and ocean acidification.
    The physics of climate change are fairly well understood and the 
chemistry of ocean acidification is very well understood. While there 
is enough information to be concerned and alarmed, there is still great 
uncertainty on the response of marine ecosystems to these stresses. 
More research could help inform sound policy development. Research on 
biotic effects of ocean acidification is especially lacking.
    Managements of our coastal environments, both on land and in water, 
should take climate change, ocean acidification, and sea-level rise 
into consideration.
[GRAPHIC] [TIFF OMITTED] 34670.011


    .epsFigure 1. Maps showing the distribution of ocean chemistry 
suitable for coral growth for different time periods, assuming 
``business-as-usual'' CO<INF>2</INF> emissions. Colors represent the 
chemical force promoting the development of coral skeletons. Year 1765: 
Several hundred years ago, before the carbon dioxide emissions of the 
industrial revolution, nearly all coral reefs are found in the red-
colored regions with a few in the orange and regions. No corals are 
found in the more blue and purple colored regions. Year 1994: Already, 
as a result of historical carbon dioxide emissions, the area that is 
most suitable for coral growth has retreated to the western Pacific 
Ocean (and a little bit of the Indian Ocean). Most existing corals are 
already in marginal environments for coral growth. Year 2040: Already, 
there is no place left in the ocean that is optimal for coral growth. 
In parts of the Southern Ocean, shells of some organisms, such as 
pteropods, are starting to dissolve. Year 2099: By the end of the 
century, there is no place left in the ocean with the kind of ocean 
chemistry where corals are found growing naturally. Shells of marine 
organisms are dissolving through most of the Southern Ocean.
SELECTED REFERENCES
    Arrhenius, Svante, 1896, On the Influence of Carbonic Acid in the 
Air upon the Temperature of the Ground, London, Edinburgh, and Dublin 
Philosophical Magazine and Journal of Science (fifth series), April 
1896. vol 41, pages 237-275.
    Barth, John A., Bruce A. Menge, Jane Lubchenco, Francis Chan, John 
M. Bane, Anthony R. Kirincich, Margaret A. McManus, Karina J. Nielsen, 
Stephen D. Pierce, and Libe Washburn. Delayed upwelling alters 
nearshore coastal ocean ecosystems in the northern California current. 
PNAS 2007 104: 3719-3724; 10.1073/pnas.0700462104.
    Behrenfeld, M. J., R. T. O'Malley, D. A. Siegel, C. R. McClain, J. 
L. Sarmiento, G. C. Feldman, J. Milligan, P. G. Falkowski, R. M. 
Letelier, and E. S. Boss, 2006: Climate-driven trends in contemporary 
ocean productivity. Nature, 444(7120), 752-755.
    Caldeira, K., and M.E. Wickett, Anthropogenic carbon and ocean pH, 
Nature 425, 365-365, 2003.
    Caldeira, K., and M.E. Wickett, Ocean model predictions of 
chemistry changes from carbon dioxide emissions to the atmosphere and 
ocean. Journal of Geophysical Research (Oceans) 110, C09S04, 
doi:10.1029/2004JC002671, 2005.
    Caldeira, K., M. Akai, P. Brewer, B. Chen, P. Haugan, T. Iwama, P. 
Johnston, H. Kheshgi, Q. Li, T. Ohsumi, H. Poertner, C. Sabine, Y. 
Shirayama, J. Thomson. Ocean storage. In: IPCC Special Report on Carbon 
Dioxide Capture and Storage. Prepared by Working Group III of the 
Intergovernmental Panel on Climate Change [Metz, B., O. Davidson, H. C. 
de Coninck, M. Loos, and L. A. Meyer (eds.)]. Cambridge University 
Press, Cambridge, United Kingdom and New York, NY, USA, 442 pp.
    EPA, 1989: The Potential Effects of Global Climate Change on the 
United States. Report to Congress. Washington, D.C.: U.S. Environmental 
Protection Agency. EPA 230-05-89-052.
    EPA, 1976: Quality Criteria for Water, Washington, DC (http://
www.epa.gov/waterscience/criteria/redbook.pdf)
    Orr, J.C., et al., Anthropogenic Ocean Acidification over the 
Twenty-first Century and Its Impact on Calcifying Organisms, Nature 
437:681-686 (2005).
    Portner, H.O., M. Langenbuch, and B. Michaelidis (2005) Synergistic 
effects of temperature extremes, hypoxia, and increases in 
CO<INF>2</INF> on marine animals: From Earth history to global change, 
J. Geophys. Res. 110, C09S10, doi:10.1029/2004JC002561.
    Portner, H.O., Knust R. (2007) Climate change affects marine fishes 
through the oxygen limitation of thermal tolerance. Science 315, 95-97.
    Raven, J. Caldeira, K. Elderfield, H. Hoegh-Guldberg, O. Liss, P. 
Riebesell, U. Shepherd, J. Turley, C. Watson, A. (2005) Acidification 
due to increasing carbon dioxide. In Report 12/05. London, T.R.S.o. 
(ed.) London: The Royal Society, pp. vii + 60.
    Tripati, A., Backman, J., Elderfield, H., and Ferreti, P., 2005, 
Eocene bipolar glaciation associated with global carbon cycle changes. 
Nature, 436:341-345.
                                 ______
                                 
    Mr. Kennedy [presiding]. Thank you very much.
    Dr. Kleypas?

STATEMENT OF JOAN A. KLEYPAS, Ph.D., INSTITUTE FOR THE STUDY OF 
   SOCIETY AND ENVIRONMENT, NATIONAL CENTER FOR ATMOSPHERIC 
                            RESEARCH

    Dr. Kleypas. Thank you, Congressman Kennedy and other 
Members of the Subcommittee, for this opportunity to speak with 
you today. I am a scientist at the National Center for 
Atmospheric Research, and I study the interactions between 
climate and marine ecosystems.
    I would like to speak about a topic that I feel is one of 
the most important environmental issues of our time. That issue 
is ocean acidification and what it means for our marine 
ecosystems.
    [Slide.]
    Dr. Kleypas. I want to repeat two of the main points made 
by Dr. Caldeira. First, every year the oceans absorb about a 
third of the carbon dioxide released by humans to the 
atmosphere. This is a natural service provided by the oceans 
that helps reduce the rate of climate change.
    Second, this uptake is not without consequences. The 
additional carbon dioxide in the oceans is turning them more 
acidic. Although we cannot feel this change, it is predictable, 
measurable, and it is accelerating.
    There are two main ways that increasing acidity affects 
marine organisms. First, it affects the basic life functions 
such as respiration and growth. Second, in a broad group of 
organisms that we call marine calcifiers it affects their 
ability to form their calcium carbonate shells or skeletons.
    With respect to life functions, the first question that 
comes to mind is will marine organisms be stressed by ocean 
acidification? Only a few experiments have so far been 
conducted to answer this.
    As expected, it appears that some organisms will be 
stressed while others will not. Squid, for example, appear to 
be more sensitive than fish, and early life stages of marine 
organisms such as larval fish appear to be more sensitive than 
adults.
    What we know the most about is how changes in acidity 
affect the ability of many marine organisms to build their 
shells or skeletons. This includes many groups from microscopic 
algae at the base of the food chain to familiar groups like 
claims and oysters, starfish and corals.
    As Ken said, corals are the best studied amongst these, and 
if current trends in emissions continue there is strong 
evidence that coral calcification rates will decline by 10 to 
50 percent by the middle of this century.
    What does it mean to these organisms to have reduced 
ability to grow shells? It is like taking away their 
fundamental building material. These organisms grow shells and 
skeletons for a variety of reasons such as protection, 
competing for space or anchoring to the sea floor, amongst many 
others. Suppressing skeletal growth is thus very likely to 
decrease an organism's ability to survive.
    Another critical question. How will ocean acidification 
affect marine ecosystems and food chains? There are indications 
that the ranges of some species will be reduced and that food 
webs will be altered--this is very similar to the terrestrial 
information we had today--including some species that support 
commercially important fish species.
    Researchers are beginning to take up the task to find out 
how such efforts will cascade through marine food webs. There 
has been little research on this unfortunately, but it is 
urgent that we figure this out.
    Calcium carbonate is essential at the ecosystem level as 
well. Coral reefs exist simply because corals and other 
organisms produce this mineral faster than it is removed or 
dissolved. Reef structures are important. They support high 
biodiversity in fisheries, they protect many coastlines from 
storms, they provide the quiet conditions necessary for 
mangroves and seagrass beds, and they allow the existence of 
low-lying coral atolls.
    If calcium carbonate production decreases the supply of 
coral sediment also decreases, leaving islands more vulnerable 
to erosion, particularly in the face of rising sea level and 
extreme weather events.
    Based on present day observations and the geological 
record, ocean acidification will alter our marine ecosystems in 
fundamental ways. Unfortunately, the problem of ocean 
acidification is a relatively new discovery, and we are just 
beginning to understand how far reaching the effects may be. We 
have much work to do.
    The obvious solution is to reduce carbon dioxide emissions. 
This will not only decrease ocean acidification; it will 
decrease the other compounding problems associated with climate 
change. In the meantime, given the problem of multiple 
stressors on ecosystems, it makes sense to address those 
stresses that we can control, like poor land use practices and 
overfishing, while we implement solutions to the global problem 
of rising atmosphere CO<INF>2</INF>.
    Personally I feel that ocean acidification is one of the 
greatest risks we face if we continue to allow carbon dioxide 
to build up in the atmosphere. The implications are important 
to life in the oceans as we know it and ultimately to our own 
lives.
    Thank you very much.
    [The prepared statement of Dr. Kleypas follows:]

Statement of Joan A. Kleypas, Ph.D., Scientist, Institute for the Study 
 of Society and Environment, National Center for Atmospheric Research 
                              <SUP>1</SUP>
---------------------------------------------------------------------------

    \1\  The National Center for Atmospheric Research (NCAR) is 
sponsored by the National Science Foundation.
---------------------------------------------------------------------------
Introduction
    I thank Chairwoman Bordallo, Ranking Member Brown, and the other 
Members of the Subcommittee for the opportunity to speak with you today 
on the future of our wildlife and oceans in a changing climate. My name 
is Joan Kleypas. I am a Scientist at the National Center for 
Atmospheric Research in Boulder, Colorado. My personal research has 
focused on the interactions between marine ecosystems and climate 
change, with particular emphasis on the impacts of climate change on 
coral reef ecosystems. I have authored or co-authored between 30 and 40 
peer-reviewed scientific journal articles, book chapters, and technical 
documents, and have presented more than 30 invited talks worldwide. I 
have co-organized several international workshops on issues related to 
climate change and marine ecosystems. I currently serve on two 
committees related to carbon and the oceans: the Ocean Carbon and 
Biogeochemistry Scientific Steering Committee, and the European 
CarboOcean International Advisory Board. You have asked me to provide 
insights on issues related to the known and predicted impacts that 
climate change is having and is expected to have on wildlife and 
oceans. My testimony will focus on the emerging problem of ocean 
acidification. I have worked on this issue since 1998, and have led 
several efforts to improve our understanding of this process and what 
it means for ocean life.
Background
    A large proportion of the carbon dioxide (CO<INF>2</INF>) released 
to the atmosphere is absorbed by the ocean. A recent inventory of 
carbon in the oceans estimates that by mid-1990s, the oceans had 
already taken up nearly half of the total carbon dioxide released by 
human activities between 1800 and 1994. Without this process, the 
atmospheric concentration of carbon dioxide would have risen from 280 
ppmv to be about 435 ppmv rather than the current concentration of 380 
ppmv. The natural sequestration of carbon dioxide by the oceans thus 
slows down the build-up of greenhouse gases in the atmosphere.
    However, the additional CO<INF>2</INF> in the water column is 
resulting in ``ocean acidification,'' the progressive shift of ocean pH 
toward more acidic conditions. This shift is occurring because carbon 
dioxide combines with seawater to form carbonic acid, which lowers the 
pH. Once the concentration of carbon dioxide in the atmosphere reaches 
twice that of preindustrial times (560 ppmv), the pH of the surface 
ocean will have decreased from a preindustrial average of about 8.16 to 
about 7.91. Because pH is reported on a logarithmic scale, this small 
change in pH represents a rather large increase (78%) in hydrogen ion 
concentration, with clear implications for biological processes. These 
changes will also cause shifts in the relative concentrations of other 
dissolved carbon species in the ocean. Notably, the concentration of 
the carbonate ion, which is a major building block for the skeletons 
and shells of many marine organisms, will decrease by about 34%.
    Even though the process of ocean acidification was predicted since 
the 1970s, only recently has this process been verified by large-scale 
measurements of carbon in the ocean through programs such as the World 
Ocean Circulation Experiment and the Joint Global Ocean Flux Survey. 
Based on what we know about ocean pH in the past, the seawater 
chemistry of the surface ocean is already altered to a state that is 
considerably outside the range of conditions of the past several 
hundred thousand years and possibly twenty million years. The surface 
ocean is everywhere experiencing a decline in pH (``acidification''). 
Today, the surface ocean remains saturated with the calcium carbonate 
minerals aragonite and calcite. The ``saturation horizon,'' below which 
these minerals will dissolve, is becoming shallower as the oceans take 
up more CO<INF>2</INF>. Within this century, it is predicted that the 
saturation horizon for aragonite will reach the surface near the poles, 
particularly in Antarctica.
    In the remaining testimony, the terms ``increasing CO<INF>2</INF>'' 
and ``ocean acidification'' are used interchangeably. Although these 
are not technically the same, the justifying assumption is that 
increasing atmospheric CO<INF>2</INF> is the absolute driver of ocean 
acidification.
The Effects of Ocean Acidification on Marine Organisms
    The potential effects of ocean acidification on marine biota were 
not recognized until about a decade ago, when experiments indicated 
that major groups of marine organisms were affected by ocean 
acidification. Ocean pH is a fundamental property of seawater that 
affects almost every aspect of biochemistry. First, it affects 
organisms physiologically; that is, such basic life functions such as 
photosynthesis, respiration, growth, etc. Second, in a broad group of 
organisms that we call ``marine calcifiers,'' it affects their ability 
to form their calcium carbonate shells or skeletons. For each, I will 
outline what we know and also what we don't know. Most of the 
information I present here draws from two major reports on ocean 
acidification published by the Royal Society <SUP>1</SUP>, and by a 
U.S. effort jointly funded by the National Science Foundation, the 
National Oceanic and Atmospheric Administration, and U.S. Geological 
Survey <SUP>2</SUP>. Currently, there is much more information 
regarding the calcification response of marine organisms to ocean 
acidification than the physiological response.
---------------------------------------------------------------------------
    \1\ Royal Society, 2005. Ocean acidification due to increasing 
atmospheric carbon dioxide, Policy Document 12/05. The Royal Society. 
http://www.royalsoc.ac.uk/document.asp?id=3249
    \2\ Kleypas JA, RA Feely, VJ Fabry, C Langdon, CL Sabine and LL 
Robbins. 2006. Impacts of Ocean Acidification on Coral Reefs and Other 
Marine Calcifiers. A Guide for Future Research, Report of a workshop 
sponsored by NSF, NOAA and the USGS. 88pp. http://www.isse.ucar.edu/
florida/
---------------------------------------------------------------------------
    Physiological response of primary producers and microorganisms. The 
bulk of the primary production in the oceans is carried out by 
phytoplankton, unicellular algae that live suspended in the upper few 
hundred meters of the ocean. These are the foundation for most marine 
food webs. Marine algae are not as CO<INF>2</INF>-limited as 
terrestrial plants, because they possess a ``carbon concentration 
mechanism.'' Thus, CO<INF>2</INF> fertilization does not seem likely 
for most marine primary producers, and most experiments have confirmed 
this. One exception is in coccolithophorids, which showed an increase 
in primary production under conditions of elevated-CO<INF>2</INF> 
experiments and elevated nutrients; in similar experiments with normal 
nutrient levels, primary production did not increase. Some true marine 
plants, such as seagrasses, may be carbon-limited and may grow faster 
in the future, but this has not been tested. Almost no realistic 
experiments have been conducted on the vast array of other marine 
microorganisms.
    Physiological response of higher marine organisms. In terms of 
physiological response, the first question that comes to mind is ``will 
marine organisms be adversely affected by a lowered pH?'' Most of the 
experiments conducted so far were designed to simulate the effects on 
ocean biota adjacent to deep-injection CO<INF>2</INF> disposal sites, 
and most were designed to measure acute physiological effects and 
mortality. Most of the organisms in these tests experienced increasing 
rates of mortality with decreasing pH, and some of the experiments 
indicated that physiological stress was apparent even near slightly 
elevated concentrations. These experiments did show that some species 
are not likely to be adversely affected. For example, some copepod and 
amphipod species appear to be tolerant of even extreme increases in 
elevated CO<INF>2</INF> concentrations, and/or recover following an 
acute exposure. These and other species that are adapted to existing 
extreme environments in the ocean (e.g., the unusual communities 
associated with hydrothermal vents) are not likely to be directly 
affected by ocean acidification.
    Few experiments have been so far been conducted to test the 
physiological response of marine organisms to pH changes consistent 
with projected atmospheric CO<INF>2</INF> concentrations. These 
experiments have primarily been conducted on mollusks, echinoderms and 
fish. The basic argument about the effects of ocean acidification on 
higher-order organisms is that it causes acidosis of animal tissue and 
body fluids, which can have long-term effects on metabolic functions. A 
summary of these findings so far are:
    1.  Chronic exposure of fish to lowered pH can cause changes in 
metabolic states, such as including increased or decreased respiration 
rates, changes in blood chemistry pH, or changes in enzymatic 
activities.
    2.  Sea urchins grown in lower-pH waters show an inability to 
regulate internal acid-base balance, which would limit or inhibit 
growth. Development of sea urchin larvae is also slowed or abnormal.
    3.  Mollusks grown in lower-pH waters exhibit a slower metabolic 
rate, a decrease in haemolymph pH, and a decrease in growth rates. 
Squid appear to be particularly sensitive to ocean acidification 
because of their high metabolic rate and pH-sensitive blood oxygen 
transport.
    4.  Some coral species have survived low-pH conditions in the lab 
for one year, despite the complete dissolution of their skeletons.
    5.  In most species, larval stages are considered more sensitive to 
pH changes than the adults, because they have less-developed systems 
for regulating internal pH.
Even though many of these changes are not immediately detrimental to an 
organism, they may affect long-term growth and reproduction and may 
thus be harmful at population and species levels.
    Effects on marine calcifiers. So far, experiments have been 
conducted on at least six major groups of calcifying organisms: 
coccolithophores (microscopic algae); foraminifera (microscopic 
protozoans); coralline algae (benthic algae); echinoderms (sea urchins 
and starfish); mollusks (snails, clams, and squid); and corals. While 
the responses vary somewhat between the major groups, nearly all 
experiments have that calcification rates decline with decreasing pH. 
Corals are the best studied among these and the range of experiments 
indicates that calcification rates will decline by 10-50% if 
atmospheric CO<INF>2</INF> concentrations reach double the 
preindustrial concentrations.
    The ability of marine calcifiers to adapt to these pH changes has 
not been adequately tested. Corals that have been grown under decreased 
pH conditions for a year or more do not show signs of adapting. 
Calcification rates in one coccolithophore species appears to be 
maximized at near present-day conditions, which suggests that this 
species can adapt to new CO<INF>2</INF> conditions. Geological and 
paleontological data show a waxing and waning of skeletal sizes and 
thicknesses over time, consistent with changing ocean chemistry, which 
indicates that many groups do not adapt to such changes.
    Ocean acidification not only compromises the ability of these 
organisms to secrete calcium carbonate, it also increases the rate at 
which existing calcium carbonate dissolves. This may be particularly 
important for groups that already exist near the ``saturation horizon'' 
of calcium carbonate, such as cold water corals that live in deep 
waters above the saturation horizon, and planktonic marine snails 
called ``pteropods'' that are particularly abundant in Antarctic waters 
and are an important food species from many commercial species.
    There is essentially no information regarding how changes in 
calcification rate will affect the ability of organisms to survive in 
nature, and most of what we know is based on assumptions that organisms 
grow shells and skeletons for a variety of reasons, such as: 
protection, gathering light for photosynthesis, competing for space, 
anchoring to the substrate, and reproduction. Suppressing skeletal 
growth is therefore likely to decrease an organism's fitness and 
ability to function within its ecological community. Also, the function 
of the calcium carbonate may change over the lifetime of an organism. 
For example, calcium carbonate in a larval echinoderm provides the 
ballast that allows the larvae to settle onto suitable substrate, but 
later provides its protective exoskeleton. Recent experiments show that 
two coral species completely lose their skeletons (through dissolution) 
when pH is reduced to 7.4 (which would occur if atmospheric 
CO<INF>2</INF> concentrations exceeds 1200 ppmv); yet they survived in 
the lab, and once returned to a normal pH, grew new skeletons. This 
provides a positive note that some coral species could survive ocean 
acidification, albeit in a much altered state. Indeed, there is 
evolutionary evidence that some corals may have indeed survived mass 
extinction events in this way, and provided the stock from which new 
coral species evolved (over time spans of millions of years). But the 
survivability of ``naked corals'' in the field is questionable, and 
their ecological role in the coral community would be altered.
The Effects of Ocean Acidification on Marine Ecosystems
    Changes in the physiology and calcification rates of marine 
organisms will undoubtedly affect marine ecosystems and food chains. 
There are indications that the ranges of some species will be reduced, 
and that food webs will be altered, including those that support some 
commercially important fish species. Researchers are beginning to take 
up the task to find out how such affects will cascade through marine 
food webs, but at the moment there has been little research on this.
    Calcium carbonate is also important at the ecosystem level. Coral 
reefs exist simply because corals and other organisms secrete calcium 
carbonate faster than it is removed. Reef structures are important 
because they 1) support high biodiversity and fisheries, 2) protect 
many coastlines and provide the quiet conditions necessary for 
mangroves and seagrass beds, and 3) allow the existence of low-lying 
coral atolls. The ability of coral reefs to keep up with rising sea 
level is well documented. This ability is because the amount of calcium 
carbonate produced by a reef community exceeds the amount that is 
removed by erosion and dissolution. If calcium carbonate production 
decreases, then reef-building and the constant supply of coral sediment 
will also decrease. Mass coral die offs in recent years has led to 
considerable erosion on some reefs; the Galapagos reefs, for example, 
were formed over a period of 3000 years, but were eroded away within a 
decade following the 1982-1983 coral bleaching event. Ocean 
acidification not only decreases calcification rates on reefs, it also 
increases dissolution rates, so that net reef building declines. Any 
reduction in calcium carbonate increases the potential for island 
erosion, particularly in the face of rising sea level.
    Based on present-day observations and the geological record, it 
seems certain that ocean acidification will alter our marine 
ecosystems. The rapid disappearance of marine calcifying organisms in 
some mass extinction events in Earth history has been attributed, at 
least in part, to ocean acidification. Unfortunately, the problem of 
ocean acidification is a relatively new discovery and we are just 
beginning to understand how far-reaching the effects may be. We have 
much work to do.
Solutions
    Ocean acidification may be one of the greatest environmental risks 
we face if we continue to allow CO<INF>2</INF> to build up in the 
atmosphere. The obvious solution is to reduce CO<INF>2</INF> emissions; 
this will not only decrease ocean acidification, it will decrease many 
of the other problems associated with climate change. Although 
seemingly impossible now, should new technologies be developed to not 
only slow atmospheric CO<INF>2</INF> increases, but actually remove 
CO<INF>2</INF> from the atmosphere, the current acidification of the 
upper ocean would be reversed. It is true that much of the carbon 
absorbed by the oceans has been transported by ocean circulation to 
deeper depths, and will remain in the ocean for hundreds of years. The 
upper ocean, however, is in near equilibrium with the atmosphere, and 
removing CO<INF>2</INF> from either the ocean or the atmosphere causes 
CO<INF>2</INF> to diffuse across the air-sea interface (gas diffuses 
from the region of high concentration to low concentration). Thus, 
restoring the atmosphere to its preindustrial state would restore the 
surface ocean to its preindustrial pH.
    It is tempting to recommend some limit to how acidic the ocean can 
get before irreparable damage will occur. The ``safest'' value would be 
the maximum values experienced during the glacial interglacial cycles 
(essentially the preindustrial levels). Other values that have been 
proposed include: the value at which surface waters would become 
undersaturated with the minerals that organisms need to build shells 
(550 ppmv) <SUP>3</SUP>; or the value at which coral reefs would begin 
to suffer net erosion (450-1000 ppmv) <SUP>4</SUP>. However, these are 
only two of the many other potential thresholds that have not been 
measured, such as concentrations that: 1) impact fish species or their 
food resources, 2) impact larval survival and recruitment of important 
species of fish and shellfish, and 3) cause changes in community 
composition in ways that affect the ability of the oceans to recycle 
important nutrients such as carbon, nitrogen, and phosphorus. In 
reality, there are likely to be a continuum of thresholds, and 
predicting these is complicated by the problem of ``multiple 
stressors'' on marine ecosystems, such as pollution, poor land-use 
practices, and overfishing.
---------------------------------------------------------------------------
    \3\ Orr, J.C., Fabry, V.J., Aumont, O., et al. (2005) Anthropogenic 
ocean acidification over the twenty-first century and its impact on 
calcifying organisms, Nature, 437, 681-686.
    \4\ Yates, K.K. and R.B. Halley (2006) CO32- concentration and 
pCO<INF>2</INF> thresholds for calcification and dissolution on the 
Molokai reef flat, Hawaii, Biogeosciences, 3, 357-369.
---------------------------------------------------------------------------
    As technologies to stabilize or reverse CO<INF>2</INF> 
concentration in the atmosphere are developed, it is not only timely 
but urgent that we improve our understanding of how ocean acidification 
will affect marine life across molecular to ecosystem scales. Given the 
multiple stressors in our environment, actions should be taken to 
minimize additional stresses to organisms or ecosystems that are 
particularly vulnerable to ocean acidification (for example, reducing 
fishing quotas for species that experience lowered reproductive 
success). Acquiring the information needed to advise policy makers on 
these issues will require coordinated research across multiple 
institutes and government agencies. In some cases, even basic 
information on the distribution patterns of major groups of marine 
organisms is lacking and such information would greatly inform our 
ability to predict future biological responses. Existing efforts by 
NOAA and NASA should be expanded to improve monitoring and 
observations; but much of the key research needed is at the cellular to 
ecosystem levels and requires basic academic research through both NSF 
and EPA.
Conclusions
    Ocean acidification is occurring now and in all oceans. pH of the 
surface ocean, where the bulk of ocean production and biodiversity 
exist, is changing in lock-step with changes in atmospheric 
CO<INF>2</INF> concentration. The long-term effects of ocean 
acidification on species and ecosystems are consistent with recent 
observations that tie mass extinction events of Earth's history to 
ocean acidification. Evidence from multiple scientific disciplines 
points to the same conclusion: ocean life is sensitive to changes in 
ocean pH, and will be increasingly affected by ocean acidification. 
Many calcifying species are likely to be affected by a decreased 
capacity to grow and maintain their shells and skeletons. Many other 
species may be affected physiologically, simply by changes in their 
internal pH. Because ocean acidification is likely to affect such a 
broad array of marine organisms, we can expect to see significant 
changes in marine ecosystems, including those that support commercial 
fishing. Ocean acidification is an emerging scientific issue, but it is 
also one of high environmental risk. Because of that, I am deeply 
grateful for this opportunity to address this Subcommittee, and I look 
forward to answering your questions.
                                 ______
                                 

            Response to questions submitted for the record 
                         by Dr. Joanie Kleypas

QUESTIONS FROM THE HONORABLE MADELEINE BORDALLO, CHAIRWOMAN
1.  How sure are we about the chemistry of ocean acidification? Is 
        there debate on this point?
    The chemistry of ocean acidification is complicated, but it is well 
understood and predictable. Because carbon dioxide concentration is the 
main factor determining pH of the surface ocean, predictions of the 
degree of ocean acidification in the future are well known. There are 
also secondary factors that affect the concentration of carbon dioxide, 
such as the degree of temperature rise or changes in biological 
activity in the ocean. However, none of these significantly affect the 
ocean acidification process.
    There is strong consensus among scientists that ocean acidification 
is occurring and will continue to occur in concert with increases in 
atmospheric carbon dioxide concentration; and to my knowledge, there is 
no debate about whether ocean acidification is happening. There is one 
published paper that attempted to assert that the biological impacts of 
ocean acidification would be small <SUP>1</SUP>, but this paper failed 
to acknowledge a decade's worth of studies on the biological impacts of 
ocean acidification <SUP>2</SUP>.
---------------------------------------------------------------------------
    \1\ Loaciga, HA. (2006) Modern-age buildup of CO<INF>2</INF> and 
its effects on seawater acidity and salinity, Geophysical Research 
Letters, 33, L10605, doi:10.1029/2006GL026305,
    \2\ Caldeira K, D Archer, JP Barry, RGJ Bellerby, PG Brewer, L Cao, 
AG Dickson, SC Doney, H Elderfield, VJ Fabry, RA Feely, J-P Gattuso, PM 
Haugan, O. Hoegh-Guldberg, AK Jain, JA Kleypas, C Langdon, JC Orr, A 
Ridgwell, CL Sabine, BA Seibel, Y Shirayama, C Turley, AJ Watson, RE 
Zeebe (in press) Comment on ``Modern-age buildup of CO<INF>2</INF> and 
its effects on seawater acidity and salinity'' Geophysical Research 
Letters.
---------------------------------------------------------------------------
2.  Given that reductions in carbon emissions are not going to be 
        eliminated tomorrow, can you talk more about the steps that 
        managers can take now to help marine ecosystems be more 
        resilient in the fact of climate change and ocean 
        acidification? For instance, how might they want to change 
        their approach to the management of wetlands and coastal areas?
    Climate change and ocean acidification are two very important 
stressors on coastal and marine ecosystems, but there are many other 
factors as well. During this period where we are committed to some 
degree of climate change, the first management approach is one that 
concentrates on removing stresses that can be controlled. Some of these 
actions are obvious, such as reducing overfishing, pollution, and land-
based activities (e.g., deforestation) that negatively affect the 
marine environment. A healthy ecosystem is simply more resilient to 
climate change than one that is already stressed.
    A second strategy would be to identify those regions that are 
least/most vulnerable to climate change and other stresses. Which 
regions will benefit the most from conservation, and where should we 
concentrate our conservation efforts? Which regions are most likely to 
remain viable during our committed period of climate change? What are 
the best factors (e.g., biodiversity, size, protection from other 
stressors) for determining such resilience?
    Finally, because the responses of ecosystems are inherently 
difficult to predict, management activities need to become more 
adaptive in two ways. First, managers will need to adjust their 
management strategies to incorporate new findings and information about 
their particular regions. Second, there needs to be geographic 
flexibility in managing ecosystems and associated watersheds, because 
they will need to migrate with temperature change and with sea level 
change.
3.  What about the Arctic and Antarctic oceans, are those ecosystem 
        particularly threatened by climate change and ocean 
        acidification?
    I am not an expert on polar ecosystems, but I will state what I do 
know. Polar ecosystems will experience the greatest temperature 
changes, and changes in sea ice extent, thickness and duration will 
doubly affect many organisms. Polar regions are also the first areas 
where ocean acidification will cause chemical changes that lead to 
surface waters that are actually corrosive to calcium carbonate shells 
and skeletons <SUP>3</SUP>. (Deep ocean waters are naturally corrosive 
to calcium carbonate, but the surface ocean everywhere on the globe is 
not acidic enough to dissolve shells. If atmospheric CO<INF>2</INF> 
concentration continues to increase at the present rate, within a few 
decades ocean acidification will cause surface waters in some polar 
regions to become acidic enough to dissolve organisms' shells. We do 
not yet know if non-shell forming organisms will be affected by this 
change.)
---------------------------------------------------------------------------
    \3\ Orr, JC, VJ Fabry, O Aumont, L Bopp, SC Doney, RM Feely, A 
Gnanadesikan, N Gruber, A Ishida, F Joos, RM Key, K Lindsay, E Maier-
Reimer, R Matear, P Monfray, A Mouchet, RG Najjar, G-K Plattner, KB 
Rodgers, CL Sabine, JL Sarmiento, R Schlitzer, RD Slater, IJ 
Totterdell, M-F Weirig,Y Yamanaka, A Yool (2005) Anthropogenic ocean 
acidification over the twenty-first century and its impact on 
calcifying organisms, Nature, 437(7059): 681-686.
---------------------------------------------------------------------------
QUESTIONS FROM THE HONORABLE PATRICK KENNEDY
Regardless of whether or not we take actions to control and reduce 
        green house gas emissions, wildlife and wildlife habitat and 
        the ocean environment are going to change and adapt, often 
        unpredictably, to a warming climate. Consequently, we should 
        take steps now to develop strategies to allow for the future 
        conservation of biodiversity and the maintenance of a healthy 
        and resilient environment.
1.  Keeping in mind that any transition to a new ``Green Economy'' will 
        take decades to achieve and that most Members of Congress will 
        want to limit unnecessary disruptions of social and economic 
        systems, can you be more specific on what practical types of 
        adaptive management strategies we should consider to mitigate 
        the negative effects of climate change on our collective 
        wildlife and ocean resources?
    We all wish to avoid decisions that lead to a collapse of either 
our economy or our ecosystems--in reality they depend on each other. 
Although other scientists can speak to parts of this question in more 
detail, there are certainly some logical steps that can be taken to 
help mitigate negative effects of climate change on both terrestrial 
and marine resources. These steps fall into three categories:
    a)  Reducing greenhouse gas emissions to ecologically ``safe'' 
levels. This might include increasing energy efficiency, shifting our 
reliance on fossil fuel-based energy to cleaner technologies, and 
promoting human behavioral changes.
    b)  Identifying key areas for conservation. Sound conservation 
strategies are based on a better understanding of which regions are 
least/most vulnerable to climate change and other stresses. Which 
regions will benefit the most from conservation, and where should we 
concentrate our conservation efforts?
    c)  Concentrating on removing stresses that we can control, such as 
reducing overfishing, pollution, and land-based activities (e.g., 
deforestation) that negatively affect the marine environment. Marine 
organisms and ecosystems will thus have a better chance at managing the 
effects of climate change and ocean acidification.
    d)  Adopt economic evaluations that include of the value of 
``ecosystem services.'' Most ecosystems services are taken for granted: 
water purification, nutrient recycling, protection of our coastlines, 
supporting fisheries, etc. Rarely are these services taken seriously in 
economic evaluations, which may benefit some, but generally hurts all 
of us.
2.  Should we be doing more to re-evaluate our current policies for 
        land use planning and public acquisition of land for wildlife 
        habitat? Should we be adopting a broader landscape and 
        ecosystem-based approach for protecting wildlife?
    Yes and yes. As stated above, the more we can reduce the manageable 
stresses on wildlife and ecosystems, the better they will be able to 
handle the less-manageable effects of climate change and ocean 
acidification. We can also do a better job at including climate change 
predictions in making these policies. Ecosystem-based management, 
particularly when it provides a means for species and ecosystems to 
migrate in response to climate change, is proving to be a sound means 
for protecting wildlife and the wild ecosystems that support them.
3.  Finally, how might such ideas be applied to the ocean and coastal 
        environment and the wildlife therein?
    While policy-making is outside my expertise, in my opinion, our 
current policies for land use planning could be improved to focus more 
on habitat preservation rather than species preservation. This approach 
has been used increasingly in both the terrestrial and marine 
environments with good success.
QUESTIONS FROM THE HONORABLE HENRY BROWN, MINORITY RANKING MEMBER
1.  Dr. Kleypas, in your written testimony you state that restoring the 
        levels of carbon dioxide in the atmosphere to pre-industrial 
        levels would restore the surface layers of the ocean to its 
        pre-industrial state. How achievable or feasible is it to go 
        back to pre-industrial carbon dioxide levels?
    At the moment, this is not feasible, because it would require 
technology to remove CO<INF>2</INF> from the atmosphere. Such 
technology actually does exist, but it is not yet energetically 
efficient.
    This point in my testimony was meant to highlight two points:
    A) CO<INF>2</INF> diffuses across the air-sea interface from the 
air to the sea when atmospheric concentration of CO<INF>2</INF> is 
higher, but it diffuses from the sea to the air when the oceanic 
concentration of CO<INF>2</INF> is higher. Were we able to draw down 
the atmospheric concentration of CO<INF>2</INF>, then CO<INF>2</INF> 
would exit the ocean into the atmosphere, thereby reversing the ocean 
acidification process.
    B) While it presently seems infeasible to draw down CO<INF>2</INF> 
from the atmosphere, it should not be deemed impossible. In 1920, it 
was infeasible to put a man on the moon, but less than 50 years later, 
the U.S. achieved this remarkable feat. There are many other examples 
where the U.S. has demonstrated leadership and ingenuity that has 
greatly accelerated scientific and social progress.
2.  Predicting specific aspects of global warming has been very 
        difficult. Climate models predicted a global temperature 
        increase of 1.5 degrees Celsius by the year 2000, six times 
        more than that which has taken place. Modelers, at the time, 
        argued that the heat generated by their claimed ``greenhouse 
        warming effect'' were stored in the deep oceans. Has this 
        theory been proven to be correct?
    Based on observational data, the Third Assessment Report of the 
Intergovernmental Panel on Climate Change (IPCC) calculated a trend of 
0.4-0.8+C increase in global surface temperature for the period 1901 to 
2000. The most recent IPCC Assessment Report recalculated the trend for 
1906-2006 to be 0.56-0.92+C.
    Analysis of ocean temperature observations taken since the 1960's 
indicates that the oceans are warming at the surface (absorbing some of 
the heat from the atmosphere), and ocean currents are transporting some 
of that heat to deeper parts of the ocean. Comparisons of model 
predictions with observations indicate that the warming signal in the 
oceans is well-represented in several global climate models 
<SUP>4</SUP>. One estimate of the increased heat content of the oceans 
between 1955 and 1998 (14.5 x 10\22\ J) would account for some 84% of 
the increase in heat content for the total Earth system <SUP>5</SUP>; 
another estimate of the increase in ocean heat content between the 
decades 1957-66 and 1987-96 is somewhat less (12.8 <plus-minus> 8.0  
10\22\ J) <SUP>6</SUP>.
---------------------------------------------------------------------------
    \4\ Barnett, TP, DW Pierce, KM AchutaRao, PJ Gleckler, BD Santer, 
JM Gregory, and WM Washington (2005) Penetration of human-induced 
warming in to the World's oceans. Science 309: 284-287.
    \5\ Levitus, S, J Antonov, and T Boyer (2005), Warming of the world 
ocean, 1955-2003, Geophys. Res. Lett., 32, L02604, doi:10.1029/
2004GL021592.
    \6\ Gouretski, V, and KP Koltermann (2007), How much is the ocean 
really warming?, Geophys. Res. Lett., 34, L01610, doi:10.1029/
2006GL027834.
---------------------------------------------------------------------------
3.  The March 30, 2007, issue of Science contains a research article 
        that shows calcifying coral species, in the absence of 
        conditions supporting skeleton building, maintained basic life 
        functions as skeleton-less forms and returned to skeleton 
        building when conditions returned to normal. Is this research 
        promising with regard to the survival of corals over the long-
        term?
    Yes and no. This research supports previous studies that predicted 
that some coral species (those most closely related to a coral-like 
group of organisms that do not have skeletons) may have the ability to 
survive as ``naked'' corals, and also that this is what allowed some 
species to survive the Cretaceous-Tertiary extinction event (the mass 
extinction event that wiped out the dinosaurs 65 million years ago). 
However, the survival of such ``naked corals'' in the wild is 
questionable, because the functions of the skeleton (protection from 
currents and predation; ability to grow upward toward the light; 
extension above the substrate; etc.) would be lost. Even if some 
species were able to survive such skeletal loss, they would no longer 
build reefs, so that the ecosystem itself would lose its ability to 
support many other species or the ecosystem services that coral reefs 
provide (please see the response to Congressman Brown's question 23 for 
some examples of these services).
4.  It has been reported that sea water expands when warm. How much of 
        the sea level rise predictions take into account thermal 
        expansion of sea water? (10 percent of the sea level rise 
        estimated to be from glacial runoff).
    I am not an expert on sea level rise, and I will answer only 
briefly. Because the warming of the ocean lags behind atmospheric 
CO<INF>2</INF> concentration increases, sea level rise from thermal 
expansion would continue for centuries after atmospheric CO<INF>2</INF> 
concentrations are stabilized, because of the time required to 
transport heat to the deeper parts of the ocean. That is, as rising air 
temperatures from increased CO<INF>2</INF> in the atmosphere warm an 
ever increasing volume of sea water at greater depths, this growing 
volume of warmer water will continue to expand, thus contributing to 
ongoing sea level increases. This also means that the contribution of 
thermal expansion to overall sea level rise changes over time; but in 
general, thermal expansion accounts for an estimated one-third to one-
half of the observed sea level rise. Projections of sea level rise take 
into account estimates of future thermal expansion, as well as 
contributions from melting glaciers and ice caps, the Greenland ice 
sheet, and the Antarctic ice sheet. Recent apparent accelerations of 
the rate of ice discharge from the Greenland ice sheet are also taken 
into account in the current projections of sea level rise in the IPCC 
AR4, though our understanding of this process is limited since we have 
just recently begun to see such apparent accelerations. Therefore, the 
IPCC AR4 concludes that larger values of sea level rise cannot be 
excluded.
5.  It has been reported that the typical breakdown of carbon dioxide 
        in the atmosphere is 57 percent from the ocean, 19 percent from 
        decaying vegetation, and 19 percent from plant and animal 
        respiration. Do you agree with this breakdown? If not, what is 
        it?
    I am not sure what this question is asking, so I have included a 
figure <SUP>7</SUP> that illustrates the relative sizes of the carbon 
reservoirs, as well as the fluxes of carbon between those reservoirs. 
From this information one can derive the relative importance of the 
reservoirs and fluxes to the atmospheric concentration.
---------------------------------------------------------------------------
    \7\ Sarmiento, JL and N Gruber (2002) Sinks for anthropogenic 
carbon, Physics Today, 55(8), 30-36, 2002.
[GRAPHIC] [TIFF OMITTED] 34670.019

    .epsFigure: GLOBAL CARBON CYCLE: Arrows show the fluxes (in 
pentagram of carbon per year) between the atmosphere and its two 
primary sinks, the land and ocean, averaged over the 1980s. 
Anthropogenic fluxes are in red; natural fluxes in black. The net flux 
between reservoirs is balanced for natural processes, but not for 
anthropogenic fluxes. Within the boxes, black numbers give the 
preindustrial sizes of the reservoirs and red numbers denote the 
changes resulting from human activities since preindustrial times. For 
the land sink, the first red number is an inferred terrestrial land 
sink whose origin is speculative; the second one is a decrease due to 
deforestation. Numbers are slight modifications of those published by 
the Intergovernmental Panel on Climate change. NPP is net primary 
production. From Sarmiento and Gruber (2002).
6.  It has been reported that current carbon dioxide levels are 370 
        parts per million and pre-industrial revolution levels of 
        carbon dioxide were 280 parts per million. Do you agree with 
        these levels? Interpretations of past geological levels of 
        carbon dioxide have been reported to be 1000 parts per million 
        without adverse effect on species. Do you agree? If 1000 parts 
        per million were not cause of adverse effects, how is 370 parts 
        per million a problem?
    Current carbon dioxide levels are 383 parts per million (ppm). I 
agree with the estimate that the pre-industrial level was 280 ppm, and 
that atmospheric CO<INF>2</INF> levels were much higher (e.g. 1000 ppm) 
in the geological past. Whether such high CO<INF>2</INF> levels caused 
adverse effects on species depends on several factors, but mainly on 
whether atmospheric CO<INF>2</INF> was rising and if so, how fast.
    Your question is a good one. It is a common point of confusion and 
one that requires a brief explanation in ocean chemistry. Ocean pH, or 
acidity, is determined not only by CO<INF>2</INF> concentration, but 
also by ocean alkalinity. Ocean alkalinity is in simplest terms, the 
concentration of positively charged ions of calcium, potassium, sodium, 
etc., that accumulate in the ocean from the weathering of rocks. An 
increase in ocean alkalinity causes pH to increase, and vice-versa. 
During those geologic periods when CO<INF>2</INF> levels were 
maintained at much higher levels, it is likely that ocean alkalinity 
was also elevated. This is because the rates of weathering (the 
breakdown and dissolution of rocks) would have increased. On land, 
rates of weathering would increase because of 1) a warmer climate, and 
2) elevated atmospheric CO<INF>2</INF> levels would have caused rain to 
be more acidic which would dissolve rocks more quickly. In the ocean, 
increases in ocean acidity cause calcium carbonate sediments in the 
deep sea to dissolve. Both the land and ocean weathering processes 
deliver more alkalinity to the oceans. While CO<INF>2</INF> levels can 
increase rapidly (such as through rapid onset of volcanic activity, a 
rapid release of methane, or fossil-fuel burning), weathering processes 
can increase ocean alkalinity only slowly. Thus, a gradual increase in 
atmospheric CO<INF>2</INF> is matched by an increase in alkalinity, but 
a rapid increase in CO<INF>2</INF> causes an increase in ocean acidity 
(i.e., pH decreases) until weathering brings the system back into 
balance. These balancing feedbacks occur on long timescales (thousands 
of years) and help maintain stable acidity in the ocean.
    Aside from the present, we know of at least one period in Earth 
history when ocean acidification has happened before. Fifty-five 
million years ago, a rapid increase of carbon to the atmosphere was 
accompanied by a rapid decrease in calcium carbonate deposition in the 
oceans. This was accompanied by dramatic dissolution of calcium 
carbonates in the deep ocean, as well as by changes in ocean biota 
(some species apparently went extinct, but the changes in ocean biology 
during this event have not been well examined). After about 50 thousand 
years, ocean pH appeared to have recovered to the levels that had 
occurred before the rapid CO<INF>2</INF> increase.
7.  It is generally agreed upon that modern-day corals first started to 
        appear about 200 million years ago. During the past 200 million 
        years, many large-scale changes have occurred to the earth and 
        its climate--continents have drifted about, sea levels have 
        risen and fallen by several hundreds of feet, ice sheets have 
        come and gone, carbon dioxide levels have fluctuated from below 
        today's levels to as much as 10 times as high as today and the 
        earth's temperatures have fluctuated by 10 or more degrees 
        Fahrenheit--and many of these types have changes have, from 
        time to time, occurred rapidly (for example, sea level and 
        temperature changes at the termination of ice ages). Yet 
        through it all, high acid oceans/low acid oceans, warm oceans/
        cold oceans, high sea levels/low sea levels, corals and coral 
        reefs have persisted--as evidenced by there existence today. 
        They seem rather responsive and adaptive. Is it possible that 
        the reason you find that coral appear to be very sensitive to 
        climate change is that many studies have taken place in the 
        laboratory under carefully controlled conditions that do not 
        well-capture the vast array and complexity of the conditions 
        (including diversity across species as well as genetic 
        diversity within species)?
    It is true that the ancestors of ``modern-day'' corals (taxonomic 
order Scleractinia) did appear around 240 million years ago. There is 
also evidence that skeleton-building in these corals may have waxed and 
waned with fluctuations in seawater chemistry over geologic time 
<SUP>8</SUP>, <SUP>9</SUP>. The study mentioned in Congressman Brown's 
question 3 <SUP>10</SUP> is one example of experimental evidence that 
skeletal formation in corals is sensitive to changes in ocean 
chemistry. This result is consistent across dozens of such experiments, 
and across dozens of species. But we agree that the experiments are 
limited and should be conducted on many more species and under more 
natural conditions. So far, there has been limited funding to do this 
but there is a growing call from the scientific community to conduct 
more such experiments.
---------------------------------------------------------------------------
    \8\ Stanley, GD and DG Fautin (2001) The origins of modern corals, 
Science, 291(5510): 1913-1914.
    \9\ Medina, M, AG Collins, TL Takaoka, JV Kuehl, JL Boore (2006) 
Naked corals: skeleton loss in Scleractinia, Proceedings of the 
National Academy of Sciences. U.S.A., 103: 9096-9100.
    \10\ Fine, M and D Tchernov (2007) Scleractinian coral species 
survive and recover from decalcification. Science, 315: 1811.
---------------------------------------------------------------------------
    The evidence that at least some corals can survive without 
skeletons is good news when considering their potential to survive 
ocean acidification. However, given that their skeletons provide some 
function, these corals will not be functioning within the ecosystem as 
they are in skeletonized form. If we are to assume the corals will 
change their existence to being in anemone-like, then the basis for 
reef ecosystems and reef building will be lost nonetheless (also see 
the response to Congressman Brown's question 3).
    Other lines of evidence--not just laboratory experiments--support 
the hypothesis that skeletal growth in corals as well as reef-building 
will decline as ocean acidification proceeds. The present-day 
distribution patterns of both tropical reefs and cold water corals. 
While tropical corals can and do occur outside the tropics and 
subtropics, they apparently do not produce enough skeletal material to 
build reefs. Cold water corals are related to tropical corals, but 
these also seem restricted to waters above the zone where their 
skeletons would dissolve. Finally, the geologic record illustrates the 
persistence of corals through geologic time but also illustrates that 
corals waxed and waned in concert with changing environmental 
conditions, suffered mass extinctions, and re-evolved. The evolutionary 
history of corals does extend back several hundred thousand years, but 
modern-day corals evolved from a few species that survived the 
Cretaceous-Tertiary mass extinction 65 million years ago. The coral 
record was also interrupted by long intervals (millions of years) where 
corals were few and did not build reefs. Corals did not gain status as 
major reef-builders for several million years after the Cretaceous-
Tertiary mass extinction.
8.  How can you explain the persistence of coral species and coral 
        reefs over the course of the large and sometime rapid climate 
        changes that have occurred over the past 200 million years?
    Please see the response to Congressman Brown's question 7.
    In short, coral species and reefs have waxed and waned over 
geologic time in concert with changes in climate. Indeed, reef 
ecosystems seem to be the first to collapse during a mass extinction 
event and the last to recover <SUP>11</SUP>. Scleractinian corals were 
not the dominant reef builders until the Late Triassic (> 200 million 
years ago), and experienced major extinctions around 100 million years 
ago, and again 65 million years ago. While some species did survive 
these extinction events, reefs did not re-develop for millions of 
years. As stated by Stanley (2001) ``The public may fail to be 
concerned about the predicted reef decline, pointing to the fact that 
throughout their history, reef ecosystems have inevitably recovered. It 
is relevant, however, to be reminded of the magnitude of time. Reef 
eclipse intervals of the Phanerozoic [540 million years ago through the 
present] spanned millions of years, and millions of more years were 
need before reef ecosystems recovered.''
---------------------------------------------------------------------------
    \11\ Stanley, G.D. (ed.) 2001. The History and Sedimentology of 
Ancient Reef Systems, Vol. 17, Topics in Geobiology, Kluwer Academic / 
Plenum Publishers, New York, 458 pp.
---------------------------------------------------------------------------
9.  How did coral manage during the times when atmospheric carbon 
        dioxide concentrations were several times higher than they are 
        today--conditions that existed for many million of years?
    A common misconception is that carbon dioxide concentration is the 
only variable controlling ocean pH, and that when atmospheric carbon 
dioxide concentrations in the past were several times higher than they 
are today, then the ocean pH would have been correspondingly low. As 
explained in the response to a previous question 6, ocean alkalinity is 
also a factor that controls ocean pH. Increased atmospheric 
CO<INF>2</INF> leads to increased weathering rates on land which leads 
to higher alkalinities in the ocean, therefore buffering the effects of 
increased CO<INF>2</INF>. In the ocean, increases in ocean acidity are 
similarly buffered by the dissolution of calcium carbonates in the deep 
ocean. Both of these weathering processes require thousand to millions 
of years. For those periods when atmospheric CO<INF>2</INF> 
concentrations remained much higher than today for millions of years, 
then the carbonate chemistry of the ocean probably maintained pH at a 
constant equilibrium value, or changed slowly enough for organisms to 
adapt.
10.  Are there not scientific studies which suggest that present day 
        corals are far more adaptive to both changes in temperatures 
        (and coral bleaching events) and to changes in ocean 
        acidification then you assume, and that indeed, rising 
        temperatures may in fact lead to faster coral growth? That 
        corals can respond to rising temperatures and resist bleaching 
        by changing their algal relationships? That some corals can 
        also adapt to changing ocean acidification by altering the way 
        that they produce their shells? Isn't it likely, based simply 
        upon the evidence that coral exist today that the real world is 
        far more adaptive and changeable than can be gathered through 
        limited observations and controlled experiments in 
        laboratories?
    As you suggest, there is evidence that skeletal growth in corals is 
also enhanced by increases in temperature. In fact, sclerochronological 
records (analogous to tree rings) from some corals indicate an increase 
in skeletal growth as sea surface temperatures have warmed. However, 
temperature-induced increases in skeletal growth are considered short-
lived for two reasons. First, the calcification rate in a coral is 
highest near the maximum temperature that the particular coral 
experiences. At temperatures lower or higher than this maximum, the 
calcification rate declines. That is, as temperatures approach this 
maximum, the coral calcification rate will increase, but once the 
temperature exceeds that maximum, the rate will decline. Second, 
increasing sea surface temperatures, at least at the current rates of 
increase, cause coral bleaching that is often followed by coral death. 
Calcification rates in bleached corals usually ceases altogether.
    This ``adaptive bleaching hypothesis'' is based on the observation 
that algae that repopulate bleached corals can different from the 
original algae and can be more temperature tolerant. This is believed 
to be a mechanism by which symbiont-bearing corals (most corals on 
tropical reefs) can adapt to environmental change. This has been 
observed in the lab and the field, but it has not been proven as an 
effective adaptation, at least at the current rate of temperature 
increase. The strongest evidence of the limited efficacy of adaptive 
bleaching is the observation that coral bleaching has occurred 
repeatedly in many regions, often within the same coral colonies.
    To my knowledge, there is no evidence that corals can effectively 
adapt to ocean acidification by altering the way that they produce 
their skeletons.
    The evidence that corals survive today is not testament that the 
real world is more adaptive than what laboratory experiments show. The 
environmental changes that corals are experiencing today are much 
greater than they have experienced for hundreds of thousands to 
millions of years.
11.  How do your future ocean acidification scenarios and time lines 
        related to the rates of increasing atmospheric carbon dioxide 
        concentrations compare to the actual observed rates of carbon 
        dioxide concentration increase?
    My main assumption regarding future increases in atmospheric carbon 
dioxide is that carbon dioxide concentrations will reach double the 
preindustrial concentrations by the end of this century. This is well 
within the suite of predictions of atmospheric CO<INF>2</INF> 
concentration assuming the ``business as usual'' scenario as well as 
the suite of SRES scenarios. Even if the growth in atmospheric 
CO<INF>2</INF> is held at 0.5% per year, atmospheric CO<INF>2</INF> 
concentration will reach 560 ppm (i.e., double preindustrial levels) by 
the year 2085.
    Because the surface ocean is in direct contact with the atmosphere, 
and because the concentration of CO<INF>2</INF> in the surface ocean 
takes only about a year to equilibrate with the atmospheric 
concentration, I assume that ocean acidification tracks atmospheric 
CO<INF>2</INF> concentration. I also account for the effect of ocean 
warming on ocean acidification; for example, I assume that the surface 
ocean will be 2'C warmer under doubled preindustrial concentrations.
12.  Is the current distribution of corals and coral reefs more limited 
        by cold water or warm water? If the oceans warm up, won't 
        corals expand their ranges into waters that were previously too 
        cold? Are there any regions of the world's oceans that are too 
        warm for corals? In previous periods during the past 200 
        million years, the most of which was warmer than today, was the 
        range of corals more limited or more expansive than today?
    The current distribution of tropical coral reefs shows that reef 
development is limited to regions that remain above about 18'C year 
round. As ocean temperatures warm, we can expect some corals to expand 
their geographic distribution. There is at least one documented case of 
a coral species expanding its range northward along the Florida coast 
<SUP>12</SUP>. We do not know of any regions that are too warm for 
corals. Corals in the Red Sea, for example, are adapted to temperatures 
warmer than elsewhere. This adaptation to such high temperatures is 
believed to have occurred over evolutionary time scales. But even these 
corals have bleached in recent years when warming exceeded the 
temperatures to which they are adapted. Bleaching can occur anywhere, 
in both the coolest and warmest waters of the tropics, if temperatures 
exceed what the local corals are used to.
---------------------------------------------------------------------------
    \12\ Precht, WF and RB Aronson (2004), Climate flickers and range 
shifts of reef corals. Frontiers in Ecology and the Environment 2:307-
314.
---------------------------------------------------------------------------
    The geographic distribution of scleractinian corals has changed 
over geologic time, probably due to many factors (temperature, 
salinity, the concentrations of calcium and magnesium in seawater, 
competition with other species, etc). For example, corals were the 
dominant reef-builders during the early Cretaceous Period (one of the 
periods thought to have very high CO<INF>2</INF> levels), but gradually 
declined near the mid-Cretaceous, and by the late-Cretaceous appeared 
to have been eliminated from equatorial regions. It is unclear whether 
they were limited more by environmental factors (e.g. temperature, 
nutrients) or by competition with a particular type of bivalve that was 
widespread during the Cretaceous but went extinct along with the 
dinosaurs. Certainly, corals have expanded their ranges during warm 
periods of the past, but because temperature is not the only factor 
that limits corals, it is impossible to generalize the relationship 
between global temperature and coral distribution patterns.
13.  How did corals and coral reefs survive the rapid and large climate 
        changes that have characterized that past 4 or 5 ice ages? What 
        percentage of the world's distribution of coral reefs are 
        located along the U.S. coasts?
    Relative to the predictions of sea level rise for this century, sea 
level changes of the past 4-5 ice ages were far more dramatic, 
including a total sea level rise of some 120 m. Coral reefs managed 
these changes with apparently very little change in their species make-
up <SUP>13</SUP>. Coral reefs have typically thrived during periods of 
sea level rise. One reason is that once a reef reaches the surface, 
water circulation becomes restricted and coral growth is then limited 
to the edges of the reef. The sea level rise predicted for this century 
is not considered an important threat to coral reefs, except in areas 
where reefs grow in close proximity to areas where flooding will result 
in decreased water quality.
---------------------------------------------------------------------------
    \13\ Pandolfi, JM and JBC Jackson (2006) Ecological persistence 
interrupted in Caribbean coral reefs, Ecology Letters, 9(7): 818-826.
---------------------------------------------------------------------------
    Current and predicted rates of temperature change in the tropics, 
however, were much more rapid than those during the ice-age 
fluctuations. During the peak of the last ice age (about 20 thousand 
years ago), sea surface temperatures in the tropics were probably about 
1-4+C colder than today <SUP>14</SUP>. The warming of the tropical 
ocean to near the present-day temperatures occurred over several 
thousand years. The current and predicted rates of ocean warming are 
several 'C over a few decades, which is much faster rate of change than 
occurred during the ice ages. In summary, the absolute change in 
temperature is not as important as the rate of that change. The current 
rate of warming exceeds the rate at which corals and other organisms 
can adapt.
---------------------------------------------------------------------------
    \14\ Barrows, TT and s Juggins (2004) Sea-surface temperatures 
around the Australian margin and Indian Ocean during the Last Glacial 
Maximum, Quaternary Science Reviews 24: 1017-1047.
---------------------------------------------------------------------------
    I believe that around 5% of the world's coral reefs exist in U.S. 
waters.
14.  Aren't there are whole lot of factors that can cause coral reef 
        decline? Factors such as pollution, sedimentation, over 
        fishing, boating and shipping injuries--that are often the case 
        of overdevelopment and poor land use planning and oversight?
    Yes. All of these factors can and do cause coral reef decline. And 
as you state, many of these are due to poor land use planning and 
oversight. This is why many coral reef scientists and managers 
recommend doing more in terms of mitigating these controllable impacts.
    There is little doubt, however, that the current warming trends in 
the ocean are affecting coral reefs, because many reefs that are 
relatively pristine and isolated from the direct impacts listed above 
have experienced coral bleaching. Please see the response to 
Congressman Brown's question 15 for more on this topic.
15.  Oftentimes, the effects of global warming are cast as potentially 
        being the proverbial straw that breaks the camels back when it 
        comes to coral reefs? Do you think that placing restrictions on 
        carbon dioxide emissions in the United States in an effort to 
        modify global climate that in turn may perhaps lighten the load 
        of a camel that is primarily owned and overloaded by other 
        countries is a fair and/or effective strategy? If coral reefs 
        along U.S. coastlines are currently limited because our coastal 
        waters are too cold, then would a slight warm-up be good for 
        attracting coral reefs (and all the benefits that accompany 
        them, as you all outlined fisheries, tourism, etc.) to the U.S. 
        coastal areas?
    Even if other stressors on coral reefs are eliminated, coral 
bleaching and ocean acidification will continue to affect them. Some of 
the world's most pristine reefs have suffered high mortality from coral 
bleaching. This does not mean that we shouldn't reduce the other 
stressors that are mentioned in Question 14, because it appears that 
following significant mortality (either from bleaching, hurricanes, or 
some other acute damage), coral reef recovery is more likely in regions 
without these additional stressors.
16.  You testify that coral reef ecosystems are ``among the most 
        diverse and biologically complex ecosystems on Earth...''. If 
        they are so diverse, is it realistic to assume that a change in 
        water temperature of just one degree will wipe out all coral 
        reefs?
    I agree with the statement that coral reef ecosystems are ``among 
the most diverse and biologically complex ecosystems on Earth...'' I am 
not familiar with the assumption that ``a change in water temperature 
of just one degree will wipe out all coral reefs.'' Based on the 
current rate of bleaching-related coral loss, there is certainly 
evidence that a 1'C change in temperature, at least at the current rate 
of the increase, will adversely impact coral reefs. The temperature 
increase that will cause ``all coral reefs'' to be ``wiped out'' 
depends both the rate of the warming, and the ability and rate at which 
corals can adapt.
17.  There is a lot of discussion about the detrimental effects of warm 
        water on corals, yet corals have survived for millions of 
        years. Are the corals becoming less resistant to water 
        temperature changes? If so, why is this so?
    There is much discussion about the detrimental effects of warm 
water on corals because of the dramatic increase in coral bleaching 
events, almost all of which are linked to increases in temperature. 
Corals have survived millions of years, but as discussed in several 
preceding questions, they have also suffered major extinctions. Corals 
are not becoming less resistant to water temperature changes, and 
indeed, they can adapt to changing temperatures (as evidenced by the 
fossil record). What is killing the corals is the rate of the 
temperature change.
18.  Are some species of corals more resistant to temperature change 
        than others? Are these types of resistant corals likely to move 
        into areas currently populated by less-resistant corals?
    Yes, some species are more tolerant of temperature changes. It is 
possible that some of the more temperature-tolerant corals will grow 
where others have died. It is also possible that non-coral species will 
grow in these areas.
19.  Some researchers have focused on the El Nino Southern Oscillation 
        (ENSO) as a threat to corals. Isn't ENSO a naturally-occurring 
        event that has been documented for decades? If so, why is the 
        threat considered so critical now?
    Yes, ENSO is a naturally-occurring event that has been documented 
for decades and probably for thousands of years (based largely on 
temperature records obtained from coral skeletons). ENSO events are 
considered a major threat to coral reefs now because:
    1)  Climatic changes in temperature, wind patterns, cloud cover, 
circulation patterns, etc., can create conditions that are conducive to 
coral bleaching events. These conditions are further heightened by the 
background increase in sea surface temperature due to the greenhouse 
effect.
    2)  While mass coral bleaching events are increasing in general, 
regardless of whether El Nino conditions exist, coral bleaching during 
ENSO years are more widespread and deadly. During the 1997-1998 ENSO, 
for example, an estimated 16% of the world's coral reefs were 
extensively damaged by bleaching <SUP>15</SUP>.
---------------------------------------------------------------------------
    \15\ Wilkinson, C. 2000. Status of Coral Reefs of the World: 2000. 
Global Coal Reef Monitoring Network and Australian Institute of Marine 
Science, Townsville, Queensland, Australia, 363 pp.
---------------------------------------------------------------------------
    3)  The ENSO events in 1982-83 and 1997-98 had major impacts on 
coral reefs worldwide. These two events were some of the strongest 
events on record. Models show that El Nino events will continue in a 
future warmer climate (i.e. they won't go away), but their future 
amplitudes and frequencies may become much less predictable.
20.  You state that NOAA has climate change time series that go back 
        decades. Are fluctuations and regime shifts common in the ocean 
        environment even in short time series (such as since the 
        1950s)?
    I believe this is a question for Dr. Eakin and NOAA, but I will 
briefly respond. Short time-series are usually not sufficient alone to 
determine whether ``fluctuations and regime shifts'' are common in the 
ocean environment. It depends on what kind of fluctuations one is 
interested in. Some organisms and ecosystems with rapid life cycles can 
undergo very rapid changes in populations, and or experience strong 
fluctuations in response to large-scale climate oscillations that occur 
over decades or less. Other ecosystems, such as coral reefs, are much 
more persistent. Cores taken through coral reefs that go back many 
thousands of years do not show the kinds of changes in coral 
communities as we have seen over the past 2-3 decades. We generally 
rely on many types of data, not simply the last few decades of time-
series data, to determine whether a change in a marine ecosystem is 
natural or not.
21.  Are time series that show only a few decades really useful in 
        determining historical patterns?
    Please see the response to question 20 above. Scientists tend to 
use information across multiple time-scales and multiple resolutions. 
High resolution records kept by humans are possible today, and provide 
valuable information regarding small changes in climate and over small 
spatial scales. We can also obtain records about climate from natural 
recorders of climate, such as ice cores, coral banding, tree rings, and 
sediment cores, to name a few. Reconstructions of climate beyond the 
human-kept record must rely on these natural records, so much effort is 
made to validate them with the human-collected record, and to cross-
validate them with other historical records. No time-series has 
revealed coral reef ecosystem changes comparable to those of the last 
several decades.
22.  Weren't there coral reefs where the Great Lakes now sit? What 
        caused these coral reef populations to die off?
    I believe you are referring to the reef complexes of the Silurian 
(408-438 million years ago) and Devonian (360-408 million years ago) 
Periods. These reefs included some corals that were somewhat related to 
corals we have today, but were still quite different and are now 
extinct. The modern day corals had not yet evolved (see Congressman 
Brown's question 7). The exact reasons for the major extinction at the 
end of the Devonian are not known; global cooling, sea level drop, and 
meteorite impacts have all been suggested as causes.
23.  Because coral reefs are so productive ecosystems, partially 
        because they provide hiding places for other animals, can their 
        functions be created artificially?
    Replacing coral reefs with artificial structures is like replacing 
a rainforest with artificial trees. Yes, some birds may sit in the 
trees (even if there is no food for them), but the services the 
rainforest provides to the functioning on this planet will be lost.
    The ecosystem services provided by coral reefs are often not 
obvious but they are many. Reefs provide not only spatial habitat for 
fish, but nutrition for those fish, cycling of nutrients, buffering of 
seawater chemistry, coastal protection (reefs are much better than man-
made structures), sand production that maintains beaches and supports 
other important habitats such as seagrass beds and mangroves, 
biodiversity (which in turn supports ecosystem stability and holds 
promise for the discovery of many medicinal compounds), etc.
    The term ``artificial reef'' may be misleading in that it implies 
that coral reefs can be created artificially. In short, a structure can 
be artificially created, and at times this can stimulate natural 
colonization of corals and reef growth, but the structure alone does 
not replace the many coral reef functions.
24.  If sea surface temperatures rise, is it likely that some coral 
        reefs will begin moving into deeper water where it is slightly 
        cooler? How deep can corals reside and still make use of 
        sunlight?
    Coral reefs will probably not ``begin moving into deeper waters,'' 
but those that currently exist in deeper waters may be less affected by 
coral bleaching than are shallow water reefs. Coral bleaching tends to 
affect shallow water corals more than deep corals, but this has not 
always been the case.
    The deepest records for light-gathering corals are about 120-140 m; 
these records are from a few individual corals from the clearest waters 
of the Red Sea. Normally, corals are limited to 30 m and less. The 
coral communities of Pulley Ridge off the west coast of Florida occur 
in waters 58 to 75m deep, but it is not clear whether the corals in 
these communities are reproductively viable, nor whether they 
contribute to reef growth or not. Coral reef productivity and reef-
building capacity diminish greatly with depth, because light attenuates 
very rapidly with water depth (even in the clearest ocean water, only 
about 10% of light hitting the surface of the water reaches 90 m 
depth). So for corals that do exist in deeper water, their capacity to 
build coral reefs is low. Also, the types of corals that can persist in 
deeper waters tend to be different species than those in shallow water. 
For example, the most prolific ``reef-building'' coral in the 
Caribbean, the elkhorn coral (Acropora palmata), is restricted to about 
10 m water depth, and so this important species would not be able to 
find refuge in deeper waters.
25.  Do you or have you (or your organization) received any funding 
        from the Pew Charitable Trust or the David and Lucille Packard 
        Foundation? If so, please elaborate.
    I was a co-author on two Pew Climate Change reports:
Kennedy VA, RR Twilley, JA Kleypas, JH Cowan, Jr. and SR Hare (2002) 
        Coastal and Marine Ecosystems and Global Climate Change: 
        Potential Effects on U.S. Resources. Pew Center for Global 
        Climate Change, Arlington, VA. 52pp.
Buddemeier RW, JA Kleypas and R Aronson (2004) Coral Reefs and Global 
        Climate Change. Potential Contributions of Climate Change to 
        Stresses on Coral Reef Ecosystems, Pew Center for Global 
        Climate Change. 42 pp.
    I was contracted through Stratus Consulting in Boulder, Colorado. 
For the first report I received $1800 for my contribution, and for the 
second, I received $3000.
26.  Are you currently a party to any law suit against the Department 
        of the Interior or the Department of Commerce (or any of the 
        agencies within these departments)? If so, please describe.
    No.
QUESTIONS FROM THE HONORABLE WAYNE GILCHREST
1.  If paleo-records show that corals existed in the past under high 
        atmospheric CO<INF>2</INF> concentrations, why is it a problem 
        now?
    Corals have existed in the past under high atmospheric 
CO<INF>2</INF> concentrations. These conditions were warmer than today, 
but were not necessarily more acidic. Corals can and do adapt to warmer 
temperatures. Corals in the Red Sea, for example, can tolerate much 
warmer temperatures than most other corals. Their ability to tolerate 
warmer temperatures was probably acquired over long periods of time, 
say many centuries to millennia. Note, however, that even these 
temperature-tolerant corals experience bleaching when the local 
temperatures exceed the normal maxima. This means that their rate of 
adaptation to increasing temperature is exceeded by the rate of that 
temperature increase. In the past, corals that existed in high 
temperature waters were adapted to those temperatures. When temperature 
changes were too rapid for them to adapt, then they probably died. 
There are several periods in Earth history when corals suffered major 
extinction, indicating that they did not adapt to some environmental 
change.
    Even with much higher atmospheric CO<INF>2</INF> concentrations in 
the past, the oceans may not have been more acidic than they are today. 
A common misconception is that carbon dioxide concentration is the only 
variable controlling ocean pH, and that when atmospheric carbon dioxide 
concentrations in the past were several times higher than they are 
today, then the ocean pH would have been correspondingly low. As 
explained in the response to Congressman Brown's question 6, ocean 
alkalinity is also a factor that controls ocean pH. Increased 
atmospheric CO<INF>2</INF> leads to increased weathering rates on land 
which leads to higher alkalinities in the ocean, therefore buffering 
the effects of increased CO<INF>2</INF>. In the ocean, increases in 
ocean acidity are similarly buffered by the dissolution of calcium 
carbonates in the deep ocean. Both of these weathering processes 
require thousand to millions of years. For those periods when 
atmospheric CO<INF>2</INF> concentrations remained much higher than 
today for millions of years, then the carbonate chemistry of the ocean 
probably maintained pH at a constant equilibrium value, or changed 
slowly enough for organisms to adapt.
2.  Among the various effects of climate change to wildlife and the 
        oceans, are there issues that are more pressing than the 
        others? Why?
    I will answer this from an ocean perspective. In my opinion, the 
two pressing effects of climate change are increasing temperature and 
ocean acidification. Increasing ocean temperature is obviously harming 
coral reefs directly by causing coral bleaching and massive die-offs. 
It is also indirectly affecting them by increasing their vulnerability 
to coral diseases. These are acute stresses on coral reefs. In 
contrast, ocean acidification is a chronic stress that does not kill 
coral directly, but rather changes their ability to function normally 
within a reef system. Both of these are becoming increasingly important 
over time.
    In other marine ecosystems, such as ice-dependent polar systems, 
increasing temperature is obviously a very important threat that 
affects marine organisms in both direct and indirect ways. While the 
effects of ocean acidification on many marine ecosystems are still 
poorly known, we do know that ocean acidification is occurring and will 
continue to occur in lock-step with increases in atmospheric carbon 
dioxide.
3.  In the U.S., as plant and animal species migrate north and to 
        higher elevations, what does that mean for the regions they 
        leave behind? For instance, it has been said that some U.S. 
        states that border Canada might actually benefit from the next 
        few decades of climate change, but what will it mean for the 
        states further to the South, and especially those on the coast?
    In the North American coastal marine environment, some species are 
migrating northward in response to warming temperatures. In some cases, 
there may be a simultaneous elimination of individuals from waters that 
are too warm (a range shift). In other cases some individuals are 
simply moving further away from the normal distribution (a range 
expansion). The main problem with any of these movements, particularly 
when many species are involved, is that normal ecosystem interactions 
are disrupted. This is commonly referred to as a ``pulling apart'' of 
ecosystems. We can expect the natural balances in these ecosystems to 
be upset (changes in predator-prey relationships, mismatches in timing 
of plant/animal interactions, exposure of some ecosystems to new 
species, etc.). Over the last few decades, we have several examples of 
single invasive species causing rather large and surprising changes in 
ecosystems. With climate change, the cumulative effects of multiple 
species moving into new territories, or the loss of multiple species 
from specific areas, will be even more difficult to predict.
4.  How do shifts in habitat range of plants and animals affect human 
        interests such as agriculture or the spread of invasive species 
        and diseases? How can we adaptively plan for such changes?
    As mentioned in the previous question, shifts in the distributions 
of multiple species will both pull the normal species associations 
apart, and force new species to live together. Symbiotic and 
opportunistic relationships between species (e.g., bees pollinating 
flours, birds timing their nesting to coincide with pest outbreaks) and 
seem so natural that we take them for granted. But many of these have 
taken thousands to millions of years to evolve, and there is already 
evidence that climate change is disrupting some of these relationships.
    Adaptive planning for such changes requires close monitoring of 
these systems to detect if and when key ecosystem components will be 
threatened or key species relationships will be disrupted. Farmers and 
fisherman are often the first alarms when their ecosystems are 
experiencing change. Adaptive planning also means having strategies in 
place for dealing with such changes, such as effective means for 
controlling invasive species or diseases. Some of these plans should 
include geographic flexibility as well, to allow organisms to migrate 
with climate change. In coastal systems, the need for some ecosystems 
to migrate inland with sea level rise will conflict with human 
interests to protect property.
5.  The IPCC reports with 80% certainty that the changes in water 
        temperatures, ice cover, salinity and ocean circulation are 
        impacting the ranges and migration patterns of aquatic 
        organisms. How will this affect management and use of these 
        resources, and how can we prepare for any changes?
    This question is closely related to question 4 above, in which you 
mention the use of adaptive management. The best way to prepare for 
these changes is to have flexible management options in place that 
consider a wide range of factors in making decisions. I am not an 
expert on this topic, but there is a growing body of literature on this 
type of ecosystem management.
6.  In the Chesapeake Bay, we are losing marshland to rising sea 
        levels. Can you talk about what is happening to coastal wetland 
        areas in other areas of the country and what that is doing to 
        their ecosystems and the local economies that depend upon these 
        natural resources?
    I refer to my fellow panelists who are knowledgeable about 
marshlands to respond to this question.
7.  What role do marshlands play in sequestering carbon? Is marsh 
        restoration a viable alternative in carbon sequestration?
    Although I have some familiarity with salt marsh ecosystems, I am 
sure that my colleagues will provide a more complete answer to your 
question. However, I refer you to a recent review of wetland resources 
by Sedler and Kercher <SUP>16</SUP>. Wetlands store large amounts of 
carbon, particularly in their soils. Salt marshes and mangroves appear 
to be particularly good at carbon sequestration, because they rapidly 
accumulate C for long periods of time. Marsh restoration therefore 
seems to be a sound carbon sequestration option, particularly because 
it will simultaneously restore so many other ecosystem services that 
marshes provide. Because wetlands have accumulated so much carbon over 
time, their destruction can release large amounts of carbon to the 
atmosphere, so preserving them will prevent this carbon from being 
released to the atmosphere.
---------------------------------------------------------------------------
    \16\ Zedler, JB and S Kercher (2005) Wetland resources: status, 
trends, ecosystem services, and restorability, Annual Review of 
Environmental Resources, 30: 39-74.
---------------------------------------------------------------------------
8.  The latest IPCC report warns that ocean acidification poses a 
        threat to coral reefs and shell-forming organisms that form the 
        base of the aquatic food chain. But the report says more study 
        is needed to determine the full scope of the threat. What do we 
        know about the potential impacts to U.S. coastal ecosystems 
        today and how quickly is our understanding of acidification 
        improving? What can Congress do to improve upon this 
        understanding? Do we know enough to act?
    First, given the high risk of ocean acidification to marine 
organisms, in my opinion we do know enough to justify actions to reduce 
carbon dioxide emissions. The effects documented so far are rarely 
benign and have been far-reaching. We know the most about the effects 
of ocean acidification on coral reefs. Even if corals eventually adapt 
to lower pH (there is no evidence that they do), coral reefs will still 
lose their ability to maintain their structures because lower pH will 
cause them to dissolve faster. This type of ``carbonate budget'' 
problem may affect other benthic ecosystems as well, such as oyster 
banks and mussel beds.
    The body of ocean acidification research has grown slowly, mostly 
because it is a relatively new issue that has taken time to garner the 
necessary support from scientists. Ocean acidification was solidly put 
forth in the mid to late 1990's, but such issues usually take a few 
years to be vetted by the scientific community. Now ocean acidification 
has broad scientific acceptance as a priority issue that warrants much 
more research.
    Congress can certainly speed the process of answering the many 
questions about ocean acidification and its impacts on coastal 
ecosystems by (1) supporting scientific research and observations in 
these areas, (2) supporting the training of the next generation of 
scientists who will take up this research topic, and (3) encouraging 
this research be coordinated across multiple agencies to reduce 
duplication of effort and to take advantage of existing ocean 
observation network and data bases. NSF, NOAA, NASA and the USGS are 
four such agencies that are interested in pursuing observations and 
research that will inform decision makers about the consequences of 
ocean acidification, and what can be done to protect our resources. In 
the short term, there is
9.  What additional resources or tools will the Fish and Wildlife 
        Service and National Marine Fisheries Service need to 
        adequately prepare and address the impacts of global warming on 
        wildlife over the next decade?
    I believe this question is best posed to personnel at the Fish and 
Wildlife Service and the National Marine Fisheries Service.
10.  We've heard a lot about the polar bear and the petition to list 
        the species under the Endangered Species Act (ESA). Opponents 
        of listing claim that the effects of global warming are in fact 
        unclear. What evidence is there that global warming is already 
        having a dramatic effect on the species across its range? How 
        will an ESA listing help polar bears?
    I am sure that some of the other panel members are better informed 
on this issue. From an ecological standpoint, I can say that the 
observed and predicted changes in the Arctic are so dramatic that it 
seems certain that the habitat supporting polar bears is declining both 
spatially and in quality, and will continue to do so.
11.  Are there factors that exacerbate the impacts of climate change on 
        corals and coral reef ecosystems?
    Yes. Because coral reefs live in shallow water and often near 
coastlines, they are subject to a multitude of stresses. These have 
been well documented. Coral reef scientists that were surveyed about 
the various threats to coral reefs in their regions identified 
potentially controllable threats such as: overfishing, coastal 
development, sedimentation, nutrient enrichment, and mangrove 
destruction as major threats, but also identified such issues as the 
lack of laws, law enforcement, and education as major factors impacting 
coral reefs <SUP>17</SUP>. Although climate change effects such as 
coral bleaching can affect even healthy reef systems, the chances of 
recovery after such damage are higher on reefs that are not stressed by 
other factors. A healthy ecosystem is simply more resilient to climate 
change than one that is already stressed.
---------------------------------------------------------------------------
    \17\ Kleypas, JA and CM Eakin (2007) Scientists' perception of 
threats to coral reefs: results of a survey of coral reef researchers, 
Bulletin of Marine Science 80: 419-436.
---------------------------------------------------------------------------
12.  Are there things we can do, in addition to limiting greenhouse gas 
        emissions, in management of these resources that will make them 
        more resilient?
    Yes. Many of our natural ecosystems experience multiple stressors. 
Removing those stresses that we can control lessens the total stress on 
an ecosystem and increases its resilience to the less-controllable 
stresses associated with climate change. Management strategies to 
reduce stresses on our coastal ecosystems will vary considerably from 
region to region, depending on types and severities of the stresses, as 
well as social and economic issues.
                                 ______
                                 
    Ms. Bordallo [presiding]. Thank you very much, Dr. Kleypas.
    The Chairwoman now recognizes Dr. Sharp to testify for five 
minutes.

STATEMENT OF GARY SHARP, Ph.D., SCIENTIFIC DIRECTOR, CENTER FOR 
                 CLIMATE/OCEAN RESOURCES STUDY

    Dr. Sharp. Thank you very much for inviting me. I hope that 
we can answer lots of your questions about different time 
scales, the different places on the planet where things are 
definitely going differently.
    Ms. Bordallo. Sir, would you move up just a little closer 
so we can hear you better? There you go.
    Dr. Sharp. There is a clear record, yes indeed, that global 
warming has occurred. There is no question I think in any 
person who is an empiricist, and I claim to be an empiricist.
    The important thing is the changes since 1860 are those 
only for which we have real numerical measurements, 
observations and that sort of thing, so we have essentially 147 
years of information we can put on a chart someplace and talk 
about degrees Fahrenheit or degrees Centigrade, depending on 
how fuzzy you want to get.
    The bad news is most of those measuring tools even today 
are not calibrated well, they are not intercalibrated well, and 
the technology changes all too frequently making for a very 
messy set of records.
    We do know that the major greenhouse gas by definition on 
our planet is actually a water vapor in the form of clouds and/
or moisture in the atmosphere. We also know that since 1860 we 
have had a very nonlinear set of weather changes all over the 
world, and in fact if you do the averages and find numbers, 
from 1860 until about 1915 not much happened even though we 
were coming out of the Little Ice Age for quite a while.
    Between 1915 and 1945, temperature rose essentially .4 
degrees Centigrade, a little less than half a degree. The 
period between 1945 and 1965 the temperature dropped again. 
Meanwhile, CO<INF>2</INF> is still kind of climbing along so 
there has to be some kind of a little bit of a problem trying 
to relate A to B to Z in that particular case.
    Around 1967 or so we began to see all sorts of changes in 
the coastal oceans, the most productive places in the oceans, 
because the updwelling communities were actually slowing down. 
The recruitment was going down. The animals who lived offshore 
in the warmer water were moving onshore and recolonizing 
coastlines.
    In this case what we are really seeing is in 1976 with the 
intensification of the El Nino frequencies and other things we 
saw general northern hemisphere ocean warming that takes 10 to 
15 years to work its way toward the poles in both directions. 
Every time there is an El Nino you see these long-term 
processes going on.
    We keep seeing the pretty little movies of the thing 
running up and down the coastline, the waves and that sort of 
thing. That is the short-term phenomenon. The long-term 
phenomenon are the waves that bounce off the coastlines and 
finally take eight to 10 years to get into the Bering Sea from 
the warm pool or around the corner into the South Atlantic and 
dissipated around the South Pole.
    Now, those processes are not built into these wonderful 
global climate models. That is a real frustration for those of 
us who are empiricists and have worked in this field for a long 
time.
    The other problem that I have made fairly clear here is 
that the human contribution to all greenhouses gases is less 
than .3 percent, .03 percent. You try to find that on your 
thermometer. It is very, very complicated to try to blame human 
contributions in that sense.
    What we do know is that there is an awful lot of 
information in the sciences that shows that the major phenomena 
caused by people are related to urbanization and land use 
changes, and one of the rules of society is when it warms 
humans swarm. In that same 150 year period, 157 years, we went 
from one billion to 6.7 billion. It took an awful long time to 
get to that one billion, and we lost an awful lot of people 
every time it cooled down.
    I run a continuous, as I say, recording of these things on 
my website. It is called It Is All About Time, and it has a 
chronology essentially of the warming and cooling phenomena for 
the last 4.6 billion years and their consequences in 
population, the human population, and ecological systems.
    When you look at that, warming has never been bad for 
humanity in the same sense that cooling is. Cooling in this 
sense can be a few decades or a major cooling event. Every 
winter we lose more people. Your obituary columns climb like 
crazy starting in November compared to the summer and the heat 
waves and all the rest of the stuff that goes with it. Pay very 
close attention to those little facts.
    The bottom line is I have been working in the international 
community for a long time. The Russian science, other things 
that are going on out there, we have wonderful ways of 
projecting what is going to go on in the marine environments. 
We have very clear records from old, long-time series that this 
has all happened before.
    There is nothing new going on right now, but there is 
definitely a trend that is really difficult to deal with, and 
that is the number of mouths we have to feed for the rest of 
our lives.
    When we think about that, I wrote a book a few years ago 
with some colleagues, a master fisherman and a social 
scientist. It is called Out of Fishermen's Hands. I self-
published it so I wouldn't get in trouble with anybody. It is 
essentially a historical description of how human beings moved 
off into the oceans and around the world and how all of that 
came to pass.
    Our real problem is we cannot manage them because we don't 
have the observing systems left, the monitoring systems left, 
because all that money has been spent on modeling for 
equilibrium theory, and that has been a complete throwaway and 
resulted in disasters in fisheries management.
    Two weeks ago I finished the English editing of the 
translation of the book in Russian by my colleague that I 
backed into in 1998 that actually has forecasts and projections 
for most of the major fisheries in the world and where they are 
going and why they are going that way.
    We have a good, clear record that there is a 60-year cycle 
of coming and going of the major fisheries in the world, all 
around the world, and they have a certain amount of correlation 
or harmony. We are now in a null period. We are coming past the 
warm. We are actually seeing the cooling process happening. 
That is a major management issue, and that is what I have been 
working on for the last 25 or 30 years.
    Thank you.
    [The prepared statement of Dr. Sharp follows:]

         Statement of Gary D. Sharp. PhD, Scientific Director, 
     Center for Climate/Ocean Resources Study, Salinas, California

What do we know about Climate Change, The Future and Humanity?
    We know for certain only two things. The first is a matter of 
history rather more than science: namely, that since about 1860, when 
accurate temperature records were first collected on a comprehensive 
basis, northern hemisphere temperatures have risen by about 0.6+C; and 
that this coincides with a steady growth in the amount of carbon 
dioxide in the atmosphere, a proportion of which is a consequence of 
industrial and other man-made emissions.
    The second is that our planet is kept from being too cold for life 
as we know it to survive by the so-called greenhouse effect, which 
traps some of the heat from the sun's rays. This is overwhelmingly--
somewhere between 75 and 95 per cent--caused by clouds and other forms 
of water vapor; and the carbon dioxide in the atmosphere accounts for 
much of the remainder. But so great is the uncertainty of climate 
science that it is impossible to say--and it is hotly disputed--how 
much of the modest warming that has been experienced since 1860 is due 
to the man-made increase in carbon dioxide.
    We also have some opinions that CO<INF>2</INF> levels and Humanity 
are related----
[GRAPHIC] [TIFF OMITTED] 34670.012

    .epsWhat is poorly recognized is that Global Warming since the 
Little Ice Age period of extreme low temperatures promoted the growth 
of both human population--and CO<INF>2</INF> levels--as will be shown.
    During the period since 1860, for which we have accurate 
temperature records, the picture is complicated. While the amount of 
man-made carbon dioxide in the atmosphere has, since the industrial 
revolution, steadily increased, the corresponding temperature record is 
more cyclical, displaying four distinct phases: 1) Between 1860 and 
1915 there was virtually no change in northern hemisphere temperatures; 
2) between 1915 and 1945 there was a rise of about 0.4+C; 3) Between 
1945 and 1965 the temperature fell by about 0.2+C--and alarmist 
articles by various folks began to appear, warning about the prospect 
of a new ice age; and 4) between 1965 and 2000 there was a further 
increase of about 0.4+C, thus arriving at the overall increase of 0.6+C 
over the 20th century. Although, so far this century, there has been 
nothing to match the high temperature recorded in 1998, it would be 
rash to assume that this latest upward phase has ended. We know, 
however, that CO<INF>2</INF> will continue to rise--as human activities 
and their survival in general are still growing: However, the human 
CO<INF>2</INF> emissions remain a rather small component within the 
Global CO<INF>2</INF> Cycle.
[GRAPHIC] [TIFF OMITTED] 34670.013


    .epsThe IPCC Global Climate Change models assume that the recorded 
warming during the 20th century was entirely caused by man-made 
emissions of greenhouse gases, of which carbon dioxide is clearly the 
most important. This may be true; but equally it may not be. There are, 
for example, climate scientists who believe that the principal cause 
has been land-use changes, in particular urbanization (the so-called 
Urban Heat Island effect--as per Addendum 1--a note by James Goodridge, 
retired California State Climatologist--who has been collating the 
State Observations since the early 1950s), and to some extent forest 
clearance for farming. But much more important is the fact that the 
Earth's climate has always been subject to natural variation, nothing 
to do with man's activities. Again, climate scientists differ about the 
causes of this, although most agree that variations in solar influences 
play a key part.
    What is too often ``buried'' is the fact that water vapor, the 
dominant component of the Earth's heat balance/transfer system, is 
affected by may variables, including the surface wind speed, Equatorial 
Deep Convection processes, linked to the higher latitudes via the 
atmospheric Hadley Circulation and related precipitation cycles, and 
the Earth's rotation--which along with the vast complex of ocean 
circulation dynamics comprise the timetables of Earth's Energy Balance 
System, little or none of which is under any specific control by 
humans, other than at very local scales, e.g. urban/farm environments.
[GRAPHIC] [TIFF OMITTED] 34670.014

    .epsHuman contributions to the Total ``Greenhouse Effectors'' are 
quite small.
[GRAPHIC] [TIFF OMITTED] 34670.015

    .epsTotal Human contribution to Green House effect = 0.278% - not 
very great portion.
    Needless to say, these confusing issues are likely to enhance 
future problems, if not dealt with correctly, and the more appropriate 
empirically based science rather than over-parameterized modeling 
continued. In my own rather complex field of Applied Fisheries 
Oceanography--we have suffered a rather odd parallelism with Climate 
Change Science--as modeling has taken over empirical observation based 
approaches to forecasts--and has resulted in many poor management 
decisions.
    In February 2006, at the ASLO/AGU/CLIOTOP meetings in Hawaii I 
presented a lecture entitled - A Brief History of Applied Fisheries 
Oceanography - Part II - The Role Of CLIOTOP and TOPP in Revitalizing 
Ocean Sciences: In Short: ``Underlying the basic responsibilities of 
resource management are very important questions requiring careful 
study, and long-term monitoring efforts in order to validate and 
upgrade conventional methodologies. While Ecosystem Modeling has become 
an academic field of general interest, the empirical observations 
necessary to build and implement effective models are rarely available, 
creating many examples of unreliable and unverified model results, that 
too often simply do not represent anything of real utility. E.G., 
Models that don't reflect environmental contextual changes, directly, 
such as changes in thermal habitats, related production patterns, and 
direct species responses to well described known forces, other than 
simplistic Top-Down Trophic Energy Transfers, cannot reliably provide 
the needed insights necessary to either explain past changes, or 
project potential future changes. The last half century of poorly 
applied 'equilibrium-based' theories, and collapse of most or all the 
important contextual variables into a single 'parameter'--often held 
constant--has resulted in the chaos that we see everywhere in stock 
assessments, management decisions, and resource collapses. A summary of 
historical efforts to move beyond `context-free' management paradigms 
is provided. These many efforts have undergone several `bloom-and-bust' 
cycles as generational changes in applied theory, and thus funding 
focus have been legislated over the years. The strong recent efforts to 
get back onto the oceans, working with knowledgeable commercial folks, 
and creating new technologies and better data sets from archival tags 
deployed on the various species has revolutionized ecological science, 
in general, but has yet to be integrated into the management 
procedures, or ocean science, in general. This is the future of applied 
fisheries oceanography.''
    In fact, I have been working on trying to resolve this problem by 
working with other on the issues in-situ in the eastern Pacific high 
seas fisheries since 1967, and then expanded westward into the southern 
Pacific, and then globally, since the late 1970s. I worked closely with 
those individuals who had the capabilities to both map observational 
data, and create time series from which insights could be gained. I 
then applied my own experience in working with upper ocean thermal and 
O2 profiles in explanations of changes in animal behavior and the 
changes in vulnerability of a broad array of ocean species to various 
fishing gear types, and helped those in developing regions ``optimize'' 
their yield per unit effort, and minimize both their energy usage, and 
by-catch.
    Eventually, on returning from my international efforts, to the USA 
in 1983--I discovered that our ocean observation programs were amongst 
the most devastated and poorly supported of the many fishing nations I 
had been working with. On the other hand, there were many related 
fields of science, from paleoclimatology to coping with regional 
weather that were well studied, and insights were shared routinely at 
various annual conferences, of which, I discovered the most eclectic 
(and often most irreverent) was the Pacific Climate Conferences held in 
Monterey Bay since 1984--where I was invited in 1986 and showed the 
NOAA archived film of the GOES-E and GOES-W satellite imagery of the 
entire sequence of processes related to the El Nino of 1982-83--
starting with Pacific-wide coverage from January 1981--until march 
1983. My major contribution to this eclectic group was that I ran the 
sequence ``backward'', after asking the audience to chose their 
particular locale of interests--and allowed them to track any features 
that affected these locations back to its source, usually well away 
from the locale--in fact, half a world, and months away from what they 
were interested in.
    I soon found myself working closely with James D Goodridge, retired 
State Climatologist, on the source of the changes observed in the State 
of California, since records began in the later 1800s. Goodridge had 
learned about Anthropogenic Forcing of Urban Temperature Trends in 
California''--from decades of changes he observed, since he started 
this research in the early 1950s--and has been updating those records 
routinely since he retired in 1983. (A brief statement of his in 
addendum 1)
    As we read both the news releases and ``professional Journal'' 
articles about the pending calamities related to Global Warming it is 
too often not made clear that these are merely hypotheses--not more 
than the results of computer calculations based on limited 
understanding of causalities, and modifiers on various time and space 
scales. One example, of many similar issues is the infamous Conveyor 
Belt dialog- which Carl Wunsch, of MIT, made very relevant statements 
about last year:
    Correspondence Nature 428, 601 (2004) - Gulf Stream safe if wind 
blows and Earth turns
    Quote - Sir - Your News story ``Gulf Stream probed for early 
warnings of system failure'' (Nature 427, 769 (2004)) discusses what 
the climate in the south of England would be like ``without the Gulf 
Stream''. Sadly, this phrase has been seen far too often, usually in 
newspapers concerned with the unlikely possibility of a new ice age in 
Britain triggered by the loss of the Gulf Stream.
    European readers should be reassured that the Gulf Stream's 
existence is a consequence of the large-scale wind system over the 
North Atlantic Ocean, and of the nature of fluid motion on a rotating 
planet. The only way to produce an ocean circulation without a Gulf 
Stream is either to turn off the wind system, or to stop the Earth's 
rotation, or both.
    Real questions exist about conceivable changes in the ocean 
circulation and its climate consequences. However, such discussions are 
not helped by hyperbole and alarmism. The occurrence of a climate state 
without the Gulf Stream any time soon--within tens of millions of 
years--has a probability of little more than zero.
    Carl Wunsch - Earth, Atmospheric and Planetary Sciences, 
Massachusetts Institute of Technology, 77 Massachusetts Avenue, 
Cambridge, Massachusetts 02139, USA''
    And then--consider that many of us have been working on these 
issues for a long while, based on the early works of folk such as those 
trying to resolve the changes in marine ecosystems from the Baltic and 
Northeast Atlantic at the end of the 19th Century, E.G.
    The first president of ICES - the International Council for the 
Exploration of the Sea--spent decades researching the relationship 
between weather and fisheries:
    Pettersson, Otto, 1912, The connection between hydrographical and 
meteorological phenomena: Royal Meteorological Society Quarterly 
Journal, v. 38, p. 173-191.
    Pettersson, Otto, 1914a, Climatic variations in historic and 
prehistoric time: Svenska Hydrogr. Biol. Komm., Skriften, No. 5, 26 p.
    Pettersson, Otto, 1914b, On the occurrence of lunar periods in 
solar activity and the climate of the earth (sic). A study in 
geophysics and cosmic physics: Svenska Hydrogr. Biol. Komm., Skriften.
    Pettersson, Otto, 1915, Long periodical (sic) variations of the 
tide-generating force: Conseil Permanente International pour 
l'Exploration de la Mer (Copenhagen), Pub. Circ. No. 65, p. 2-23.
    Pettersson, Otto, 1930, The tidal force. A study in geophysics: 
Geografiska Annaler, v. 18, p. 261-322.
    More recently reviewed by Julia Lajus--a Russian Social Scientist: 
http://www.meteohistory.org/2004polling_preprints/docs/abstracts/
lajus_abstract.pdf
    Influence of weather and climate on fisheries: overview of 
emergence, approval and perception of the idea, 1850 ``1950s. Julia A. 
Lajus St. Petersburg Branch of the Institute for the History of Science 
and Technology, Russian Academy of Sciences, and Centre for 
Environmental and Technological History, European University at St. 
Petersburg
    ``Fishermen have long known that fisheries appear and disappear in 
time. Such events were attributed to changes in fish migration routes, 
harmful growth in numbers of natural predators of fish, and to the 
human impact: overfishing and water pollution (Smith, 1994, pp. 21-34). 
To note that weather, especially the changes in wind direction, could 
influence fisheries, was easier than to suppose that large periods of 
fish abundance could be connected with the fluctuation of climate. For 
example, Karl Ernst von Baer, famous German zoologist, who worked in 
Russia and in addition to many diverse activities was a head of several 
expeditions which surveyed the state of fisheries in 1850-s, explained 
the severe decline of herring fisheries during several years in the 
eastern part of the Baltic Sea by very cold and windy springs occurred 
these years. He supposed that the winds pushed out the spawning herring 
from their usual spawning grounds (Baer, 1860). But at the same time he 
did not apply this kind of argumentation when he discussed the possible 
causes for the cessation of the very prosperous herring fisheries in 
Bohuslan region on the western coast of Sweden in the beginning of the 
19th c. He supposed instead that it was the human-induces pollution due 
to fish oil production. For the first time the climatic explanation for 
the periodicity of these fisheries was suggested by Axel Ljungman in 
Sweden (Ljungman, 1882). He noted that the herring catches varied 
cyclically with a period of the fifty-year sunspot cycle and assumed 
that this relationship might be explained with changes in the weather. 
However, he was not able to propose the mechanism for that connection.
    When the International Council for the Exploration of the Sea 
(ICES) formed its Committees in 1902, they were named according to the 
main problems, which understanding would provide the better knowledge 
of the reasons of fluctuation of catches in fisheries--Migration 
Committee and Overfishing Committee. Hydrographical Committee was 
established in 1905. While the importance of studies of the environment 
for understanding the distribution of marine life was the core idea 
which led to the foundation of the ICES, during several decades the 
interdisciplinarity of research efforts was proposed but not fully 
achieved. According to T.R. Parsons this dichotomy continued through 
the 1960s: fisheries biology concentrated mostly on population 
dynamics, excluding the role of environment in controlling the absolute 
abundance of various fish species (Parsons, 1980). The exception was 
the situation in Russian marine studies where fishery science was 
merged with oceanography several decades earlier, forming the fisheries 
oceanography. Interest to the environmental forces was very much 
pronounced in Russian biology at the expense of the development of 
population modelling.
    While it was ``the struggle to link fish to their ocean 
environment'' within the ICES (Rozwadowski, 2002, pp. 111 -145), to 
link fish with the climate was even more difficult task, as the 
relations between ocean and the atmosphere remained enigmatic. In 1910s 
Johannes Petersen from Denmark and Otto Pettersson from Sweden 
discovered connections between the water temperature in the North 
Atlantic and the position of the air pressure minimum (Icelandic low), 
but the nature of these connections were not obvious (Petersen, 1910, 
Pettersson, 1912).
    However, already the first ten years of studies under ICES umbrella 
had resulted in the discovering of the unexpectedly high variability in 
the ocean. As it was pointed out in the ICES Memorandum in 1923: ``We 
started from the assumption that the hydrographic conditions, as well 
as the fishlife and the plankton of these tributaries of the Atlantic, 
seemingly so well separated both from each others and from the main 
basin of the Ocean by narrow channels and submarine thresholds, would 
remain on the whole stationary, subject only to seasonal influences 
from the atmosphere. Experience has led us to other views. There exists 
an interchange of waters of living marine animals and plants between 
the different parts of the Ocean on a far greater scale than our most 
experienced oceanographers and biologists considered to be possible 
twenty years ago'' (Pettersson, Drechsel, 1923). The notion of far 
greater scale of variation in both physical and biological phenomena 
than it was considered as real or even possible was a main tendency in 
the discovering the environmental forces driving living organisms in 
general. It was especially true for the climate, which was perceived as 
much more stable than it occurred to be. For example, Russian biologist 
and geographer Leo Berg in his book ``Climate and life'' (Berg, 1922) 
compared climate with a species and weather with an individual, arguing 
that weather is very changeable, while climate could changes only very 
slowly. The same was an opinion of Russian oceanographer Nikolai 
Knipowitsch who was the Russian delegate in ICES before the WWI. He 
considered the Gulf Stream system as a stable one and thus was 
extremely surprised when the significant increase of the water 
temperature in the Gulf Stream branches in the Barents Sea was 
discovered in 1921 (Knipowitsch, 1921). In 1926 Otto Pettersson wrote a 
classical paper, in which he demonstrated very clearly the connections 
between catches of herring and winter temperatures in the Kattegat 
channel (Pettersson, 1926, see also Svansson, 1999).
    The significant warming in the North Atlantic which started in the 
1920s and was more pronounced in the 1930s provided many new evidences 
of the influence of climate on fish distribution. The effect was 
especially visible at the north-west--in the Greenlandic waters and at 
the north-east--in the Barents Sea. A.S. Jensen and P. M. Hansen (1931) 
observed the expansion of cod and halibut along the west coast of 
Greenland in comparison with 1908 and the 1920s. The warming of the 
Barents Sea also was accompanied by the large changes in the 
distribution of stocks of commercial fishes. The tremendous amount of 
herring never seen before near the Russian coasts of the Barents Sea 
was observed in 1932-34. Herring was observed even in the mouths of 
large Siberian rivers (Esipov, 1938; Galkin, 1940). In the same years 
cod appeared in the quantities suitable for fisheries at the eastern 
parts of the sea and even near the Novaya Zemlia costs (Esipov, 1935). 
Thus ``warming of the Arctic'', which was noticed firstly by 
climatologists and oceanographers became an important issue for 
biologists. In Russia it was summarized in 1934 by Sergei Averintsev 
(Averintsev, 1934) for the Barents Sea and more generally by Leo Berg 
(1935).
    The perception of the rapid climatic changes and their influences 
on fish resources was rather contradictory. Most of the scientists 
considered this as the random event, others tried to discuss this in 
terms of the periodicity. Both considerations were very unfavorable for 
fishery managers who would like to have in hands the control sticks for 
the ruling of fish stocks while referring to the climatic factors moved 
them far away from this practical task. Contradiction between the 
supporters of the overfishing as a main factor influencing the fish 
stocks and scientists who believed more in the environmental forces was 
appeared very clear in the dispute between W. F. Thompson and Martin 
Burkenroad over the fate of the halibut stock in the Pacific (Smith, 
1994, pp. 267-276).
    The marginal but interesting example came from the Soviet history: 
in 1930s it was a period when managers and authorities opposed the very 
idea of influence of climatic changes upon fish stocks, because it put 
serious limitations to the will of reconstruction of nature by the 
human voluntary. The paper by Averintsev mentioned above became a point 
of severe criticism, because the linkage between the warming of the 
Arctic and the increasing of the catches of herring and cod led to the 
assumption that when the warming will stop or the cooling will start 
(the climate is so uncertain and mysterious thing!) the catches 
undoubtedly will reduce. This pessimistic view was not appropriate for 
the optimistic position of the conquerors of nature and for the planned 
Soviet economy.
    Growing understanding of the importance of climate influence led to 
the organizing of special meeting on this subject in 1948 (ICES, 1948). 
H. W. Ahlmann in his introductory speech pointed out that extent of 
warming of the northern waters which was documented in 1930-1940s was 
part of a global change of larger scale pronounced by increasing of air 
temperature, receding glaciers, decreasing Arctic ice extent and 
thickness. From that time we could trace the formation of the 
interdisciplinary research program intended to the discovering of the 
mechanisms of the influences of climate changes on fish. The 
development of this research program which core was the assumption that 
the climate changes have significant influence on fish and fisheries 
was smoothed by the describing of several important phenomena such as 
the Great Salinity Anomaly, North Atlantic Oscillation and El Nino, 
which were connected with the dynamics of the fish populations 
(Drinkwater, 2000).
    After summarizing book by D. H. Cushing (1982) the notion that 
climate change could influence the fish resources and therefore 
fisheries became a commonplace, but the question is still very 
important and new facts and correlations are discussing by fishery 
scientists in cooperation with climatologists (Cod and Climate Change, 
1994 and many others). The real issue is whether there is a direct 
causal link, or these are merely correlated consequences of larger 
scale processes (Sharp, 2003).
References:
Averintsev S. (1935). O poteplenii Arktiki i sviazannykh s etim 
        iavleniiakh [About the warming of the Arctic and related 
        phenomena] Za rybnuiu industriiu severa, 112: 15-17 (In 
        Russian).
Baer von K. E. (1860). Rybolovstvo v Chudskom i Pskovskom ozerakh i v 
        Baltiiskom more [Fisheries in the Chudskoe and Pskovskoe lakes 
        and in the Baltic Sea]. Issledovaniia rybolovstva v Rossii, 1. 
        St. Petersburg.
Berg L. S. (1922). Klimat i zhizn' [Climate and Life]. Moscow: 
        Gosizdat, 196 pp. (In Russian).
Berg L. S. (1935) Rezente klimaschwankungen und ihr einfluss auf die 
        geographische Verbreitung der Seefische. Zoogeographica 3: 1-
        15.
Cod and Climate Change. A Symposium held in Reykjavik, 23-27 August 
        1993. (1994). ICES Marine Science Symposia, 198. 693 pp.
Cushing D. H. (1982). Climate and Fisheries. London, New York: Academic 
        Press. 373 pp.
Drinkwater K. F. Ocean climate: from regional variability to global 
        change. 100 Years of Science under ICES. A Symposium held in 
        Helsinki 1-4 August 2000. ICES Marine Science Symposia, 215: 
        256-263.
Esipov V. (1935). Treska u Novoi Zemli [Cod near the Novaya Zemlia] Za 
        rybnuiu industriiu severa, 7: 14-15 (In Russian).
Esipov, V. K. (1938). O malopozvonkovykh sel'diakh (Clupea harengus 
        pallasi Val.) Barentseva i Karskogo morei [On low-vertebrate 
        herring (Clupea harengus pallasi Val.]of the Barents and Kara 
        Seas). Trudy PINRO (Proceedings of the Polar Research Institute 
        for Fisheries and Oceanography), 2. (In Russian)
Galkin, G. G. (1940). Malopozvonkovaia sel'd' iz Obskoi guby [Low-
        vertebrate herring from the Ob' Inlet]. Trudy nauchno-
        issledovatel'skogo instituta poliarnogo zemledelia, 
        zhivotnovodstva i promyslovogo khoziaistva (Proceedings of the 
        Research Institute forPolar Agriculture, Stock-Raising and 
        Trade Economy), 10. (In Russian)
ICES. (1949). Contributions to Special Scientific Meetings 1948. 
        Rapports et Proces--Verbaux des Reunions du Conseil 
        International pour l'Exploration de la Mer, 125. 96 pp.
Jensen A.S., and Hansen P. M. (1931). Onvestigations on the Greenlandic 
        cod (Gadus callarias L.) with an introduction on the history of 
        the Greenlandic cod fisheries. Rapports et Proces--Verbaux des 
        Reunions du Conseil International pour l'Exploration de la Mer, 
        72: 1-41.
Knipowitsch N. M. (1921). O termicheskikh usloviiakh Barentseva moria v 
        kontse maia 1921 goda. [About the thermic conditions in the 
        Barents Sea in the end of May 1921]. Biulliuten' Rossiskogo 
        gydrologicheskogo instituta, 9: 10-12.
Ljungman A. (1882). Contribution towards solving the question of the 
        secular periodicity of the great herring fisheries. U.S. Comm. 
        Fish Fisheries 7 (7): 497-503.
Parsons T. R. (1980). The development of biological studies in the 
        ocean environment. Sears Mary and Daniel Merriman, eds. 
        Oceanography: The Past. Proceedings of the Third International 
        Congress on the History of Oceanography, held at Woods Hole, 
        Mass., 22-26 Sept. 1980. New York: Springer-Verlag.
Petersen J. (1910). Unperiodische temperaturabschwankungen in Golfstrom 
        und deren beziehung zu der luftdruckverteilung. Annalen der 
        Hydrographie und Maritimen Meteorologie, 38: 397.
Pettersson O. (1912). The connection between hydrographical and 
        meteorological phenomena. Quarterly Journal of the Royal 
        Meteorological Society, 38: 173-191.
Pettersson O., Drechsel C.F. (1923). Memorandum on An International 
        Expedition for Sea Research. Rapports et Proces-Verbaux des 
        Reunions du Conseil International pour l'Exploration de la Mer, 
        v. 32: 60-70.
Pettersson O. (1926). Hydrography, climate and fisheries in the 
        transition area. Journal du Conseil, 1, 4: 305-321.
Rozwadowski H. (2002). The Sea Knows No Boundaries. A Century of Marine 
        Science under ICES. Seattle&London: ICES in association with 
        Univ. Washington Press. 410 pp.
Sharp G. D. (2003). Future climate change and regional fisheries: a 
        collaborative analysis. FAO Fisheries Technical paper. No 452. 
        Rome, FAO. 75 p.
Smith T. D. (1994). Scaling Fisheries: the science of measuring the 
        effect of fishing, 1855- 1955. Cambridge Univ. Press.
Svansson A. Herring and Hydrography, Otto Pettersson and his ideas of 
        the behaviour of the period herring. Swedish and International 
        fisheries. Papers presented at the conference in Goteborg 1998 
        11-20-22. Ed. by Bertil Andersen. Goteborg: Rapport fran 
        Ekonomisk- Historiska Instittutionen vid Goteborgs Universitet, 
        13: 22-36.''
    Meanwhile, back in 1987 I wrote the following essay:
Averaging the Way to Inadequate Information in a Varying World
    ``At the Benguela 86 Symposium one of the participants decided to 
make a very strange recantation. There was sufficient evidence, in his 
view, to suggest that there was no reason to do the causal research in 
fisheries-related marine ecology, once the conventional average fishery 
information or parameter estimates were available. You could be right 
more often using average expectations in your data than if you used any 
three random variables with combined explanatory capabilities of up to 
75%. He then proceeded to exemplify his conclusions from his analyses.
    This statement came as a surprise--and disappointment--as it came 
from an exceptionally talented mathematical analyst. Perhaps doubly so, 
since among the several dozen other presentations at this symposium 
there were also very memorable contributions that evidenced the value 
of understanding the causal sequences of climatic to, oceanographic, to 
ecological events and patterns, that characterize the dynamic Benguela 
Current Ecosystem, in particular its periodic reversion from one quasi-
stable state to another.
    I suspect that, once stated, such a position will make it more 
difficult to induce such ``enlightened'' folk to recognize the logical 
errors that lead to these wrong conclusions. As Jorge Csirke and I 
concluded after our 1983 review of the Changes in Abundance and 
Species' Composition of Neritic Fish Resources, fisheries stock 
assessment would be in a very different state if the North Sea were 
subject to El Nino events.
    In retrospect, I think that any argument for use of simple averages 
is a strong signal that it is about time for such analysts to be 
removed to the back seat, or somewhere that will minimize data fatigue. 
Recent decades have been the hey day for the near-miss regression/
correlation approach to modeling environmental affects on resources 
populations. There is a subtle philosophical twist attendant to the 
failure of these partial models to forecast ad infinitum the patterns 
of any populations responses to regimes outside the models' basis, of 
reference period.
    There is no reason to expect that the low-level modeling that we 
have accomplished could forecast any but past responses--That is `if' 
the signals were strong enough to make projections from. Yet, we assume 
average responses without querying the potential for any other dominant 
variables to emerge.''
    The most important relevant realization that needs to be made is 
the following:
    THE AVERAGE FISH DIES WITHIN ITS FIRST WEEK OF LIFE!
    And - Where does this leave our mathematician? With a lot of 
surviving, not-so-average fish. In fact the average conditions of the 
ocean will not support most fish life at all. Therefore, there must be 
some alternative way to organize the science if we are ever to reach 
the objective of forecasting even the less subtle aspects of marine 
populations such as relative abundance or distribution. I think that 
the solution is for fisheries researchers to go back to the basic 
questions of elementary biology. What mechanisms do the various 
populations have, and at what developmental stages, that allow them to 
survive local environmental perturbations? What are the conditions to 
which these individuals are adapted, and finally, what perturbs these 
conditions in time and space?
    We should no longer attribute meaning to the word ``average'' in 
the context of any marine population. There should be a sense of the 
basic fitness of individuals on local time and space scales, not of a 
median: or population mean. In the context of marine environments, 
there is neither a mean expectation, nor a sequence of biological 
responses that have proven to be inviolable. Once we throw away our 
averaged or Atlas concepts we can experience dynamic changes, be they 
merely subtle diel processes, lunar responses, onward to greater time 
and energy scales.
    Any given time period as short as man's expected lifetime or less 
may not offer as great a spectrum of perturbations and responses as 
have been experienced by a particular population or ecosystem, 
particularly climate regimes. For example, the general heating trend 
that has been experienced in the eastern Pacific Ocean since the late 
1960's, which culminated with the 1982-83 El Nino, not only returned 
the physical environment to a previous ``normal'' state for the epoch 
that ended some 5,000 years ago, but many species that had somehow 
managed to retain ``footholds'' within the more recent habitat, that 
thrived in the other warmer state, bloomed, and replaced the more 
recent faunas for a short period. Where is the utility of the average 
concept in this context?
    Progress over the last two decades toward an integrated, 
ecologically based fisheries monitoring and management regime has 
resulted from the near kaleidoscopic variability of the marine 
environment in response to usual decadal and epochal scale climate 
variabilities--global and local phenomena that could not be ignored.
    Why has our mathematician given in? In the Benguela Current, 
recorded exploitation patterns of the fisheries have provided only 
short and incomplete information about these cyclic and aperiodic 
processes. The stability of the anchovy production since the collapse 
of the sardine population in that system may be completely artifactual, 
yet it lulls those interested only in the analyses of fisheries 
production into a sense of security which is likely to be short-lived. 
While it is plausible that averages could provide adequate protection 
in a system which experiences only subtle perturbations, I doubt that 
the Benguela or any other Eastern Boundary Current would qualify.
    Fisheries management should be about tesselations; careful analysis 
of not only man's harvests, but also the causal physical-climatic-
oceanic processes, near and remote, that initiate ecological 
perturbations.
    Emanating from this cascade of physical and biological signals are 
the unique experiences of surviving individuals, not the deadly 
averages. For Example: Addendum 2--my article in 1981 ICES Report, 
178:158-160. COLONIZATION IN FISHES--SOME INFERENCES CONCERNING 
REQUIREMENTS AND OPPORTUNISM IN THE SEA ``
    Twenty years later I encountered the works of Leonid Klyashtorin, 
and had him introduced to my colleagues at FAO Fisheries Department in 
Rome. He was invited to come and present his work, and then asked to 
write a Technical Report--for which I was asked to do the final English 
editing for publication, Klyashtorin L.B. 2001.Climate change and long-
term fluctuations of commercial catches: the possibility of 
forecasting. FAO Fisheries Technical Report No.410, 98pp. FAO of the 
United Nations, Rome. which is available online via this link:
    http://www.fao.org/DOCREP/005/Y2787E/y2787e01.htm#TopOfPage
    I followed up on this work, and my collaborations with Joseph 
Fletcher and others, and wrote another technical report - ``Future 
climate change and regional fisheries: a collaborative analysis''--
available from FAO Library via this link:
    <ftp://ftp.fao.org/docrep/fao/006/y5028e/y5028e00.pdf>
    In which you can read my views on the consequences of future 
climate change on regional fisheries around the globe.
    I have just finished editing the English translation of Leonid 
Klyashtorin and Alexey Lyubushin's 2005 Russian language 234 page book 
on ``Cyclic Climate Changes and Fish Productivity''--a long overdue re-
introduction to the means for coping with the comings and goings of 
major fisheries populations. It will be available soon from the VNIRO 
Publisher in Moscow.
    There are far more relevant bits and pieces of historical phenomena 
and observation-based research on library shelves in non-English 
language cultures than has been appreciated by many western 
scientists--and these need to be brought into the light so that western 
science might ``catch up''--and move forward. More observations are 
needed and should receive priority over wasteful modeling ventures ``
    Enough said.

                               Addendum 1

                           On Global Warming
                        A California Perspective
       by jim goodridge--california state climatologist (retired)
                clips from presentations made in 8/2006
    There are two schools of thought on Global Warming. One is based on 
the concept attributed to Richard Feynman ``Shut Up and Calculate''. 
This is the concept was apparently used by Jim Hansen et al of NASA. He 
and others, who would average all the temperature records together, 
praying that the rising trends would average out the declining trends 
and yield a true idea of the actual long term trends. This reflects the 
consensus of the Intergovernmental Panel on Climate Change: that global 
temperatures are increasing due to anthropomorphic causes. In the words 
of Sam Harris ``While consensus among like minds may be the final 
arbiter of truth, it cannot constitute it.''
    Another school of thought is to look at each temperature record 
individually and consider the influences that are acting on each record 
separately. When the trend is strongly upward, the influence of land 
use changes in the area of the measurement station needs to be 
considered.
    About half of California's temperature records are from urban 
areas. They show a strong rising trend. The rural records show a nearly 
flat or no increase. The neutral trend in the rural areas is completely 
overwhelmed by the massive upward increase of the urban temperature 
trend. When the urban and rural records are averaged together the 
grossly distorted urban trends prevail.
    About half of California's temperature records are from urban 
areas. They show a strong rising trend. The rural records show a nearly 
flat or no increase. The neutral trend in the rural areas is completely 
overwhelmed by the massive upward increase of the urban temperature 
trend. When the urban and rural records are averaged together the 
grossly distorted urban trends prevail. There are vast areas with no 
temperature records.
    Needless to say the areas around the urban temperature measuring 
stations have experienced severe land use modifications during the 
period of temperature measurement. This corresponds to the period of 
unprecedented population growth. These land use changes translate to 
increasing amounts of heat storage in pavement and in heated buildings. 
These changes result in large amounts of the recent thermal pollution 
the temperature records with respect to the early part of those same 
records.
    The urban heat island affect was extensively described by Helmut 
Landsberg in his book The Urban Climate. The urban heat island is 
caused by urban waste heat and land use modification. This reflects 
solar heat storage in pavement and concrete for release during the 
night, added to radiation from urban waste heat sources.
    The large increasing mean daily temperatures in urban areas are 
driven by the sharply rising trend in the minimum daily temperatures. 
This is in response to nightly release of heat stored in pavement and 
concrete. Maximum daily temperatures do not reflect the same rising 
trends.
[GRAPHIC] [TIFF OMITTED] 34670.016

    .epsFrom a solar viewpoint the energy output of the sun or ``Solar 
Constant'' has been found to vary directly as the historic sunspot 
numbers. These were at lowest values of the recent millennium during 
the period from 1660 to 1710. This was the time of the Maunder Minimum 
of sunspot activity, with few or no sunspots. This also corresponded to 
the time when England's River Thames froze over. The ice supported a 
series of Ice Fairs mid river, just up stream from London Bridge.
    The period 1300 to 1850 is referred to as the Little Ice Age. It 
was preceded by a warm period when Greenland was colonized over a 
thousand years ago. Earth's temperatures are still recovering from the 
cold times of the Little Ice Age, hence the retreating glaciers.
[GRAPHIC] [TIFF OMITTED] 34670.017

    .epsAnthropomorphic global warming remains one of the ``lies that 
bind'' us to distorted view of a causal mechanism. To follow Feynman's 
suggested ``Shut Up and Calculate'' is to ignore the flaw of averages. 
Anthropomorphic global warming concept was ``formed with inadequate 
evidence and can therefore be rejected with inadequate evidence'' to 
again paraphrase Sam Harris.
    There is a basic dishonesty using the concept of anthropomorphic 
global warming to justify conservation of natural resources. The 
conservation of natural resources is still an important and noble aim. 
The unprecedented numbers of the human population has inflicted an 
unprecedented demand on the natural resources as they are consumed for 
food, fiber, fuel and shelter. This human population explosion is 
inflicting unprecedented havoc on much of the natural area of 
California and of our planet.
    List of State High and Low temperatures:
    http://en.wikipedia.org/wiki/
List_of_all_time_high_and_low_temperatures_by_state
    Theodore Landscheidt (d2006) final (correct) ENSO Prediction for 
2006-2007:
    http://www.john-daly.com/theodor/new-enso.htm
    Website--Its All About Time - A Chronology of Events, Places, 
Ecological and Societal Impacts
    < http://sharpgary.org/>

                               Addendum 2

    Rapp. P.-v. Wen. Cons. int. Explor. Mer, 178:158-160. COLONIZATION 
IN FISHES - SOME INFERENCES CONCERNING REQUIREMENTS AND OPPORTUNISM IN 
THE SEA--Gary D. Sharp, FAO, Fishery Resources and Environment 
Division, Via delle Terme di Caracalla, 00100 Rome, Italy
    Some of the least considered topics in fisheries research have been 
the initial colonizations and range extensions of species. The 
significance of these processes is obvious in proliferation of 
subspecies, and speciation and population cycles in fishes. All aspects 
have been treated, but a full appreciation of the spectrum of 
possibilities has yet to be made. The cosmopolitan species represent 
one extreme situation. A fundamental requirement is that there be a 
high degree of nomadism, with cohesion and sexual parity (similar 
stages of development) in the various nomadic elements (schools or 
shoals). The data providing insight into this process in cosmopolite 
species is the high degree of kinship in genetic sampling of highly 
mobile oceanic species (two species of tunas) (Sharp, 1978). For 
proliferation of the oceanic scale there must also be continuous 
``search and sample'' processes in which the reproductive success rate 
is relatively high. Location of appropriate patches for larval 
development in oceanic species, particularly the cosmopolites, must be 
exemplary of opportunism in the most stringent sense. Many of the 
cosmopolitan species are not very long-lived, and their reproductive 
behaviour is relatively ``cryptic''. Their reproductive behaviour is 
different from the most discussed pelagic groups, the clupeids and 
engraulids, which are typically harvested most intensely during or just 
prior to their reproductive period due to their strong shoaling 
behaviour during this time. Localization of these reproductive 
aggregations is indicative of the tendency for these species to home on 
geographic phenomena which have historically provided them with 
successful conditions for reproduction. These conditions are just 
recently being subjected to vigorous examination required for 
determination of cause and effect relationships (Vlymen, 1977; Beyer 
and Laurence, this volume; Owen, this volume).
    Resident or homing subspecies, races, or behavioural components in 
contrast to nomadic opportunists can be observed on all scales. In the 
California Current system, the anchovy and the sardine before its 
decline have been shown to have at least three geographic racial 
components with significant overlap between any contingent pair of 
genetic units (Vrooman and Smith, 1971). There is extreme racial 
complexity in the less mobile of the tropical tunas (e.g., yellowfin 
tuna in the eastern Pacific Ocean) and ocean scale population 
complexity of the more migratory cosmopolites such as skipjack tuna 
(Sharp, in preparation, Fujino, 1970). There are numerous indications 
of similar processes in the North Atlantic pelagics. Recolonization of 
fishing grounds where commercial quantities of one species or another 
have diminished to nil is exemplified by the Japanese sardine which has 
begun a slow march from its last bastion in the eastern pelagic zone of 
Japan to the Sea of Japan around the southern tip of Japan, nearly back 
to the historic range of distribution during the peak years of its 
exploitation (Kondo, 1978). This long slow march is characteristic of 
fishes with limited nomadic tendencies and exemplifies the relatively 
slow procession of colonization by such species in contrast to the more 
migratory oceanic species and forms.
    The qualities of habitat which determine the population 
distribution are entirely distinct from those which truly determine 
recruitment. The larval habitat clearly has a more complex series of 
constraints, on smaller scales and geometries, than the adult or more 
mobile stages. The limited mobility, small size, and relative 
sensitivity of fish larvae to micro scale parameters places them in 
jeopardy at all stages. The homing species invest considerable energy 
in placing their eggs into the home habitat. If this home habitat has 
shifted or ceased to be appropriate for larval survival there is no 
hope for reproduction. Where the population habitat boundaries shift 
there is generally an effective reduction or increase in the potential 
larval habitat which directly influences reproduction success and 
realization of potential. Where the adult population habitat is 
shrinking one would predict a decrease in realization of reproductive 
potential. Where the adult habitat is expanding, if the adult 
population is not relatively nomadic, there is a tendency to under-
utilize the larval habitat potential, yielding slower population growth 
than one could expect. In non-nomadic species, active transport by 
currents, wind stress field effects, diffusion, and sheer chance 
ultimately determines their rates of increase in both numbers and area.
    Intermediate to these cases are species whose reproduction is not 
localized per se, but tends to be concentrated geographically due to 
the requirements of the larvae, whereas the adults and juveniles may be 
quite diffusely distributed and/or highly migratory, resulting in very 
different distributions at different life stages. In this situation 
species can even arrive at a ``cosmopolitan'' distribution.
    If one concludes that the egg to larval transformation period is 
the greatest potential ``bottleneck'' period for a fish population, 
then one can also conclude that the complexities of the following life 
stages represent an evolutionarily successful egg's way of getting 
itself reproduced and redeposited in an appropriate environment. The 
subtle generation to generation responses to environmental trends and 
anomalies selects for either geographic flexibility, as observed in the 
nomadic opportunists, or numerical swarming as observed in the clupeids 
and engraulids, which is restricted, for success, to areas of relative 
year to year stability. The rise and fall of these localized 
populations is probably more characteristic and dramatic than the year 
to year biomass or number variations in the opportunistic nomadic 
forms. For example Table I shows the relative abundance (catch) 
variations in 25 local or regional pelagic fisheries from the years 
1970 to 1977. All these examples have varied by more than 5 times 
during this period. No oceanic fisheries exhibited this level of 
apparent abundance variation within this period, apart from a few cases 
where political or economic factors other than resource availability 
have affected the total landings (FAO, 1977).
[GRAPHIC] [TIFF OMITTED] 34670.018

    .epsPlus and minus signs in the Table represent directions of 
trends during the reference period. Changes in both directions in the 
order indicated. The indication --+ implies sharp changes in both 
directions, in the order indicated.
    The apparent relative stability of the biomass of the broad ranging 
opportunist populations is due to both contributions of local 
populations and the shared risks taken by the large nomadic portions of 
these populations in coursing over their ranges in search of feeding 
grounds and hospitable spawning habitats. The dependence of local 
populations of oviparous fish on the stability or continuity of local 
processes conducive to larval survival is well recognized. Our ability 
to identify many of the ``critical'' characteristics is developing. 
Until these characteristics are identified and monitored there is 
little hope that it will be possible to logically predict recruitment 
trends.
REFERENCES
Beyer, J., and Laurence, G. C. Aspects of stochasticity in modelling 
        growth and survival of clupeoid fish larvae (this volume).
FAO (Food and Agricultural Organization of the United Nations). (1978) 
        1977 Yearbook of fishery statistics: Catches and landings. Vol. 
        44, Food and Agricultural Organization of the United Nations, 
        Rome, Italy.
Fujino, K. 1970. Immunological and biochemical genetics of tunas. 
        Trans. Am. Fish. Sec. 99(1): 152-178.
Kondo, K. 1978, How has the stock of the Japanese sardine recovered? 
        Biological basis of stock Size fluctuations. ICES Symposium on 
        the biological basis of pelagic fish stock management. 
        Aberdeen, Scotland, 3-7 July 1978.
Owen, R. W. Microscale plankton patchiness in the larval anchovy 
        environment (this volume).
Sharp, G. D. 1978. Behavioral and physiological properties of tuna and 
        their effects on vulnerability of fishing gear, pp. 397 450. In 
        G. D. Sharp and A. E. Dizon (eds.), The physiological ecology 
        of tunas. Academic Press, New York, San Francisco, London.
Sharp, G. D. A population study of some tropical Pacific tunas. In 
        preparation.
Vlymen, W. 3, 1977. A mathematical model of the relationship between 
        larval anchovy (Engraulis mordax) growth, prey 
        microdistribution and larval behaviour. Env. Biol. Fish. 2(3): 
        211-233.
Vrooman, A. M., and Smith, P. E. 1971. Biomass of the subpopulations of 
        northern anchovy, Engraulis mordax Girard. Cal. Coop. Oceanic 
        Fish. Invest. Rep. IS: 49-51.
                                 ______
                                 

            Response to questions submitted for the record 
                           by Dr. Gary Sharp

QUESTIONS FROM THE HONORABLE PATRICK KENNEDY
Regardless of whether or not we take actions to control and reduce 
        green house gas emissions, wildlife and wildlife habitat and 
        the ocean environment are going to change and adapt, often 
        unpredictably, to a warming climate. Consequently, we should 
        take steps now to develop strategies to allow for the future 
        conservation of biodiversity and the maintenance of a healthy 
        and resilient environment.
1.  Keeping in mind that any transition to a new ``Green Economy'' will 
        take decades to achieve and that most Members of Congress will 
        want to limit unnecessary disruptions of social and economic 
        systems, can you be more specific on what practical types of 
        adaptive management strategies we should consider to mitigate 
        the negative effects of climate change on our collective 
        wildlife and ocean resources?
    Step One is all about re-establishing the efforts to develop an 
efficient and clean energy source. This issue has been dragged out of 
the public perspective for decades by selfish individuals and 
laboratory interests, as per the following history:
    The concept of releasing fusion energy by igniting small pellets 
with intense beams of high energy heavy ions (HIF) was declared to have 
no fatal flaws in 1976. Comprehensive delegations from all the relevant 
USA laboratories with heads of laboratories, heads of the appropriate 
research programs, and Nobel Prize winners announced that the ``brand 
X'' laser that had been the object of an intense search for a 
technology that could ``drive'' inertial fusion power plants was in 
fact found in heavy ion beams. The systems to produce the ignition 
beams were feasible based on already demonstrated and understood 
technology. The existing Head of DOE's Office of Inertial Confinement 
Fusion, Dr. C. Martin Stickley, said in his summation address to the 
Workshop on Heavy Ion Beam Fusion, the first of two decades of annual 
workshops, that the prospects for HIF warranted jump-starting the 
program with an initial facility in the $100million range.
    No such funding ever materialized. While the positive facts of the 
technology were immutable, the negative facts of structural 
institutional differences were equally so. The laboratories conducting 
sub-nuclear particle research, and developing the required high energy 
particle accelerator technology, constituted a separate community from 
the laboratories whose historical mission was the development of 
nuclear weapons. HIF challenged the hegemony of the Lawrence Livermore, 
Los Alamos, and Sandia Laboratories over the program to achieve fusion 
energy by repetitive ignition of small fusion explosions.
    While the Argonne and Brookhaven laboratories that had initiated 
HIF worked to define the technology path for the program and conducted 
demonstrations to validate key technological parameters involved in 
applying the technology of proton accelerators to accelerators of heavy 
ions, the DOE dragged its feet, and an untested accelerator concept 
promoted by the Lawrence Berkeley laboratory gained politically 
motivated adherents.
    After three productive, albeit underfunded, years of the HIF 
program, a special committee led by Dr. Lee Teng of Fermilab was 
designated to vet the current accelerator-driver configurations at the 
Fourth Annual HIF Workshop in 1979. Teng's committee found that 
Berkeley's accelerator technology was high risk, as it had only been 
used to accelerate electrons, and noted that the HIF program had been 
systematically underfunded. Never the less, in the closing summation, 
Dr. Burton Richter declared that the Berkeley technology was the way to 
go. Contemporaneously with the 4th Workshop, the Authorization 
Committee in Congress was writing the death knell of the first effort 
at producing fusion energy from HIF. Regarding the DOE's budget for 
inertial fusion research, the Committee wrote ``None of these monies 
shall be used for heavy ion fusion research.''
    A rump program continued with funding from the Office of High 
Energy and Nuclear Programs, but leadership of the program was 
transferred to Livermore and Los Alamos, neither of which had been 
contributing significantly to developing the HIF program plans. 
Livermore would oversee the Berkeley program and Los Alamos would 
oversee the Argonne and Brookhaven programs. The kernel that caused and 
justified the excitement about the HIF program was thrown away: the 
accomplishments of high energy particle accelerators were dismissed and 
the untested Berkeley concept would take the consolation prize funding 
to begin at square zero. Their endeavor would be to re-accomplish with 
a new technological approach what had already been accomplished from 
many decades of stellar accomplishments by the community descended from 
the pre-Manhattan Project founders of the modern physics enterprise. 
After 30 years, the diversion has proved to be the dead-end that was 
foreseen by most at the time.
    The domestic HIF program was shattered, and the international 
community was dumbfounded. Where USA researchers had independent fiscal 
means, they continued to pursue the original HIF approaches, and worked 
with the international community, especially in Europe, until the 
permanence of the USA policy took its toll. Like the originators of the 
overall nuclear energy programs, the founders of HIF have aged and new 
generations are confused about the history of this program. But the 
report of the last effort by the European community in 1997 reiterated 
the consistent validation of the technology, and included the first 
thorough-going assessment of a basic concept added by Argonne in 1978 
to increase the technological margins and reduce the cost.
    Here the program sits. The fact of its feasibility cannot be 
changed. The need for fusion energy is increasingly clear. Unlike the 
concept of magnetically confined fusion, inertial confinement fusion 
offers solutions to the multiple materials problems associated with the 
high energy fusion neutrons. Heavy Ion Fusion capitalizes on all the 
advantages of the inertial confinement approach and the wealth of 
accelerator technologies to present the unimagined prospect for a 
timely solution to the world's energy dilemma. The technologies are 
even more ready now than they were in 1979. Heavy Ion Fusion is capable 
of a man-on-the-moon experience, as announced by President Kennedy: 
``Before this decade is out.'' This endeavor would be 
characteristically American, and once again give to the World a gift 
such as have made the USA the light of the World for the past century. 
This gift of the energy source for all time will be, factually, 
eternal. While the fundamental technologies are shared, USA leadership 
is essential. This is within our reach.
    The premier contact person from which these facts and many contacts 
with the surviving ``bright'' generation of physicists can be further 
developed is Robert J. Burke--who lives in Santa Cruz, CA and e-mail 
address follows: (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="74061e1601061f1134">[email&#160;protected]</a>
earthlink.net)
    The world has waited far too long for the solution to this primary 
issue.
2.  Should we be doing more to re-evaluate our current policies for 
        land use planning and public acquisition of land for wildlife 
        habitat? Should we be adopting a broader landscape and 
        ecosystem-based approach for protecting wildlife?
    There are innumerable criteria that are needed if we are to make 
rational decisions about what lands/habitats that need greater 
protection and basic protection from human activities. These are only 
available/accessible from compilations of the various identified 
species that for whatever reasons warrant concern, and following up by 
learning which plant/animal species groups make up their diet, and 
which habitats provide these--given that all will be affected by 
climate changes on all time scales.
    This all requires more empirical science, and careful ecosystem-
based evaluations of likely scenarios--not mere lat-long block 
modeling, but 3-D real world scales and careful attention to local/
regional historical weather patterns--drought, flooding, seasonality, 
etc. over as long a times series as possible.
    All these issues were taken into account when Dr. Everett and I 
worked out the first NOAA Ecosystem-based Resource Management PDPs--
submitted to Congress in 1988--and shelved as mere ``funding 
enhancement efforts''--and still unacted upon--20 years later. The 
Report is available here: <http://sharpgary.org/EcoSys-BasedFMP.pdf>
    On request, several of the Regional Fisheries Management Councils 
had created their own specific PDPs--all of which were buried upon 
entry of Bush I and his new appointees within NOAA NMFS.
3.  Finally, how might such ideas be applied to the ocean and coastal 
        environment and the wildlife therein?
    There is no question that the ``sensible approach'' would entail 
re-thinking how the nation's natural resources: water resources, 
watersheds, and waterways are managed--as well as how to minimize 
conflicts and delays due to the vast numbers of competitive agencies, 
Environmental organizations and the public interests--not easy tasks. 
For example, today, in Central California--if there is a water quality 
issue--over twenty agency/institutional/public interest groups show 
up--claiming authority -delaying progress by years to decades, if 
anything really happens at all.
    The California Wildlife protection Act has helped move things 
along--but the upland watershed scale issues remain in the quagmire of 
too many agencies etc that claim authority--and too few ``problem 
solvers'' to get things working.
    In the more well managed oceanic regions, organizations have been 
charged with doing the job right--and these work based on unique 
efforts to cope with normal climate variabilities--inter-annual 
perturbations e.g., ENSO Warm/Cold Events, and all the associated 
comings and goings of resources--as well as the issues due to human 
extractions. The Eastern Pacific Tuna Fisheries have been under such 
management since the 1950s, and the western Indian ocean since the 
1980s--both exhibit limited examples of overfishing--although there are 
clear examples of small regions within these large domains in which 
local practices that are not under the jurisdictions of the larger high 
seas management bodies have suffered depletions, etc.
    Along the U.S. Atlantic coastlines and inland waterways--anywhere 
there are large human population there are distinct signs of habitat 
loss, pollution-related aquatic population consequences ranging from 
basic genetic perturbations to oxygen depletion events, and mass 
contamination with by-products from body lotions to birth control 
agents. These have been well described and poorly responded to--despite 
the efforts of NOAA's Milford Connecticut lab's studies of Long Island 
Sound since the 1950s, and multiple agency and institutional research 
along the east U.S. coast--and Chesapeake Bay in particular--for 
decades.
    Along the west Coast, there are several sub-regional issues--
starting with the Southern California Bight--which extends from about 
Point Conception southward into Baja California--a re-circulating 
marine environment that receives the rainwater runoff, industrial and 
sewage by-products from over 20 million people, creating a truly yucky 
environment for all associated marine organisms, and anyone foolish 
enough to catch and eat them. Then there are the ``Events'' that keep 
on happening such as the January 29, 1969, environmental oil-related 
nightmare in Santa Barbara, California--which I happened to fly over on 
my way to San Francisco--well Described here:<http://www.geog.ucsb.edu/
jeff/sb_69oilspill/69oilspill_articles
2.html>
    From Pt. Conception northward into the Monterey-Half Moon Bay 
region--there are far fewer people and industries to have major effects 
on the environment, except for seasonal agricultural run-off--But from 
the north, flowing southward along the coastline from San Francisco Bay 
is a nearly steady stream of human pollutants and nitrogen over-loaded 
run-off that has direct consequences on some of the more coastal 
resources--Again, given California's geological history and the 
``natural'' sources of both mercury and selenium--the question is not 
so much about human issues, but must also consider these and other 
``natural'' potential toxins and their roles within the regional food 
webs.
    California is hardly alone in these issues--but there are far more 
people directly exposed to the potential threats than most locations.
    Despite the well meaning efforts of environmental groups, and their 
campaigns to ``save'' critical habitats such as tidal basins and 
wetlands, their understanding of the roles of wetland bacteria in the 
conversion of metallic mercury into methyl mercury--the real toxin--
that affects all the higher trophic levels, and humans in particular, 
as we tend to prefer carnivorous fishes, that have concentrated these 
toxins... And we suffer.
    As one proceeds northward along the west coast, into Alaska--we 
shift toward woodland environments--and except for the various 
populations associated with major river outlets and harbors--the 
aquatic environments are in reasonably good shape--plus or minus the 
occasional oil spills.
    Alaska's coastlines are exceptional--as there are few really dirty 
or polluting industries, except for the worst cases of Oil pipeline 
leaks and just plain ``disasters'' as on March 24, 1989, the Exxon 
Valdez struck Bligh Reef in Prince William Sound, Alaska spilling 
267,000 barrels of crude oil. The spill posed a severe threat to the 
valuable ecosystem of Prince William Sound and surrounding areas. 
Literally billions of dollars have been spent trying to clean up 
afterward, and monitor the consequences--but...
    Meanwhile, the Hawaiian Islands (and all other sites of naval 
shipyards, present or past) are a morass of wreckage, pollutants and 
contaminated living resources. Given the local dependence upon marine 
resources for food, etc., one wonders how to improve things for future 
generations?
QUESTIONS FROM THE HONORABLE HENRY BROWN, MINORITY RANKING MEMBER
1.  Do you or have you (or your organization) received any funding from 
        the Pew Charitable Trust or the David and Lucille Packard 
        Foundation? If so, please elaborate.
    NO!
2.  Are you currently a party to any law suit against the Department of 
        the Interior or the Department of Commerce (or any of the 
        agencies within these departments)? If so, please describe
    NO!
QUESTIONS FROM THE HONORABLE WAYNE GILCHREST
 1.  If paleo-records show that corals existed in the past under high 
        atmospheric CO<INF>2</INF> concentrations, why is it a problem 
        now?
    The question is of primary concern--and needs to be answered 
carefully, once the missing studies have been accomplished.
    Most of Nature is subject to a phenomenon known as ``HORMESIS''--or 
additive stress syndrome--which simply means that that most any living 
organisms that are subjected to more than one stressor--will exhibit 
distinctly unexpected but common responses--and despite thee not being 
any single ``lethal'' dose--eventually the additive consequences can/
will result in the organism's death.
    THE PHENOMENON WAS BEST STUDIED AND WELL DESCRIBED BY ARD 
STEBBINGS, OF THE UK INSTITUTE FOR MARINE ENVIRONMENTAL RESEARCH (IMER) 
IN PLYMOUTH, ENGLAND. He used a colonial hydroid species as an 
indicator/assay of environmental stressors--in the field, after years 
of laboratory study. The initial response of most organisms to low 
level stressors is an enhanced metabolism, faster growth and early 
maturation--a phenomenon that is well known and taken advantage of by 
egg farms (more eggs, earlier) and most livestock growout 
establishments (faster growth for less feed).
    As I stated at my testimony--much of the coral bleaching observed 
occurs in regions where human effluents and other stressors are well 
documented--if only at sublethal levels--but add a few degrees F--and 
the symbiotic algal zooxanthellae--depart their coraline homes--and 
head for cooler, cleaner environments. The world's most complex reefs 
are found in the warmer regions--such as the Indo-Pacific Warm Pool--
where water temperatures are highest--but are quite limited in that 
when they warm beyond 27.5C, they generate huge Deep Convection water 
vapor columns--ejections of the warmest surface water into the upper 
atmosphere--creating the basis of the Hadley Circulation and general 
poleward transfer of heat energy and precipitation. These cloud cover 
formations reflect incoming IR and solar energy--maintaining a cooler 
upper ocean as the evapo-transpiration caused by the winds below 
continue to cool the upper ocean waters.
 Why are the major coral structures found in these warm oceans?
    All aspects of organismal physiology are accelerated--and for the 
micro-organisms that form coral structures, they are more efficient, 
and responsive. Remember that the majority of Australia's Great Barrier 
Reef is now situated over regions that were well above sea level only 
20 thousand years ago- when humans walked from Asia onto Australian 
terrain. It is also arrayed over many tens of degrees latitude, from 
the equatorial region, southward into the subtropical latitudes--and if 
warming continues, will spread southward with its preferred water 
temperature.
 2.  Among the various effects of climate change to wildlife and the 
        oceans, are there issues that are more pressing than the 
        others?
    Almost all the so-called ``threatened'' terrestrial wildlife are in 
direct competition for resources and habitat with humans, Species such 
as the polar bear and other predators are usually quite well adapted--
and as such, have occupied their extreme environments since the warming 
began that ended the last Ice Age--Their prey are also moving out in 
front--as these changes occur--such that all their lower trophic level 
forage needs are the real source of their presences--in these extreme 
environments.
    There is far more plasticity in these many species' pre-
adaptations--selected over millennia--than we poor humans happen to 
share.
    Removal of options, e.g. limiting access to waterways, shorelines, 
or open ocean access are the major concerns that I see need careful 
consideration, so that options remain that will help sustain all the 
players, not just one or another ``cute'' species.
 Why?
    We tend to over-value human interests--and forget that the majority 
of species that we are concerned with are dependent upon others--their 
supporting ecosystems and options for access.
 3.  In the U.S., as plant and animal species migrate north and to 
        higher elevations, what does that mean for the regions they 
        leave behind? For instance, it has been said that some U.S. 
        states that border Canada might actually benefit from the next 
        few decades of climate change, but what will it mean for the 
        states further to the South, and especially those on the coast?
    The expansion of species ranges northward has been ongoing for over 
20 thousand years, as the last Ice Age ended and glacier coverage 
declined.
    Every thing from migratory birds, fresh water fishes, and their 
predators took advantage of these changes--and what you see is what you 
get.
    Literally thousands of rivers, streams, and ponds, lakes etc., are 
now inhabited--colonized by these well-adapted mobile species. Of 
course, don't forget that the forests and grasslands--even 
tumbleweeds--took advantage of the changes in options, as the ice 
disappeared, the wetlands and waterways emerged--and habitats 
expanded--then we had a few cold epochs--and humans that had also 
recolonized and prospered were back in competition for living space and 
resources--hence the European expansion westward and out onto the 
oceans--see my book, available via my website--``Out of Fishermen's 
Hands...'' for a review of history of all these climate-related human 
issues. Nothing new going on today.
 4.  How do shifts in habitat range of plants and animals affect human 
        interests such as agriculture or the spread of invasive species 
        and diseases?
    All available in history books--as per my note above...
 How can we adaptively plan for such changes?
    Don't assume ``everything will stay the same''--if we do nothing.
    That is the fallacy of the ``Global Warming is Bad'' mob--Humans 
have always been better off during Warm Epochs than Cold epochs--and if 
you pay attention to your local newspaper obituaries--you will note 
that there are far more deaths during the cool months than during the 
warm months--evening Europe over the recent decades.
    Coping strategies should include careful development of more energy 
efficient transportation and power generations, with fewer pollutants--
and toxins--of which CO<INF>2</INF> is not a concern, as it is the 
basis of plant life and all primary production, on land and in the 
seas,
 5.  The IPCC reports with 80% certainty that the changes in water 
        temperatures, ice cover, salinity and ocean circulation are 
        impacting the ranges and migration patterns of aquatic 
        organisms. How will this affect management and use of these 
        resources, and how can we prepare for any changes?
    Yawn! This is a misleading understatement--as all ocean species 
undergo routine and regular responses to the always changing 
environment--on all time and space scales. They have plenty of 
experience, and long-selected preadaptations to these changes--unless 
for one reason or another, their access to supportive habitat has been 
limited or removed, as per dams or filling in of habitat for other 
uses.
 6.  In the Chesapeake Bay, we are losing marshland to rising sea 
        levels. Can you talk about what is happening to coastal wetland 
        areas in other areas of the country and what that is doing to 
        their ecosystems and the local economies that depend upon these 
        natural resources?
    Few if any regions are economically dependent upon their coastal 
wetlands--as these are by definition quite unstable, always dynamic 
environments. For those few locations that are experiencing rapid sea 
level rises--they were already nearing this status over a Century ago--
as the total sea level rise has been about 10 inches per Century for 
Millennia--except in those regions where oil and gas removals and 
related continental subsidence are the main/dominant causes. Natural 
geological subsidence is also common, and yet, sea level rise is steady 
over the recent thousand or more years for the majority of the main 
continents--and will continue until the next Ice Age occurs--some 
millennia away.
    Too many wild speculations about sea level rise are based on very 
unusual locations and their trends.
 7.  What role do marshlands play in sequestering carbon? Is marsh 
        restoration a viable alternative in carbon sequestration?
    Little or none, as these environments do not ``store'' biomass--and 
NO!
 8.  The latest IPCC report warns that ocean acidification poses a 
        threat to coral reefs and shell-forming organisms that form the 
        base of the aquatic food chain. But the report says more study 
        is needed to determine the full scope of the threat. What do we 
        know about the potential impacts to U.S. coastal ecosystems 
        today and how quickly is our understanding of acidification 
        improving? What can Congress do to improve upon this 
        understanding? Do we know enough to act?
    Again, What we know is based upon rather shaky data sets taken over 
the years, that used very different technologies--My main concern based 
on my own experience, is that the instrumental inter-calibrations that 
are necessary for a truly powerful scientific investigation have not 
been adequate to make any realistic statements about the relative 
contributions of anthropogenic CO<INF>2</INF> to pH changes that have 
been posted. A pH change of 0.015 over a decade is simply within the 
noise range of the pH measuring tools--In the Good Olde days--we 
calibrated the instruments aboard ship daily--but each pH meter had 
it's own ``personality'' thus the error range was greater than the 
numbers given above as ``the recently observed changes''.
 9.  What additional resources or tools will the Fish and Wildlife 
        Service and National Marine Fisheries Service need to 
        adequately prepare and address the impacts of global warming on 
        wildlife over the next decade?
    Lots of satellite archival tagging effort, along with in situ 
monitoring and calibration activities, as recently begun within NOAA & 
NASA working with the Census of Marine Life (CoML) Tagging of Pelagic 
Predator(TOPP) projects. Terrestrial projects are ongoing that compare 
well.
    Both environments are being better monitored given these new 
technologies than ever--but the programs ]need to be enhanced globally.
10.  We've heard a lot about the polar bear and the petition to list 
        the species under the Endangered Species Act (ESA). Opponents 
        of listing claim that the effects of global warming are in fact 
        unclear. What evidence is there that global warming is already 
        having a dramatic effect on the species across its range? How 
        will an ESA listing help polar bears?
    This is an ENGO Scam--as the Canadian polar bear experts have 
already pointed out--and they have survived many such warmings over 
their species' history--and warming to a greater extent than today only 
4-6 thousand years ago.
                                 ______
                                 
    Ms. Bordallo. Thank you. Thank you very much, Dr. Sharp.
    The Chairwoman now recognizes Dr. Everett to testify for 
five minutes.

               STATEMENT OF JOHN EVERETT, Ph.D., 
                     OCEAN ASSOCIATES, INC.

    Dr. Everett. Thank you, Madam Chairwoman and Members of the 
committee.
    My written statement presents the results of the work I led 
for the IPCC from 1988 to 2000. This is still the most 
thorough, comprehensive and broadly reviewed work on the oceans 
and fisheries subjects that has been published.
    I led IPCC work on five impact analyses. For fisheries I 
was convening lead author; polar regions, co-chair; oceans, a 
lead author; and oceans and coastal zones, on two reports I was 
co-chair. In 1996, I received the NOAA Administrator's Award 
for accomplishments in assessing the impacts of climate change 
on global oceans and fisheries.
    Since leaving NOAA I have been an IPCC reviewer and have 
talked to many individuals and groups and have maintained these 
subjects on climate change on the U.N. Atlas of the Oceans at 
OceansAtlas.org where I am the chief editor and project 
manager.
    Professionally, I am also president of Ocean Associates, 
Inc., an oceans and fisheries consulting business, and two web-
based businesses. OceansArt.us sells and shares ocean-related 
photos, and TechnologySite.org provides information and photos 
about inventions. Last, I have a website where I try to keep 
track of all the latest information about the soldiers in the 
climate change wars, and that is ClimateChange Facts.info.
    I think it is time for a reality check. The oceans and 
coastal zones have been far warmer and colder than is projected 
in the present scenarios of climate change. Over millennia, 
marine life have endured and responded to CO<INF>2</INF> levels 
well beyond that have been projected and temperature changes 
that put coral reefs and tropical plants closer to the poles or 
had much of our land covered by ice more than a mile thick.
    The memory of these events is built into the genetic 
plasticity of the species on this planet. Biological impacts 
will be determined by this plasticity and the resiliency of 
organisms to find suitable habitats. In the oceans, major 
climate warming and cooling is a fact of life whether it is 
over a few years, as in an El Nino, or over decades as in the 
Pacific Decadal Oscillation or the North Atlantic Oscillation.
    Currents, temperatures, salinity and biology changes 
rapidly to the new state in months or a couple years. These 
changes far exceed those expected with global warming and occur 
much faster. The one degree Fahrenheit rise since about 1860, 
indeed the same as the amount since the year 1000, has brought 
the global average temperature from 56.5 to 57.5 degrees. This 
is at the level of noise in this rapidly changing system.
    Sea level has been rising since the last glaciation lost 
its grip, and temperatures rose by 10 to 20 degrees, a mere 
10,000 years ago. It is only some few thousand years since 
Georges Bank was part of the mainland. It is now 60 miles 
offshore of Provincetown. Its trees and the shells of its 
oysters that flourished on its shores still come up in dredges 
and trawls in now very deep water, with the oysters looking 
like they were just shucked yesterday.
    In the face of all these natural changes and those that we 
are here to consider, some species flourish while other 
diminish. These considerations were well understood in all the 
IPCC groups in which I participated.
    I have some concerns about some few species near the 
margins of their suitable habitat range, such as polar bears, 
but I would much rather have the present warm climate and even 
further warming than the next ice age that would bring 
temperatures much colder than even today.
    The NOAA PaleoClimate Program shows us on their website 
that when the dinosaurs roamed the earth, the earth was much 
warmer. The CO<INF>2</INF> levels were two to four times higher 
than today, and coral reefs were much more expansive. The earth 
was so productive then that we are still using the oil, coal 
and gas it generated.
    More of the warming, if it comes, will be during winters 
and at night and toward the poles. For most life in the oceans, 
warming means faster growth, reduced energy requirements to 
stay warm, lower winter mortalities and wider ranges of 
distribution. Warming is not a big deal and is not a bad thing 
in the oceans.
    No one knows whether the earth is going to keep warming or 
since reaching a peak in 1998 we are at the start of a cooling 
cycle that will last several decades or more. Whichever it is, 
our actions should be prudent.
    Our fishing and maritime industries compete in a world 
market and are vulnerable to government actions to reduce 
CO<INF>2</INF> emissions. We already import most of our 
seafood, and our competitors do not need further advantages. 
Our ocean research should focus on things we need to do and to 
know to wisely manage our resources, our industries and our 
coastal areas no matter which way the wind blows in the years 
to come.
    I also would be pleased to answer questions.
    [The prepared statement of Dr. Everett follows:]

      Statement of Dr. John T. Everett, President and Consultant, 
                         Ocean Associates, Inc.

    Madam Chairwoman and Members of the Committee, thank you for 
inviting me to appear before you today. I am John Everett. I am not 
here to represent any particular organization, company, nor special-
interest group. I have never received any funding to support my climate 
change work other than my NOAA salary, when I was employed there up to 
five years ago, in various positions over a 31-year career. I will 
present the results of the work I led for the Intergovernmental Panel 
on Climate Change from 1988 to 2000, while an employee of NOAA. This is 
still the most thorough, comprehensive, and broadly reviewed work on 
the subjects that has been published. The reports were reviewed by 
hundreds of government and academic scientists as part of the IPCC 
process. My work included five impact analyses: Fisheries (Convening 
Lead Author), Polar Regions (Co-Chair), Oceans (Lead Author), and 
Oceans and Coastal Zones (Co-Chair/2 reports). Since leaving NOAA I 
have kept abreast of the literature, have talked to many individuals 
and groups and have maintained these subjects in the UN Atlas of the 
Oceans, where I am the Chief Editor and Project Manager. While I will 
present the results from IPCC documents I led or helped write, all 
opinions are mine alone, and are at the end.
Background.
    I was assigned the climate change duties when I was the National 
Marine Fisheries Service Division Chief for Fisheries Development in 
the 1970s. The agency was very concerned about the impact of climate 
change on the United States fisheries and fishing industry. Global 
cooling. would be devastating to our fisheries and aquaculture. About 
1987, the momentum shifted to fears of global warming and with my 
background, I was tasked to lead our efforts dealing with it. In 1996 I 
received the NOAA Administrator's Award for ``accomplishments in 
assessing the impacts of climate change on global oceans and 
fisheries.''
    Taking only information from IPCC reports, essentially verbatim, I 
first present a summary, then more detail. The full reports are listed 
in the endnotes and have all the supporting text (about 60 pages) and 
hundreds of citations, which do not appear here.
Summary of Impacts
Fisheries
    <bullet>  Freshwater fisheries and aquaculture at mid to higher 
latitudes should benefit
    <bullet>  Saltwater fisheries should be about the same
    <bullet>  Fishery areas and species mix will shift
    <bullet>  Changes in abundance more likely near ecosystem 
boundaries
    <bullet>  National fisheries will suffer if fishers cannot move 
within and across national borders (Subsistence/small scale fishermen 
suffer most)
    <bullet>  Climate change impacts add to overfishing, lost wetlands 
and nurseries, pollution, UV-B, and natural variation
    <bullet>  Inherent instability in world fisheries will be 
exacerbated by a changing climate
    <bullet>  Globally, economic and food supply impacts should be 
small. In some countries, they could be large
    <bullet>  Overfishing is more important than climate change today; 
the relationship should reverse in 50-100 years (as overfishing is 
controlled)
Oceans
    <bullet>  Temperature changes will cause geographical shifts in 
biota and changes in biodiversity, and in polar regions the extinction 
of some species and proliferation of others.
    <bullet>  A temperature rise in high latitudes should increase the 
duration of the growing period and the productivity of these regions.
    <bullet>  Increased coral bleaching will occur as a result of a 
predicted 2+C increase in average global atmospheric temperature by 
2050.
    <bullet>  The Northwest Passage and Northern Sea Route of Russia 
likely will be opened for routine shipping.
    <bullet>  Sea-level changes will occur with regional variations.
    <bullet>  Changes in coastal pollutants will occur with changes in 
precipitation and runoff.
    <bullet>  Changes in circulation and vertical mixing will influence 
nutrient availability and primary productivity, affecting the 
efficiency of carbon dioxide uptake by the oceans.
    <bullet>  The oceans' uptake and storage capacity for greenhouse 
gases will be affected by changes in nutrient availability resulting 
from other changes in precipitation, runoff, and atmospheric 
deposition.
    <bullet>  Freshwater influx from movements and melting of sea ice 
or ice sheets may lead to a weakening of the global thermohaline 
circulation, causing unpredictable instabilities in the climate system.
    <bullet>  Reduced yields of desirable fish species will occur if 
primary productivity decreases.
    <bullet>  Marine mineral extraction, except for petroleum 
hydrocarbons and the marine pharmaceutical and biotechnological 
industries, is insensitive to global climate change.
Polar Regions
    <bullet>  Major physical, ecological, sociological, and economic 
changes are expected in the Arctic, but much smaller changes are likely 
for the Antarctic.
    <bullet>  Substantial loss of sea ice is expected in the Arctic 
ocean. If there is more open water, there will be a feedback to the 
climate system of northern countries by moderating temperature and 
increasing precipitation.
    <bullet>  Polar warming probably should increase biological 
production, but may lead to different species composition. In the sea, 
marine ecosystems will move poleward. Animals dependent on ice may be 
disadvantaged.
    <bullet>  Human communities in the Arctic will be affected by the 
physical and ecological changes. Effects will be particularly important 
for indigenous peoples leading traditional lifestyles.
    <bullet>  There will be economic benefits and costs. Benefits 
include new opportunities for shipping across the Arctic Ocean, lower 
operational costs for the oil and gas industry, lower heating costs, 
and easier access for tourism. Increased costs can be expected from 
several sources including disruptions caused by thawing of permafrost 
and reduced transportation capabilities across frozen ground and water.
    <bullet>  Sea ice changes in the Arctic have major strategic 
implications for trade and defense.
The Impact of Climate Change.
    The oceans and coastal zones have been far warmer and colder than 
is projected in the present scenarios of climate change. Marine life 
has been in the oceans nearly since when they were formed. During the 
millennia they endured and responded to CO<INF>2</INF> levels well 
beyond anything projected, and temperature changes that put tropical 
plants at the poles or had much of our land covered by ice more than a 
mile thick. The memory of these events is built into the genetic 
plasticity of the species on this planet. IPCC forecasts are for 
warming to occur faster than evolution is considered to occur, so 
impacts will be determined by this plasticity and the resiliency of 
affected organisms to find suitable habitats. In the oceans, major 
climate warming and cooling is a fact of life, whether it is over a few 
years as in an El Nino or over decades as in the Pacific Decadal 
Oscillation or the North Atlantic Oscillation. Currents, temperatures, 
salinity, and biology changes rapidly to the new state in months or a 
couple years. These changes far exceed the changes expected with global 
warming and occur much faster. The one degree F. rise since 1860 is 
virtually noise in this rapidly changing system. Sea level has been 
inexorably rising since the last glaciation lost its grip a mere 10,000 
years ago. It is only some few thousand years since trees grew on 
Georges Bank and oysters flourished on its shores. Their remains still 
come up in dredges and trawls in now deep water, with the oysters 
looking like they were shucked yesterday. In the face of all these 
natural changes, and those we are here to consider, some species 
flourish while others diminish. These considerations were well 
understood in all the IPCC groups in which I participated.
    The following text is taken from IPCC reports that I led. The text 
is left intact, with a very few edits to make complete sentences after 
deletion of portions irrelevant for this Hearing, such as some 
terrestrial impacts in the Arctic. Most background information has been 
deleted, but all these summary statements are fully supported in the 
cited references.
FISHERIES\1\
    Convening Lead Author: John T. Everett, USA. Lead Authors: A. 
Krovnin, Russia; D. Lluch-Belda, Mexico; E. Okemwa, Kenya; H.A. Regier, 
Canada; J.-P. Troadec, France
    Summary. Climate-change effects interact with those of pervasive 
overfishing, diminishing nursery areas, and extensive inshore and 
coastal pollution. Globally, marine fisheries production is expected to 
remain about the same; high-latitude freshwater and aquaculture 
production are likely to increase, assuming that natural climate 
variability and the structure and strength of ocean currents remain 
about the same. The principal impacts will be felt at the national and 
local levels as species mix and centers of production shift. The 
positive effects of climate change--such as longer growing seasons, 
lower natural winter mortality, and faster growth rates in higher 
latitudes--may be offset by negative factors such as changes in 
established reproductive patterns, migration routes, and ecosystem 
relationships.
    <bullet>  Globally, under the IPCC scenarios, saltwater fisheries 
production is hypothesized to be about the same, or significantly 
higher if management deficiencies are corrected. Also, globally, 
freshwater fisheries and aquaculture at mid- to higher latitudes could 
benefit from climate change. These conclusions are dependent on the 
assumption that natural climate variability and the structure and 
strength of wind fields and ocean currents will remain about the same. 
If either changes, there would be significant impacts on the 
distribution of major fish stocks, though not on global production 
(Medium Confidence).
    <bullet>  Even without major change in atmospheric and oceanic 
circulation, local shifts in centers of production and mixes of species 
in marine and fresh waters are expected as ecosystems are displaced 
geographically and changed internally. The relocation of populations 
will depend on properties being present in the changing environments to 
shelter all stages of the life cycle of a species (High Confidence).
    <bullet>  While the complex biological relationships among 
fisheries and other aquatic biota and physiological responses to 
environmental change are not well understood, positive effects such as 
longer growing seasons, lower natural winter mortality, and faster 
growth rates in higher latitudes may be offset by negative factors such 
as a changing climate that alters established reproductive patterns, 
migration routes, and ecosystem relationships (High Confidence).
    <bullet>  Changes in abundance are likely to be more pronounced 
near major ecosystem boundaries. The rate of climate change may prove a 
major determinant of the abundance and distribution of new populations. 
Rapid change due to physical forcing will usually favor production of 
smaller, low-priced, opportunistic species that discharge large numbers 
of eggs over long periods (High Confidence). However, there are no 
compelling data to suggest a confluence of climate-change impacts that 
would affect global production in either direction, particularly 
because relevant fish population processes take place at regional or 
smaller scales for which general circulation models (GCMs) are 
insufficiently reliable.
    <bullet>  Regionally, freshwater gains or losses will depend on 
changes in the amount and timing of precipitation, on temperatures, and 
on species tolerances. For example, increased rainfall during a shorter 
period in winter still could lead to reduced levels in summer in river 
flows, lakes, wetlands, and thus in freshwater fisheries. Marine stocks 
that reproduce in freshwater (e.g., salmon) or require reduced 
estuarine salinities will be similarly affected (High Confidence).
    <bullet>  Where ecosystem dominances are changing, economic values 
can be expected to fall until long-term stability (i.e., at about 
present amounts of variability) is reached (Medium Confidence). 
National fisheries will suffer if institutional mechanisms are not in 
place that enable fishing interests to move within and across national 
boundaries (High Confidence). Subsistence and other small-scale 
fishermen, lacking mobility and alternatives, often are most dependent 
on specific fisheries and will suffer disproportionately from changes 
(Medium Confidence).
    <bullet>  Because natural variability is so great relative to 
global change, and the time horizon on capital replacement (e.g., ships 
and plants) is so short, impacts on fisheries can be easily overstated, 
and there will likely be relatively small economic and food supply 
consequences so long as no major fish stocks collapse (Medium 
Confidence).
    <bullet>  An impact ranking can be constructed. The following items 
will be most sensitive to environmental variables and are listed in 
descending order of sensitivity (Medium Confidence):
      <all>  Freshwater fisheries in small rivers and lakes, in regions 
with larger temperature and precipitation change
      <all>  Fisheries within Exclusive Economic Zones (EEZs), 
particularly where access-regulation mechanisms artificially reduce the 
mobility of fishing groups and fleets and their capacity to adjust to 
fluctuations in stock distribution and abundance
      <all>  Fisheries in large rivers and lakes
      <all>  Fisheries in estuaries, particularly where there are 
species without migration or spawn dispersal paths or in estuaries 
impacted by sea-level rise or decreased river flow
      <all>  High-seas fisheries.
    <bullet>  Adaptation options with large benefits irrespective of 
climate change (Medium Confidence):
      <all>  Design and implement national and international fishery-
management institutions that recognize shifting species ranges, 
accessibility, and abundances and that balance species conservation 
with local needs for economic efficiency and stability
      <all>  Support innovation by research on management systems and 
aquatic ecosystems
      <all>  Expand aquaculture to increase and stabilize seafood 
supplies, help stabilize employment, and carefully augment wild stocks
      <all>  In coastal areas, integrate the management of fisheries 
with other uses of coastal zones
      <all>  Monitor health problems (e.g., red tides, ciguatera, 
cholera) that could increase under climate change and harm fish stocks 
and consumers.
Oceans\2\
    Convening Lead Author: Venugopalan Ittekkot, Germany. Principal 
Lead Authors: Su Jilan, China; E. Miles, USA; Lead Authors: E. Desa, 
India; B.N. Desai, India; J.T. Everett, USA; J.J. Magnuson, USA; A. 
Tsyban, Russian Federation; S. Zuta, Peru
    Summary. Global warming as projected by Working Group I of the IPCC 
will have an effect on sea-surface temperature and sea level. As a 
consequence, it is likely that ice cover and oceanic circulation will 
be affected, and the wave climate will change. The expected changes 
affect global biogeochemical cycles, as well as ecosystem structure and 
functions, on a wide variety of time and space scales; however, there 
is uncertainty as to whether extreme events will change in intensity 
and frequency. We have a high level of confidence that:
    <bullet>  Redistribution of temperatures could cause geographical 
shifts in biota as well as changes in biodiversity, and in polar 
regions the extinction of some species and proliferation of others. A 
rise in mean temperature in high latitudes should increase the duration 
of the growing period and the productivity of these regions if light 
and nutrient conditions remain constant.
    <bullet>  Sea-level changes will occur from thermal expansion and 
melting of ice, with regional variations due to dynamic effects 
resulting from wind and atmospheric pressure patterns, regional ocean 
density differences, and oceanic circulation.
    <bullet>  Changes in the magnitude and temporal pattern of 
pollutant loading in the coastal ocean will occur as a result of 
changes in precipitation and runoff.
    We can say with a lesser degree of confidence that:
    <bullet>  Changes in circulation and vertical mixing will influence 
nutrient availability and primary productivity, thereby affecting the 
efficiency of carbon dioxide uptake by the oceans.
    <bullet>  The oceans' uptake and storage capacity for greenhouse 
gases will be affected further by changes in nutrient availability in 
the ocean resulting from other changes in precipitation, runoff, and 
atmospheric deposition.
    <bullet>  Freshwater influx from the movements and melting of sea 
ice or ice sheets may lead to a weakening of the global thermohaline 
circulation, causing unpredictable instabilities in the climate system.
    The most pervasive effects of global climate change on human uses 
of the oceans will be due to impacts on biotic resources; 
transportation and nonliving resource exploitation will be affected to 
a lesser degree. We can say with a high level of confidence that:
    <bullet>  Increased coral bleaching will occur as a result of a 
predicted 2+C increase in average global atmospheric temperature by 
2050.
    <bullet>  Expanded dredging operations will be necessary to keep 
major ports open in the Northern Hemisphere, which will increase costs.
    <bullet>  The Northwest Passage and Northern Sea Route of Russia 
likely will be opened up for routine shipping.
    <bullet>  Growth in the marine instrumentation industry will occur 
as the need for research and monitoring of climate change increases.
    We can say with a lesser degree of confidence that:
    <bullet>  Reduced yields of desirable fish species will occur if 
average primary productivity decreases.
    <bullet>  If the frequency of tropical storms and hurricanes 
increases, adverse impacts will be generated for offshore oil and gas 
activities and for marine transportation in the tropics.
    <bullet>  Marine mineral extraction, except for petroleum 
hydrocarbons and the marine pharmaceutical and biotechnological 
industries, is insensitive to global climate change.
    Adaptation to the impact of climate change on oceans is limited by 
the nature of these changes, and the scale at which they are likely to 
occur:
    <bullet>  No adaptive responses to coral bleaching, even on a 
regional scale, will be available if average global temperature 
increases 2+C by 2050. However, reductions in land-based pollution of 
the marine environment, combined with reductions in habitat 
degradation/ destruction, would produce benefits for fisheries, 
aquaculture, recreation, and tourism.
    <bullet>  Adaptation options will be available for the offshore 
oil, gas, and shipping industries if the frequency of tropical storms 
and hurricanes increases. The options include improved design standards 
for offshore structures, national and international regulations for 
shipping, and increased technological capabilities to provide early 
warning at sea. Governments also can increase attention to institutions 
for planning and responding to disasters and emergencies.
    <bullet>  Where climate change generates positive effects, market-
driven needs will create their own adaptation dynamic. However, 
adaptation policies will be required to control externalities that are 
market failures. For instance, opening up both the Northwest Passage 
and the Russian Northern Sea Route for up to 100 days a year--while a 
boon to international shipping and consumers in East Asia, North 
America, and Western Europe--will have to be accompanied by policies 
designed to limit the total burden of pollutants entering the Arctic 
environment from ports, ship operations, and accidents.
    A combination of human activities (e.g., overfishing, pollution of 
estuaries and the coastal ocean, and the destruction of habitat, 
especially wetlands and seagrasses) currently exerts a far more 
powerful effect on world marine fisheries than is expected from climate 
change.
    In contrast to model projections, observations over large parts of 
the tropical Atlantic between 1947 and 1986 have shown an increase in 
the trade winds. Bakun suggests that the greenhouse effect will enhance 
the seasonal warming of continents--leading to a decrease in the 
pressure over land, an increase in the land--sea pressure difference, 
and increased alongshore winds. Binet has observed such effects along 
the coast of northwest Africa. It appears likely that the strength of 
both oceanic and coastal upwelling mechanisms could change under 
conditions of global warming, with profound impacts upon fish species 
and their production as well as on the climate of the immediate coastal 
zone.
    Although ENSO is a natural part of the Earth's climate, a major 
question is whether the intensity or frequency of ENSO events might 
change as a result of global warming. Historical and paleorecords 
reveal that ENSO events have changed in frequency and intensity in the 
past on multidecadal to century timescales. It is unclear whether ENSO 
might change with long-term global warming.
    Sea ice covers about 11% of the ocean, depending on the season. It 
affects albedo, salinity, and ocean-atmosphere thermal exchange. The 
latter determines the intensity of convection in the ocean and the 
timescale of deep-ocean processes affecting CO<INF>2</INF> uptake and 
storage.
    Projected changes in climate should produce large reductions in the 
extent, thickness, and duration of sea ice. Major areas that are now 
ice-bound throughout the year are likely to have major periods during 
which waters are open and navigable. Some models even predict an ice-
free Arctic. Melting of snow and glaciers will lead to increased 
freshwater influx, changing the chemistry of those oceanic areas 
affected by the runoff. There is no convincing evidence of changes in 
the extent of global sea ice. Studies on regional changes in the Arctic 
and Antarctic indicate trends of decadal length, often with plausible 
mechanisms proposed for periodicities of a decade or more. Longer data 
sets are needed to test if a genuine long-term trend is developing.
    Winds and waves are the major forcing factors for vertical mixing; 
the degree of mixing depends on the vertical density structure. In the 
past 40 years, there has been an increase in the mean wave height over 
the whole of the North Atlantic, although it is not certain that global 
change is the cause of this phenomenon.
    Metabolic rates, enzyme kinetics, and other biological 
characteristics of aquatic plants and animals are highly dependent on 
external temperatures; for this reason alone, climate change that 
influences water temperature will have significant impacts on the 
ecology and biodiversity of aquatic systems. The capability of some 
species to adapt genetically to global warming will depend on existing 
genetic variation and the rapidity of change. Species remaining in 
suboptimal habitats should at least experience reductions in abundance 
and growth well before conditions become severe enough for extinctions 
to occur. The resilience of an ecosystem to climate change will be 
determined to a large extent by the degree to which it already has been 
impaired by other human activities.
    Coastal ecosystems are especially vulnerable in this context. They 
are being subjected to habitat degradation; excessive nutrient loading, 
resulting in harmful algal blooms; fallout from aerosol contaminants; 
and emergent diseases. Human interventions also have led to losses of 
living marine resources and reductions in biodiversity from biomass 
removals at increasingly lower trophic levels. The effects on 
biodiversity are likely to be much less severe in the open ocean than 
in estuaries and wetlands, where species in shallow, restricted 
impoundments would be affected long before deep-oceanic species.
    The chief biotic effects on individuals of an increase in mean 
water temperature would be increased growth and development rates. If 
surface temperatures were correlated positively with latitude, and 
temperature increased, one would expect a poleward shift of oceanic 
biota. While this may be the general case, there could be important 
regional variations due to shifts in atmospheric and oceanic 
circulation. The resulting changes in predator-prey abundance and 
poleward shifts in species' ranges and migration patterns could, in the 
case of marine fisheries, lead to increased survival of economically 
valuable species and increased yield. Such cases have been observed as 
a result of the large and intense 1983 El Nino.
    In high latitudes, higher mean water temperature could lead to an 
increase in the duration of the growing period and ultimately in 
increased bioproductivity in these regions. On the other hand, the 
probability of nutrient loss resulting from reduced deep-water exchange 
could result in reduced productivity in the long term--again 
highlighting the importance of changes in temperature on patterns of 
circulation. Global warming could have especially strong impacts on the 
regions of oceanic subpolar fronts, where the temperature increase in 
deep water could lead to a substantial redistribution of pelagic and 
benthic communities, including commercially important fish species.
    Most migratory organisms are expected to be able to tolerate 
changes, but the fate of sedentary species will be dependent on local 
climate changes. Some corals would be affected (as in the 1983 and 1987 
bleaching events), but it is expected that other stresses (e.g., 
pollution, sedimentation, or nutrient influx) may remain more important 
factors. Intertidal plants and animals, such as mangroves and 
barnacles, are adapted to withstand high temperature, and unless the 
1.5+C increase affects reproduction, it will have no effect. Similarly, 
only seagrass beds already located in thermal-stress situations (i.e., 
in shallow lagoons or near power plant effluents) are expected to be 
negatively affected by the projected temperature rise. One cannot rule 
out, however, the possibility of significantly greater tropical warming 
than 1.5+C. For example, some investigators argue that tropical warming 
was approximately 5+C from the last glacial maximum to today. If this 
value is correct, current GCMs probably underestimate tropical 
sensitivity.
    Changes in temperature and salinity are expected to alter the 
survivorship of exotic organisms introduced through ballast water in 
ships, especially those species with pelagic larval forms. Introduction 
of exotic species is a form of biological pollution because, from a 
human perspective, they can have adverse impacts on ecosystems into 
which they are introduced and in some cases pose hazards to public 
health. A classic recent example of the spread of an introduced exotic 
species is that of the zebra mussel (Dressena polymorpha), which was 
transported to the Great Lakes via transatlantic shipping from the 
Baltic sea. Changes in temperature could enhance the potential for the 
survival and proliferation of exotic species in environments that are 
presently unfavorable.
    Changes also can be expected in the growth rates of biofouling 
organisms that settle on means of transport, conduits for waste, 
maritime equipment, navigational aids, and almost any other artificial 
structure in the aquatic environment. Their species distributions often 
are limited by thermal and salinity boundaries, which are expected to 
change with regional changes in temperature and precipitation. Areas 
that experience warming and reduced precipitation (i.e., salinity 
increases) likely will have increased problems with biofouling.
    Predicted climate change also may have important impacts on marine 
mammals such as whales, dolphins, and seals, and seabirds such as 
cormorants, penguins, storm petrels, and albatross. However, it is 
presently impossible to predict the magnitude and significance of these 
impacts. The principal effects of climate change on marine mammals and 
seabirds are expected from areal shifts in centers of food production 
and changes in underlying primary productivity due to changes in 
upwelling, loss of ice-edge effects, and ocean temperatures; changes in 
critical habitats such as sea ice (due to climate warming) and nesting 
and rearing beaches (due to sea-level rise); and increases in diseases 
and production of oceanic biotoxins due to warming temperatures and 
shifts in coastal currents.
    Ice plays an important role in the development and sustenance of 
temperate to polar ecosystems because it creates conditions conducive 
to ice-edge primary production, which provides the primary food source 
in polar ecosystems; it supports the activity of organisms that ensure 
energy transfer from primary producers (algae and phytoplankton) to 
higher trophic levels (fish, marine birds, and mammals); and, as a 
consequence, it maintains and supports abundant biological communities.
    One of the possible beneficial consequences of global warming might 
be a reduction in the extent and stability of marine ice, which would 
directly affect the productivity of polar ecosystems. For example, the 
absence of ice over the continental shelf of the Arctic Ocean would 
produce a sharp rise in the productivity of this region, provided that 
a sufficient supply of nutrients is maintained. Changes in water 
temperature and wind regimes as a result of global warming also could 
affect the distribution and characteristics of polynyas (ice-free 
areas), which are vital to polar marine ecosystems. In addition, 
changes in the extent and duration of ice, combined with changes in 
characteristics of currents--for example, the circumpolar current in 
southern latitudes--may affect the distribution, abundance, and 
harvesting of krill. Krill are an important link in the ocean fauna in 
the Southern Ocean. It is important to understand how, when, and where 
productivity in the Southern Ocean will change with global warming.
    A number of marine organisms depend explicitly on ice cover. For 
example, the extent of the polar bear's habitat is determined by the 
maximum seasonal surface area of marine ice in a given year. The 
disappearance of ice would threaten the very survival of the polar 
bear, as well as certain marine seals. Similarly, a reduction in ice 
cover would reduce food supplies for seals and walruses and increase 
their vulnerability to natural predators and human hunters and 
poachers. Other animals, such as the otter, could benefit by moving 
into new territories with reduced ice. Some species of marine mammals 
will be able to take advantage of increases in prey abundance and 
spatial/temporal shifts in prey distribution toward or within their 
primary habitats, whereas some populations of birds and seals will be 
adversely affected by climatic changes if food sources decline or are 
displaced away from regions suitable for breeding or rearing of young.
    Animals that migrate great distances, as do most of the great 
whales and seabirds, are subject to possible disruptions in the 
distribution and timing of their food sources during migration. For 
example, it remains unclear how the contraction of ice cover would 
affect the migration routes of animals (such as whales) that follow the 
ice front. At least some migrating species may respond rapidly to new 
situations.
    While the impacts of these ecological changes are likely to be 
significant, they cannot be reliably forecast or evaluated. Climate 
change may have both positive and negative impacts, even on the same 
species. Positive effects such as extended feeding areas and seasons in 
higher latitudes, more-productive high latitudes, and lower winter 
mortality may be offset by negative factors that alter established 
reproductive patterns, breeding habitat, disease vectors, migration 
routes, and ecosystem relationships.
Polar Regions: Arctic/Antarctica\3\
    Convening Lead Authors: J.T. Everett (USA) and B. Blair Fitzharris 
(New Zealand)
    Lead Author: Barrie Maxwell (Canada)
    Summary. Direct effects could include: ecosystem shifts, sea and 
river ice loss, and permafrost thaw. Indirect effects could include 
positive feedback to the climate system. There will be new challenges 
and opportunities for shipping, the oil industry, fishing, mining and 
tourism, infrastructure, and movement of populations, resulting in more 
interactions and changes in trade and strategic balance. There will be 
winners and losers. As examples, a reduced and thinning ice cover will 
disadvantage polar bears, while sea otters will have new habitats; 
communities on new shipping routes will grow while those built on 
permafrost will have difficulties. Native communities will face 
profound changes impacting on traditional lifestyles.
    <bullet>  Major physical, ecological, sociological, and economic 
changes are expected in the Arctic, but much smaller changes are likely 
for the Antarctic, over the period of this assessment.
    <bullet>  Substantial loss of sea ice is expected in the Arctic 
ocean. If there is more open water, there will be a feedback to the 
climate system of northern countries by moderating temperature and 
increasing precipitation. If warming occurs, there will be considerable 
thawing of permafrost leading to changes in drainage, increased 
slumping and altered landscapes over large areas.
    <bullet>  Polar warming probably should increase biological 
production, but may lead to different species composition. In the sea, 
marine ecosystems will move poleward. Animals dependent on ice may be 
disadvantaged.
    <bullet>  Human communities in the Arctic will be affected by these 
physical and ecological changes. Effects will be particularly important 
for indigenous peoples leading traditional lifestyles.
    <bullet>  There will be economic benefits and costs. Benefits 
include new opportunities for shipping across the Arctic Ocean, lower 
operational costs for the oil and gas industry, lower heating costs, 
and easier access for tourism. Increased costs can be expected from 
several sources including disruptions caused by thawing of permafrost 
and reduced transportation capabilities across frozen ground and water.
    <bullet>  Sea ice changes in the Arctic have major strategic 
implications for trade and defense.
    Marine Ecological Systems. If warming should occur, there will be 
an increase in growth and development rates of non-mammals. In general, 
productivity should rise. Risks include the loss of sea ice cover upon 
which several marine mammals depend for food and protection. Also, 
Arctic shipping, oil exploration and transport, and economic 
development could bring risks to many species.
    <bullet>  Ice. If there is warming, the Arctic could experience a 
thinner and reduced ice cover, including that in Arctic lakes and 
streams. In contrast, the vast Antarctic is so cold that any warming 
within the IPCC scenarios should have little impact except in the Dry 
Valleys and on the Antarctic Peninsula. In fact, ice could accumulate 
through greater snowfall, slowing sea level rise.
    <bullet>  Permafrost. Permafrost underlies as much as 25% of the 
global land surface. Considerable amounts will disappear, causing major 
changes in ecosystem structure and in human impacts.
    <bullet>  Fisheries. Warming could lead to a rise in production, 
unless changes in water properties would disrupt the spawning grounds 
of fish in high latitudes. There could be a substantial redistribution 
of important fish species. Fisheries on the margin of profitability 
could prosper or decline. Fishing seasons will lengthen, but most 
stocks are already fully exploited.
    <bullet>  Navigation and Transport. If sea-ice coverage is reduced, 
coastal and river navigation will increase. Opportunities for water 
transport, tourism, and trade will increase. The Arctic Ocean could 
become a major trade route. Seasonal transport across once frozen land 
and rivers may become difficult or costly. Offshore oil production 
should benefit from less ice.
    <bullet>  Arctic Settlements. If the climate ameliorates, 
conditions will favor the northward spreading of agriculture, forestry, 
and mining, with an expansion of population and settlements. More 
infrastructure such as marine, road, rail, and air links would be 
required. Changes in the distribution and abundance of sea and land 
animals will impact on traditional lifestyles of native communities.
WORLD OCEANS AND COASTAL ZONES\4\
    Co-Chairs: John. Everett USA; Alla Tsyban (Russia); Jim Titus (USA)
World Oceans And Coastal Zones: Ecological Effects\5\
    Co-Chairs: John. Everett USA; Alla Tsyban (Russia); Martha Perdomo 
(Venezuela)
    These two report's findings were incorporated into subsequent 
reports and are included above, with the possible exception that these 
made a stronger case for the impacts of sea level rise. Since the 
projected amount of rise has now been rolled back in the latest 
scientific assessment due to a lack of acceleration in sea level rise, 
these findings are no longer relevant. Some of their adaptation 
recommendations are included below.
Research Needs
    Information is most valuable if there are institutions and 
management mechanisms to use it. Research on improved mechanisms is 
needed so that fisheries can operate more efficiently with global 
warming as well as in the naturally varying climate of today. There is 
relatively little research underway on such mechanisms. Knowledge of 
the reproductive strategies of many species and links between 
recruitment and environment is poor.
    The following items are needed specifically because of climate 
change. Other types of research, which are prerequisites for dealing 
with such concerns but which support the day-to-day needs of fisheries 
managers or relate more to understanding how ecosystems function, are 
not included.
    <bullet>  Determine how fish adapt to natural extreme environmental 
changes, how fishing affects their ability to survive unfavorable 
conditions, and how reproduction strategies and environments are 
linked. Link fishery ecology and regional climate models to enable 
broader projections of climate-change impacts and improve fishery 
management strategies.
    <bullet>  Implement regional and multinational systems to detect 
and monitor climate change and its impacts--building on and integrating 
existing research programs. Fish can be indicators of climate change 
and ecological status and trends. Assemble baseline data now so 
comparisons can be made later.
    <bullet>  Develop ecological models to assess multiple impacts of 
human activities.
    <bullet>  Determine the fisheries most likely to be impacted, and 
develop adaptation strategies.
    <bullet>  Assess the potential leaching of toxic chemicals, 
viruses, and bacteria due to sea-level rise and how they might affect 
both fish and the seafood supply.
    <bullet>  Determine institutional changes needed to deal with a 
changing climate. Such changes are likely the same ones needed for 
mastering overfishing and coping with the variability and uncertainty 
of present conditions. Improved institutions would probably reduce 
stock variability more than climate change would increase it.
    <bullet>  Study the historical ability of societies to adapt their 
activities when their resources are impacted by climate changes.
    <bullet>  Research activities to better understand processes in the 
oceans, in particular the role of the oceans in the natural variability 
of the climate system at seasonal, interannual, and decadal to century 
timescales.
    <bullet>  Long-term monitoring and mapping of: water-level changes, 
ice coverage, and thermal expansion of the oceans; sea-surface 
temperature and surface air temperature; extratropical storms and 
tropical cyclones; changes in upwelling regimes along the coasts of 
California, Peru, and West Africa; UV-B radiation, particularly in 
polar regions, and its impact on aquatic ecosystems; regional effects 
on distribution of species and their sensitivity to environmental 
factors; changes in ocean biogeochemical cycles.
    <bullet>  Socioeconomic research activities to document human 
responses to global change
Adaptation Options
    <bullet>  Establish management institutions that recognize shifting 
distributions, abundances and accessibility, and that balance 
conservation with economic efficiency and stability
    <bullet>  Support innovation by research on management systems and 
aquatic ecosystems
    <bullet>  Expand aquaculture to increase and stabilize seafood 
supplies and employment, and carefully, to augment wild stocks
    <bullet>  Integrate fisheries and CZ management
    <bullet>  Monitor health problems (e.g., red tides, ciguatera, 
cholera)
    <bullet>  Coastal planners and owners of coastal properties and 
infrastructure should carefully consider projected relative sea level 
changes when evaluating new or reconstruction projects.
    <bullet>  Coastal planners and environmental decision-makers should 
consider that a healthy environment is a prerequisite for coral reefs, 
mangroves and sea grasses to keep pace with a rising sea and to 
continue their coastal protection benefits
Understanding Climate Change in Order to Assess Impacts--My View
    My specialty that is relevant to this hearing is in impacts 
assessment, not the science of climate change. However, to determine 
impacts correctly, one must understand the nature of change and its 
likelihood to continue. In the IPCC structure, the science has been led 
by the UK and U.S. scientists, and they used modeling as their primary 
tool, with some paleoclimate analysis coming later. The Impacts 
Assessments were led by the Russians, who had an intense distrust of 
modeling. They viewed paleoclimatology as the most valid tool: if you 
want to know what will happen when CO<INF>2</INF> rises or the 
temperature changes, look at the history of the earth. As an American, 
working with the Russian teams, I was often caught in the middle of 
both camps. I learned to listen to both views, and continue to do so. 
In particular, we learned to distrust any science literature or impacts 
assessment that did not consider all data available, whether modeling, 
the instrumented record back into the 1800s and/or the paleo and 
historical temperature reconstructions. If the data are truncated, 
there is likely an agenda.
    In this light I view with grave concern the two latest IPCC Summary 
for Policy Makers which use truncated data in text and graphics to 
misrepresent the amount of warming, causing undue alarm. For example, 
from the most recent SPM, ``The Working Group I Fourth Assessment 
concluded that most of the observed increase in the globally averaged 
temperature since the mid-20th century is very likely due to the 
observed increase in anthropogenic greenhouse gas concentrations... '' 
This is a red flag. It begs the question of why the restriction ``since 
the mid-20th century''. What is wrong with the full data set back into 
the 1800s? Is it restricted to ``mid-20th century'' because it is too 
difficult to explain the prior decades of falling temperatures in the 
face of rising CO<INF>2</INF>? This demonstration (and there are many 
others) is typical of what has led many disagreeing scientists to not 
be invited to IPCC anymore, and others to lose interest. Over 20 years 
the core IPCC-participating scientists have become more homogeneous. 
The consensus has become stronger as dissenting scientists have moved 
to become the ``other consensus'', usually called climate skeptics.
    The source of the warming or cooling is of little importance to an 
impacts assessment, except where it provides a clue as to future 
trends. Most people agree that there has been a warming of 1 degree 
Fahrenheit in the instrumental record of 150 years. Those in the 
``IPCC-oriented consensus'' believe it is due to mankind's increased 
CO<INF>2</INF> and other gas emissions; therefore temperatures are 
likely to rise as more humans inhabit the earth and economies grow. 
This is important information to a specialist in assessments. Also 
important, though, is staying in touch with other views. Scientists in 
the ``other consensus'' believe that, even if the 1 degree change is 
accurate (and is not just ``noise''), the CO<INF>2</INF> rise can, at 
most, explain a piece of the temperature rise. Many believe that 
increased water vapor, solar variations in radiation and magnetic flux, 
our relative position in the solar system, the tilt of our planet's 
axis, the clearing of our atmosphere of pollutants which allows more 
sunlight to reach the ground, or our position in the Milky Way galaxy 
that affects the amount of radiation reaching our atmosphere and 
affecting cloud formation, are also important and are not (and cannot 
be yet) adequately considered in the computer models used by the IPCC 
consensus. Many believe CO<INF>2</INF> may not be the culprit.
Concluding Remarks
    Personally, I do not know whether the earth is going to continue to 
warm, or that having reached a peak in 1998, we are at the start of a 
cooling cycle that will last several decades or more. Whichever it is, 
our actions should be prudent. Our fishing industry, maritime industry 
and other users of the ocean environment compete in a world market and 
are vulnerable in many ways to possible governmental actions to reduce 
CO<INF>2</INF> emissions. We already import most of our seafood and 
many of the nations with which we compete do not need further 
advantages. Our research should focus on those ecosystem linkages we 
need to understand in order to wisely manage our fisheries, and this 
includes the ability to incorporate natural climate variability along 
with long term changes. Institutionally, we should work with our 
neighbors to pre-determine what should happen when one of our major 
fish stocks ignores the international boundary. Lastly, I would like to 
draw the Committee's attention to the testimony of Dr. Steven Murawski, 
of NMFS, at a hearing on Projected and Past Effects of Climate Change: 
a Focus on Marine and Terrestrial Ecosystems before the Senate 
Committee on Commerce, Science and Transportation, Subcommittee on 
Global Climate Change and Impacts, on April 26, 2006. I think it is 
well done, although I would quibble with some minor points..
References:
    1.  Everett, J.T., E. Okemwa, H.A. Regier, J.P. Troadec, A. 
Krovnin, and D. Lluch-Belda, 1995: Fisheries. In: The IPCC Second 
Assessment Report, Volume 2: Scientific-Technical Analyses of Impacts, 
Adaptations, and Mitigation of Climate Change (Watson, R.T., M.C. 
Zinyowera, and R.H. Moss (eds.)]. Cambridge University Press, Cambridge 
and New York, 31 pp
    2.  Ittekkot, V., Su Jilan, E. Miles, E. Desa, B.N. Desai, J.T. 
Everett, J.J. Magnuson, A. Tsyban, and S. Zuta, 1995: Oceans. In: IPCC 
Second Assess. Report, Volume 2: Scientific-Technical Analyses of 
Impacts, Adaptations, and Mitigation of Climate Change (Watson, R.T., 
M.C. Zinyowera, and R.H. Moss (eds.)]. Cambridge Univ. Press, Cambridge 
and New York, 20 pp
    3.  Everett, J.T. and B.B. Fitzharris, 1998: Polar Regions: Arctic/
Antarctica. In: The Intergovernmental Panel on Climate Change (IPCC) 
Special Report on Regional Impacts of Climate Change [Watson, R.T., 
M.C. Zinyowera, and R.H. Moss (eds.)]. Cambridge Univ. Press, Cambridge 
and New York.
    4.  Everett, J.T., E. Okemwa, H.A. Regier, J.P. Troadec, A. 
Krovnin, and D. Lluch-Belda, 1995: Fisheries. In: The IPCC Second 
Assessment Report, Volume 2: Scientific-Technical Analyses of Impacts, 
Adaptations, and Mitigation of Climate Change (Watson, R.T., M.C. 
Zinyowera, and R.H. Moss (eds.)]. Cambridge University Press, Cambridge 
and New York, 31 pp
    5.  Everett, J.T., A. Tsyban and M. Perdomo. 1992. Climate Change: 
World Oceans and Coastal Zones: Ecological Effects. In IPCC 
(Intergovernmental Panel on Climate Change),. Climate Change, The IPCC 
Impacts Assessment, Australian Government Publishing Service, 268 pp.
                                 ______
                                 

            Response to questions submitted for the record 
                    by Dr. John Everett, 13 May 2007

    Dear Chairwoman Bordallo,
    Thank you very much for the opportunity to participate in the 
hearing and to provide responses to the follow-up questions.
    I worked with the Intergovernmental Panel on Climate Change (IPCC) 
from 1988 to 2000 on five impact analyses: Fisheries (Convening Lead 
Author), Polar Regions (Co-Chair), Oceans (Lead Author), and Oceans and 
Coastal Zones (Co-Chair/2 reports). Since leaving NOAA, I have remained 
an Expert Reviewer within the IPCC system.
    I support the IPCC process. It is a reasonable way to coordinate 
the development of policy advice on global issues. However, there does 
appear to be ``cherry picking'' of science and results to advance some 
agendas. The growing body of scientists outside the IPCC process often 
come to different conclusions based on the same science, and their 
concerns are not fully considered. Having difficulty myself in 
ferreting out the facts, I have kept track of information from both 
camps, eventually putting it on a website so I could access it 
anywhere. I have recently made it available to everyone at http://
www.ClimateChangeFacts.info.
    I believe we are on the wrong path. The worst-case impacts, from 
worst-case scenarios, that have been run through an under-achieving 
model are insufficiently discounted in the IPCC reports vis-a-vis 
better analyses. The result is a gross exaggeration of impacts in the 
press. We do not hear about minor impacts and benefits, only the 
``newsworthy'' elements. To do realistic impact assessments, I have to 
sort through the science and projections. A summary of considerations 
that shaped my written statement and this response to your questions 
are that:
    <bullet>  The Earth's natural processes also contribute, and 
remove, CO<INF>2</INF>. Since plants first appeared on the Earth, they 
have converted nearly all available CO<INF>2</INF> to oxygen, fossil 
fuels, and to other long-term storage. Today, less than 4/10 of 1% (379 
ppm) of our atmosphere is CO<INF>2</INF>, a small amount relative to 
other periods in Earth's history. Some popular IPCC scenarios include 
rising CO<INF>2</INF> (2%/year) from an increasing supply of fossil 
fuels for 100 years, yet we know that this is improbable. Production 
will soon peak (if not already) and prices are rising.
    <bullet>  The projected temperature rise defies logic, given that 
the USA and global temperatures have risen by (at most) only 1 deg F 
(.5 C) in 100 years (NOAA, May 2007), during the height of industrial 
expansion. This is a trivial amount in the natural variation of the 
Earth, and to suggest the rise would accelerate 5 fold (IPCC best 
estimate) in this century is incredible. NOAA's new data set, released 
on May 1, addressed some of the urban heat island issues, dropping the 
warming 44% (below IPCC 2007), but significant other data issues still 
remain. Also, the Earth was much warmer in the prior interglacial, just 
125,000 years ago.
    <bullet>  The IPCC 2007 rate of sea level rise adds 1 mm/year to 
the 1-2 mm/year that has been happening in recent centuries. This 
additional amount is only 4 inches over 100 years.
    <bullet>  Other projections, such as for hurricanes, rainfall, and 
snow cover, are not significantly different than under natural 
variability, and most will advance more slowly than the decadal 
oscillations. With regard to ocean acidity, shell formation problems 
should have shown up already in areas where there are naturally high 
levels of CO<INF>2</INF>. They have not.
    Above all, the IPCC Impact Assessment discounts the benefits that 
come with a warming climate and accentuates the negatives. Most 
negatives lie within the unrealistic worst case climate scenarios. 
Whether a fish in the ocean, a shrimp in a pond, or a bean on a vine, 
it will grow faster when it is warmer, all things being equal. Humans 
will be quick to take advantage of a warmer climate. More crops grow 
where it is warm than in frozen ground, and CO<INF>2</INF> is a primary 
food of plants--basic facts that seem lost in this discussion. However, 
the impact is visible to NASA satellites, which have detected a 6% 
greening of the Earth in the last 2 decades from a warmer, wetter, 
higher-CO<INF>2</INF> Earth (NASA 2003). Findings like this are rarely 
highlighted in IPCC SPM documents.
    Supporting details for the above and for my responses are on my 
website. I would be pleased to elaborate further, if requested.

Sincerely,

Dr. John T. Everett
President
Ocean Associates, Incorporated
4007 N. Abingdon Street
Arlington, Virginia USA 22207
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="145e7b7c7a51627166716060545b7771757a5567677b773a777b79">[email&#160;protected]</a>
On the web at http://www.OceanAssoc.com, and
http://www.ClimateChangeFacts.info
QUESTIONS FROM THE HONORABLE MADELEINE BORDALLO, CHAIRWOMAN
In your testimony you note that a combination of human activities 
        including overfishing, pollution of estuaries and the coastal 
        ocean, and the destruction of habitat-particularly wetlands and 
        seagrasses-currently exert a far more powerful effect on world 
        marine fisheries than is expected from climate change.
1.  Do you think we are currently doing enough to address those 
        problems here in the United States? If not, can you elaborate 
        on what we should be doing differently?
    I think we are putting about the right amount of resources into 
these issues, but we could do more if we weren't hampered by our 
institutional arrangements. I think the people in NOAA, the states, 
EPA, the Corps, and all the other bodies are working hard towards 
achieving the correct goals, but that institutional barriers are more 
of a hindrance than lack of funding. For a dozen years I was Director 
of NMFS Policy and Planning. I was also a Senate staffer and during 
that time I led the negotiations on behalf of both Houses on the first 
reauthorization of the FCMA. I also have been closely affiliated with 
FAO since 1999. These are some of the experiences underlying my view. 
We have had over 30 years to get it right and we are not there yet. 
This, alone, serves as a reality check for the merits of the system we 
have established.
    I have always said that if I were Prince of Fish, I would do things 
much differently. Our problem in managing fisheries is that we live in 
a democracy where authority is diffuse and nearly everything requires 
negotiation. This may lead to a better solution, but everything takes a 
long time to accomplish and the driving force is usually some disaster, 
whether a crashed stock or some ecosystem imbalance which disrupts 
normal function, such as sharks replacing codfish. Sometimes there are 
stalemates that may prevent rational management.
    The different entities involved in resource management, such as 
communities, counties, states, tribal organizations, state commissions, 
Councils, international treaty bodies, and bilateral organizations all 
complicate the process. As much as I admire our system of government, I 
think it sometimes brings chaos to resource management. Imagine for a 
moment having one agency (or a Prince) responsible for all fisheries 
throughout their range, able to cut across all agency fiefdoms. There 
would be no hiding behind some perceived failure of somebody else. If 
there is mismanagement, we know who is responsible and if something 
needs to be done, we know who gets the task. So, if we want to do 
something dramatic, that reduces the cost and inefficiencies in the 
existing system, I think we should start with a clean slate, design an 
ideal system, then modify our institutions to accommodate it. This will 
require a very heavy hand indeed.
2.  Dr. Everett, like Bill McKibben, you acknowledge that a changing 
        climate will produce winners and losers. Yet unlike Mr. 
        McKibben, who views climate change as an opportunity to 
        transform our society into a 21st Century ``Green Economy'' 
        which will produce many more winners than losers, you seem 
        satisfied to tinker around the edges the status quo to avoid 
        taking potentially unnecessary changes to address the problem.
    I support moving towards a Green Economy, and working to reduce our 
dependence on fossil fuels is a valid objective within this ideal. 
However, it may or may not be important to the Earth's climate system. 
Let us not forget that just a few years ago, many of the same NGOs who 
are alarmed about warming and CO<INF>2</INF> emissions, were arguing 
with the same fervor that our fossil fuels were running out. Many still 
are. It can't be both ways--using more for decades and running out in a 
few years. There are probably not enough fuels left in the ground to 
allow the forecast acceleration of their consumption. We are seeing 
some price increases now, across all fuels, and even for corn, driven 
by the shortage of fossil fuels. I believe this will continue and will 
accelerate remarkably in the decades to come, greatly restricting 
CO<INF>2</INF> emissions. The market place and the finite resources 
will largely reduce consumption, but we should also subsidize research 
to clean up coal (and other difficult fuels) consumption throughout the 
world. I was alarmed by some of my fellow panelists who advocated 
cessation of coal production. We hold the world's largest inventories 
of coal and it is a major competitive advantage. We need to make it 
more environmentally friendly and use it.
    The green economy goal is excellent and I agree with it, but it 
cannot be reached in one country alone because there is a world 
marketplace. When there are equal or lower costs, this is great for all 
of us. If we move to wind power by legislative fiat, on the other hand, 
and the production costs in our factories rise, our jobs will migrate 
overseas even faster than at present. Thus, we run the very real risk 
of having far more losers than winners in the USA if we respond to this 
threat in an unwise way.
    I am glad you consider me to be ``tinkering''. Tinkering is good, 
provided you have established goals. It is one of the best strategies 
for dealing with a complex problem such as this (Lindblom, 1959) where 
the issue is fuzzy at best, the correct course of action is uncertain, 
and a wrong course is perilous. We do not know enough to put all our 
eggs in the global warming catastrophe basket. Any eggs we put there 
should be refundable and of value on other objectives, such as energy 
independence and efficiency, and leaving some fossil fuels in the 
ground for use by future generations.
    I grew up as a fisherman, learning from my father the need to put 
the little clams and lobsters back gently, and to protect them from 
predators while we could. I am very conscious of our role as a good 
steward of the Earth and have practiced stewardship all my life.
    I am concerned we are at the verge of a potential colossal public 
policy failure that will damage our economy. This is a similar 
situation to that of several decades ago when uninformed hysteria led 
to halting the growth and technological advancement of our nuclear 
power industry. Other nations, such as France, with no significant 
fossil fuels, continued on the nuclear path, soon replacing us as 
exporters of nuclear technology and gaining clean electrical power that 
is largely from nuclear sources. We were left only with a fossil fuels 
option and now we are in a catch-up mode.
3.  Your position seems contrary to our Nation's history of boldly 
        confronting new challenges. Why are you advocating for a more 
        cautious and incremental approach? Do you believe that our 
        Nation is not up to this daunting task?
    The daunting task is to keep ourselves informed and cautious in the 
face of seemingly overwhelming evidence that global warming is man-
induced and that it is harmful. I am not convinced either is true. In 
fact both are probably mostly false. Therefore, we must move cautiously 
on things that will cost us competitive advantage in the marketplace, 
but expeditiously on things that make sense in their own right. This is 
an adaptive, incremental approach following the teachings of Charles 
Lindblom, 1959. If there is warming, things will be different, not 
worse, just as they are different whenever the Atlantic Oscillation and 
the Pacific Oscillation and the ENSO (El Nino Southern Oscillation) 
change phase, with far greater (and immediate) temperature and wind 
changes than are forecast by IPCC models. The easiest way to see this 
is to consider what might happen if the temperature were to be falling, 
which it just might be since reaching the latest peak in 1998. Just a 
slight cooling would largely destroy our agriculture (as we know it)--
yet a slight warming would mean faster growth, and longer, more 
productive seasons. This is evident from NASA satellites showing a 6% 
increase over the last 20 years in the greenness of the earth. Further, 
the Earth's temperature has been higher and the CO<INF>2</INF> has been 
higher many times in the past, certainly during the last time we were 
between ice ages, and perhaps since the last one ended just 10,000 
years ago.
    On my website (http://www.ClimateChangeFacts.info), I explain this 
in considerable detail, providing the claims of scientists who think we 
are having unprecedented warming and that it is caused by humans. I 
also have the non-trivial counter claims by those who disagree on both 
aspects, with links to resources supporting all the views and ideas. I 
also have a series of items I believe we should do whether the Earth is 
warming or cooling and whether or not mankind's small contribution to 
the total CO<INF>2</INF> budget matters or not. I also have a series of 
items we should not do. Since these latter items are more important, 
for the present discussion, I will start with them first.
What Actions Should We Not Take to Respond to Climate Change?
    We must respond prudently to the threats from climate change. We 
live in a global economy, much of it with lower production costs than 
our own in the developed world. Whether we live in the USA, Japan, 
Australia, New Zealand or the EU, we know our job losses are draining 
our countries, making it more difficult to support our retirement 
programs, health benefits, schools, and even our national defense. We 
must not exacerbate the high costs of our products and services. So 
we----
    <bullet>  Should not commit to actions that put us at a competitive 
disadvantage in the world market for goods and services, whether it is 
through the Kyoto protocol or some other vehicle;
    <bullet>  Should consider that if a taxing regime is implemented to 
discourage use of fossil fuels, it must separate production uses (such 
as manufacturing, agriculture, and fishing) from personal consumption 
such as in home heating, and for personal cars used for discretionary 
travel. We should not place taxes on inputs to production and services 
that will hurt our ability to compete in the global market place.
    <bullet>  Should not forget that the most valuable things we have 
are our health, our lives, and our family, and we should not place them 
at risk by driving, or riding in, vehicles that put ourselves at risk 
in order to save energy or other costs.
    <bullet>  Should not stop breathing even though it would be one of 
the most immediate steps to slow CO<INF>2</INF> emissions.
    <bullet>  Should not do things without thinking. There are many 
ideas that may not have merit. For example, buying local vegetables to 
reduce transportation costs may actually increase energy use if the far 
off producer is more fuel efficient. Another example is in using 
biofuels that have a high fossil energy input in fertilizer or 
machinery, or planting trees to reduce CO<INF>2</INF>, but finding out 
they also absorb solar radiation (heat) more than what they replace.
What Actions Should We Take to Respond to Climate Change?
    We should respond prudently to the threats from climate change. Our 
actions should include things that make sense in their own right and 
which will be important whether the Earth warms or cools in the near 
future, or continues about the same until the next ice age arrives some 
30,000 years or so in the future, according to our present knowledge of 
solar variability and orbital mechanics (IPCC 2007). We should aim to 
reduce the production costs in our industries and, at the consumer 
level, our living expenses, while at the same time ``cleaning up our 
act'' in the amount and type of energy we consume. Here is what we 
should do now:
    <bullet>  Lead by personal example. One way to check progress? Look 
at your household energy consumption. It should be dropping steadily 
over the years through
      <all>  household maintenance and upgrading of insulation
      <all>  appliance replacement and replacing light bulbs with 
fluorescents (all lights on timers, for example, should be 
fluorescents.
      <all>  adjusting the thermostat for when nobody is home or awake
      <all>  limiting our shower from being just a little too long
      <all>  getting a watt-hour meter and seeing what each home 
appliance, electronics, and plug-in light costs to run.
      <all>  reducing the number of parasitic loads. If a TV or VCR or 
Cable TV Box is sitting in the basement, and is rarely used, put it on 
a powerstrip and shut everything off when you leave the room.
      <all>  getting an energy audit, particularly if it is free from 
the power company.
      <all>  considering energy efficiencies on all appliances and 
vehicles.
      <all>  check our home's water heater, or the pipes leaving it. If 
hot, insulate them. It is not just a loss of energy, but in the summer, 
the heater is fighting the air conditioner.
      <all>  Shut off the light when it is not being used. Put your 
computer to sleep or shut it off (and all the peripherals).
      <all>  Use fans and open windows for cooling.
      <all>  When the air conditioner is on, be extra careful about 
adding heat that then has to be removed, doubling the amounts of energy 
used, and often at the higher ``summer rate''.
    <bullet>  Build our reliance on domestic energy sources. This 
includes the green technologies of wind, solar, hydro, nuclear, and 
tidal and recycling sources such as biogas and municipal solid waste. 
It also includes fossil fuels (from the time the Earth was really warm 
and productive), coal, oil, and gas--but in as clean a mode as 
possible. We need to be mindful that wind and solar are intermittent 
sources and require a backup supply AND a larger electrical grid (with 
more transmission lines and towers) than any other source.
    <bullet>  Conserve our energy through efficiency in all we do. This 
includes mundane things such as multipurpose trips when we run our 
errands or visit our clients.
    <bullet>  Make mass transit more extensive, more economical, and 
user friendly.
    <bullet>  Review building codes to ensure new homes and buildings 
are constructed to be more energy efficient, perhaps having different 
grading levels (with payback periods estimated) so purchasers can 
choose how far above a threshold value they wish to go. Standards for 
commercial buildings need to consider the global economy and whether 
production costs will be increased. Innovative ideas, such as using 
waste water from restroom sinks, or laundry machines, to flush toilets 
on lower floors, need to be considered.
    <bullet>  Implement consumer education programs at all levels, 
particularly within commercial establishments that produce goods and 
services. For example: provide energy saving tips, and management 
advice and software to truck and automobile fleet owners, to fishing 
vessel and maritime vessel owners, and highway designers.
    <bullet>  Develop and disseminate practical energy conservation 
packages for the general population and for industry sectors such as 
agriculture, trucking, airline, fishing, mining, refining, warehousing. 
These packages should contain reasonable energy reduction targets, 
milestones and estimates of savings if achieved.
    <bullet>  Review traffic flow measures that cause vehicles to stop 
and go, or wait unnecessarily for non-existent pedestrians or 
intersecting traffic.
    <bullet>  Vehicles: share rides in a car pool; inflate tires 
properly; time for a tuneup with new sparkplugs?; air filter dirty?; 
unnecessary weight in the trunk?
    <bullet>  Pay or subsidize research on all the above energy forms, 
particularly big ticket items such as nuclear and coal and on 
efficiencies in how we use power.
    <bullet>  Conserve our energy through less use of machinery. 
Examples are using clothes lines for drying, walking or riding a bike 
to work or for neighborhood errands and visits, using the stairs 
instead of elevators, forgetting about motorboats and buying sail 
boats, and putting down the leaf blower and picking up the rake.
    <bullet>  Make it easy everywhere for excess energy to be added to 
the electricity grid by consumers and industry with permanent or 
temporary excess power, such as from wind, methane, hydro, and solar--
and at reasonable rates, at or near the highest rate tier actually 
being used at the time. This provides incentive to oversize individual 
production systems, leading to extra robustness in the overall grid.
    <bullet>  Foster new residential and commercial construction near 
mass transportation hubs, such as subway and railroad stations, 
airports, and bus terminals.
    <bullet>  Ensure that all our communities have safe routes where 
people can walk or bike to work, or at least use motorbikes safely. 
Highway and bridge rebuilding projects should provide dedicated lanes 
with appropriate separation of pedestrians and bicycles from motor 
vehicle traffic.
    <bullet>  All jobs should be reviewed by employers to determine if 
it makes sense to allow telecommuting one or more days per week.
    <bullet>  State extension agents (e.g., agricultural agents) should 
be trained in energy conservation approaches and benefits.
    <bullet>  Increase taxes on energy consumption that is not used for 
production of goods and services. This is not a blind ``carbon tax'', 
but a tax aimed at consumer level consumption.
    <bullet>  Recycle items as much as is worthwhile. Sometimes this 
can be counterproductive if there is not enough volume or recycling 
requires too much energy or cost.
    <bullet>  Conduct research on the effect of any these actions on 
wildlife and on human health, and on the economic vitality of our 
nation.
    <bullet>  Increase the amount of our business done electronically 
to minimize travel and transportation and the use of paper.
QUESTIONS FROM THE HONORABLE PATRICK KENNEDY
Regardless of whether or not we take actions to control and reduce 
        green house gas emissions, wildlife and wildlife habitat and 
        the ocean environment are going to change and adapt, often 
        unpredictably, to a warming climate. Consequently, we should 
        take steps now to develop strategies to allow for the future 
        conservation of biodiversity and the maintenance of a healthy 
        and resilient environment.
1.  Keeping in mind that any transition to a new ``Green Economy'' will 
        take decades to achieve and that most Members of Congress will 
        want to limit unnecessary disruptions of social and economic 
        systems, can you be more specific on what practical types of 
        adaptive management strategies we should consider to mitigate 
        the negative effects of climate change on our collective 
        wildlife and ocean resources?
    There are a series of steps that we should do whether or not the 
warming (1 deg. F) of the last 150 years continues or, having reached a 
peak in 1998, continues to decline, or stays at the new plateau.
    I will address oceans and fisheries, because I have greater 
knowledge in this area. We need better information at the ecosystem 
level on how organisms interact with their environment. Information is 
most valuable if there are institutions and management mechanisms to 
use it. Research on improved mechanisms is needed so that fisheries can 
operate more efficiently with global warming, as well as in the 
naturally varying climate of today. There is relatively little research 
underway on such mechanisms. Knowledge of the reproductive strategies 
of many species and links between recruitment and environment is poor.
    The following items are needed specifically because of climate 
change. Other types of research, which are prerequisites for dealing 
with such concerns but which support the day-to-day needs of fisheries 
managers or relate more to understanding how ecosystems function, are 
not included.
    <bullet>  Determine how fish adapt to natural extreme environmental 
changes, how fishing affects their ability to survive unfavorable 
conditions, and how reproduction strategies and environments are 
linked. Link fishery ecology and regional climate models to enable 
broader projections of climate-change impacts and improve fishery 
management strategies.
    <bullet>  Implement regional and multinational systems to detect 
and monitor climate change and its impacts--building on and integrating 
existing research programs. Fish can be indicators of climate change 
and ecological status and trends. Assemble baseline data now so 
comparisons can be made later.
    <bullet>  Develop ecological models to assess multiple impacts of 
human activities.
    <bullet>  Determine the fisheries most likely to be impacted, and 
develop adaptation strategies.
    <bullet>  Assess the potential leaching of toxic chemicals, 
viruses, and bacteria due to sea-level rise and how they might affect 
both fish and the seafood supply.
    <bullet>  Determine institutional changes needed to deal with a 
changing climate. Such changes are likely the same ones needed for 
mastering overfishing and coping with the variability and uncertainty 
of present conditions. Improved institutions would probably reduce 
stock variability more than climate change would increase it.
    <bullet>  Study the historical ability of societies to adapt their 
activities when their resources are impacted by climate changes.
    <bullet>  Research activities to better understand processes in the 
oceans, in particular the role of the oceans in the natural variability 
of the climate system at seasonal, interannual, and decadal to century 
timescales.
    <bullet>  Long-term monitoring and mapping of: water-level changes, 
ice coverage, and thermal expansion of the oceans; sea-surface 
temperature and surface air temperature; extratropical storms and 
tropical cyclones; changes in upwelling regimes along the coasts of 
California, Peru, and West Africa; UV-B radiation, particularly in 
polar regions, and its impact on aquatic ecosystems; regional effects 
on distribution of species and their sensitivity to environmental 
factors; changes in ocean biogeochemical cycles.
    <bullet>  Socioeconomic research activities to document human 
responses to global change
Adaptation Options
    <bullet>  Establish management institutions that recognize shifting 
distributions, abundances and accessibility, and that balance 
conservation with economic efficiency and stability
    <bullet>  Support innovation by research on management systems and 
aquatic ecosystems
    <bullet>  Expand aquaculture to increase and stabilize seafood 
supplies and employment, and carefully, to augment wild stocks
    <bullet>  Integrate fisheries and CZ management
    <bullet>  Monitor health problems (e.g., red tides, ciguatera, 
cholera)
    <bullet>  Coastal planners and owners of coastal properties and 
infrastructure should carefully consider projected relative sea level 
changes when evaluating new or reconstruction projects.
    <bullet>  Coastal planners and environmental decision-makers should 
consider that a healthy environment is a prerequisite for coral reefs, 
mangroves and sea grasses to keep pace with a rising sea and to 
continue their coastal protection benefits
2.  Should we be doing more to re-evaluate our current policies for 
        land use planning and public acquisition of land for wildlife 
        habitat? Should we be adopting a broader landscape and 
        ecosystem-based approach for protecting wildlife?
    I do not feel qualified to provide guidance in this area and defer 
to more land-based people.
3.  Finally, how might such ideas be applied to the ocean and coastal 
        environment and the wildlife therein?
    This is addressed above. In essence, we need to stop our species-
by-species approach to management and embrace the ecosystem-based 
management concept we have been discussing for more than 30 years. In 
some fisheries and protected species, we are closing in on the amount 
and types on information necessary, but major changes will be needed in 
how society and resource managers view these interactions. Not all is 
as it appears to be. Over fishing is blamed for problems that likely 
are rooted in ecosystem imbalances among species and in environmental 
effects that are just beginning to be understood, as was pointed out in 
the testimony of Dr. Gary Sharp. Further background is available at his 
website at http://sharpgary.org.
QUESTIONS FROM THE HONORABLE HENRY BROWN, MINORITY RANKING MEMBER
1.  Do you or have you (or your organization) received any funding from 
        the Pew Charitable Trust or the David and Lucille Packard 
        Foundation? If so, please elaborate.
    None.
2.  Are you currently a party to any law suit against the Department of 
        the Interior or the Department of Commerce (or any of the 
        agencies within these departments)? If so, please describe
    No.
QUESTIONS FROM THE HONORABLE WAYNE GILCHREST
1.  If paleo-records show that corals existed in the past under high 
        atmospheric CO<INF>2</INF> concentrations, why is it a problem 
        now?
    I do not believe it is a problem. I think we will run out of 
easily-available oil, gas, and coal before the oceans become so acidic 
that there is a significant problem. I understand that many of the same 
coral genera were present during the mid-cretaceous period when 
CO<INF>2</INF> was 2-4 times higher and coral reefs much more 
expansive, per the NOAA paleo website. If the corals and other animals 
with shells that cannot form due to high CO<INF>2</INF> concentrations 
are impeded, their ecological niche apparently becomes filled by other 
organisms, some with silica based shells. Things will be different, but 
life continues.
2.  Among the various effects of climate change to wildlife and the 
        oceans, are there issues that are more pressing than the 
        others? Why?
    For fisheries, the most important issue is the movement of centers 
of fisheries production to new locations, perhaps across a national 
border. Institutions and communities are not set up to deal with this. 
At present the El Nino and the Atlantic and Pacific Oscillations give 
us an indication of what will happen.
    Also, near the top of the priorities list is a decision whether to 
encourage or retard opening of the Northwest passage to shipping, and 
secondly, how do we deal with the possible pollution effects, and the 
eased migration of whales and other mammals between the oceans. This 
Arctic ice has probably been blocking exchange for about 120,000 years. 
There are a myriad of important questions, such as; Do we want the gene 
pool refreshed in both oceans?
3.  In the U.S., as plant and animal species migrate north and to 
        higher elevations, what does that mean for the regions they 
        leave behind? For instance, it has been said that some U.S. 
        states that border Canada might actually benefit from the next 
        few decades of climate change, but what will it mean for the 
        states further to the South, and especially those on the coast?
    The way to look at this is to see what happens closer to the 
equator. All suitable places have life and the speciation is greater 
there than further north. If there is food and water, all voids will be 
filled quickly. Warmer, wetter climates have the most diverse life. 
Further, within the average global temperature change, more change 
occurs as one moves towards the poles. The southern states will see 
less change. Sea level rise is also important. It has been going on 
since the last ice age ended just 10,000 years ago. Georges Bank, 
Martha's Vineyard and Nantucket were part of the mainland just a few 
thousand years ago. The first settlers walked there and did not need 
canoes. Whether or not there is any impact (acceleration) caused by 
human actions, it will continue until we start our slide towards the 
next glaciation, some 30,000 years away. During the last period between 
ice ages (about 125,000 years ago), the global average sea level was 13 
to 20 feet (4 to 6 meters) higher than during the 20th century, and 
average Arctic temperatures at that time were 5.7 to 9.5 deg. F (3 to 5 
deg. C) higher than present (IPCC, 2007). El Nino and other climate 
oscillations show us that the distribution of species and their mix 
changes in a few months to a year, with winners and losers everywhere, 
just as with the industries and communities that depend on these 
resources. From a practical standpoint, nearly everything in the ocean 
grows faster when it is warmer, as do the things they eat. Some will no 
longer be available nearby, and some will be greatly reduced by 
interrupted feeding patterns, but they are here today, somewhere, just 
as they have been through countless other cycles of warming and 
cooling, waiting for their turn once again.
4.  How do shifts in habitat range of plants and animals affect human 
        interests such as agriculture or the spread of invasive species 
        and diseases? How can we adaptively plan for such changes?
    I am not sufficiently knowledgeable to offer advice and I defer to 
land-based experts.
5.  The IPCC reports with 80% certainty that the changes in water 
        temperatures, ice cover, salinity and ocean circulation are 
        impacting the ranges and migration patterns of aquatic 
        organisms. How will this affect management and use of these 
        resources, and how can we prepare for any changes?
    Fisheries are most affected when artificial barriers (e.g., 
national borders) stop pursuit by fishers in one country, causing local 
disruption, as centers of abundance move. Also fleets and processing 
plants and related infrastructure will move once it appears a change 
will be long-term. This is disruptive to fisheries-dependent 
communities. Of course, there is an equal-sized winner within the 
gaining group. We can prepare for this by making arrangements with 
neighboring countries in advance, for example by issuing individual 
vessel catch quotas that can be bought and sold across borders, even if 
the vessels are not allowed to continue fishing.
6.  In the Chesapeake Bay, we are losing marshland to rising sea 
        levels. Can you talk about what is happening to coastal wetland 
        areas in other areas of the country and what that is doing to 
        their ecosystems and the local economies that depend upon these 
        natural resources?
    A very high proportion of all fisheries depend on estuarine waters 
and marshes. Within a few months a major NOAA/NMFS report will be 
published describing the status of our fisheries habitats. Under 
preparation for several years, it is called Our Living Oceans--Habitat. 
Generally the coastal habitats are in good condition and major habitat 
loss has been greatly slowed. There are local problems, and there are 
sea level problems, particularly where land subsidence adds to the 2 
mm/year natural rise of the sea.
7.  What role do marshlands play in sequestering carbon? Is marsh 
        restoration a viable alternative in carbon sequestration?
    I have too little background to answer this question adequately, 
but it would be difficult to imagine a worthwhile benefit/cost ratio 
for a restoration project for the purpose of carbon sequestration 
alone. Further the reflectance of the marsh will be much lower than 
whatever it replaces, perhaps contributing more warming as heat sinks 
than reduction through CO<INF>2</INF> sequestration, much as trees have 
recently been found to do. If in doubt, walk across a marsh on a sunny 
day. The black and green colors absorb so much sunlight, the marsh 
seems like an oven.
8.  The latest IPCC report warns that ocean acidification poses a 
        threat to coral reefs and shell-forming organisms that form the 
        base of the aquatic food chain. But the report says more study 
        is needed to determine the full scope of the threat. What do we 
        know about the potential impacts to U.S. coastal ecosystems 
        today and how quickly is our understanding of acidification 
        improving? What can Congress do to improve upon this 
        understanding? Do we know enough to act?
    As I stated above, I think this problem is overrated. However, I 
would support a research program that actually measures CO<INF>2</INF> 
levels and coral health on reefs (not in a laboratory. One way to look 
at this is by noting the rapid growth of molluscan (e.g., clams and 
oysters) aquaculture. These shells certainly are in good shape and 
forming rapidly in waters all over the globe (note that these shells 
nearly permanently remove CO<INF>2</INF> from the system). I am not 
aware of any incidence of failure to form shells, and I am actively 
involved in aquaculture consulting.
9.  What additional resources or tools will the Fish and Wildlife 
        Service and National Marine Fisheries Service need to 
        adequately prepare and address the impacts of global warming on 
        wildlife over the next decade?
    NMFS needs to finish the recapitalization of the research fleet and 
get more of its scientists broadly based in species interactions and 
similar ecosystem level science.
10.  We've heard a lot about the polar bear and the petition to list 
        the species under the Endangered Species Act (ESA). Opponents 
        of listing claim that the effects of global warming are in fact 
        unclear. What evidence is there that global warming is already 
        having a dramatic effect on the species across its range? How 
        will an ESA listing help polar bears?
    Polar bears have endured warmer periods than are forecast by IPCC, 
having evolved into their present form some 700,000 years ago (or 
100,000 years ago) (or 200,000 years ago) (or before the beginning of 
the last interglacial) and their molars changed some 10,000 to 20,000 
years ago. Importantly, polar bears were likely present in some final 
version of their present form, during the last interglacial (130-
110,000 years ago) when there was virtually no ice at the North Pole 
and average Arctic temperatures at that time were 5.7 to 9.5 deg. F (3 
to 5 deg. C) higher than present (IPCC, 2007). This date of evolution 
should be determined factually, as a first step, before taking action. 
If polar bears survived the past interglacial, the present warming may 
be of little consequence. In any case, the 20 polar bear populations 
need to be looked at individually, in terms of their threats and 
adaptability, and the management systems that govern their 
conservation.
                                 ______
                                 
    Ms. Bordallo. Thank you very much.
    Now we will begin our questions on behalf of the Members. I 
would like to address my questions to Dr. Caldeira and Dr. 
Kleypas.
    Your testimony lays out a compelling explanation of the 
impacts that climate change and ocean acidification are having 
on our ocean environment and marine resources. Some have 
argued, however, that because climate has changed in the past 
and that the oceans have experienced acidification before that 
there is nothing to be concerned about now.
    Do you agree? If not, why do you think this is a problem 
now despite previous changes in the ocean environment? I would 
like to ask the question to both of you to get your----
    Dr. Caldeira. Can you put my slide up?
    Dr. Everett is correct that atmospheric CO<INF>2</INF> 
levels were much higher say 100 million years ago, and also the 
earth was much warmer, but the chemistry of the ocean is 
buffered by the interactions with the sediments. For example, 
atmospheric CO<INF>2</INF> today is rising 100 times faster 
than the rate of typical changes during the glacial and 
interglacial time.
    To show the kind of unusual chemistry we are producing, 
there is a map up here produced by Dick Feely of NOAA. This red 
area shows where corals grow well, and the black dots there 
show the positions of coral reefs. The sort of orange and 
yellow/green color show areas where there are marginal coral 
reefs. A few reefs are found in those kind of color zones.
    As you see, as atmospheric CO<INF>2</INF> levels progress 
through the century for business as usual scenario we get down 
to the map in the lower right. The predicted ocean chemistry 
predicts that there is no place left in the ocean with the kind 
of chemistry where corals are found growing today and so at 
least this leads some to have an expectation that corals may 
become extinct.
    We have done modeling of the ancient past, and this kind of 
chemistry has not been found in the ocean for the last 55 
million years almost certainly and many people think not since 
the time when the dinosaurs became extinct and so this kind of 
corrosive condition to the shells and organisms is extremely 
geologically unusual.
    In those purple colors, the shells of some organisms will 
actually be dissolving. This is just very unusual when viewed 
from a geologic perspective.
    Dr. Kleypas. And I would like to agree with Ken on that. In 
terms of the geological perspective, this is extremely unusual.
    I would like to put up my first slide.
    If you are not concerned about the effects on organisms, 
particularly calcifiers, this is a picture of a normal coral in 
the top and a coral that has been subjected to high 
PCO<INF>2</INF> conditions or, in other words, acidic 
conditions at the bottom. You can see those corals are naked at 
the bottom. They have completely lost their skeletons.
    We suspect that this has happened in the geological past as 
well when there have been major CO<INF>2</INF> events, but, as 
Ken said, the last time we think that happened was 55 million 
years ago. So these things do happen, but these corals take a 
long time to recover from a process like this.
    Dr. Caldeira. After what appears to be an ocean 
acidification event 65 million years ago, corals disappeared 
from the fossil record for two million years, and it took 
something like eight million years for them to fully recover, 
so what we are doing over the next decades has the potential to 
impact life in the ocean for millions of years.
    Ms. Bordallo. Thank you. Thank you very much.
    I would like to ask unanimous consent that the statements 
of Mr. Gilchrest and the National Wildlife Federation be 
included for the record.
    Hearing no objection, so ordered.
    [The statement submitted for the record by Mr. Gilchrest 
follows:]

Statement submitted for the record by The Honorable Wayne T. Gilchrest, 
        a Representative in Congress from the State of Maryland

    Thank you Chairwoman Bordallo and Ranking Member Brown for the 
opportunity to offer testimony to the House Natural Resources 
Subcommittee on Fisheries, Wildlife and Oceans regarding the impacts of 
climate change.
    The heart of my district, the Maryland 1st, is the Chesapeake Bay. 
The Bay is both an environmental wonder and the economic lifeblood for 
my constituents. We are already witnessing the impacts of climate 
change, and if the current trends continue, we will forever lose the 
Bay as we know it.
    The islands of the Chesapeake are already disappearing due to 
rising sea levels. The Eastern shore is eroding at an accelerated rate, 
a fact most dramatically illustrated by the loss of historical 
graveyards near the water's edge. The marshes of the Chesapeake, which 
serve as nurseries for much of the region's wildlife, are drowning. 
Warmer temperatures are driving Maryland's state bird, the Baltimore 
oriole, north to Pennsylvania, and fewer migratory ducks are coming to 
the Chesapeake because of milder winter temperatures to the north. The 
Chesapeake's world famous crabs are under threat because the sea 
grasses that provide them shelter are struggling to survive in warmer 
waters. And the threat to the crabs of the Chesapeake, along with other 
crustaceans--including the plankton and krill at the foundation of the 
aquatic food chain--will only worsen as the oceans soak up more 
greenhouse gases and grow more acidic.
    Climate change is rearing its ugly head in the Maryland 1st and in 
other coastal areas around the world, but the consequences of global 
warming will not stop at the shoreline--wherever that ultimately proves 
to be. This month's report from the Intergovernmental Panel on Climate 
Change (IPCC) concluded ``the resilience of many ecosystems is likely 
to be exceeded this century'' if the warming trend continues. The 
changes could be so widespread and take so many different forms--
floods, drought, wildfires, insect infestation and ocean 
acidification--that between 20% and 30% of animal species assessed in 
the IPCC report are more likely to be threatened with extinction.
    If we keep loading up the atmosphere with greenhouse gases, ``there 
are projected to be major changes in ecosystem structure and function, 
species' ecological interactions, and species' geographic ranges, with 
predominantly negative consequences for biodiversity, and ecosystem 
goods and services e.g., food and water supply,'' the IPCC report 
warns. Put another way, the natural cycles that have underpinned our 
economy and way of life for generations could be turned upside down. 
Large scale and permanent disruptions to water and food supplies, 
together with mass migrations from coastal zones and other impacted 
regions, will have severe economic impacts. Fortunately, we still have 
time to stabilize the climate and prevent the worst impacts of global 
warming at a fraction of the cost of inaction.
    To that end, I have joined Congressional Climate Change Caucus Co-
Cchair John Olver in introducing the Climate Stewardship Act, H.R. 620. 
This is a companion to the bill introduced in the Senate by Senators 
McCain and Lieberman, S. 280. The Climate Stewardship Act is currently 
under consideration by this subcommittee, as well as the Energy and 
Commerce and Science and Technology committees.
    The Climate Stewardship Act would create an economy-wide ``cap-and-
trade'' program for greenhouse gases. Sources that annually emit more 
than 10,000 metric tons of carbon dioxide equivalent in the commercial, 
industrial, utility, and transportation sectors would receive an 
allocation of free credits to emit at today's levels until 2019. From 
today's emissions, the cap would be lowered 15% by 2020, 37% in 2030, 
and 75% below current emissions by 2050. Emitters would be able to bank 
their extra credits, borrow credits from the future, and buy and sell 
credits to meet their annual compliance requirements. Emitters could 
trade credits within their own sector or outside their sector.
    To control the costs of the program--to both industry and 
consumers--the bill includes generous offsets. Emitters may apply these 
offsets toward up to 15% of their annual allowance submission 
requirements. These offsets include carbon sequestration (through 
forestry, agriculture and geologic storage), emissions reduction 
credits purchased from smaller noncovered sources, borrowed credits 
from future years' allocations, and credits purchased from EPA-approved 
foreign trading systems. If an entity takes accelerated action to 
reduce its emissions to 1990 levels by 2012, it may use offsets to meet 
an extra 20% of its annual compliance requirements. The bill also 
allows U.S. companies to fund emissions reduction projects in 
developing countries to earn additional credits as determined by the 
EPA. These credits may be traded in the U.S. or foreign market.
    By establishing a cap and including offsets in the emissions 
trading program, the Climate Stewardship Act creates a carbon market 
that gives emitters a wide array of compliance options. The bill also 
gives these sources the opportunity to lower their emissions more 
quickly than the economy-wide cap and sell the surplus allowances on 
the carbon market, moving environmental compliance from the expense 
line to the revenue line of the balance sheet. The potential to profit 
from emissions reductions will spur investment in clean energy 
technologies, creating new jobs and developing a new generation of 
industrial, commercial and consumer products that can be sold on the 
export market. In this way, the Climate Stewardship Act lowers 
greenhouse gas emissions in a way that minimizes compliance costs, 
while at the same time generating new opportunities for business, 
industry and the American worker.
    The Climate Stewardship Act also stipulates that a portion of the 
proceeds from buying and selling credits in the emissions market will 
be directed to state agencies to protect species that are struggling to 
cope with climate change. States bear the largest burden for the 
conservation of fish and wildlife species. Using both state and federal 
resources, they work to keep as many species as possible off the 
endangered list through the implementation of the State Wildlife 
Diversity Plans, which are approved by the U.S. Department of the 
Interior. The Climate Stewardship Act will provide the states with a 
new source of funding to mitigate the impacts of climate change on fish 
and wildlife diversity wherever possible.
    Again, I thank Chairwoman Bordallo and Ranking Member Brown for 
investigating the impacts of climate change on wildlife and oceans. 
This country rose from humble beginnings to international economic 
supremacy because it was blessed with tremendous natural resources. But 
we have been slow to recognize that the climate--like an oil field, 
coal seam, hardwood forest or fishing ground--is a natural resource 
too. If the U.S. and other nations continue to jeopardize that resource 
through the excessive burning of fossil fuels, they will undermine the 
very foundations of the world economy. Our way of life and our wealth 
as a nation have depended upon a stable climate, and our economy can no 
longer ignore this fundamental truth.
                                 ______
                                 
    [The statement submitted for the record by The Nature 
Conservancy follows:]

      Statement submitted for the record by The Nature Conservancy

Summary
    On behalf of its one million members, The Nature Conservancy 
appreciates the opportunity to submit for the record this testimony on 
``Wildlife and Oceans in a Changing Climate.'' Climate change is 
perhaps the greatest long-term threat to healthy ecosystems that can 
support people and wildlife. Prompt action to address this threat is 
critical to minimize future harm to nature and to the social and 
economic fabric of our global society.
    Higher temperatures, changes in precipitation patterns, and other 
consequences of climate change could have serious impacts on human 
communities and ecosystems around the world. Wildlife and ecosystems 
are particularly vulnerable because they have a limited ability to 
adapt to the fast rates and the magnitude of the potential changes 
projected under future climate change scenarios. In the United States, 
wildlife and ecosystems that are especially threatened by a changing 
climate include:
    <bullet>  Ecosystems and species that only exist at high latitudes 
or elevations, and will be pushed to extinction as habitats shift pole-
ward or upslope following suitable temperatures.
    <bullet>  Migratory waterfowl that depend on the North American 
prairie pothole region as a critical breeding ground
    <bullet>  Trout and salmon that thrive in cold freshwater systems
    <bullet>  Coastal ecosystems vulnerable to sea level rise and 
increased storm damage
    <bullet>  Coral reef ecosystems that are threatened by 
acidification and warming of the oceans.
    The Nature Conservancy is working to monitor these and other 
climate change impacts around the world. With a growing understanding 
of present and future scenarios, the Conservancy will be better 
equipped to help ecosystems cope with warming, changes in 
precipitation, and other impacts of climate change.
    Nevertheless, strong action to address the causes of climate change 
will be essential. The Nature Conservancy is calling for legislation 
and policies that include three paramount concepts:
    <bullet>  A strong cost-effective cap on emissions and a well-
designed market-based program designed to stabilize atmospheric 
greenhouse gas concentrations at a level that ensures the well being of 
human communities and ecosystems worldwide.
    <bullet>  Reduction of emissions from forest and land use practices 
through the incorporation of a credible offsets program.
    <bullet>  Support for adaptation programs that are designed to help 
ecosystems and the human communities who rely on them to cope with the 
impacts of climate change.
    We discuss these issues further in the testimony that follows.
Climate Impacts on Wildlife and Oceans
    Consequences of climate change, such as increasing temperatures, 
changes in precipitation patterns, and higher atmospheric carbon 
dioxide concentrations could have serious impacts on human communities 
and ecosystems around the world. The environment is particularly 
vulnerable because it has a limited ability to adapt to the fast rates 
and the magnitude of potential changes projected under future climate 
change scenarios. The National Assessment Synthesis Team of the U.S. 
Global Change Research Program published a report in 2000 that examined 
climate change and variability in the United States, with a focus on 
specific regions and sectors including human health, water resources, 
forests, coastal areas and agriculture. The report found that all 
natural ecosystems in the United States, including wetlands, forests, 
grasslands, rivers, and lakes are at risk. Some ecosystems, such as 
alpine meadows, coastal wetlands, and certain forest types could 
disappear altogether. Conservation groups such as The Nature 
Conservancy are already taking steps to understand these changes and 
help ecosystems adapt to them. However, a stabilization of atmospheric 
greenhouse gas levels is necessary to ensure that the world's 
biodiversity is protected.
    The Summary for Policymakers of the Working Group II Contribution 
to the Intergovernmental Panel on Climate Change's (IPCC) Fourth 
Assessment Report released in April 2007, further advances the current 
scientific knowledge related to the impending threats that wildlife 
will face as a result of climate change. <SUP>1</SUP> These changes may 
undermine some of the conservation work that the government and the 
conservation community has accomplished to date, and will likely change 
the species composition within local land trust preserves, Conservancy 
preserves, and even our national parks.
---------------------------------------------------------------------------
    \1\ Intergovernmental Panel on Climate Change (2007). Climate 
Change 2007: The Physical Science Basis. Summary for Policymakers of 
the Fourth Assessment Report. IPCC Secretariat, Switzerland.
---------------------------------------------------------------------------
Wildlife
    Impacts of climate change are already having a noticeable effect on 
wildlife in the United States. For example, changes in temperature and 
precipitation are already driving vegetation and ecosystems around the 
globe toward cooler polar areas and up mountain slopes. Some species 
and communities, such as polar bears or alpine meadows, may be left 
without any remaining viable habitat and therefore driven to 
extinction. In addition, such shifts in range could be impeded by 
natural and manmade physical barriers, thereby preventing some species 
and ecosystems from following their ideal climate conditions. Increases 
in freshwater temperatures will alter water quantity and quality, 
affecting a variety of freshwater fish populations, especially salmon 
and brook trout. In the Midwest, prairie wetland habitats that are 
critical breeding grounds for ducks and other migratory waterfowl are 
expected to dry up and disappear as a result of vegetation shifts and 
drought conditions. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ National Assessment Synthesis Team (2000). Climate Change 
Impacts on the United States. The Potential Consequences of Climate 
Variability and Change. Overview. Cambridge University Press, USA.
---------------------------------------------------------------------------
    Impacts on Freshwater Fish: Higher temperatures and intensified 
human land use could cause stream temperatures to increase by as much 
as 5 ' Fahrenheit by 2100. Concurrently, changes in seasonality and 
precipitation patterns could significantly alter stream flows. Trout 
and salmon that thrive under cold water conditions are projected to 
experience significant declines in population. A 2002 study concluded 
that by the end of this century as much as 40 percent of current trout 
and salmon habitats could be unsuitable for these species. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ O'Neal, K. 2002. Effects of global warming on trout and salmon 
in U.S. streams. Defenders of Wildlife, Washington, DC,
---------------------------------------------------------------------------
    Impacts on Migratory Waterfowl: Climate change impacts could cause 
a significant reduction in populations of migratory waterfowl all 
across the United States due to a reduced availability of suitable 
breeding habitat. The prairie pothole region of north-central United 
States is the single most important breeding ground for North American 
migratory waterfowl. Higher temperatures and decreased precipitation 
caused by climate change could lead to a significant reduction of 
wetlands in the area, which would translate to a decrease in the number 
of breeding waterfowl by as much as 69 percent. On the east coast, 
rising sea levels could also flood many coastal salt-water wetlands, 
significantly reducing suitable winter waterfowl habitat. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4\ Inley, D.B., et al. 2004. Global climate change and wildlife in 
North America. Wildlife Society Technical Review 04-2. The Wildlife 
Society, Bethesda, Maryland, USA. 26 pp.
---------------------------------------------------------------------------
Oceans
    Any change in the climate also affects the physical and 
biogeochemical characteristics of the world's oceans. Oceans have been 
absorbing an estimated 80 percent of the heat added to the climate 
system, and studies have documented a rise in average global sea 
temperature to depths of up to 3000 meters. Higher sea surface 
temperatures are already having an impact on oceanic ecosystems. Over 
the past decade, scientists have observed an increase in the frequency 
and severity of coral bleaching events. Scientists project that these 
events will only become more common as temperatures rise, which would 
place serious strain on these already fragile coral reef ecosystems.
    This temperature rise has also caused thermal expansion of the 
seawater, which combined with the melting polar ice caps has led to a 
rise in sea levels. <SUP>5</SUP> The rate of sea level rise has 
markedly increased in recent years to an average of about 3.1 mm per 
year from 1993 to 2003. Conservative estimates project that sea-levels 
could rise between 0.18 and 0.59 m by the end of this century. 
<SUP>6</SUP> Sea-level rise will have serious impacts on the United 
States' already threatened coastal ecosystems. Prevented by coastal 
development and infrastructure from shifting inland in response to sea 
level rise, in many areas these valuable ecosystems could disappear. 
The loss of beaches, wetlands, and other coastal ecosystems would have 
serious implications for the wide variety organisms that depend on the 
integrity of these ecosystems as breeding or feeding grounds. For 
example, nesting opportunities for sea turtles will decrease as beaches 
are flooded or eroded. Mangrove forests will be impacted by coastal 
erosion, salt-water inundation, and an increase in the intensity and 
frequency of storm surges, and in many areas could disappear.
---------------------------------------------------------------------------
    \5\ Intergovernmental Panel on Climate Change (2007). Climate 
Change 2007: The Physical Science Basis. Summary for Policymakers of 
the Fourth Assessment Report. IPCC Secretariat, Switzerland.
    \6\ ibid
---------------------------------------------------------------------------
    Impacts on Corals: Coral reefs are the center of tropical marine 
biodiversity, providing habitat and breeding grounds for thousands of 
species of fish and marine organisms. Many corals exist under 
conditions that are already close to their upper temperature tolerance 
limits. When sea surface temperatures exceed this maximum limit, corals 
may bleach due to the loss of the symbiotic algae that provide the 
coral with nutrients. Although local bleaching events do occur 
naturally, corals need at least an estimated ten years to fully 
recover. However, scientists have already observed an increase in the 
frequency and severity of coal bleaching events. As sea surface 
temperatures continue to rise, mass coral bleaching events are 
projected to increase, causing widespread coral mortality. In addition, 
increased atmospheric carbon dioxide levels lead to a rise in oceanic 
acidification, which could result in weaker coral skeleton frames, 
reduced growth rate, and increased susceptibility to breakage and bio-
erosion. <SUP>7</SUP> All together, these impacts from climate change 
make coral reefs one of the most threatened ecosystems from climate 
change.
---------------------------------------------------------------------------
    \7\ C. Langdon, 2003, Review of Experimental Evidence for Effects 
of CO<INF>2</INF> on Calcification of Reef Builders, Proceedings of the 
9th International Coral Reef Symposium, Bali, Indonesia, 23-27 October 
2000, Vol.2, pp. 1091-1098.
---------------------------------------------------------------------------
    Impacts to Turtles: Sea-level rise due to climate change could 
cause flooding and erosion of sea turtle nesting beaches. Turtle 
nesting beaches that are backed by development or steep topography will 
be unable to shift inland as sea levels rise and could disappear, 
leaving female sea turtles with fewer suitable nesting sites. Increased 
temperatures and changes in seasonality will also alter the nesting 
habits of females and could alter the sex ratio of turtle hatchlings. 
Scientists have already observed a trend of earlier nesting dates for 
the loggerhead sea turtle on the Atlantic coast of Florida. 
<SUP>8</SUP> Incubation temperature of eggs co-determines the sex of 
hatchlings, and therefore higher temperatures could skew the sex ratio 
towards a predominance of female hatchlings. <SUP>9</SUP> <SUP>10</SUP>
---------------------------------------------------------------------------
    \8\ R.R. Carthy, A.M. Foley, Y. Matsuzawa, 2003, Incubation 
Environment of Loggerhead Turtle Nests: Effects on Hatching Success and 
Hatchling Characteristics, in Loggerhead Sea Turtles, A.B. Bolten and 
B.E. Witherington, (eds.), pp. 144-153, Smithsonian Institution, 
Washington, DC, USA.
    \9\ R.R. Carthy, A.M. Foley, Y. Matsuzawa, 2003, Incubation 
Environment of Loggerhead Turtle Nests: Effects on Hatching Success and 
Hatchling Characteristics, in Loggerhead Sea Turtles, A.B. Bolten and 
B.E. Witherington, (eds.), pp. 144-153, Smithsonian Institution, 
Washington, DC, USA.
    \10\ F.J. Janzen, 1994, Climate Change and Temperature-Dependent 
Sex Determination in Reptiles, Proc. Nat. Acad. Sci., 91, pp. 7487-
7490.
---------------------------------------------------------------------------
    Impacts on Mangroves: Sea level rise is the most significant 
climate change threat to mangrove forests and other coastal wetlands. 
Even a small rise in sea level could result in erosion, flooding, and 
salt-water inundation of these ecosystems. Mangrove ecosystems that are 
backed by salt flats and low-lying coastal flats will have greater 
inputs of sediments and silt from both land and sea and have the space 
to shift inland as the sea-level rises. However, many mangrove forests 
are backed by coastal development and infrastructure or other physical 
barriers. These mangroves have nowhere to move and limited sources of 
sediment on which to build, which means these ecosystems are especially 
vulnerable to a shrinking habitat caused by sea level rise.
    As these examples highlight, the effects of climate change on 
wildlife, oceans, human communities and ecosystems could be profound. 
In order to avert the extreme effects of climate change, a two pronged 
approach of adaptation and mitigation is necessary.
The Nature Conservancy's Climate Monitoring and Adaptation Work
    In order to better understand climate change and how wildlife and 
ecosystems may adapt, scientists at The Nature Conservancy are actively 
monitoring these and other climate change impacts around the world. 
With a growing understanding of present and future scenarios, the 
Conservancy will be better equipped to help ecosystems cope with 
warming, changes in precipitation, and other impacts of climate change.
    For example, the Conservancy is taking a specific look at the 
changing climate in the Sierra Nevada Mountains of California. Research 
is underway in an old-growth forest area to monitor climate change 
impacts and to develop strategies for conserving these unique natural 
communities. On the coastal plain of Alaska, as in many high latitude 
circumpolar regions, shrubs and other woody vegetation are invading the 
arctic tundra. The Alaska chapter of The Nature Conservancy is working 
closely with state and federal agencies to monitor the changes and 
identify ways to preserve these unique tundra ecosystems.
    Scientists with The Nature Conservancy's Global Climate Change 
Initiative are also documenting changes outside of the United States. 
For example, in the mountains of Yunnan in China, Conservancy 
scientists are monitoring the changes occurring in alpine tundra 
ecosystems and simulating the interaction between climate change and 
human impacts in these mountain areas. Scientists are also 
collaborating with university researchers to document global vegetation 
shifts. Conservancy scientists have already observed significant 
vegetation shifts in some areas, such as woodlands giving way to 
grasslands in Africa and alpine meadows giving way to forests in 
California.
    Through monitoring and analyzing these shifts, the Conservancy can 
prioritize areas for conservation and develop natural resource 
management practices that maintain and improve the function of these 
ecosystems. Strategies developed at one project site can be applied to 
similar ecosystems elsewhere around the world:
    <bullet>  Through the establishment of oceanic research stations 
such the Palmyra Research station 1,000 miles south of Hawaii, the 
Conservancy is leading a global effort to identify species of coral 
that are resilient to warmer temperatures and bleaching events. With 
this information, the Conservancy can work to ensure these 
``survivors'' are protected through effectively managed, large-scale 
marine protected area networks worldwide. In addition, scientists have 
expanded their work on resilience in the face of elevated temperatures 
to address change in acidity. These results are providing some hope of 
adaptation options for coral reefs around the world.
    <bullet>  In the Albemarle Sound of North Carolina, the Conservancy 
is developing potential restoration projects that would help protect 
the shoreline from increased erosion and inundation caused by rising 
sea levels. These projects include planting native cypress forests, 
restoring submerged aquatic vegetation beds, establishing reefs to 
block storm surges, and planting brackish marsh grasses on shore lands 
that are likely to be submerged. This work is now being applied to 
other vulnerable coastal areas along the United States' eastern coast 
and into Central America.
    <bullet>  In New Mexico, the Conservancy is conducting a statewide 
analysis to identify places, species, systems and other natural 
resources at risk due to climate change. The study will also propose 
measures that land and water managers can take to abate threats to 
plants, animals and natural processes as the impacts of climate change 
continue to grow.
    Climate change will alter landscapes and seascapes as we know them. 
Projects such as those listed above will help us analyze the impacts of 
climate change on plants, animals and natural communities. These 
projects will also help to create innovative conservation solutions 
that will enable natural areas to cope with and adapt to what may be 
the unavoidable effects of climate change. However, this work does not 
abrogate the need for climate change mitigation; reducing carbon 
emissions now can avert the extreme impacts of climate change.
Mandatory U.S. Climate Change Program Needed
    The Nature Conservancy strongly supports the adoption of a cost-
effective mandatory cap and trade program to limit greenhouse gas 
emissions in the United States. Significant reductions in emissions 
will be needed to mitigate the future impacts of climate change. As the 
leading emitter, the United States should lead with domestic 
reductions, which will also provide a platform for a more effective 
international climate protection regime.
    A well-designed program should not harm the economy or hurt the 
competitive status of U.S. industry. Such a program would unleash and 
set in motion available low-cost opportunities to reduce U.S. 
emissions. Many steps, for example stimulating improvements in energy 
efficiency, could be taken immediately that would likely benefit the 
U.S. economy.
    A comprehensive domestic program to address climate change must 
include three paramount concepts:
    <bullet>  A strong cost-effective cap and well-designed program to 
protect ecosystems and human well-being. The core function of a climate 
change policy should be to set in motion and sustain a course of long-
term reductions in greenhouse gas emissions that will be sufficient to 
stabilize atmospheric greenhouse gases at a level that will protect 
human society and the natural world. A program should be designed to be 
cost-effective and to send appropriate long-term price signals to 
stimulate needed investment in emissions-reducing technologies. The 
level of a domestic cap should be sufficient to represent an 
appropriate U.S. contribution to global emissions reductions, given the 
urgent need to stabilize the atmosphere at a carbon dioxide-equivalent 
concentration that will protect ecosystems and human well-being.
    <bullet>  Reduction of emissions from forest and land use through 
the incorporation of a robust and credible offset program. The Nature 
Conservancy strongly supports the inclusion of robust offset provisions 
in a greenhouse gas cap and trade program that will allow real, 
additional, verifiable, permanent and enforceable offsets from domestic 
and international activities to be used by regulated entities for 
compliance with their allowance obligations. Offsets offer real cost-
effective emission reductions and lower the cost of emission reduction 
programs, thereby increasing the flexibility of the program and 
allowing for the setting of lower emissions targets. Offsets from land 
conservation and restoration projects can provide additional benefits 
by supporting forest protection and protection of other natural areas. 
International offsets from this sector are particularly important 
because land use and deforestation represent a third of developing 
country emissions and efforts to reduce these emissions contribute 
greatly to poverty reduction and biodiversity conservation. Proven 
methods for reliably measuring, monitoring and verifying land-based 
carbon offsets already exist and are in widespread use.
    <bullet>  Assurance that the program helps the natural world and 
those who depend on healthy ecosystems adapt to the impacts of climate 
change. Climate change is already creating challenges to vulnerable 
species and habitats in the U.S. and around the world. Climate change 
legislation that uses auctions to distribute allowances that would be 
used to comply with a cap on greenhouse gas emissions would be of 
critical assistance to addressing these challenges. The Nature 
Conservancy supports a program that will transition to a full auction 
of allowances as quickly as feasible and economically desirable, 
considering an interest in maintaining market stability and gaining 
experience with the auction mechanism. The Conservancy advocates 
dedicating at least 25 percent of auction revenues to a Climate Change 
Adaptation Fund that would assist the natural world in adapting to the 
impacts of climate change in the U.S. and abroad, and help reduce the 
impacts of climate change on the most vulnerable members of society.
    In addition, supplementary policies such as fuel economy, energy 
efficiency, green building standards, funding for research and 
development into advanced technologies, and consumer incentives to 
facilitate GHG reductions will be needed to ensure that cost-effective 
opportunities to reduce emissions are not passed up because of market 
failures or other obstacles.
Climate Change Adaptation Fund
    As the climate begins to change, the need for efforts to support 
climate change adaptation is already great. The Conservancy believes 
strongly that a significant fraction--at least 25 percent--of the 
revenues from an auction of allowances under a mandatory cap-and-trade 
carbon system should be dedicated to a climate change adaptation fund 
that will include funding to assist domestic and international wildlife 
and ecosystems in adapting to a changing climate regime.
    Changes to the natural world around us have serious implications 
for plant and animal life, but also for people. People depend on nature 
in myriad ways. Fisheries, timber harvests, grazing, and protected 
areas are all managed based on ecological processes that are being 
fundamentally altered as a result of climate change. If we are not 
proactive and do not anticipate the changing world, many sectors of our 
society will suffer severely. We must fund activities aimed at 
developing and implementing successful adaptation strategies to protect 
our investments in natural assets and nature reserves in response to 
climate impacts that are already detectable in natural systems and in 
many plant and animal populations. Also particularly vulnerable are 
people who depend most significantly on the natural world.
    In the face of this threat, there is a need for federal attention 
to programs to address these changes. Within the Climate Change 
Adaptation Fund, the Conservancy recommends that at least 10 percent of 
the auction revenues be dedicated to state and federal efforts to 
protect natural systems in the U.S. and help them adapt to climate 
change. The Conservancy recommends that the remaining revenues in the 
Climate Change Adaptation Fund be dedicated to protecting ecosystems in 
other countries and helping vulnerable Americans adapt to climate 
change. We discuss our recommendations in more detail below.
Adaptation Assistance for U.S. Fish and Wildlife and Ecosystems
    The Conservancy supports a policy approach that would set aside at 
least 10 percent of the allowance pool revenues to fund actions within 
the U.S. to facilitate adaptation of fish and wildlife species and 
habitat to climate change. Thirty percent of these funds should be 
allocated to the Department of the Interior to fund federal programs. 
Given that approximately 30 percent of lands in the U.S. are under 
federal ownership and management, investing in federal adaptation 
programs is a high-leverage approach to minimizing climate change 
damages to natural resources. Climate change is already affecting the 
ability of federal natural resource management agencies to protect the 
investments that American taxpayers have made in protecting land and 
water resources. For example, agencies that manage our federal 
forestlands are already faced with the challenges of protecting against 
higher risks of forest fire, pest outbreaks (e.g., the pine beetle 
infestation threatening forests in the northern U.S. and Canada), and 
loss of tree species linked to climate change. Providing these agencies 
with resources to adapt to climate change in the near term will reduce 
the risk of catastrophic impacts to important land and water resources. 
In addition, acting now to minimize the impacts of climate change would 
be far more cost-effective than working to recover these resources 
after the damages had already occurred. To protect wildlife and natural 
resources in the U.S., the Conservancy believes that a significant 
fraction of the adaptation funding should be dispersed to federal 
agencies that manage land and water resources, for example the Bureau 
of Land Management, the Forest Service, the Fish and Wildlife Service, 
the U.S. Geological Survey, the U.S. Department of Commerce, the 
Natural Resources Conservation Service, the Army Corps of Engineers, 
and others for the following general purposes:
    <bullet>  to protect natural communities that are most vulnerable 
to climate change;
    <bullet>  to restore and protect natural resources that directly 
guard against damages from climate change events; and
    <bullet>  to restore and protect ecosystem services that are most 
vulnerable to climate change.
    This could include:
     1)  Federal programs and projects that will: identify Federal 
lands and waters that are at greatest risk of being damaged or depleted 
by climate change; monitor Federal lands and waters to allow for early 
detection of impacts; develop adaptation strategies to minimize the 
damage; and restore and protect Federal lands and waters at the 
greatest risk of being damaged or depleted by climate change;
     2)  Federal programs and projects to identify climate change risks 
and develop adaptation strategies for natural grassland, wetlands, 
migratory corridors, and other habitats vulnerable to climate change on 
private land enrolled in the Wetlands Reserve Program, the Grassland 
Reserve Program, or the Wildlife Habitat Incentive Program;
     3)  Programs and projects under the North American Wetlands 
Conservation Act and the Neotropical Migratory Bird Conservation Act to 
protect habitat for migratory birds that are vulnerable to climate 
change impacts;
     4)  Programs and projects that will: identify coastal and marine 
resources (such as coastal wetlands, coral reefs, submerged aquatic 
vegetation, shellfish beds, and other coastal or marine ecosystems) at 
the greatest risk of being damaged by climate change; monitor those 
resources to allow for early detection of impacts; develop adaptation 
strategies; protect and restore those resources; and integrate climate 
change adaptation requirements into State plans developed under the 
coastal zone management program established under the Coastal Zone 
Management Act of 1972, the National Estuary Program, the Coastal and 
Estuarine Land Conservation Program, or other comparable State 
programs;
     5)  Programs and projects that will conserve habitat for 
endangered species and species of conservation concern that are 
vulnerable to the impact of climate change;
     6)  Federal Land and Water Conservation Fund projects;
     7)  Programs and projects under the Forest Legacy Program that 
will support State efforts to protect environmentally sensitive forest 
land through conservation easements to provide refuges for wildlife;
     8)  Other Federal or State programs and projects identified as 
high priorities for the general purposes listed above;
     9)  Efforts to address climate change in Federal land use planning 
and plan implementation and to integrate climate change adaptation 
strategies into comprehensive conservation plans prepared under section 
4(e) of the National Wildlife Refuge System Administration Act of 1966; 
General Management Plans for units of the National Park System; 
Resource Management Plans of the Bureau of Land Management; and Land 
and Resource Management Plans under the Forest and Rangeland Renewable 
Resources Planning Act of 1974 and the National Forest Management Act 
of 1976; and
    10)  Projects that will promote sharing of information on climate 
change wildlife impacts and mitigation strategies across agencies, 
including funding efforts to strengthen and restore habitat that 
improves the ability of fish and wildlife to adapt successfully to 
climate change through the Wildlife Conservation and Restoration 
Account established by section 3(a)(2) of the Pittman-Robertson 
Wildlife Restoration Act.
    The remainder of the 10 percent of allowance pool revenues set 
aside for domestic fish and wildlife and habitat adaptation would go to 
state programs administered under the Pittman-Robertson State Wildlife 
Grant program. This money would be used in accordance with state 
comprehensive wildlife conservation strategies to undertake the 
following activities:
    <bullet>  develop relevant information, conduct research, and 
undertake monitoring to improve the ability of fish and wildlife to 
adapt and respond to the impacts of climate change;
    <bullet>  develop and conduct projects to address observed or 
anticipated effects of climate change on fish and wildlife species and 
populations; and
    <bullet>  implement actions to manage, conserve, and restore fish 
and wildlife habitat to improve the ability of fish and wildlife to 
adapt and respond to the impacts of climate change.
    Given that approximately 9 percent of lands in the U.S. are owned 
and managed by state governments, investing in state adaptation 
programs is also a relatively high-leverage approach to addressing 
climate change impacts to natural resources.
Adaptation assistance for ecosystems abroad
    The Conservancy also supports the use of allowance revenues to fund 
international conservation activities that will protect globally 
significant species and habitats from the effects of climate change. We 
are working with other international conservation organizations to 
develop common recommendations for policy makers about how an 
international adaptation program could be structured. We look forward 
to sharing these recommendations as soon as possible.
    Such international funding should be incremental to the 10 percent 
of allowance revenue that we recommend be dedicated to assist domestic 
wildlife and habitats with adaptation to an altered climate.
Adaptation for affected populations
    The Conservancy also recommends that a portion of revenues in the 
Climate Change Adaptation Fund be dedicated to assist vulnerable human 
populations in responding to the impacts of climate change.
Other uses of revenues
    Beyond funding to facilitate adaptation of fish and wildlife, the 
remaining funds in the Climate Change Adaptation Fund could be used:
    <bullet>  To assist low-income consumers as part of the strategy to 
address climate change. For example, this could include additional 
funding to the Low Income Home Energy Assistance Program and other 
efforts to reduce energy costs for these vulnerable Americans.
    <bullet>  To assist displaced workers with transitional assistance, 
including assistance with transition to new employment where jobs are 
displaced as a consequence of a restructuring of the economy toward 
lower greenhouse gas emissions.
    In addition to funding activities to facilitate adaptation to 
climate change, some portion of the revenues from allowance auctions 
should be invested in a Clean Energy Fund to support research on and 
development and deployment of emissions reductions technologies. 
Revenues from an auction could also be used to offset payroll or other 
taxes as a further means of offsetting any distributional effects of 
increased energy prices.
Conclusion
    The Nature Conservancy appreciates the opportunity to present our 
views to the Subcommittee on this timely and critical topic. We would 
be pleased to work with you in answering questions you may have or in 
crafting legislation to address the issues identified in our testimony.
Contact Information:
Eric Haxthausen
Senior Policy Advisor, Climate Change
The Nature Conservancy
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cca9a4adb4b8a4adb9bfa9a28cb8a2afe2a3beab">[email&#160;protected]</a>
(703) 841-7439 (Phone)
(703) 276-3241 (Fax)
                                 ______
                                 
    Ms. Bordallo. And now I would like to recognize the acting 
Ranking Member, Mr. Sali, for any questions.
    Mr. Sali. Thank you, Madam Chair.
    For Dr. Caldeira and Dr. Kleypas, you are both concerned 
about acidification, and I am curious. If I understand, Dr. 
Caldeira, your explanation, the CO<INF>2</INF>, something 
happens when it gets into the ocean water and then it turns to 
carbonic acid. Am I correct?
    Can you give me just a little explanation about that?
    Dr. Caldeira. Sure. Without going into too detailed a 
chemistry lesson here, the carbon dioxide is CO<INF>2</INF>. 
Water is H<INF>2</INF>O. They join together, and then when they 
join together protons start coming off or hydrogen ions so that 
this hydrogen ion attacks the carbonate ion.
    Corals make their skeletons out of calcium carbonate, so 
there is calcium and carbonate. The hydrogen ion that is 
produced when the CO<INF>2</INF> reacts with seawater reacts 
with this building block and removes one of the building blocks 
that corals and many other organisms need to build their shells 
and skeletons.
    The issue is if the carbon dioxide is released to the 
environment very slowly from like it is from volcanos then 
there is a chance to react with the various rocks and sediments 
on the earth's surface, and this neutralizes this acidity. We 
are emitting the carbon dioxide so rapidly that these buffering 
processes don't have a chance to react.
    I can say that the chemistry part of this is very well 
understood. You know, I think where there is uncertainty is on 
what is the biological response. You know, the experiments have 
been done in university laboratories for the most part or NOAA 
laboratories and on a few individuals in sort of fish tanks or 
isolated situations and so we are not sure exactly what the 
real impacts will be in real ecosystems, but the laboratory 
experiments give plenty of cause for concern.
    Mr. Sali. Well, I guess I am trying to figure out. Do the 
plants in the ocean use photosynthesis type processes to grow, 
correct, and so my question is how is it that the carbon 
dioxide is not used by those plants to grow, and how does it 
end up turning into carbonic acid?
    Dr. Kleypas. Well, first of all, as Ken said, the carbonic 
acid is what causes the pH to drop in the oceans, which is the 
term we call ocean acidification.
    In terms of plants in the ocean, most of the plants in the 
ocean by far are marine algae. Marine algae don't use 
CO<INF>2</INF> the way that land plants use CO<INF>2</INF> so 
there is not much of an opportunity for fertilization because 
the increase in carbon dioxide in the ocean is quite small, and 
it doesn't help these organisms, particularly given in the 
light that they are also limited by nutrients in the ocean.
    Mr. Sali. I am going to expose just a little level of lack 
of knowledge here.
    Dr. Kleypas. OK.
    Mr. Sali. Am I correct that corals typically grow in fairly 
shallow water?
    Dr. Kleypas. Corals grow in shallow water, and they are----
    Mr. Sali. And most of the plants that live in shallow water 
would use the photosynthesis process now?
    Dr. Kleypas. They do photosynthesize. The algae 
photosynthesize.
    Mr. Sali. How does the carbon dioxide know whether it is 
going to be plant food, if you will, or if it is going to be 
carbonic acid.
    Dr. Kleypas. Actually that is a really good question. The 
CO<INF>2</INF>, once it is in the water as carbonic acid, it 
actually breaks apart fairly rapidly to something we call 
bicarbonate and carbonate.
    Most plants use bicarbonate in the ocean, and it is very, 
very abundant. They also have something called a carbon 
concentrating mechanism. That allows them to store a lot of----
    Mr. Sali. But how does the carbon dioxide decide what it is 
going to be in its future life?
    Dr. Kleypas. The plants take up bicarbonate to 
photosynthesize, and the CO<INF>2</INF> just changes the pH of 
the ocean.
    Do you want to add something to that, Ken?
    Dr. Caldeira. Yes. I mean, there have been experiments 
done. You know, not every kind of organism builds a shell out 
of calcium carbonate, and there have been experiments where you 
basically take a bucket of water and give all the phosphorous 
and nitrogen and all the other nutrients that the plants want.
    In these experiments, if you give added carbon dioxide some 
plankton can actually grow more rapidly so there is some 
potential in these kind of situations for increased growth, but 
in the real ocean plankton are typically limited by not having 
enough fertilizer, not having enough phosphorous or nitrogen.
    It is not really the carbon dioxide deciding what it is 
going to do. It dissolves in the water, and if it happens to be 
against a coral reef it inhibits the coral from building its 
shell or skeleton. If it happens to go up against a plankton it 
makes it a little easier for plankton to get its carbon.
    You know, wherever there is light and there is nutrients 
things will grow in the ocean, so I don't want to overstate 
this, but nobody is saying that there will be less 
photosynthesis in the ocean.
    What we are saying is that key ecosystems are threatened, 
such as corals, and that other ecosystems may also be 
threatened, but really the studies haven't been done to 
identify the extent of threat to fisheries and other kinds of 
important resources.
    Mr. Sali. So would it be fair to say that probably we need 
more information before we take action?
    Dr. Caldeira. I think we have enough information to take 
action, but we certainly need more information.
    I think there is enough information to be alarmed and to 
start working on energy systems that reduce our carbon dioxide 
emissions, but along with that we need to study what the 
possible effects on other ecosystems are.
    Also, we can assume that climate change and ocean 
acidification will stress ecosystems, and we need to reduce 
other stresses such as loss of the wetlands and the overfishing 
and so anything we can do to reduce stresses on ecosystems will 
help.
    I think there are three things: Reduce emissions, study the 
systems and reduce other stresses on the ecosystems.
    Mr. Sali. Madam Chairman, if I could just wrap up real 
quickly?
    Ms. Bordallo. Yes.
    Mr. Sali. Dr. Sharp and Dr. Everett, would you agree with 
that conclusion that way, or do you think we need more 
information before we take action?
    Dr. Sharp. I spent a good bit of time traveling the world, 
and one of the first things you discover is those islands that 
have pristine corals don't have any people, and where you find 
most of the coral bleaching phenomena is usually with a very 
high population level, so there is what I call a hormetic 
effect, an additional problem that comes from the stuff that we 
leak out into the ocean around.
    There is a wonderful example of exactly how this works in 
the Caribbean. If you go to the Isle Roatan on the east coast 
of Honduras, they actually if you want to go swimming there 
they will show you what happened when they developed and where 
all the hog pens are and things with dead coral everywhere.
    If you go to the other side where there are no people, they 
will train you to make sure that you don't touch things. They 
will show you a handprint that was put there 10 years ago. It 
is a dead hole. Meanwhile, around there is basically pristine 
coral. That is a lesson in life that most people who sit in a 
laboratory never quite figure out.
    The other big picture thing, of course, the conversion from 
the last ice age to present. The entire Barrier Reef was above 
sea level. When you think about 1.8 to two millimeters sea 
level rise per year over 20,000 years, you end up with the 
Great Barrier Reef. It is an interesting phenomenon.
    It also has a north/south distribution. It is very healthy 
in the warmest section of the warm pool and is actually the 
scariest down near agriculture and other things on the north 
coast of Australia, so there is a lot more to worry about than 
CO<INF>2</INF>.
    Doubling the pH by--I am sorry. Doubling the pH is the 
wrong word. Raising the pH level or decreasing the pH level by 
a tenth of a unit is more than doubling the CO<INF>2</INF> 
component in the atmosphere. A tenth of a unit.
    pH is a logarithmic function. If we wanted to bring the 
ocean water of pH 8.2 down to 7.0 it would take 48 times as 
much CO<INF>2</INF> in the atmosphere as there exists today. 
You can kind of whittle your way down that if you want to 
figure out what it means to go from 7.8 to 7.75.
    We don't have a tool that measures pH to three decimal 
points. It just doesn't exist.
    Dr. Everett. I would just like to add that I agree with Ken 
on taking prudent actions essentially and reducing emissions 
where it makes sense to do so, but not strapping our economy 
unless our competitors do the same and then working to do the 
science so we learn how all these critters work together out 
there and what in fact the level, the impact of additional 
CO<INF>2</INF> in the water is.
    Part of this, I am just reminded by my Russian colleagues 
that always say look at what happened in the past before you 
think about what is going to happen in the future. We just need 
to make sure that when let us say if the acidification does 
come to take place that the critters that come with it are 
along the lines that we can deal with. We know that things are 
going to change. Some go up. Some go down in all of this. 
Acidification is one of those examples.
    In the Mid-Cretaceous, in the age of the dinosaurs, the 
corals were much further away from the equator. According to a 
NOAA site, it looks like they were doing fine. It talks in 
terms of the expansiveness of the corals when the atmosphere 
was two to four times the level of CO<INF>2</INF> in it.
    Mr. Sali. Thank you, Madam Chairman.
    Ms. Bordallo. Thank you. Thank you.
    Before we wrap up the hearing this morning--I guess it is 
still morning--Dr. Eakin, in your testimony you mentioned that 
the Reef Manager's Guide provides information on the causes and 
the consequences of coral bleaching and management strategies 
to help local and regional reef managers reduce this threat to 
coral reef ecosystems.
    Can you elaborate on some of these strategies to protect 
coral reefs from local stressors and manage reef ecosystems 
with rising temperatures in ocean acidification in mind?
    Dr. Eakin. Thank you for that question. I agree very much 
with something that Dr. Sharp was saying a moment ago. The 
combination of different stressors on environments such as 
coral reefs is extremely important, and what we need to do is 
look at this holistically, taking into consideration all of the 
various forms of stress.
    We know that the oceans are warming, and we have seen what 
is happening in terms of the oceans acidifying. We don't 
anticipate that these stresses are going to be going away in 
the immediate future, so that means that we need to do all that 
we can from a resource management perspective to reduce those 
other stresses that also threaten the reefs.
    All of these, whether it is warming, whether it is 
acidification, whether it is pollutants, whether it is 
sediments, whether it is overfishing or excess use by tourism, 
these are all impacts that are very important and work 
together.
    So what we need to do is put greater information in the 
hands of managers so that they can work in their area of 
control to reduce those other local areas of stress, making it 
easier for corals to potentially survive through these other 
large-scale stresses over which they don't have any control.
    If I might comment on one thing very briefly along these 
lines, the changes that we are seeing currently are large ones, 
whether it is from local stress from global populations or 
whether it is the climate scale changes that we are seeing.
    As Dr. Caldeira said, when we had that change in ocean pH 
55 million years ago, it took millions of years to recover.
    At a meeting about 10 years ago, a geologist named Gary 
Molter made a great statement regarding what was going on at 
that time in the early stages of coral bleaching that was being 
seen. His statement was while I don't question that corals as 
organisms will survive, I cannot afford to stand back while 
these resources, these ecosystems, are changed throughout my 
lifetime, that of my children and their children.
    Ms. Bordallo. Thank you. Thank you very much.
    Just as a final question to anyone on the panel that wishes 
to answer it, if we act now to reduce carbon emissions, how 
quickly will we see positive change in the oceans, and how much 
would we need to reduce them to see this change?
    Conversely, if we do nothing for another 10 years, how long 
would recovery take?
    Dr. Caldeira. If carbon dioxide emissions were to cease 
today, which is of course unrealistic, the ocean acidification 
problem would get better right away. The earth would continue 
to warm and then would get----
    Ms. Bordallo. Excuse me. I didn't say cease to exist, but I 
said reduce.
    Dr. Caldeira. OK. Yes. You know, one of the things, the 
studies have not really been done to exactly determine how much 
you would need to reduce to achieve different thresholds.
    I have done some preliminary calculations that suggest that 
the kind of numbers that have been bandied about--about say 80 
percent by 2050 would be the level of effort required.
    I just want to take this opportunity to make one additional 
point. One thing is that when planning for protection of 
wetlands and other resources, it is important to take sea level 
rise into account and so it would be good, for example, if 
planning for future wetland protection would assume that sea 
level might be a meter higher in the future and that that 
higher sea level be taken into account in future planning.
    Ms. Bordallo. Thank you very much.
    Do any other of the witnesses have any comments? Yes, Dr. 
Sharp?
    Dr. Sharp. I would like to make it rather clear to 
everyone, I think we all agree that there are problems that 
need solved. That has not ever been the big problem.
    John Everett, when he was working for NOAA, was given the 
responsibility back in 1986 and 1987 of putting together the 
first ecosystem base management system for NOAA. I was 
contracted to get out and work with the people in the field and 
try to find all the expertise we could throughout the NOAA and 
other institutional systems.
    We put that project together, and it didn't start in the 
ocean. It started in the highlands and all of the shorelands 
and everything else. That has to be taken care of before we can 
even pretend we know what is going on in the ocean.
    Chesapeake Bay is one of the classic examples. Twenty years 
ago I knew dozens and dozens of professors and hard core 
researchers here. The issues were not about global warming or 
whatever it is. It is people. We have to solve that problem on 
the coastlines, up into the wetlands, out of the wetlands into 
the highlands before we can solve anything that goes on in the 
ocean.
    We have no valves, no levers, anything in the ocean or in 
the atmosphere. We are not in control. That is the most 
important information to take home, if I can give you that.
    Ms. Bordallo. Thank you. Thank you, Dr. Sharp.
    I wish to thank all of the witnesses for their excellent 
comments and statements and their participation in the hearing 
today.
    Members of the Subcommittee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing. The hearing record will be open for 10 days 
for these responses.
    If there is no further business before the Subcommittee, I 
would also like to thank Mr. Sali for sitting in for our 
Ranking Member, Mr. Brown.
    The Chairwoman again thanks the Members of the Subcommittee 
and our witnesses, and the Subcommittee now stands adjourned.
    [Whereupon, at 12:35 p.m. the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
